<html>
<title> - IRAQ BENCHMARKS</title>
<body><pre>[Senate Hearing 110-367]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-367
 
                            IRAQ BENCHMARKS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        SEPTEMBER 7 AND 11, 2007

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE

38-716 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

  A Report on the Government Accountability Office's Assessment of 18 
                            Iraq Benchmarks

                           september 7, 2007

                                                                   Page

Walker, Hon. David M., Comptroller General of the United States, 
  Government Accountability Office...............................    10

 The Situation in Iraq and Progress Made by the Government of Iraq in 
                           Meeting Benchmarks

                           september 11, 2007

Petraeus, GEN David H., USA, Commander, Multinational Force-Iraq.   166
Crocker, Ambassador Ryan C., United States Ambassador to Iraq....   192

                                 (iii)


  A REPORT ON THE GOVERNMENT ACCOUNTABILITY OFFICE'S ASSESSMENT OF 18 
                            IRAQ BENCHMARKS

                              ----------                              


                       FRIDAY, SEPTEMBER 7, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:00 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, Webb, McCaskill, 
Warner, Inhofe, Sessions, Collins, Chambliss, Graham, Dole, 
Thune, and Corker.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
John H. Quirk V, security clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; Peter K. Levine, general counsel; Michael J. McCord, 
professional staff member; William G.P. Monahan, counsel; 
Michael J. Noblet, research assistant; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Derek J. Maurer, minority counsel; David M. 
Morriss, minority counsel; and Lynn F. Rusten, professional 
staff member.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Benjamin L. Rubin.
    Committee members' assistants present: Vance Serchuk and 
Colleen J. Shogan, assistants to Senator Lieberman; Elizabeth 
King, assistant to Senator Reed; Bonnie Berge and Richard 
Kessler, assistants to Senator Akaka; Christopher Caple and 
Monica Thurmond, assistants to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; M. Bradford Foley, assistant to 
Senator Pryor; Gordon I. Peterson, assistant to Senator Webb; 
Stephen C. Hedger, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Todd Stiefler, assistant to Senator Sessions; 
Mark J. Winter, assistant to Senator Collins; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Greg Gross and Lindsey 
Neas, assistants to Senator Dole; David Hanke, assistant to 
Senator Cornyn; and Stuart C. Mallory, assistant to Senator 
Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
welcomes this morning David Walker, the Comptroller General of 
the United States, to testify on the Government Accountability 
Office's (GAO) assessment of 18 Iraqi benchmarks for political 
security and economic progress. Again, we thank Senator Warner 
for his leadership and I think Senator Byrd was also involved 
in getting this language in the bill, which resulted in this 
assessment.
    Senator Warner. Chairman, I'd like to also credit Senator 
Snowe.
    Chairman Levin. Thank you.
    Senator Warner. She was very active, I believe, with 
Senator Bayh, in getting this provision in.
    Chairman Levin. We appreciate the reference to them and we 
would surely add them.
    We've all been interested in the benchmarks, and those 
Senators have taken a leadership role, although they're 
obviously not alone in this interest. The question of 
benchmarks has been a question which just about every Senator 
has become involved in. I will have more to say about what 
benchmarks we're talking about in a moment.
    The Comptroller General's assessment is one of two 
independent reports that Congress required in approving 
emergency funding for operations in Iraq. The committee 
received the other congressionally-mandated report yesterday, 
hearing from retired General Jim Jones, and other members of 
the Independent Commission on the Security Forces of Iraq. One 
of that Commission's findings was that, ``Political 
reconciliation is the key to ending sectarian violence in 
Iraq.'' Then they said, ``The single-most important event that 
could immediately and favorably affect Iraq's direction and 
security, is political reconciliation focused on ending 
sectarian violence and hatred.'' They ended that paragraph by 
saying, ``Sustained progress within the Iraqi security forces 
depends on such a political agreement.''
    The Jones Commission report provided a independent 
assessment of the Iraqi Army and police capability. The GAO's 
report, which is the subject of today's hearing, provides an 
independent assessment of whether the Iraqi Government has met 
the 18 benchmarks which it, the Iraqi Government, specifically 
committed to. Fifteen of which, according to the GAO report, 
were part of the international compact with Iraq and three of 
which were commitments made directly to President Bush.
    These assessments of the situation in Iraq, along with the 
testimony that we will receive next week from General Petraeus 
and Ambassador Crocker, and the President's report which is due 
on September 15, are critical to Congress's understanding.
    So, the 18 benchmarks, reviewed by the GAO, were not 
created by Congress. Those commitments were made by the Iraqi 
Government as far back as June 2006. In fact, as confirmed by 
Secretary Rice in correspondence with me, 7 of the 18 
benchmarks--those comprising the political, security, and 
economic benchmarks that are the most important for political 
reconciliation, had timelines for their completion, between 
September of 2006 and March of 2007.
    Now, there's two important facts that I want to single out 
from that statement. Number one, sometimes Nouri al-Maliki, the 
Prime Minister of Iraq, says that he's not going to be bound by 
timelines which the U.S. Congress imposes on him or outsiders 
impose on him. That is not accurate. The timelines we're 
talking about were adopted formally by the Government of Iraq. 
They were approved by the Iraqi Prime Minister and Iraq's 
Policy Committee on National Security in September 2006. They 
were reaffirmed by the Iraqi Presidency Council, consisting of 
the President and two Deputy Prime Ministers, on October 16, 
2006. That specific timeline, relative to the seven benchmarks, 
was a timeline adopted formally by the Iraqi Government and 
attached to Secretary Rice's letter to me.
    Now, when President Bush announced his new strategy for 
Iraq in January of this year, he stated that the purpose of the 
so-called surge was to provide Iraq's leaders breathing space 
to make the political compromises necessary for progress. 
Again, those were compromises that they had committed to make.
    In July, the administration provided its initial assessment 
of whether Iraq was making satisfactory progress toward meeting 
its political, security, and economic benchmarks, as required 
by Congress. The administration's July assessment claimed that 
Iraq was making satisfactory progress on 8 of the benchmarks, 
mixed progress on 2 others, unsatisfactory progress on 6 
benchmarks, and they didn't even provide a rating on 2 of the 
18 benchmarks.
    The unsatisfactory benchmarks included failing to enact and 
implement legislation on de-Baathification, failing to enact 
and implement legislation to ensure an equitable distribution 
of hydrocarbon resources, failing to allow the Baghdad Security 
Plan to be implemented without political interference, failing 
to ensure that Iraqi security forces provide even-handed 
enforcement of the law, failing to increase the number of Iraqi 
security force units capable of operating independently, and 
failing to ensure that Iraq's political authorities are not 
making false accusations against leaders of the Iraqi security 
forces.
    Now, that the administration's own assessment of progress 
in Iraq. There were no consequences arising from the Iraqi 
Government's failure to meet its commitments. Instead, the 
President said he'd wait until September to judge what to do 
next. Now, the GAO's Report, which we'll hear today, paints 
even a more negative picture than the administration's July 
report. In carrying out its task, the GAO talked to numerous 
military and civilian officials, and gathered information from 
a broad range of agencies and organizations, including the 
Department of Defense (DOD), the Department of State (DOS), the 
Department of Treasury, Multinational Forces Iraq, the Defense 
Intelligence Agency, the Central Intelligence Agency, the 
National Intelligence Council, and the United Nations. GAO 
personnel made multiple trips to Iraq during 2006 and 2007.
    By the way, while we're on the subject of the GAO 
personnel, we want to thank you, particularly, Mr. Walker, and 
your staff for not only the work that they do, which is 
thorough and comprehensive, but for the risks that they take 
when they make those multiple trips to Iraq.
    The GAO report concludes that the Iraqi Government has met 
only 3 of the 18 benchmarks. Four others have been partly met. 
Nearly 8 months into the new strategy, 11 of the 18 bencharks 
remain unmet. The Iraqi Government has met only one of eight 
legislative benchmarks, and partly met one other, according to 
the GAO report. Key revisions to Iraq's constitution have not 
been made, laws have not been enacted on de-Baathification, oil 
revenue-sharing, provincial elections, amnesty, and disarming 
militias. As a matter of fact, the GAO notes that 15 of 37 
members of the Iraqi Cabinet have withdrawn from the Cabinet.
    Of the nine security benchmarks, the GAO finds that only 
two have been met. It finds that two additional benchmarks have 
been partly met, that leaves five of the security benchmarks, 
the majority, unmet.
    The time is long overdue to make it clear to Iraq's 
leadership that there will be consequences to their failure to 
live up to their commitments. Failing to hold Iraq to its 
commitments is the definition of an open-ended commitment on 
our part.
    One of the reasons to begin to reduce U.S. forces, is to 
put in place an action-forcing mechanism, to get the Iraqi 
Government to meet its own benchmarks and to take 
responsibility for the future of their country.
    I thank our witness for coming before the committee today. 
We look forward to his testimony. Again, special thanks to his 
intrepid staff for the great work that they do, not only under 
some risk in Iraq for this report, but also for the work that 
they do in so many other parts of our Government and for this 
Congress.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I'll ask to place 
my statement into the record, given that we're about to have a 
vote in less than an hour.
    Mr. Walker, I want to commend you, as does the chairman, 
for your work and that of your colleagues. There are risks to 
all of us who take these trips over there. But, those trips are 
essential.
    I've read through your report. I think it's a constructive, 
well thought-through contribution to the significant group of 
factual information that is being put before Congress and 
equally, if not more important, before the American people.
    While the President, as Commander in Chief, has to make 
these tough decisions, it's helpful to have the American people 
get a broad understanding of the complexities of this 
situation. I think your report does that quite fairly. So, I 
commend you.
    Mr. Chairman, I think we should just get underway.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Mr. Chairman. I join you in welcoming Mr. Walker.
    This Government Accountability Office (GAO) report and this hearing 
is part of a series of very important reports and hearings that will 
help shape the setting for the President, as well as Congress and the 
American people, as we evaluate the complex situation in Iraq at this 
historic time.
    Yesterday we received testimony from General Jim Jones and his 
respected team on the capabilities of the Iraqi security forces. Next 
week, Ambassador Crocker and General Petraeus will testify before 
committees in both bodies of Congress and the administration will 
submit their second report on Iraqi progress to meet congressionally-
mandated benchmarks. These reports are essential for Congress and the 
American people to conduct a full and informed appraisal of the 
situation in Iraq.
    Eleven months ago, I returned from my 9th trip, and said things 
were ``drifting sideways.'' In January, when the President announced 
his new way forward in Iraq, I was not fully supportive of all aspects 
of that surge. In May, I had a hand in crafting the benchmark 
legislation which was intended to set a common starting point and 
schedule for the upcoming debate.
    This report fulfills a requirement that is contained in legislation 
that I had a hand in crafting. The requirement for an independent 
assessment of benchmarks by the GAO was originally introduced by 
Senators Snowe and Bayh, and eventually included in the bill that the 
President signed into law in May.
    Public Law 110-28 requires the GAO to provide an assessment of the 
``status of achievement of the benchmarks.'' By contrast, the 
administration reports whether or not satisfactory progress is being 
made toward meeting the 18 benchmarks. As a result, the GAO assessment, 
in some cases, differs from the administration report because of 
different standards of evaluation. If Congress determines to continue 
this benchmark reporting, then we should ensure to reconcile this 
difference in standards.
    Nonetheless, it is a very important contribution to this historic 
debate, if for no other reason than it comes from the GAO, always 
regarded as the voice of independence and integrity.
    Mr Walker, again, welcome back before this committee and I wish to 
thank you and all of those involved in the preparation of this report 
on Iraq's benchmarks. We also recognize the personal risks associated 
with travel in Iraq by those involved in the preparation of this 
report.
    Yesterday, General Jones and his team provided a very thoughtful 
alternative strategy that involved what they called a ``strategic 
shift.'' The ``strategic shift'' would re-task the Iraqis to take more 
responsibility for daily combat operations while coalition forces would 
transition to ``strategic overwatch'' and the active defense of the 
border and critical infrastructure. In addition, I believe the Jones 
Commission report made a very forceful argument that all provinces 
should be transferred to Iraqi control immediately. I will be very 
interested in your thoughts on both of those concepts.
    We always appreciate the benefit of the GAO analysis and look 
forward to your testimony and the discussions it will generate.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. Mr. Walker?

 STATEMENT OF HON. DAVID M. WALKER, COMPTROLLER GENERAL OF THE 
        UNITED STATES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Thank you, Mr. Chairman and Senator Warner, 
other members of the Senate Armed Services Committee. I 
appreciate the opportunity to be here today to present GAO's 
report on the status of the 18 benchmarks relating to the Iraqi 
Government's commitments, and related issues.
    This is the fourth hearing I've held this week on this 
topic, and I really appreciate being able to end with the 
Senate Armed Services Committee, a very well-respected 
committee. I know you try to work as much as you can on a 
bipartisan basis.
    As has been mentioned, we did this work because we were 
required to do this work. There was a legislative mandate. That 
legislative mandate required GAO to report by September 1, 
2007, as to whether or not the Iraqi Government had met or had 
not met the 18 benchmarks.
    These 18 benchmarks, as you properly pointed out, Mr. 
Chairman, were not created by Congress, they were the result of 
other commitments that the Iraqi Government had made in various 
forms over a period of time. I think it's important to keep in 
mind that the administration's report in June 2007, used a 
fundamentally different basis to evaluate these 18 benchmarks. 
They used whether or not satisfactory progress was being made. 
That's different than whether or not the benchmark has been 
met, or not met, or partially met. It's also inherently 
somewhat more subjective. But nonetheless, it's important 
information you need to consider, and compare with the report 
that's coming up.
    In this work, we received an extensive amount of documents, 
both classified and unclassified, and we had a team of analysts 
go to Iraq again in late July, early August. We interviewed 
numerous officials from DOD, DOS, Multinational Forces Iraq, 
various intelligence agencies, et cetera. These officials 
included General Petraeus and Ambassador Crocker.
    Importantly, we have issued over a hundred reports and 
testimonies on Iraq since May 2003. Our staff have made 
numerous trips to Iraq. I, myself, have been to Iraq twice. 
Therefore, in addition to the work that we did for these 18 
benchmarks, our work and any questions that I might answer are 
informed by these 100-plus reports and testimonies, as well as 
my personal interaction with my colleagues in Iraq and the 
Middle East; as well as my former colleagues who are graduates 
of Capstone, for Flag Officers, from which I was also fortunate 
to be able to graduate.
    I think it's important to note that our report does--in no 
way, shape, or form--serve to diminish the courageous efforts 
and the accomplishments of our military and those of our 
coalition partners. We're reporting on whether or not the Iraqi 
Government has met their commitments and to what extent that's 
been the case.
    In performing our work we used our independent professional 
judgment to also use a partially met criteria. I think this is 
very important. Because when we looked at the facts and when we 
looked at how best to present where things stood, we felt that 
there was a number of these benchmarks that we ought to 
consider a partially met criteria and, in fact, we did for most 
of them. On four of them, we gave a partially met rating 
because we think it wouldn't have been fair to say not met, 
given the substantial progress that had been made, even though 
clearly you couldn't say that it had been fully met.
    We've laid out, in our report, clearly-defined, 
consistently applied, well-documented, and transparent criteria 
as to how we reached our judgments. We think that's important. 
Reasonable people can--and will--differ, but it's important 
that you be able to make your own judgment based upon what 
we've done.
    So now, if I can, let me summarize the report and I will 
refer to the pages of my testimony where these boards with 
charts appear.
    On page 4 of my testimony, this chart shows the origin of 
the 18 benchmarks that I'm referring to here today. I won't 
spend much time on it, but they go back to 2006 and they've 
been reaffirmed at various points in time since then.
    Next graphic, please. The next one shows, which is on my 
left over here, shows the result of our evaluation. As a result 
of this, you will see that in the legislative area, one of the 
eight benchmarks was met, one was partially met, and six were 
not met. In the security area, two were met, two were partially 
met, and five were not met. In the economic sector, none were 
met, one was partially met, and that's all there was, it was 
the only one in that area.
    I think it's important to note that we did use partially 
met ratings, in order to provide a fair and balanced view. We 
also added commentary on the status and in our report, to 
provide further contextual sophistication with regard to where 
things stand.
    Next one over here on my right represents the status of the 
legislative benchmarks. Obviously yourselves being Members of 
the United States Senate, you understand that the legislative 
process has a number of different stages that you have to go 
through in order to be able to get a bill to be a law. This 
basically demonstrates where things stand, with regard to the 
key pieces of legislation that have yet to be enacted. Some 
have made more progress than others and hopefully more will be 
forthcoming.
    The next one shows the level of violence, specifically the 
average number of daily enemy-initiated attacks against the 
Coalition, Iraqi security forces, and civilians, from May 2003 
to July 2007. This is important. We used average daily because 
every month doesn't have the same number of days, and so we 
want to try to be fair in that regard. We also broke it down 
between civilians, Iraqi security forces, and coalition forces 
so you can see the differences in those trends. These represent 
the total. This does not separate between sectarian and non-
sectarian violence. There is a significant difference of 
opinion on the sectarian issue. The primary difference between 
us and the military is whether and to what extent violence has 
been reduced with regard to sectarian violence.
    There is one party that maintains that data. That's 
Multinational Force-Iraq (MNF-I), General Petraeus' group. 
They're the only ones that maintain that data. We're aware of 
that data. That data does show a decline in sectarian violence. 
Just as you can see here, there was a decline in total violence 
in July. We haven't seen the final August numbers yet, but 
you'll get that, presumably next week, from General Petraeus.
    There was an increase up until July, but a decrease in 
July. You'll hear next week what the results are in August. We 
could not get comfortable with MNF-I's methodology for 
determining what's sectarian versus nonsectarian violence. It's 
extremely difficult to know who did it, what their intent was, 
and therefore, we feel more comfortable looking at total 
violence, and breaking it down by civilians versus other 
segments. But you'll have to make up your own mind, based upon 
the information that you receive.
    Next, please. Now, this represents a comparison of GAO's 
most recent assessment, the one that I'm conveying to you 
today, and the administration's July assessment. As has been 
mentioned, they looked at whether or not satisfactory progress 
was being made, rather than whether or not the benchmark had 
been met or not met, if you will, so that's a different 
standard.
    But if you look at that, you'll see that in the first one, 
there was significant difference of opinion. The rest of them, 
either we agreed or we had a one difference in rating. Namely, 
of the three possible ratings, there was a rating difference of 
one.
    Now, next week you're going to hear an updated report. I 
would hope that their ratings might be better. We'll see, but I 
think it's important to keep in mind we're rating based on a 
different standard than they are. You need to consider both. 
You need to use your judgment and you need to consider both, as 
well as the Jones Commission Report, et cetera.
    In conclusion, as of August 30, 2007, based upon our 
extensive work, which included receiving information from the 
Pentagon right up until the day that we finalized the report, 
the Iraqi Government had met 3, partially met 4, and had not 
met 11 of the legislative, security, and economic benchmarks. 
Importantly, in late August, Iraqi senior Shia, Sunni, Arab, 
and Kurdish political leaders signed the Unity Accord, 
signaling efforts to foster greater national reconciliation. 
The Accord covered draft legislation on de-Baathification 
reform and provincial powers laws, as well as setting up a 
mechanism to release some Sunni detainees being held without 
charges. Time will tell whether or not this Unification Accord 
results in progress on the political front, which--as has been 
mentioned--is deemed to be key by many parties with regard to 
national reconciliation.
    As Congress considers the way forward in Iraq, in our view 
we believe it's important to consider not just our report, but 
also the reports from General Petraeus, Ambassador Crocker, and 
the Jones Commission, among others.
    You have an opportunity to receive input from a variety of 
parties, to compare and contrast what they're saying, and then 
to make up your own judgment as to what you feel is 
appropriate.
    We also think that it's important to consider, not just the 
benchmarks, but also military progress and various homeland 
security, foreign policy, and other goals of the United States, 
including regional goals, national goals, and economic status, 
which is not here, what's going on with regard to economics in 
the lives of Iraqis on a day-to-day basis. Those are important 
factors, we think, as well.
    We made three recommendations in our report about what we 
thought would be more helpful to Congress going forward, for 
the administration to provide a more timely, detailed, and 
useful information to you. The administration agreed with those 
recommendations and we, along with yourselves, look forward to 
receiving that information.
    Finally, I too, Mr. Chairman and Senator Warner, would like 
to thank our team. We have incredibly capable staff at GAO. 
They're highly educated, very dedicated, courageous--although 
they don't wear a uniform--and they do a heck of a job for 
Congress and the country, and they've done a heck of a job 
here.
    Thank you very much.
    [The prepared statement of Mr. Walker follows:]
                 Prepared Statement by David M. Walker
    Mr. Chairman and members of the committee: I am pleased to appear 
today to discuss our report \1\ on whether or not the Government of 
Iraq has met 18 benchmarks contained in the U.S. Troop Readiness, 
Veterans' Care, Katrina Recovery, and Iraq Accountability 
Appropriations Act of 2007 \2\ (the Act). The Act requires Government 
Accountability Office (GAO) to report on the status of the achievement 
of these benchmarks. Consistent with GAO's core values and our desire 
to be fair and balanced, we also considered and used a ``partially 
met'' rating for some benchmarks. In comparison, the act requires the 
administration to report on whether satisfactory progress is being made 
toward meeting the benchmarks. The benchmarks cover Iraqi government 
actions needed to advance reconciliation within Iraqi society, improve 
the security of the Iraqi population, provide essential services to the 
population, and promote economic well-being.
---------------------------------------------------------------------------
    \1\ GAO, Iraqi Government Has Not Met Most Legislative, Security, 
and Economic Benchmarks (GAO-07-1195) (Washington, DC: Sept. 4, 2007).
    \2\ Section 1314 of P.L. 110-28.
---------------------------------------------------------------------------
    To complete this work, we reviewed U.S. agency and Iraqi documents 
and interviewed officials from the Departments of Defense, State, and 
the Treasury; the Multi-National Force-Iraq (MNF-I) and its subordinate 
commands; the Defense Intelligence Agency; the Central Intelligence 
Agency; the National Intelligence Council; and the United Nations. 
These officials included Ryan Crocker, the U.S. Ambassador to Iraq, and 
General David H. Petraeus, Commander of the MNF-I. We made multiple 
visits to Iraq during 2006 and 2007, most recently from July 22 to 
August 1, 2007. Our analyses were enhanced by approximately 100 Iraq-
related reports and testimonies that we have completed since May 2003. 
We conducted our review in accordance with generally accepted 
government auditing standards.
                                summary
    In summary, we found:
    The benchmarks were derived from commitments first articulated by 
the Iraqi government in June 2006.
    The Iraqi government met 3, partially met 4, and did not meet 11 of 
its 18 benchmarks. Overall, key legislation has not been passed, 
violence remains high, and it is unclear whether the Iraqi government 
will spend $10 billion in reconstruction funds. These results do not 
diminish the courageous efforts of coalition forces and progress that 
has been made in several areas, including Anbar Province.
    The Iraqi government met one of eight legislative benchmarks: the 
rights of minority political parties in Iraq's legislature are 
protected. The government has not enacted legislation on de-
Baathification, oil revenue sharing, provincial elections, amnesty, and 
militia disarmament.
    It is unclear whether sectarian violence in Iraq has decreased--a 
key security benchmark--since it is difficult to measure whether the 
perpetrators' intents were sectarian in nature, and other measures of 
population security show differing trends.
    As Congress considers the way forward in Iraq, it should balance 
the achievement of the 18 Iraqi benchmarks with military progress and 
with homeland security goals, foreign policy goals, and other goals of 
the United States.
                       origins of the benchmarks
    The benchmarks contained in the act were derived from commitments 
articulated by the Iraqi government beginning in June 2006 and affirmed 
in subsequent statements by Prime Minister Maliki in September 2006 and 
January 2007 (see fig. 1). Iraq's commitments to these benchmarks were 
most recently stated in the May 2007 International Compact for Iraq.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                  gao assessment of the 18 benchmarks
    As of August 30, 2007, the Iraqi government met 3, partially met 4, 
and did not meet 11 of its 18 benchmarks. Overall, key legislation has 
not been passed, violence remains high, and it is unclear whether the 
Iraqi government will spend $10 billion in reconstruction funds.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
   most legislative benchmarks have yet to be enacted and implemented
    The Iraqi government met one of eight legislative benchmarks: the 
rights of minority political parties in Iraq's legislature are 
protected. The government also partially met one benchmark--to enact 
and implement legislation on the formation of regions; this law was 
enacted in October 2006 but will not be implemented until April 2008. 
Six other legislative benchmarks have not been met. Specifically, a 
review committee has not completed work on important revisions to 
Iraq's constitution. Further, the government has not enacted 
legislation on de-Baathification, oil revenue sharing, provincial 
elections, amnesty, and militia disarmament. The administration's 
report cited progress in achieving some benchmarks but provided little 
information on what step in the legislative process each benchmark had 
reached. We provide that information below.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
             mixed results in achieving security benchmarks
    Two of nine security benchmarks have been met. Specifically, Iraq's 
government has established various committees in support of the Baghdad 
security plan and established almost all of the planned Joint Security 
Stations in Baghdad. The government has partially met the benchmarks of 
providing three trained and ready brigades for Baghdad operations and 
eliminating safe havens for outlawed groups. Five other benchmarks have 
not been met. The government has not eliminated militia control of 
local security, eliminated political intervention in military 
operations, ensured even-handed enforcement of the law, increased army 
units capable of independent operations, and ensured that political 
authorities made no false accusations against security forces. It is 
unclear whether sectarian violence in Iraq has decreased--a key 
security benchmark--since it is difficult to measure perpetrators' 
intents, and various other measures of population security from 
different sources show differing trends. As displayed in figure 4, 
average daily attacks against civilians have remained unchanged from 
February to July 2007.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
           comparison of gao and executive branch assessments
    Public Law 110-28 requires GAO to report to Congress by September 
1, 2007,\3\ on whether or not the government of Iraq has met 18 
benchmarks contained in the act, and the status of the achievement of 
these benchmarks. The Act requires the administration to report in July 
and September 2007 on whether satisfactory progress is being made 
toward meeting the benchmarks. As stated previously, we considered and 
used a ``partially met'' rating in several circumstances. Figure 5 
compares the two assessments.
---------------------------------------------------------------------------
    \3\ GAO provided this report to Congress on September 4, 2007, the 
first business day following September 1, 2007.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                              conclusions
    As of August 30, 2007, the Iraqi government met 3, partially met 4, 
and had not met 11 of 18 legislative, security, and economic 
benchmarks. The Iraqi government has not fulfilled commitments it first 
made in June 2006 to advance legislative, security, and economic 
measures that would promote national reconciliation among Iraq's 
warring factions. Of particular concern is the lack of progress on de-
Baathification legislation that could promote greater Sunni 
participation in the National government and comprehensive hydrocarbon 
legislation that would distribute Iraq's vast oil wealth. In late 
August, Iraq's senior Shia, Sunni Arab, and Kurdish political leaders 
signed a Unity Accord signaling efforts to foster greater national 
reconciliation. The Accord covered draft legislation on de-
Baathification reform and provincial powers laws, as well as setting up 
a mechanism to release some Sunni detainees being held without charges. 
However, the polarization of Iraq's major sects and ethnic groups and 
fighting among Sh'ia factions further diminishes the stability of 
Iraq's governing coalition and its potential to enact legislation 
needed for sectarian reconciliation.
    Reconciliation was also premised on a reduction in violence. While 
the Baghdad security plan was intended to reduce sectarian violence, it 
is unclear whether violence has been reduced. Measuring such violence 
may be difficult since the perpetrators' intents are not clearly known. 
Other measures, such as the number of enemy-initiated attacks, show 
that violence has remained high through July 2007.
    As Congress considers the way forward in Iraq, it should balance 
the achievement of the 18 Iraqi benchmarks with military progress and 
homeland security, foreign policy, and other goals of the United 
States. Future administration reports on the benchmarks would be more 
useful to Congress if they clearly depicted the status of each 
legislative benchmark, provided additional quantitative and qualitative 
information on violence from all relevant U.S. agencies, and specified 
the performance and loyalties of Iraqi security forces supporting 
coalition operations.
                            recommendations
    In preparing future reports to Congress and to help increase 
transparency on progress made toward achieving the benchmarks, we 
recommend that:

          1. The Secretary of State provide information to the 
        President that clearly specifies the status in drafting, 
        enacting, and implementing Iraqi legislation;
          2. The Secretary of Defense and the heads of other 
        appropriate agencies provide information to the President on 
        trends in sectarian violence with appropriate caveats, as well 
        as broader quantitative and qualitative measures of security; 
        and
          3. The Secretary of Defense and the heads of other 
        appropriate agencies provide additional information on the 
        operational readiness of Iraqi security forces supporting the 
        Baghdad security plan, particularly information on their 
        loyalty and willingness to help secure Baghdad.

    We provided drafts of the report accompanying this testimony to the 
relevant U.S. agencies for review and comment, which we incorporated as 
appropriate. We received written comments from the Departments of State 
and Defense and technical comments from the Central Intelligence Agency 
and National Intelligence Council, which are included in the report. 
State and DOD concurred with our recommendations but disagreed with our 
assessment of certain benchmarks. Although we analyzed classified data, 
including the August 2007 National Intelligence Estimate for Iraq, the 
testimony and report only contain unclassified information, as of 
August 30, 2007. We issued a classified report to supplement the 
information discussed in our report.\4\
---------------------------------------------------------------------------
    \4\ GAO-07-1223C.
---------------------------------------------------------------------------
    Mr. Chairman and members of the committee, this concludes my 
prepared statement. I would be happy to answer any questions that you 
may have.
                   contact and staff acknowledgements
    If you or your staffs have any questions about this testimony, 
please contact me at (202) 512-5500 or Joseph A. Christoff, Director, 
International Affairs and Trade, at (202) 512-8979. Key contributors to 
this testimony include Stephen Lord, David Bruno, Howard Cott, Timothy 
Fairbanks, Mattias Fenton, Whitney Havens, Dorian Herring, Bruce 
Kutnick, Judith McCloskey, Tetsuo Miyabara, and Kathleen Monahan.
    In addition, Ashley Alley, Monica Brym, Lessie Burke-Johnson, Joe 
Carney, Miriam Carroll, Debbie Chung, Thomas Costa, Lynn Cothern, 
Aniruddha Dasgupta, Martin de Alteriis, Etana Finkler, Muriel Forster, 
Patrick Hickey, Michael Jenkins, Sona Kalapura, Jeremy Latimer, Mary 
Moutsos, Sidney Schwartz, Jena Sinkfield, Audrey Solis, Cynthia Taylor, 
and Christina Werth provided technical assistance.

    Chairman Levin. Thank you, Mr. Walker, very much for a very 
succinct, direct report and testimony. Let's try a 7-minute 
round, the first round here for our questions this morning.
    Looking at the origin of Iraqi benchmarks, that particular 
chart.
    Mr. Walker. Yes, sir.
    Chairman Levin. The second column, you say, is Prime 
Minister Maliki's benchmarks, those are the ones that I made 
reference to before that were attached to Secretary Rice's 
letter. You got a footnote A, relative to that. I just want 
you, if you would, to read that footnote, if you have it handy. 
Let me read it to you.
    Mr. Walker. Thank you, Mr. Chairman, because I don't have 
it.
    Chairman Levin. ``Iraq's Policy Committee on National 
Security agreed upon a set of political, security, and economic 
benchmarks and an associated timeline in September 2006. They 
were reaffirmed by the Presidency Council on October 16, 
2006.'' I want to make it clear that the title, with that A 
after it, makes it clear that those weren't just Maliki's 
benchmarks, they were, according to their own footnote, and as 
Secretary Rice said, they were reaffirmed by the Presidency 
Council. Is that correct?
    Mr. Walker. That's my understanding, Mr. Chairman. That's 
right.
    Chairman Levin. The timeline that was attached to those 
benchmarks was the following: that they would agree on an 
investment law by September 2006; they'd approve provincial 
elections law and set a date for provincial elections by 
October 2006; they'd approve a hydrocarbon by October 2006; 
they'd approve a de-Baathification law by November 2006; they'd 
approve a provincial council authorities law by November 2006; 
they would address the question of amnesty, militias, and other 
armed forces in the Council of Representatives by December 
2006; they'd approve those laws by December 2006; the 
Constitutional Review Committee would complete its work by 
January 2007; and they'd have referendum on Constitutional 
amendments by March 2007. Have any of those commitments been 
kept, the ones I just identified?
    Mr. Walker. We've noted that those have not been met, based 
upon our evaluation, and that there clearly has been a 
significant delay in the Iraqi Government being able to meet 
its milestones. That's the area of greatest disappointment, 
namely, the lack of political progress.
    Chairman Levin. In terms of those specific self-adopted, 
self-imposed, not just benchmarks, but timelines.
    Mr. Walker. The milestones.
    Chairman Levin. The milestones that they set out for 
themselves, they have not been met, is that correct?
    Mr. Walker. That's correct, Mr. Chairman.
    Chairman Levin. So, that when Prime Minister Maliki rails 
against others for trying to impose benchmarks and milestones 
on Iraq, is it not accurate to say that they, in fact, have 
adopted their own benchmarks, which is part of the compact 
commitment that you make reference to in your last column? They 
also have adopted timelines, which have not been met?
    Mr. Walker. What I don't know, Mr. Chairman, is whether or 
not they've modified those timelines, but not published it. But 
you're correct, they did not meet those, the timelines that you 
refer to.
    Chairman Levin. As far as you know, did they ever modify 
those timelines?
    Mr. Walker. We're not aware of any formal modification to 
those timelines.
    Chairman Levin. How about informal modifications?
    Mr. Walker. We're not aware of any such modification, Mr. 
Chairman.
    Chairman Levin. All right. Yesterday we were given a report 
by the Jones Commission in which the Commission concluded that 
the Iraqi Armed Forces are, ``capable of assuming greater 
responsibility for the internal security of Iraq.'' What that 
was based on, was a finding that they made--and that has been 
made by others--that a majority of the Iraqi Army units, not 
police units, Army units--are able either to act independently, 
which is so-called category 1, what you were asked to look at, 
but also category 2 units, which are characterized as being 
able to act in the lead with the support of the coalition.
    Those are categories which we use, in our own operational 
readiness assessments, we look at four categories. The first 
category is the ability to act independently, the second one is 
to take the lead, in essence, with the support of coalition 
forces.
    Now, I believe that you looked only at the category 1 
units, the ability to act independently. Is that correct?
    Mr. Walker. For benchmark number 15, you're correct, but we 
are aware of the other data that you're referring to.
    Chairman Levin. You are, okay.
    Mr. Walker. We are.
    Chairman Levin. Relative to the combined number of category 
1 and 2--because that's the unclassified number, that's the 
number which our folks are currently using: that number, 
according to our statistics, which are given to us by DOD, and 
are given to us in accordance with section 9010 of the Defense 
Appropriations Act, those figures impact 89 of 159 units that 
are at either fully independent or can take the lead, 
essentially, are category 1 or category 2. Is that similar to 
the information you have?
    Mr. Walker. That's consistent with the information that we 
have for category 1 and category 2, Mr. Chairman.
    Chairman Levin. Now, let me first give you my impression. 
It's my impression--and I believe from the testimony yesterday, 
that the Independent Commission would agree with this--that 
while over half of the Iraqi units are capable of either acting 
independently--which there are relatively few--but also of 
taking the lead in operations with the support of coalition 
forces, that many fewer are actually either acting 
independently or taking the lead with coalition support and 
that there's a significant number of units that are not taking 
the lead, although they have the capability of doing so with 
coalition support. Did you make any finding or do you have 
any----
    Mr. Walker. We did not, but the data would seem to support 
that position.
    Chairman Levin. Do you have any finding as to why that is 
true, assuming it's true?
    Mr. Walker. I think one of the things that people need to 
keep in mind is how much support you need for category 2. It 
could be considerable support, especially logistical support, 
air support, et cetera. Second, it's not just the issue of 
readiness, it's also the issue of reliability. By reliability I 
mean, they may have the capability to do it, but will they do 
it and will they act in a non-sectarian fashion?
    Chairman Levin. Is that particularly a problem with the 
police?
    Mr. Walker. It is clearly a much greater problem with the 
police and much less of a problem with the Army. But we would 
note, that we had recommended to the Defense Department some 
months ago, that in addition to considering traditional 
readiness factors, they also consider reliability factors. They 
now, in fact, are doing that.
    Chairman Levin. Finally, on the Unity Accord, to which you 
referred. Senator Warner and I were in President Talibani's 
house, actually having dinner with General Petraeus and our 
Ambassador when presented to the----
    Senator Warner. General Petraeus was not there.
    Chairman Levin. I apologize. You're correct. Senator Warner 
is correct. Ambassador Crocker was there, but General Petraeus 
was not at that dinner. Presented to President Talibani were 
these initialed agreements, it was a so-called initialed by, 
perhaps, the second-level person in each of those factions. 
Then, later on, a couple weeks later, last week or early this 
week there was this meeting where the five top folks came 
together in this so-called Unity Accord, and I guess signed 
what was previously initialed.
    Senator Warner. Not all of them.
    Chairman Levin. One or more of the items, Senator Warner, I 
think is probably correct on that, even though it maybe that 
just one of them was going to be immediately presented to the 
Assembly and the other two were signed, but not going to be 
immediately presented.
    But whatever the precise accuracy of that--it's obviously 
important--but my point is this: Would you agree that the 
ability of the government to achieve the goals laid out in that 
Unity Accord is severely undermined by the withdrawal of 15 of 
37 members of the Cabinet?
    Mr. Walker. It clearly shows that there is significant 
strife and significant differences that exist within the 
elected government of Iraq.
    Chairman Levin. Do you have an assessment on the likelihood 
of the Iraqi legislature to enact that legislation?
    Mr. Walker. No, we don't, Mr. Chairman. That was really 
beyond the scope of what we were asked to do. I wouldn't want 
to speculate on that.
    Chairman Levin. Would you agree that it's not a done deal 
by any stretch of the imagination, given the history of that 
assembly?
    Mr. Walker. Given the history of any assembly, I would say 
it's probably not a done deal.
    Chairman Levin. Because that is a parliament where majority 
rules?
    Mr. Walker. Yes, I understand.
    Chairman Levin. Is that correct?
    Mr. Walker. Well, but I think the other thing, Mr. 
Chairman, as you undoubtedly know, part of the issue is not 
whether or not they have the votes, but when do they want to 
take the vote, because of the potential implications of that 
vote. I can't get into that. I don't know where they stand 
there.
    But I think only time will tell whether or not this 
national Unity Accord will, in fact, result in real legislation 
being enacted, which is necessary for reconciliation and for 
people to have confidence that it's not a temporary thing, but 
that it has a more lasting significance.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Mr. Chairman, one of my members has a 
commitment, so I'm going to yield to Senator Inhofe. But I 
would think it important that we place in the record, at an 
appropriate place, perhaps directly following my opening 
testimony, and quote the law as written and perhaps that will 
help clarify the different procedures by which you proceeded.
    I note that, having had a hand in writing the basic law, 
the provision relating to your organization was in the form of 
an amendment. I think if I and others had been a little more 
alert we would have seen if we couldn't have had a parallelism 
as to the requirements. But nevertheless, I think both reports 
do basically reach much of the same conclusions.
    Mr. Walker. Senator Warner, I'd also like to mention that 
should you desire us to do further work in this area, we would 
like to work with this committee for possible refinements on 
what we might be able to do to improve the usefulness to this 
committee and Congress as a whole.
    Senator Warner. We will take that offer.
    Senator Inhofe. Thank you, Senator Warner. That's kind of 
my thought too. Mr. Walker, you've done a great job in coming 
up with the report that you've come up with. I question if it 
really tells me what I know about the progress that's being 
made there. What I'm saying, and I'm not being critical at all, 
but from my understanding, you were charged with reporting on 
the various benchmarks as they have been met. I'm not 
disagreeing with your conclusions. You've done exactly what you 
were charted to do.
    But I am questioning that if this report provides us with 
something beyond just a snapshot of where we are today as 
opposed to what kind of progress that we've been able to make. 
Focusing on a black and white, yes or no report on benchmarks 
seems to be a little myopic in its attempt to oversimplify an 
extremely complex and dynamic situation.
    Actual progress has not been considered under these 
standards. Representative Jimmy Saxton (New Jersey, 3rd 
District) yesterday said, ``By solely examining whether each 
benchmark has achieved without considering the actual progress 
being made under each area, it appears that this hearing has 
been set up with a goal of providing a negative picture by 
failing to accurately reflect the current activities on the 
ground in Iraq.'' Mr. Walker, you stated Tuesday, I guess it 
was and I agree with this, you said, ``Progress is a highly 
subjective issue and by definition, one would expect that there 
would be a better rating that would be achieved if one solely 
focused on progress.'' I agree with that and that's what I 
focus on. I've had occasion to be, not always in Iraq, but in 
the Iraqi area of responsibility, 15 times now. Last week was 
the last time. So as I go through and I see some of the great 
progress that's being made, I don't see that this report 
reflects that progress.
    I think the Iraqi Government, while not agreeing on 
legislative language, has put into an accumulation of 
practices, many of the benchmarks. The Iraqi Government is 
sharing oil revenues, is taking steps towards the de-
Baathification, it is giving conditional immunity to the Baath 
Party members. There's been a 75-percent reduction in religious 
and ethnic killings in the capitol between December and August 
7.
    Along this line, one of the great progresses that I see, 
and it was reflected from our intel going to the various 
mosques and their weekly meetings and coming back with the idea 
that there's been a total abrupt change since this surge took 
place, in terms of the programs that are given by the clerics 
and Imans in the mosques. Moreover, prior to January, 85 
percent of the services were anti-American, by nature, but 
since April there hasn't been anything anti-American. I think 
that accounts for some of the success that we've had.
    We've doubled the seizure of insurgent's weapons caches 
between January and August. A rise in the number of al Qaeda 
killings and captures, Anbar incidents of attacks are down from 
40 per day down to 10 per day at the present time. As far as 
economic growth--I'll talk about that in just a minute--but the 
markets are open, crowded, and stacked. I know that. I've been 
in the markets. I've also been in the same markets several 
years, probably each 3 or 4 months. So, it's easy to see the 
progress when you're looking at that.
    The large hospital projects in the Sunni triangle are back 
on track. Three of the provinces were transferred to Iraqi 
control on May 30. The Iraqi police are in control inside the 
city of Kirkuk. In Mosul, a mixed population of Sunni and Shia 
have been turned over to Iraqi control. Only a small U.S. 
presence remains in that area. Additionally, the Iraqi Army 
continues to perform very well. Although we tend to look at 
things by our standards, and sometimes that's rather difficult 
to do.
    In visiting last week with General Petraeus on the overall 
picture, he says less than half of the al Qaeda leaders that 
were in Baghdad when the surge began are still in the city. 
Half of them are still in the city, less than half. They fled 
and are being killed and captured. Seventy-five percent 
reductions in religious and ethnic killings. The improvised 
explosive devices (IEDs) decreased by the use of advanced IEDs. 
In fact, he said the IEDs, really, are dead now, it's the 
advanced IEDs that we're having a problem with.
    Ambassador Crocker, when we talked about the markets and 
about the economy, about the large hospital projects and this 
type of thing. Well, up in the Multinational Division North, 
Major General Benjamin R. Mixon's, USA, area of responsibility, 
progress is being made. It's in the right direction up there. 
The only problem is the city of Diyala is where most of the 
problems are. I think what's happened is that as the successes 
in Anbar have taken place, it's kind of squeezed it up into 
that area, and now it's confined to Diyala at the present time. 
At least that's my conclusion after being up there.
    Patrol Base Murray, the same thing there. I've had a chance 
to meet with former Iraqi Army Brigadier General Mustafa Kamel 
Hamad Shabib al-Jabouri (better known simply as General 
Mustafa), founder of Concerned Citizens, Iraq now three times, 
you probably did when you were over there, too. He's the one 
who talks about the Concerned Citizen's groups and how 
successful they have been. Your report also shows the success 
in the joint security stations, 32 of the 34, that benchmark, I 
think, is pretty healthy. That reflects a lot of progress. 
Lieutenant General Raymond T. Odierno talking about the 
progress in Iraq called it, ``Baghdad, back to normalcy.''
    All these things are happening. I would also reflect that 
even earlier--this is about a month or 5 weeks ago--I observed 
progress, and I think a lot of it is due to the, not the 
political, but the religious leaders. I've kind of come to the 
conclusion that they're more important than the political 
leaders. I remember in a hearing in this committee about a 
little over a year ago, it was predicted that Ramadi was going 
to be the terrorist capitol of the world. Well, now it's under 
control and so is Fallujah.
    I'd say, the only question I'd have, and you can answer for 
the record, since I've gone over my time, can you tell us 
better ways that you suggest to measure this benchmark, and how 
a snapshot in time can accurately reflect a constantly evolving 
situation? In other words, provide more depth to the assignment 
that was given to you.
    Mr. Walker. Sure. Let me briefly respond. First, we did 
what we were asked to do.
    Senator Inhofe. I said that already.
    Mr. Walker. However, we did use ``partially met'' in an 
attempt to be fair and balanced and we provided more 
commentary, because even a ``not met'' doesn't mean no 
progress, okay? So, you need to understand that.
    My personal view and professional opinion as Comptroller 
General of the United States is, that these 18 benchmarks need 
to be considered, but there are things beyond these 18 
benchmarks that you ought to consider. Furthermore, ideally in 
evaluating any type of progress, including this type of 
progress, it's good to look at where you stand as of a point in 
time, what progress you are making, and how does it relate to 
the commitments that have been made?
    I think having all of that information is relevant in order 
to be able to make the fully-informed view. That would be a 
suggestion that I would make for your consideration, to the 
extent that you want to continue to have GAO do something going 
forward.
    Senator Inhofe. That's an excellent statement. Thank you so 
much.
    Chairman Levin. Senator Reed is next, but he has agreed--as 
he is always so generous--to switch places in the order with 
Senator McCaskill.
    So, Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    First, I want to tell you that I appreciate the atmosphere 
in which this report is released, is highly politically 
charged. I'm not sure that it could be more politically charged 
than this particular topic at this particular time with our 
Government and with our elected leaders.
    In that environment, I want to compliment what you've done 
because, as always, what the GAO has done, is you've been a 
fact gatherer and a fact reporter. I would challenge anyone in 
the administration, in DOD, in the military, in this committee, 
or in Congress to find a factual piece of information that you 
report here that is a mistake. I know that there has been a 
little controversy over your report in the House, when you 
testified I think they roughed you up a little bit. Let me tell 
you from my perspective, being called an auditor is the highest 
compliment that anyone could ever give you. I appreciate the 
fact that some of our colleagues in the House called you an 
auditor, as if it was a derogatory term.
    I have read the facts and I want to state the obvious here. 
I have a great respect for General Petraeus too, but I think 
everyone needs to understand the differences in your positions. 
Who do you work for? Who do you work for, Mr. Walker?
    Mr. Walker. I work for the Congress of the United States. 
I'm sorry. [Laughter.]
    Chairman Levin. There's no doubt in my mind about that.
    Mr. Walker. Believe me, I know. I just didn't know it was a 
question.
    Senator McCaskill. It was a question. Who, in fact, does 
General Petraeus work for? Who is his boss?
    Mr. Walker. The President of the United States is Commander 
in Chief.
    Senator McCaskill. His job is much different than yours. I 
appreciate that he's going to have additional perspective that 
you could never bring to this discussion.
    Mr. Walker. Absolutely. He's management, he's responsible 
for helping to define and execute the strategy. He's on the 
ground, he's extremely capable. You ought to seriously listen 
to what he has to say.
    Senator McCaskill. Absolutely. I have looked at the nine 
benchmarks, I have honed in on the nine benchmarks that 
President Bush laid out in his speech to the American people in 
January, ``A new way forward.'' This was the President's 
decision to lay out these nine benchmarks. It was his attempt 
to convince the American people that we were going to provide 
accountability. If we were going to put more lives on the line 
and go even deeper in debt in order to finance this effort, we 
were going to require certain commitments of the Iraqi 
Government. This was not anything Congress foisted upon him. 
These were his nine he laid out in his speech.
    I've looked at your analysis of those nine benchmarks. You 
say they have not been met in six instances. You give him 
partial credit, partially met for three of those. Six no, three 
partial. The President, in July, said four of those there had 
been satisfactory progress, four he admitted no, unsatisfactory 
progress. So, by his own report in July, four yes, four no, and 
then he said one partial. So, I tried to go in and look at one 
of those benchmarks in detail, the one where you say partial 
and he says it's satisfactory, which concerns the spending of 
the $10 billion of Iraqi money.
    Now, there are several reasons I honed in on this. One, I 
think it will satisfy people because as one House member called 
you a bean-counter, this is about the finances, this is about 
the ability of the Iraqi Government to spend their money.
    Now, when I was in Iraq in June, I asked some of the 
Missouri soldiers on the ground what was their biggest 
challenge in one of these Provincial Reconstruction Teams. They 
said to me, ``electricity.'' They said that these people are 
getting 1 hour of electricity a day on average in Baghdad. Now, 
how in the world do we ever get to a point that they have any 
confidence whatsoever in their government if they can't get 
electricity. Spending this money on infrastructure and capital 
projects, this $10 billion, a very modest amount--I hate to 
count the billions and billions we've spent--ought to be 
something that we feel confident that they're moving towards 
doing. It shouldn't be that hard to spend money. We manage to 
do it around here without blinking an eye.
    I looked to see what, exactly, factually you found and what 
the President reported. As of the middle of the year, they had 
spent, according to the U.S. Embassy, $1.5 billion of the $10 
billion--24 percent--leaving 76 percent that had not yet been 
spent. But if you look behind that number, you find the 
Ministry of Oil's money, you all determined, based on the 
Special Inspector General's report, that of the $1.5 billion 
that they're getting credit for spending, $500 million of that, 
they're not confident that all has been spent. That's because 
it was just transferred to the Marketing Division. There wasn't 
really any evidence that it had actually been spent. If you 
look at the money that's been given to the provinces, there is 
no confidence that that money is going to be spent. They 
haven't even spent last year's money yet, much less this year's 
money, which in this instance, they're not going to be allowed 
to carry forward.
    I read every word about that benchmark. Now, the 
interesting thing is, the President said it was satisfactory 
progress. Now, I would like you to speak about that benchmark, 
if you would, and talk about the factual basis for the 
difference between your findings. You said partially met, which 
by the way, I thought was wildly generous, because you're 
saying because they've allocated it. For gosh sakes, allocating 
money is not spending money. If you would address that 
particular benchmark and the difference between the President 
and GAO. I'm trying to figure out where the spin is here and I 
got to tell you, with this benchmark, I don't think there's 
much spin on your side. I think you are being wildly generous 
and I think there's a whole lot of spin going on, on the other 
side.
    Mr. Walker. Thank you, Senator McCaskill.
    Obviously you've done a thorough job, again, in reading 
this report. I appreciate that.
    First, I'm proud to be a Certified Public Accountant, to be 
an auditor, among other things.
    What we did here, is we looked at the language. 
``Allocating and spending $10 billion in Iraqi revenues for 
reconstruction projects, including delivering of essential 
services on an equitable basis.'' Now, they have allocated $10 
billion. They have transferred some of the money, but clearly 
not most of the money. They've obligated even less and we have 
a concern as to whether or not this amount is ultimately going 
to be spent and whether or not it's going to be spent in a 
manner that will result in delivering essential services on a 
equitable basis.
    The best we could get to was partial. We wanted to give 
them credit for the fact that they had allocated the money, 
they've transferred some of the money, they've spent some of 
the money.
    However, our opinion there has also been formed by work 
that we've done in many other areas in Iraq, where frankly they 
haven't spent, historically, a lot of the money that's been 
allocated. We think that, as I said, we based the work on these 
18 benchmarks, not just on what we did in the last couple of 
months, but what we've done over several years and the track 
record that has been established there.
    Senator McCaskill. But I want to make it clear that the 
facts indicate, that of the $1.5 billion or 24 percent of the 
$10 billion, that the U.S. Embassy is saying has been spent, 
there is not even concrete factual evidence that we could rely 
on as auditors, that all of that money has actually even been 
expended, even though it was only 24 percent of the total.
    Mr. Walker. Yes, $1.5 billion, of course, would be 15 
percent, so there's other money in there, but they've 
transferred a certain amount, they've obligated a certain 
amount, they've spent a certain amount, but a significant 
majority of the funds don't meet any of those criteria.
    Senator McCaskill. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Senator Warner.
    Senator Warner. I'm going to defer down to Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Walker, I want to talk further with you about benchmark 
15, which is a very important benchmark because it's an 
evaluation of whether the Iraqi security forces can operate 
independently.
    Obviously, the scale and the success of the Iraqi security 
forces directly affects when our troops will be able to come 
home. Your assessment that this benchmark of increasing the 
number of Iraqi security forces units capable of operating 
independently, is that it was not met. It's not one where you 
said there was limited progress or partially met. You say it 
was not met, and you even say that the number of capable forces 
has actually declined.
    This seems at odds with the testimony that we had yesterday 
from the Jones Commission. I have a great deal of respect for 
both the GAO and the Jones Commission. I am surprised that the 
conclusions seem to be so at odds on such a vital issue. I'd 
like to have you comment further on why GAO reached such a 
different assessment.
    Mr. Walker. First Senator Collins, thank you very much for 
the question. Because in reality, the reason that we reached a 
different conclusion is because we had a different metric that 
we had to evaluate.
    As Chairman Levin mentioned earlier, if you look at 
categories one and two of the four readiness categories, you 
get a different number with regard to how many people, how many 
units might be able to operate either fully independently or 
lead. Our requirement was just to look at those who could 
operate fully independently. So in other words, category 1, the 
highest category. We've issued a classified report, which I 
would commend to you and every member of this committee, that 
clearly demonstrates why we put this benchmark in the not met 
category. Basically, we are looking only at category 1, because 
operating independently is category 1. They either went up, or 
they went down, or they stayed the same, and that's in our 
classified report.
    Senator Collins. Sounds like we need to review the 
classified information, as well.
    This is an area that Senator Warner has been the leader on 
getting this assessment. I hope that the Jones Commission and 
GAO can come together on this issue because this is so vital to 
the ability of our troops to be able to turn over 
responsibility to the Iraqi security forces, and ultimately to 
their ability to be able to come home.
    There's a broader issue that I want to raise with you to 
make sure that this committee fully understands what you mean 
by each of your assessments. Of the 18 benchmarks that were 
graded by the GAO, your report states that only 7 received a 
grade of met or partially met. So, of the other 11 benchmarks, 
are you implying that there's been no progress at all? That the 
Iraqi Government is no further along on those benchmarks than 
they were a year ago? I'm trying to understand the difference 
between not met--which can be read as no progress at all, which 
I don't think is really what you're saying--versus partially 
met.
    Mr. Walker. Again, thank you for this question because it 
helps add contextual sophistication.
    The biggest problem is in the legislative area. One of the 
exhibits that we had, which is on page eight of my testimony, 
illustrates the progress that has been made. So, on these, the 
ones that been met and not met. So, the fact that they're not 
met doesn't mean that nothing has been done, but it means that 
not nearly enough has been done in order to justify a partially 
met rating. As I mentioned earlier, my professional opinion is, 
the most meaningful information for Congress would be, not just 
to know where things stand as of a point in time, but also what 
type of progress is being made.
    It's my understanding that Congress may have intended--and 
I don't know this for sure, Senator Warner and Senator Levin 
would--that it was contemplated that this might end up being a 
baseline that could then provide a basis to compare. Even if 
that was the case, my personal view is you need to look at 
where do things stand and what progress is being made. You need 
to look at both in order to be able to consider that. That's 
not what we were asked to do.
    Senator Collins. Thank you.
    Thank you, Senator Warner.
    Senator Warner. If I could interject, Mr. Chairman. What 
amount of time and effort would it take for you to try and 
reconcile your data and put it into a format that comports with 
what we tasked the President to do, by way of the benchmark 
assessment?
    Mr. Walker. Well, you asked the President to talk about 
progress rather than status. First thing we'd have to do is 
define, we'd have to come up with a definition of what's 
satisfactory.
    Senator Warner. Instead of taking up time getting into 
detail, do you think that you could take the criteria we laid 
down for the executive branch and apply your own metrics and 
come up with conclusions?
    Mr. Walker. Mr. Chairman, I'd want to consult with my very 
capable staff on what were those metrics, are we comfortable 
with those metrics, and what do we think it would take. We will 
do that expeditiously.
    Senator Warner. Thank you.
    Mr. Walker. Get back to you later.
    Chairman Levin. Whether those metrics are available to you?
    Mr. Walker. Correct.
    Chairman Levin. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    I want to say aloha to Mr. Walker and welcome to you to 
this committee.
    I would like to first congratulate you and your staff for 
the excellent work you've done on reporting the Iraqi 
Government's legislative, security, and economic benchmarks. I 
believe that the GAO conducted an excellent assessment of the 
Iraq benchmarks and I want to convey my appreciation, again, to 
you and your staff.
    The inability of the Iraqi Government to meet its 
benchmarks is one of the main issues in the overall debate 
regarding whether to begin redeployment of our troops. This 
report will provide us with valuable information in our 
deliberations on any future involvement of the U.S. military 
forces in Iraq.
    I do have few questions to you, Mr. Walker. The GAO's 
report states that the Iraqi Government has provided $10 
billion in its current budget for reconstruction projects, 
including delivery of essential services on an equitable basis, 
but that it is unlikely to be spent by the end of this year. As 
of July 31, the Iraqi Government had only about $1.5 billion of 
the allocated funds.
    Now, my question to you is can you tell us what is the 
underlying cause of the Iraqi's failure to use their budgeted 
resources to rebuild critical infrastructure? In addition to 
that, could you describe some of the key projects that will 
likely not be accomplished if the Iraqi Government continues at 
this current pace?
    Mr. Walker. First, whether or not the money will be spent 
depends, in great part, on their willingness and ability to 
spend that money. We have seen, historically, that amounts have 
been allocated, but not transferred. Of the amounts that have 
transferred have not necessarily been spent, in the past. Some 
of the reasons for that are that Iraq does not have a well-
established capacity, as it relates to acquisition and 
contracting. They have a serious problem with regard to having 
an adequate number of people with the knowledge, the right type 
of systems and controls to get things done.
    Some people are concerned about moving too quickly because 
of the possibility of being accused of corruption or other 
types of activities if they don't dot all the Is and cross all 
the Ts. So, I can't comment on their willingness to spend it. I 
can comment on the fact that historically they have not had a 
good track record and some of that is because of the lack of 
enough people and enough infrastructure to be able to make it 
happen in a timely manner. I'll be happy to provide, for the 
record, some examples of things that might not get done.
    [The information referred to follows:]

    As we recently reported, the energy sector is critical for Iraq's 
economy and for rebuilding the country. Experts estimate that over the 
next few years, $27 billion will be needed for the electricity sector 
to keep up with needed demand and $20 to $30 billion will be needed for 
the oil sector to reach production goals. Since most U.S. 
reconstruction funds have been obligated, the Iraqi Government will 
need to assume a more prominent role in rebuilding Iraq's electricity 
and oil sectors. Major challenges to these efforts include continued 
security concerns, lack of expertise to plan for and maintain the 
infrastructure, and lack of a legislative framework that would 
encourage international investment.

    Mr. Walker. But as Senator McCaskill said before, they 
include reliable electricity and adequate, safe water, and 
appropriate levels of oil production. These are basic things 
that I think are important that they be measured. From a 
professional standpoint, I believe it's important they be 
measured and reported on.
    Senator Akaka. Mr. Walker, GAO credits the Iraqi Government 
with meeting benchmark 16, ``Ensuring that the rights of 
minority political parties in the Iraqi Legislature are 
protected.'' However, the report then states that because of 
the security situation, Iraqi legislators interviewed by GAO 
insisted that the situation in their communities has a direct 
bearing on their work in the legislature, their freedom of 
movement to and from the legislature, and their ability to 
engage fully in Iraq political life.
    If I understand the report correctly, the Iraqis have met 
this benchmark because their constitution has provisions 
guaranteeing minority party rights. However, in practice, this 
benchmark is not actually being met because minority rights are 
still being violated. Is my understanding correct?
    Mr. Walker. My understanding, Senator Akaka, is the reason 
we showed this as met is because, in fact, they have enacted a 
constitution that provides for minority rights. There are 
issues, you talked about two. One, security--whether or not 
there's adequate security for people to be able to get to the 
parliament to be able to exercise their rights. Second, there 
are significant sectarian issues. I mean, there are significant 
sectarian issues between the Shia, the Sunni, the Kurd, there 
are also significant issues within those segments, especially 
the Sunni segment. So, we assessed it, based upon the fact that 
they've done what they have to do, as a matter of law. But, let 
me come back to an issue I've mentioned before.
    One of the issues that they have to think about is how do 
they execute? The Shia have 60 percent of the population, the 
Kurds have 20 percent of the population, and the Sunnis have 
20. Well, the Sunnis are used to running things on a 
totalitarian basis for awhile, but now they have only 20 
percent in the democracy. On a vote basis, they're not there. I 
think that's one of the issues that you ought to try to find 
out more about, as to whether and to what extent that's had a 
practical problem in being able to move forward in some areas 
where, otherwise, people might want to, and may even have the 
votes.
    Senator Akaka. I'd like to ask about the impact the surge 
has had. If we have not improved the protection of minority 
rights of legislators, then it suggests that a fundamental 
tenant of the surge is not being met. Is there any evidence 
that the surge has improved the protection of the rights of 
minority members of the legislature?
    Mr. Walker. We didn't look to that level of detail, Senator 
Akaka. I think that one can say is the surge has had an impact 
in at least two areas.
    First, Anbar Province, and the efforts that we're taking 
there to combat al Qaeda. Second, in the efforts of U.S. and 
Iraqi forces to try to be able to provide additional security, 
in major portions of Baghdad, including these joint security 
stations and related activities there. Those are the areas 
where I think the surge has had the most impact so far.
    But, keep in mind that one of the reasons for the surge was 
to provide, one of the Senators mentioned, ``breathing room,'' 
to make political progress. So far, that political progress has 
not been made. Hopefully, it can be and it will be, but so far, 
it has not.
    Senator Akaka. Thank you very much, Mr. Walker, for your 
responses.
    Chairman Levin. Senator Chambliss?
    Senator Chambliss. Thank you, Mr. Chairman. I'll be brief 
so others can have a chance to make comments or ask questions 
before the vote.
    Mr. Walker, first all let me thank you for doing a great 
job. Your staff, too. Most everybody on this committee--not 
all, but most of us--have been in theater, we know the 
difficulties that you encounter there, and your staff is to be 
commended for taking the time, making the efforts, and really 
getting down to the core of some of the issues that need to be 
called to our attention, and addressed. It's information like 
this that, I think, does provide us with the background to be 
able to make the decisions that we're going to make, relative 
to the situation in Iraq.
    That being said, you have highlighted something that has 
concerned me from day one over there, and the more I'm in Iraq, 
the more I talk with people who are in theater, and I frankly 
agree with you about the issue of the lack of movement by the 
government. That's the weakest aspect of what's going on over 
there.
    I was pleased to hear you say that ``not met'' in your 
chart, doesn't mean that there's been no progress, because 
actually, I could probably argue with you, but it's immaterial 
as to whether or not the ``not met'' is correct on a number of 
these. But, the fact is, I think you have fairly stated what's 
going on over there, from the standpoint of the government not 
moving forward.
    By the same token, if you had assessed the commitments made 
by the current majority back in December, and done an 
assessment at the end of 6 months, I daresay it wouldn't have 
looked very positive. It's not just the current majority, you 
could take the previous majority in any Congress, and assess 
the activity of Congress, and I don't think we would have 
scored very well on a points chart, like you've been tasked to 
do.
    So, I think you've done a good job in making the point that 
they have failed to achieve some of these benchmarks. But, it 
does appear from your report that they are moving forward.
    The one chart that you had up there, relative to the level 
of violence, brings to mind a charge that we saw yesterday from 
General Jones, that's probably the most significant I've seen 
relative to the conflict in Iraq. It was a chart which, unlike 
yours which simply shows the number of incidents of violence, 
and whether it had gone up or down, and that could be a suicide 
bomber walking in and blowing up 100 people, or it could be a 
few rifle shots, on incidents of violence.
    What General Jones' chart showed was the decrease in 
violent activity in the City of Baghdad. He took it over a 
timeframe of several months. What that diagram showed, that the 
incidences of violence are shrinking. The area where the 
incidents of violence are occurring, is shrinking. That bears 
out exactly what I expect to hear from General Petraeus next 
week, and what I have personally seen on the ground in Iraq 
when I've been there, and that is that we are making great 
strides from a military perspective, and that our men and women 
wearing the uniform are doing a terrific job.
    General Petraeus is also, I think, going to validate what 
you have reported to us, that the government has a long way to 
go.
    In summary, I just want to say, I think you've done a good 
job of coming forward with facts, with telling us, you're 
giving us a report of your investigation of the benchmarks that 
we have tasked you to address. I look forward to seeing 
additional reports like this, Mr. Chairman, as we move forward, 
under whatever scenario we undertake, after General Petraeus 
and Ambassador Crocker's report.
    Mr. Walker, thanks to you and your folks. We commend you 
for a job well done.
    Mr. Walker. Senator Chambliss, so I can mention quickly, 
for your benefit and the benefit of the other members of the 
committee--this graphic is just total activity, it's not 
lethality--there's a difference as to what type of casualties 
might cover.
    Senator Chambliss. Yes.
    Mr. Walker. In our classified report, we do have 
information on Baghdad, versus overall. I would commend our 
classified report--as well as a classified report from the 
National Intelligence Estimate (NIE) to you to look at. I 
think, though, they're both important.
    Senator Chambliss. Yes, I agree. I think that's much more 
meaningful than just a diagram showing spikes up and down.
    Mr. Walker. Thank you.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Reed.
    Senator Reed. Thank you very much.
    General, let me thank you--not only for your work, and for 
your staff's work, but your staff is not unaccustomed to 
dealing with these issues. In fact, not only their expertise 
individually, but their experience over the last 4 or 5 years, 
with this topic in particular, is outstanding.
    This is not a drive-by evaluation. These are people, I 
presume, who are deeply, on a daily basis, involved. They have 
a perspective, as well as the expertise to look at these 
issues, and I thank you for that.
    I think one of the critical issues that we're going to have 
to address is the issue of these numbers, the accuracy of 
numbers. You point out, there's a difference in methodology, 
that you differ with General Petraeus' command. In that line, 
there was an article yesterday in the Washington Post that 
pointed out that DOD, in their releasing death counts, 
dramatically shifted the results from last year to this year. 
They had a report released in March which showed a peak in 
December 2006 of approximately 1,200 and then they had a June 
report that showed that to increase. General Petraeus is using 
that as his baseline, the increased numbers. Can you comment, 
at all, about the General's methodology, or the issue of 
whether these numbers are accurate?
    Mr. Walker. We're generally comfortable with the approach 
that's taken on Figure 4 which is on page 10.
    Senator Reed. Right.
    Mr. Walker. I would commend to you, Senator, and the other 
members of this committee, our classified report, that 
supplements this non-classified report, because there's 
information in it that's directly relevant to our concerns with 
regard to data on sectarian violence. There's a lot of emphasis 
on that, and I think you need to look at that.
    Senator Reed. I appreciate that very much, and certainly we 
don't want to intrude publicly here, today. But, we're going to 
have a very public debate. General Petraeus will make public 
statements about the decrease in violence, about the level, et 
cetera, and if there are details in that classified report that 
we can't divulge, then we, frankly, are disadvantaged.
    I just wonder, from your perspective, without broaching the 
security which we all recognize, do you have a comment on the 
accuracy? The methodology?
    Mr. Walker. Well, let me give you a comment that would be 
non-classified. First, his (General Petraeus') data will show 
that sectarian violence is going down, in recent months. He 
will show that. Second, we are not comfortable with the 
methodology that's used to determine, of total violence, which 
is sectarian-related, and which is non-sectarian-related. It's 
extremely difficult to do that, since people don't necessarily 
leave calling cards when certain things happen. Even if there 
is some type of attempt to leave information, you don't know 
the accuracy or reliability of it.
    So, we've said that his data will show it's gone down. 
We're not comfortable with the methodology, and please read the 
classified report, because it's not just our view.
    Senator Reed. I will do that, but let me ask you another 
question, which I think is appropriate. Your data, as I look at 
your chart, suggests a decrease in violence over the last month 
or so, is that fair?
    Mr. Walker. Correct. It showed an increase in violence, 
overall, up until June----
    Senator Reed. Right.
    Mr. Walker. The surge reached its full level in mid-June. 
It shows a decrease since June, and the level at the end of 
July of total violence is roughly the same as it was in 
February 2007.
    Senator Reed. General Petraeus' methodology shows a much 
steeper decrease, is that fair?
    Mr. Walker. His sectarian data, I think, shows a more 
dramatic decline. I don't have it in front of me, and I can't 
get much more specific than that.
    Senator Reed. If this dramatic decline is urged upon us, at 
least from a methodological basis, you have questions about 
that?
    Mr. Walker. We have questions about it. The other thing you 
have to look at is, is it sustainable? You'll have to ask the 
General that and you'll also have to look at what's going on--
this is in our classified report, too, which you need to look 
at. You need to look at what migration has been taking place. 
If you look at what Baghdad looks like today, versus 4 years 
ago, with regard to which portions of the city are mixed, and 
which portions of the city are predominantly Sunni or Shia, 
you'll see there's been considerable migration, and you'll also 
know that there is more difficulty in movement between one area 
to another.
    Senator Reed. You've anticipated my next line of 
questioning, which is ethnic cleansing. One of the consequences 
is perhaps because they succeeded in pushing people out of 
these neighborhoods, that the intimidation, the violence, the 
killing has gone down a bit that's not a good sign, that's just 
a consequence of the facts on the ground, is that the case?
    Mr. Walker. Our classified report has more information on 
it.
    Senator Reed. Can I ask you, this might seem like a dumb 
question, but why is this classified? I mean, who are we trying 
to keep this information from, the American people?
    Mr. Walker. Well, we're not the ones that decide whether or 
not it's classified, and we've expressed concerns in the past 
as to whether or not there's over-classification.
    Senator Reed. The only people who are not getting this 
information, frankly, are the American people, and Congress, in 
an open session, where we can honestly and fairly debate these 
issues with people who have access to this information, and can 
choose to divulge what they want, or not.
    Mr. Walker. I would respectfully request, Senator Reed, you 
ought to ask the administration witnesses that. Because the 
administration is the one that decides whether or not to 
classify data--whichever administration it is, that's not new, 
it's been that way for a long time.
    Senator Reed. Your point about ethnic cleansing was one 
that I wanted to address, and that is--this might be peripheral 
to the benchmarks you've looked at. But, I presume from what 
you've said, your conclusion is that there's been a significant 
ethnic displacement within Baghdad.
    Mr. Walker. There's been significant migration within 
Baghdad, correct.
    Senator Reed. Also, migration out of the country, internal 
displacement, unrelated to Baghdad, all over the country?
    Mr. Walker. Correct, and we have data on that, and others 
have data on that. Again, I think our classified report, and 
the NIE classified report are two things, for sure, you need to 
read.
    Senator Reed. I guess the final point, and it's more of a 
comment than a question, is that, we've had, I think, a very 
important debate about, one, why should it be classified, and 
two, what's the difference between the different methodologies. 
My presumption would be that, for the Iraqi citizen, this is 
all very immaterial. They're living in a very violent 
atmosphere which undermines their trust in their government, 
and undermines the ability of the government to function, and 
not much has changed in that regard, even as we debate the 
nuances of sectarian versus non-sectarian.
    Mr. Walker. Well, in my professional opinion, I think one 
of the things that Congress needs to consider is whether or not 
the relevant benchmark should be sectarian violence or total 
violence. It's difficult to be able to determine the 
difference, and to some people, a casualty, is a casualty, is a 
casualty.
    Senator Reed. Final point--and this might go more for 
anecdotal responses. My impression is that many of these 
sectarian, ideological groups, also engage deliberately in 
criminal activity, and so that the same person could be taking 
you out, because he wants your money, and an hour later, taking 
you out, because he doesn't like your religion, or your 
politics, or your clothes. Is that, sort of, fair?
    Mr. Walker. There's significant criminal activity, there's 
significant corruption that exists, as well, in Iraq.
    Senator Reed. Thank you very much, Mr. Chairman.
    Chairman Levin. Mr. Walker, you said, just to clarify one 
point of Senator Reed's that you don't do the classification?
    Mr. Walker. That's correct, Mr. Chairman.
    Chairman Levin. Who did the classification of Benchmark 13?
    Mr. Walker. DOD.
    Chairman Levin. All right. I think that that was the 
specific benchmark that you were referring to.
    Mr. Walker. I think so, Mr. Chairman.
    Chairman Levin. What we will be doing is making an urgent 
request to the Secretary of Defense to reconsider the 
classification of that benchmark, and any other benchmark, or 
part of that document which any member of this committee wants 
to add to the request. So, we're not just limiting the request 
to one benchmark.
    So, if by 3:00 this afternoon, any member of the committee 
wants to seek reconsideration of any part of the classified 
part of the GAO report, kindly let our staff director, Rick 
DeBobes, know and we will include that in an urgent request, 
that over the weekend there be reconsideration of this 
classification. I briefly looked at this, and I don't quite 
understand the reason for the classification.
    Senator Reed. Thank you.
    Mr. Walker. Mr. Chairman, you're correct, it is number 13. 
Also, I would point out for 13, there are two levels there, 
first the level of sectarian violence, and second, eliminating 
militia control of local security--both the administration and 
we are in agreement, there has not been elimination of militia 
control of local security, and we've already talked about the 
sectarian violence issue.
    Chairman Levin. All right, now, Senator Warner, again, you 
would be next.
    Senator Warner. I'm going to defer to Senator Thune.
    Chairman Levin. Senator Thune, let me ask you--have you 
voted?
    Senator Thune. No.
    Chairman Levin. I don't mean to intrude on your privacy, 
here. The vote, I think, only is for a few more minutes. I'm 
happy to recognize you if you want to stay here, but that's a 
risk that you carry. If not, would you--when you're finished--
just simply recess for the call of the chair.
    Senator Thune [presiding]. I will be happy to recess it, 
Mr. Chairman.
    Thank you, Mr. Chairman, and thank you, General, and your 
staff for an excellent work product, and for the very thorough 
and detailed way in which you go about this.
    The one distinction you made that I think is a very 
relevant one, when you said that you're tasked with determining 
status as opposed to progress. I think that standard is a 
little bit different for our benefit and use. I think it would 
be very helpful if you can have apples-to-apples comparisons 
with this report, and some of the other reports that are being 
made, and just so that there is some, I guess, standard 
threshold that we're all using when we evaluate whether or not 
we are making headway and making progress.
    There's one in particular that I would like to question, 
I'd like to draw to your attention, with regard to that issue, 
and that is, yesterday the committee received testimony from 
the Iraqi Security Forces (ISF) Assessment Commission, the 
Jones Commission, that the ISF was made up of two parts--the 
Iraqi Army and the Iraqi police. Benchmark 11 in your report, 
does that apply to both the Iraqi Army, and the Iraqi police 
force? I guess my question is, in assessing the benchmark, how 
did you define Iraqi security forces?
    Mr. Walker. My understanding is it's both forces. 
Consistent with what you heard from the Jones Commission 
yesterday, there's a much greater problem with the police 
forces than with the Army.
    Senator Thune. In writing your assessment of this 
benchmark, you said you lumped them together? You put them 
together?
    Mr. Walker. That's correct.
    Senator Thune. In other words, you did not differentiate or 
distinguish between the two, and clearly, I think, in terms of 
at least their testimony yesterday, there is a very clear 
difference between the progress that's being made, and the work 
that's being done by the Iraqi Army, versus the Iraqi police 
force?
    Mr. Walker. Senator, I think one of the things that we 
would like to have the opportunity to work with this committee 
on, if you want us to do additional work, going forward, is how 
these benchmarks might be refined, and how they might be able 
to be enhanced, and coming back to where you started--the best 
type of information that you would have from my professional 
opinion, would be where do things stand on relevant benchmarks, 
and what progress is being made? You could require all parties 
to do the same, and then you have an apples-to-apples 
comparison that you can deal with and reach your own judgment.
    Senator Thune. That would be very useful, and I know, even 
with regard to the, the violence numbers, the casualty numbers, 
and there are sort of different metrics that are being used, 
but I think it would be extremely helpful if there was some way 
in which these metrics could be applied in the, essentially, 
same way.
    Mr. Walker. I think they can be, they should be, we can 
help you if you want to do that. But again, we did what we were 
asked to do, but we did provide more information, in order to 
help you get a sense as to whether, and to what extent, 
progress has been made, both in the areas that we assessed as 
not met, as well as those areas where we assessed as partially 
met.
    Senator Thune. I guess one of the reasons I say that is, at 
least the way this is being interpreted out there by the media 
and the public and others, are this report is very much at odds 
with the other reports. I'm not sure there is as much 
difference there as is being reported, but it's primarily, in 
my view, because you were tasked differently than some of these 
other Commissions have been.
    Mr. Walker. We've tried to make that very clear, right up 
front, at the beginning of the report, on the highlights page, 
at the beginning of my testimony. We stand behind our report. I 
think next week when General Petraeus comes, and you need to 
seriously consider what he and Ambassador Crocker have to say. 
The biggest area of disagreement will be on the sectarian 
violence issue. We've already talked about that, and our 
classified report has a lot more information you need to look 
at there, I think.
    Senator Thune. I appreciate that. I have to run and vote, 
thank you again for your good work.
    Mr. Walker. We'll be in recess, from what I understand.
    Senator Thune. I will slam the gavel and put us in recess 
until the chairman is able to return. Thank you.
    Mr. Walker. Thank you, Senator. [Recess.]
    Senator Webb [presiding]. The committee will be in order. 
We're going to continue the testimony, Senator Graham has 
another engagement. He's asked to give his questions now, so 
we'll begin with Senator Graham.
    Senator Graham. Thank you, Senator Webb, that's very kind 
of you. I appreciate you letting me do that so I can catch my 
flight.
    Mr. Walker, I'd just add my high opinion of you to the list 
of people who said nice things about you. I have to work with 
you and your staff on Social Security. You all really do a good 
job for us.
    Now, your paycheck, I think, comes from Congress, is that 
right?
    Mr. Walker. It comes from the Treasury, but I work for 
Congress.
    Senator Graham. Work for Congress, and you've come to 
Congress many times, saying things about entitlement reform, I 
think, that Congress needs to hear. So, the fact that you're 
employed by this body, I've never once thought for a second 
that you would say anything other than what, professionally, 
you've arrived at, and I hope people believe that about General 
Petraeus and Ambassador Crocker, because I think you all have 
that in common. You just have different universes from which 
you come.
    But this information you're giving Congress is important, 
and I think the American people want to know where we're at in 
Iraq, and what does it look like going forward.
    Now, the political reconciliation part, is the prize. You 
can have a million troops in Iraq, it is not going to change 
things in a permanent fashion until the government reconciles 
itself. What is your belief regarding a breakthrough in the 
next 60 days regarding legislation called de-Baathification, or 
provincial election legislation being passed in Baghdad?
    Mr. Walker. Senator Graham, I don't think it would be 
appropriate for me to try to give you odds on that. I will tell 
you, as I noted in my testimony, based on our work, that was 
part of the National Unity Accord that's been signed.
    Senator Graham. That was about 2 weeks ago, right?
    Mr. Walker. That's correct.
    Senator Graham. How do you evaluate that Unity Accord? Is 
that a significant event for you?
    Mr. Walker. It is a significant event, but it states 
intent, and as you can see from this graphic here, there are 
lots of steps you have to go through, in the legislative 
process, in order to make it a reality.
    Senator Graham. Would you agree with me, that when Congress 
really wants to do something, it will do it, and when it finds 
reasons not to, it won't?
    Mr. Walker. There are lots of reasons not to move things, 
but when there is agreement, broad-based agreement, things can 
happen quickly.
    Senator Graham. From your visit, did you sense a war-
weariness among the Iraqi people that you met with, that they 
were tired of the killing and the dying?
    Mr. Walker. We really were focusing on meeting with 
officials necessary to do this assessment rather than 
individual Iraqi citizens on the street.
    Senator Graham. Okay, now when it comes to sectarian 
violence, whether it's going up or down--I remember very 
graphically, when it was being reported out of Iraq that 
sectarian violence is spiraling out of control, about a year 
ago. Do you remember that?
    Mr. Walker. I remember when it was a major concern, in 
fact, as you remember, Senator Graham, undoubtedly that one of 
the primary reasons that the President proposed the surge is to 
try to be able to try to get sectarian violence under control, 
in order to give breathing space for political progress.
    Senator Graham. Right. How did we measure sectarian 
violence then?
    Mr. Walker. My understanding is, it was MNF-I, as it is 
now. But, it's in the classified briefing.
    Senator Graham. Yes, no one seemed to argue with the fact 
that the numbers had gone up. I'm just curious as to why 
somebody would question the same methodology if they show a 
drop?
    Mr. Walker. Yes, I don't know.
    Senator Graham. Okay.
    Mr. Walker. We're not saying they're wrong--we're just not 
saying they're right. It's very difficult to be able to 
determine.
    Senator Graham. You could say that about whether or not 
they'd spiked, I guess.
    Mr. Walker. Well, that's true.
    Senator Graham. Yes, right.
    Mr. Walker. If they're using the same methodology now that 
they were then, which I can't say right now then I would have 
had the same concerns.
    Senator Graham. Right, right. Yes, but the bottom line is, 
if it's the same methodology, one could argue that they were 
wrong when the numbers went up, you could argue they're wrong 
when they're coming down, but if it's the same methodology, at 
least you're comparing apples to apples.
    Mr. Walker. Correct.
    Senator Graham. Okay. Now, the idea of using the 
information is, obviously, it's for every Senator to determine 
how to put this puzzle together, and you're part of the puzzle. 
General Jones' testimony, and then we'll have Ambassador 
Crocker, and General Petraeus and your report, and we'll have 
to put this puzzle together.
    One of the questions that drives me the most is--if we 
decided now to withdraw a large number of troops at a date 
certain, and we declared it, that we would reduce our forces by 
half, say, in 6 months--do you have any idea how that would 
affect future progress?
    Mr. Walker. Senator, it would be speculation for me to say 
that.
    Senator Graham. Okay.
    Mr. Walker. That's beyond the scope of what we were asked 
to do.
    Senator Graham. Right, right. Well, thank you very much for 
your service, and for giving us the information that you've 
provided to the committee about a snapshot of where we stand, 
based on some areas. Did you look at the police at all?
    Mr. Walker. We did look at the police as it relates to the 
security forces, for example, even-handed enforcement of the 
law--any place where it talked about security forces. Our work, 
not just with regard to this particular report, but past 
reports, have shown significant differences between challenges 
associated with the police and the Army.
    Senator Graham. I certainly agree with that. I don't know 
why the police are more sectarian, why they're so far behind, 
but they certainly are.
    Mr. Walker. In many cases, Senator Graham, it's because the 
police are hired at the provincial or local level rather than 
at the national level.
    Senator Graham. That doesn't bother me, if you have local 
policeman policing the local area, that's okay. But the 
National Ministry of Interior seems to have a bias that is 
unhealthy. Did you look at the judiciary at all?
    Mr. Walker. No, we did not look at the judiciary.
    Senator Graham. Can I ask, Senator Levin, the next time we 
do a benchmark, that we consider looking at the rule of law 
from the judicial side? The detention policy side? Because, I 
have seen some progress, but I'll be honest with you, Senator 
Levin, there are many concerns there, and this is an area where 
I think Congress can reinforce some gains we've made, and I'll 
just put that on the table, that maybe we'll add that to our 
list next time.
    Chairman Levin [presiding]. Senator Graham, you've made 
that very compelling point for a long time, and I think most of 
us have, hopefully, soaked in what you and a few others on this 
committee have talked about in terms of the lacking 
infrastructure in the justice area.
    Senator Graham. Right.
    Chairman Levin. Of course, Senator Warner is also the 
author of the benchmark legislation, but I'm sure the next 
round it could, and should, be added.
    The focus of these benchmarks, though, just to kind of 
remind everyone--is that these are the self-adopted benchmarks 
by the Iraqi government.
    Senator Graham. Right, I understand, I understand.
    Chairman Levin. So, we were trying to judge them by their 
own standards.
    Senator Graham. Absolutely, absolutely, absolutely.
    Chairman Levin. I agree with you that there are other 
indications, such as yours, which need to be added.
    Senator Graham. Thank you for sharing this information with 
us, and to your staff who made it possible, and went over there 
to Iraq, we appreciate their service, too. Thank you.
    Mr. Walker. Thank you, Senator.
    Chairman Levin. Thank you, Senator Graham.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Mr. Walker, I first would like to echo my agreement with 
something that Senator McCaskill said. There are so many 
different components here that are being brought forward to us 
in order to attempt to make an evaluation of the situation that 
we face. The scope of what you were asked to do, really, is 
pretty much a result of what the administration laid forward as 
to what they said they were going to do.
    I go back, first of all, to the speech that the President 
made in January when he announced the surge. These are things 
that the Iraqis said they were going to do. One of the major 
components of that was--and I'm going to directly quote his 
speech, that they would ``establish its authority, the Iraqi 
government plans to take responsibility for security in all of 
Iraq's provinces by November.'' Did you see any indication that 
that actually is going to occur?
    Mr. Walker. It's unrealistic to expect that Iraqi Security 
Forces will take total control of every province by November of 
this year.
    Senator Webb. Did you get any feeling from the reports that 
you got as to how many of those provinces would be fully 
controlled by the Iraqi?
    Mr. Walker. No, Senator Webb, that was beyond the scope of 
what we were asked to do.
    Senator Webb. Okay.
    Mr. Walker. So, we did not.
    Senator Webb. One of the other points that I think is 
important here, at any time that we have these sorts of 
emotional, and politically-driven debates, it's very important 
to understand the facts. I think we can argue about conclusions 
all we want, but I think facts themselves need to be fully 
understood before we can proceed to the argument beyond them.
    I'm saying that because yesterday, one of the set of facts 
that sort of jumped out at me, when General Jones and his 
Commission were reporting, was they said at least three times 
in their testimony that the Iraqi casualty rate was higher, 
significantly higher, than the American casualty rate, and they 
had a chart that showed the same kind of chart that you have on 
the Average Daily Enemy-Initiated Attack Incidents. But, when I 
sat down and added up the numbers of Iraqis that they were 
including, operationally--the Iraqi military, the Iraqi police, 
the territorial forces, et cetera, the people under their 
Ministry of Interior--when you added those up, there were 3.6 
times as many Iraqis, notionally, at risk as there were 
Americans in Iraq, and if you played that back into the data, 
it showed that the Iraqis were not taking casualties at a rate 
higher than we were, the American forces, and in fact, I would 
venture--they didn't have the data available yesterday--but I 
would venture that if you took the police casualties out of 
that formula, that you would see markedly higher American 
casualties actually out in the operating environment.
    I say that as an example of how we need to really look at 
facts before we reach conclusions. Now I have a question with 
respect to the chart, and I know, I watched your opening 
statement from my office before I came down here, and I saw the 
caveats that you were putting in to this chart, but I'm just 
wondering here--on the one hand, what we're measuring in your 
chart, Figure 3, as it's in front of me, the Average Number of 
Daily Enemy-Initiated Attacks, showing that they went up, and 
now that, there's a drop at the very end of this chart, that it 
could be argued that the average number of attacks are down, 
but how does that play out in terms of casualties? I'm not 
seeing casualties? The reason that I ask this is--there are two 
reasons that I ask this, and I think it's very important, at 
least from my understanding of where we're going on this. The 
first is that we're seeing more sophisticated methods of 
attack. In fact, I think you even mentioned that, the 
sophistication of the IEDs and that sort of thing. I think it 
was you that had mentioned that----
    Mr. Walker. It wasn't me, it was a Senator.
    Senator Webb. --but, with a more highly sophisticated 
device, you're going to have fewer attacks, but they're going 
to be more effective. So, that doesn't mean that fewer attacks 
mean fewer casualties.
    The second reason I'm asking this, is because there was an 
article in the Associated Press (AP) about 10 days ago, that 
said that the average number of civilian deaths in Iraq 
actually was double this year than last year--went from 30 to 
62, according to this AP article. Would you comment on that 
with respect to your chart?
    Mr. Walker. Well, Senator, I would respectfully suggest 
that you should consider several things. First, our chart, 
which is on page 10, which talks about the average number of 
daily enemy-initiated attacks against the coalition or Iraqi 
security forces and civilians. As you can see, there's a 
significant difference in the incidents of attacks on the 
coalition forces, which includes our forces--primarily our 
forces--versus the Iraqi security forces. There are a lot more 
attacks on coalition forces than there are Iraqi security 
forces.
    Second, I think you also need to consider lethality. In 
other words, this is the amount of attacks, but there are 
different natures of attacks. Some are more effective than 
others, so I think you ought to consider that as well, and you 
ought to break that down based on coalition, Iraqi security 
forces, and civilians.
    Senator Webb. Exactly. That's exactly my point. Now, you 
have a chart that indicates--this goes a little bit to the 
point that Senator Reed was trying to make earlier about how we 
need to be able to articulate actually what's going on in this 
debate that we're going to have. We have this chart that shows 
the number, average number of daily attacks, but I don't see a 
chart that shows the casualty implications.
    Mr. Walker. We have some additional data in our classified 
report, but what I would respectfully suggest, Senator Webb, 
for you and any other member of this committee, if there are 
things that you don't have in there that you want, let me know, 
and we'll see what we can do.
    Senator Webb. So, you don't have any information that would 
illuminate the AP article about the doubling in the number of 
average casualties?
    Mr. Walker. We have some more information in our classified 
report, and candidly, I'm a little bit uncomfortable in 
recalling which of this is classified and nonclassified--that's 
why I'd rather deal with it offline, if we can.
    Senator Webb. All right. Thank you very much.
    Chairman Levin. Thank you, Senator Webb, Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Chairman, I'd like to draw the witness's attention to a 
matter that you and I observed on our trip. I'm not sure that 
in the course of your work, Comptroller General, that you 
examined this. But, it's a question of the foreign military 
sales problem, which Senator Levin and I received a briefing on 
by the senior ranking officers in Iraq. That this system has 
failed to deliver in a timely fashion a great deal of essential 
military equipment, required both by the Iraqi Army, and the 
Iraqi police. I think I speak for my chairman--both of us were 
astounded. Because we keep trying to push both of these 
organizations to train and prepare, and to take up a greater 
burden--did you have an opportunity to look into that issue?
    Mr. Walker. Not as part of this engagement, Senator Warner. 
But I will, as soon as I get back to the office, find out if 
we're doing anything else on it, outside of this engagement and 
get back to both of you and let you know.
    Senator Warner. Fine.
    You join me in that request?
    Chairman Levin. I do. As a matter of fact, our staffs have 
drafted for us the letter which we will----
    Senator Warner. Letter that we're sending today.
    Mr. Walker. It sounds like we will be soon doing work 
there. It's very worthwhile.
    Chairman Levin. We will send you a copy of that letter, so 
that you can tell us whether or not you could add to this 
inquiry, because it is a very serious business.
    Mr. Walker. Be happy to do that, Senator. We look forward 
to taking a look at it.
    [The information referred to follows:]

    Foreign Military Sales. CG commits to provide additional 
information to the committee regarding any ongoing GAO work.
    The Iraqi Government is making an effort to address longstanding 
procurement and contracting problems by procuring items for its 
security forces through the U.S. foreign military sales program (FMS). 
To date, the Government of Iraq has committed about $3.3 billion for 
U.S. military sales. According to the Multi-National Security 
Transition Command-Iraq (MNSTC-I), these funds are being used lo 
procure a variety of items such as small arms, ammunition, uniforms, 
body armor, vehicles, aircraft, and other items.
    According to U.S. Government officials, the Iraqi Government has 
expressed concern about the length of time it takes to procure items 
through the FMS process. However. MNSTC-I and Defense Security 
Cooperation Agency (DSCA) officials stated that Iraqi Government 
officials had unrealistic expectations regarding FMS processing time 
frames leading to an ``expectations gap.'' Officials also noted that 
efforts to expedite the current FMS process are hindered by a number of 
factors, including Iraq's difficulty in defining military requirements, 
insufficient U.S. and Iraqi staffing, the absence of an Iraqi 
Government multiyear acquisition strategy to guide future procurement 
efforts, and competing demands for similar equipment for U.S. and Iraqi 
security forces, such as M-16 rifless. To address these issues, the 
military departments, DSCA, MNSTC-I, and others have initiated efforts 
lo help the Iraqi Government better define requirements, increased 
security assistance office staffing and training, and implemented a new 
tracking system to provide increased visibility over FMS procurements 
for U.S. and Iraqi Governments officials, among other efforts.

    Senator Warner. Also, in the report yesterday by that very 
distinguished group, headed up by General Jones, they talked 
about the need to have a more rapid transfer of authority, 
security responsibilities and the like, to the various 
provincial governments. I think 6 of them, now, have been given 
the authority, 6 out of the 18. It seems as though the 
distressing chapters of fact that we have received here in the 
past week or 10 days, indicate less and less hope respecting 
the ability to have reconciliation at the top, again to work 
down, and more the administration and others are putting 
emphasis on the importance of the small, but nevertheless, 
significant, reconciliation that's growing up, particularly in 
the al Anbar province and elsewhere, amongst the Sheiks and so 
forth, now working with the coalition forces, and trying to cut 
down the sectarian violence, and reinforcing our efforts 
against al Qaeda.
    But, it seems to me, the more we bring upon the Federal 
system, such as it exists, the Maliki Government, to begin to 
accelerate the transfer of authority--they call it the 
Provincial Iraqi Control (PIC) Program--down to these regional 
authorities, the faster this, somewhat, interesting growth of 
bottom-up reconciliation. I tell you the public has to be 
confused about all of these terms. Because we all started off 
on reconciliation at the top on January 10, and if we do the 
surge, and secure the military operations, Maliki will have in 
place a whole framework of achievements on reconciliation 
down--well, it's not happening.
    So, back to the question. Did you address the advisability 
of the PIC Program, and accelerating it to move authority down?
    Mr. Walker. That was beyond our scope, Senator Warner. I 
will note that, as I said before, there has been progress in al 
Anbar province, in particular with regard to combating al 
Qaeda. Al Anbar province is about 5 percent of the population 
of Iraq and is not a mixed population, it's overwhelmingly a 
Sunni population.
    Senator Warner. Also, did you make reference as sort of a 
benchmark to the important contributions provided by the NIE, 
which is the consensus of 16 of our intelligence organizations, 
with regard to certain, they sort of laid them out as 
benchmarks?
    Mr. Walker. We did consider input from the intelligence 
agencies. We did read, were aware, and did consider that, and 
we also commend to you the classified version of that, which 
I'm sure you've probably already read.
    Senator Warner. Yes.
    Mr. Walker. I would encourage other members to read it.
    Senator Warner. Oh, yes. Well then, just for this record, I 
wondered if we could ask these questions. If your research and 
findings support the Intelligence Community findings contained 
in the unclassified key judgments of the NIE on Iraq issued 
last month. The first one, was the Intelligence Community 
assesses that ``to the extent that coalition forces continue to 
conduct robust counterinsurgency operations and mentor and 
support the Iraqi security forces, that Iraq security will 
continue to improve modestly during the next 6 to 12 months.''
    Mr. Walker. We did not, Senator Warner, project where we 
think things were going from here. Because our task was to 
assess where things stood as of a particular point in time.
    Senator Warner. Right.
    Mr. Walker. So that's beyond what we were asked to do.
    Senator Warner. All right. The next one, ``the Intelligence 
Community assesses that the Iraqi Government will become more 
precarious over the next 6 to 12 months.''
    Mr. Walker. Again, we did not attempt to project where we 
think things were going.
    Senator Warner. All right.
    Mr. Walker. We felt that was beyond our scope. I will note 
for the record, Senator Warner, that there are a number of 
aspects of the unclassified version of the National Intelligent 
Estimate on Iraq that we do concur with and I'm happy to----
    Senator Warner. Well, I tell you what. If you could provide 
for the record those findings of the NIE with which you have 
concurrence and, more specifically, if there are findings with 
which you have a professional differences of view.
    Mr. Walker. Within the scope of what we were asked to do?
    Senator Warner. Within the scope.
    Mr. Walker. We will do that.
    Senator Warner. There's one very important one. The NIE 
also assessed changing the mission of Coalition forces from a 
primarily counterinsurgency and stabilization role to more of a 
support role, ``Would erode security gains achieved thus far.'' 
Now, that might fall within the parameters of your metrics.
    Mr. Walker. We'll take a look at it, Senator, and we will 
be happy to do what we can.
    Senator Warner. I thank you very much.
    Chairman Levin. Just to clarify that request, however, if 
it doesn't fall within in your scope, make it clear.
    Mr. Walker. Thank you, Mr. Chairman. That's a good point. 
We'll do that.
    [The information referred to follows:]

    The Government Accountability Office can provide some additional 
classified information on this issue. However, this briefing will 
require codeword clearance.

    Chairman Levin. Thank you.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman. I'd like to begin by 
thanking you and, particularly, Senator Warner, for his kind 
remarks about Senator Snowe and myself.
    Senator Warner. I remember you came up to me on the floor 
and you felt that this was an important element. Since we're in 
a posture here in Congress of trying to facilitate the maximum 
amount of information that can be utilized by Congress in 
making its decisions--as well as the general public--and 
hopefully some of these constructive findings by this 
organization, General Jones, and others can contribute to the 
President's and synthesis of all this information, and his 
final remarks with regard to such strategy changes as he deems 
appropriate.
    Senator Bayh. Well, that was exactly our intent, and I 
think that is going to be the result of the GAO's report. But 
it wouldn't have happened without you, Senator, so I want to 
thank you and the chairman for your support.
    Since the outset of this undertaking with the weapons of 
mass destruction situation, we've struggled to get accurate 
information upon which we can base our decisions. Issues of 
credibility have been raised because some of the reports 
previously have been inaccurate about things. Your report is 
very helpful, serving as an objective marker against which to 
measure other assessments and to compare other assessments, 
just as Senator Warner was doing with the declassified versions 
of the NIE. We're going to hear from General Petraeus, as well, 
and we heard yesterday from General Jones, and so forth. So 
thank you for helping the American people and those of us as 
policymakers get access to the facts so we can make the best 
decisions possible.
    Mr. Walker, I really enjoyed your interaction with Senator 
McCaskill, one accountant to another--I'm going to ask you to, 
perhaps, help us, not only ascertain the facts, but perhaps 
draw some lessons from them. It may, at times, go close to 
going beyond the scope of your report, but you're an 
intelligent man and I'd appreciate your opinion, whether 
personal or official.
    The first is the progress--as you noted--has so far just 
not been made on the political front. Everyone agrees that, 
ultimately, we've made some security gains, our troops are 
behaving heroically. If success in Iraq was solely up to them, 
we'd be doing very well. But it's not solely up to them. 
Ultimately, we can not create a country for the Iraqis. They 
have to do their part and that involves political 
reconciliation, and it just hasn't been happening.
    I'm wondering if you've developed an opinion in the course 
of compiling this report and assessing that the political 
progress has not been adequate, why that has been. I mean, 
their country is at risk of falling apart. They're dying, we're 
dying. Why not the progress? Where's the sense of urgency? 
What's holding this up?
    Mr. Walker. Well, first Senator Bayh, I would not express a 
personal opinion because I don't think it's appropriate to 
separate my position as Comptroller General of the United 
States from my personal opinion. Therefore, to the extent that 
I comment, it will be based upon our work and my personal 
interaction.
    Senator Bayh. I'm just asking for your assessment to the 
extent you have one.
    Mr. Walker. Yes. I think what I would suggest is, the level 
of complexity in Iraq is much greater than the level of 
complexity in the United States with regard to getting things 
done, because of the sectarian differences, because of the 
newness of their Republic, and a variety issues.
    Senator Bayh. Historic enmities, and the cycle of violence, 
and the neighbors intruding, and the list goes on and on and 
on.
    Mr. Walker. We don't have the type of activity in our 
streets, thank God.
    Senator Bayh. Here's the direction I'm going with this 
question. Is it possible, in your opinion, that in spite of our 
best efforts, and the heroic sacrifices of our military and 
others, that since this is ultimately up to them and the 
process of political reconciliation, given the challenges that 
they face, it just may ultimately not be doable for them.
    Mr. Walker. I think only time will tell. I think one of the 
things that one has to keep in mind is that with the Sunnis 
having 20 percent of population, but accustomed to being in 
charge, with the Kurds having 20 percent, and with the Shia 
having 60--of which that's not a single block--they may be, and 
I don't know this for a fact, doing scenario analysis. Each 
group may be doing scenario analysis as to how do we come out 
based on this course of action versus an alternative course of 
action. I can't put myself in their minds.
    Senator Bayh. It would frankly be reassuring to know that 
they were going through such a rational process.
    Mr. Walker. I can't say whether they are or they aren't, 
but that's human.
    Senator Bayh. As I mentioned, this is our third hearing. 
We're going to have one next week. We sit in rooms like this 
and talk about decisions that we make and if we do this what 
will happen, if we do that what will happen. Based upon the 
information you gleaned in the process of putting together this 
very good report, shouldn't we have a fair amount of modesty 
when it comes to our own assessment of our ability to influence 
events there? I mean, based upon your answer to my previous 
question. They're making their calculus and their decision 
based upon a whole lot of factors, in addition to what we do. 
Now, we can affect things, but shouldn't we be a little bit 
modest in our assessment of our ability to drive events in 
Iraq?
    Mr. Walker. I'll say it a little bit differently. We have 
made a difference on the security front, and our military has 
done everything they've been asked to do. We've made a 
difference there. But part of the reason that we've used our 
military in that regard, is to provide the space for political 
progress. Only they can decide that they want national 
reconciliation and do what it takes to make that happen.
    Senator Bayh. Well, let me ask you about that.
    Mr. Walker. So far they haven't. Hopefully they will.
    Senator Bayh. That's what I'm driving at here. Let me ask 
you if you've developed an opinion about what, if anything, we 
can do to expedite the process of reconciliation, to the extent 
we can, which in my own opinion is, we can operate at the 
margins, but ultimately it's up to them. Let me ask you about 
the conundrum that we've wrestled with here. If we stand by 
them in an attempt to build up their security and their 
confidence in the hope that they'll make tough compromises in 
the process of reconciliation, a sense of urgency seems to 
dissipate and they back-off, they have kind of a comfort zone 
there. If on the other hand, we set timelines and insist upon 
consequences for their failure to act, well then they retreat 
into their sectarian corners and begin to prepare for the 
aftermath when we leave. Either way, it seems that our action, 
either staying or threatening to go, doesn't expedite the 
process of political reconciliation. How would you address that 
conundrum?
    Mr. Walker. Let me just say, without getting into details, 
I found that in order to achieve positive results in a 
sustainable fashion, you have to have a framework that deals 
with three things. A plan that provides appropriate goals, 
objectives, metrics and milestones, and incentives for people 
to do the right thing. Second, adequate transparency to provide 
reasonable assurance that people will do the right thing 
because somebody's looking. Third, appropriate accountability 
and consequences if people don't deliver on their commitments. 
I think there's more that can be done with regard to those 
elements here without getting into a lot of detail.
    Senator Bayh. I think that's a very important statement. 
General Jones sitting in the chair that you're occupying today, 
yesterday, said in his opinion he thought that deadlines would 
be counterproductive. I asked him, ``What about consequences, 
what about accountability?'' He's a good man, but there wasn't 
much of a direct answer to that.
    Mr. Walker. I think there's a difference between a 
milestone and a deadline. I mean, there is a fundamental 
difference. When you have goals, objectives, metrics, and 
milestones, if you don't hit the milestones then there should 
be some explanation and accountability for why you didn't, and 
then you'll have to make a judgment as to whether or not things 
are likely to change. That's different.
    Senator Bayh. Let me ask you then. We have these benchmarks 
you've reported on here. Most of them haven't been met, 
correct?
    Mr. Walker. That's correct.
    Senator Bayh. What are the consequences going to be for 
them not having been met?
    Mr. Walker. Yet to be determined.
    Senator Bayh. I think the honest answer is none. None that 
I'm aware of. So we can talk about deadlines or milestones or 
however we want to split that hair, but ultimately there will 
have to be some kind of consequences, as you say, otherwise 
behavior doesn't change. So, we're struggling with what those 
consequences, if any, should be. Some of us have concluded that 
we're long past the time where there at least need to be some, 
otherwise they're not going to take us seriously.
    Mr. Walker. Well, and I think one of the things that this 
committee needs to consider, as well as Congress, is what 
should our goals be, what should our objectives be, what should 
the metrics and milestones be, what type of reporting and 
mechanisms will be there to try to make sure we're making 
progress. But I think one of the subsets is, what should the 
role of our military be? I mean, it's going to be there for a 
while. What should their role be? Consistent with the goals and 
the objectives and all these other factors.
    Senator Bayh. Just a final couple things, Mr. Walker. I 
think your last statement there was very important about the 
three things that you mentioned about how to go about 
influencing behavior there. I hope that we'll adopt as the 
policy of this government, but to date we've been requesting 
and suggesting and pleading and they've given lip service to 
that but nothing has happened. There has to begin to be some 
consequence for that. I think your statement was very 
important.
    Two final quick things. General Jones, yesterday, in his 
testimony indicated the belief that the Iraqi security forces 
over the next--I can't remember the period--6 to 12 months or 
12 to 18 months, over a period of either 6 months to a year and 
a half, would have improved their capability sufficiently that 
we could begin the process of adjusting, redeploying, however 
you want to characterize our presence in Iraq. I asked him 
about his confidence level that they would achieve that 
sometime next year, that would enable us to begin the process 
of redeploying. His expressed in his words ``a high degree of 
confidence'' in that judgment. Do you share that high degree of 
confidence?
    Mr. Walker. Senator, we did not attempt to project forward 
as to what we think is going to happen. That was beyond our 
scope, and I really don't think it's appropriate for me to do 
that.
    Chairman Levin. Senator, if I could interrupt on that 
point.
    At the end of the conversation yesterday with General 
Jones, he made it clear because I asked him to clarify this 
question. In answering the questions that this could happen, 
with a high degree of confidence, in 6 to 12 months, that was 
his task, what could occur in 6 to 12 months. I point blank 
asked him, ``Well couldn't that transition occur sooner than 
that?'' He said, ``Yes. I'm not trying to imply it can't occur 
sooner, but my task was to say what could be achieved in 6 to 
12 months.'' It's a very significant difference. It's like, if 
I asked you, ``Could you be back in Indiana in 6 to 12 
months?'' Your answer would be, ``Sure.'' That's what his 
answer was yesterday. But if the question was, ``Does that mean 
you can't be in Indiana this weekend?'' The answer is, ``No, I 
can be there this weekend, too.''
    Senator Bayh. Perhaps he didn't understand my question. I 
read from the section of his report, quoting the language 
expressing his beliefs that they would achieve that, and asked 
him, ``Well, what's your confidence level in that assessment?'' 
He said he had a high confidence.
    Chairman Levin. That's correct, but that does not suggest 
that it can not occur before 6 to 12 months.
    Senator Bayh. Of course.
    Chairman Levin. Because of what he was tasked to do, that 
was the way it was phrased. I just commend you on the question, 
but also that you get that Q&A with him, so there's not a 
suggestion, which the press kind of picked up, I think, 
erroneously. Well, that means that it could not happen before 6 
to 12 months. That's not what he was saying.
    Senator Bayh. I understand and I agree. Thank you.
    Thank you, Mr. Chairman.
    One last question. Is it possible for you to render an 
opinion about whether the security gains, which our military, 
our forces have secured over the last several months, can 
persist in the absence of political reconciliation? In other 
words, some of us are trying to determine whether the progress 
on the security front that apparently has been achieved is 
transitory or whether it is more permanent. Some of us believe 
that it has set the stage, but without political 
reconciliation--which according to your report, just doesn't 
seem to be happening--it will either be transitory, or it could 
only be maintained with an indefinite commitment of our 
security forces.
    Mr. Walker. Well, the unclassified NIE makes it pretty 
clear the political process is essential in order to ultimately 
achieve the current objectives that are outlined by the 
administration in Iraq. Second, it also shares our concerns 
with regard to the lack of political progress. Furthermore, it 
notes that while the military can make a difference, it can't 
get the job done. One of the issues that, by itself, no matter 
how great of effort they do and no matter what the results are 
there, and they are performing courageously in getting results. 
I think one of the questions you have to ask yourself, and 
potentially General Petraeus next week is, what has happened so 
far on the military front. There has been progress, how much of 
that experience is sustainable and how much of it is 
transferable is not yet known. I think both are relevant and I 
think, obviously, he's on the ground, he's in the best position 
to give you an opinion.
    I come back to what I said before. We need to rethink about 
what the goals ought to be, the objectives, what the metrics 
and milestones should be. We need to have the three elements 
that I talked about. Then when people tell you things, 
periodically you'll come back and find out what actually 
happened, and ask them, ``Why didn't it happen?'' or 
``Congratulations that it did happen,'' or, ``What's the reason 
for the variance?'' and ``What's going to change in the next 3 
months?'' We need to get on a track here so that you can make 
some more informed, timely, and considered judgments.
    Senator Bayh. Thank you, Mr. Walker. That exhausts my 
questions.
    I just want to, again, thank the Chairman and, Senator 
Warner.
    I want to thank you for having performed a real public 
service. Your analytical framework here, the objectivity you've 
brought to this can really help clarify the decisions that we 
need to make. So thank you very much. I'm sure it was a real 
labor for you.
    Mr. Walker. Thank you, Senator Bayh.
    Chairman Levin. Thank you, Senator Bayh.
    Senator Sessions.
    Senator Warner. If I could say something.
    You really framed in your last closing remarks, what is so 
important. You point out the expectations that we had with 
regard to benchmarks, to political reconciliation from the top 
down. That information is now coming up, corroborated, in many 
instances, by the various panels and sources coming before 
Congress. It then goes to the President. With no disrespect 
whatsoever to the President--he's faced with one of the most 
difficult decisions any President has ever faced--namely, one 
of them is that the military witnesses have repeatedly said 
this problem can not be solved by military force, that 
political reconciliation from the top down is an essential 
element. I think there's consensus that top-down political 
reconciliation is no longer a foundation for what strategy we 
begin to pursue in the next months, days, whatever it may be. I 
just hope the President will address this because you used the 
word accountability. The President has to address that very 
question. It is at the heart of what we're trying to determine 
as how America and the other coalition forces, what strategy do 
they follow in the next 6 to 12 months.
    Chairman Levin. Thank you. Senator Sessions?
    Let me interrupt if you're beginning, Senator Sessions. I'm 
going to have to leave. I want to leave with my thanks to you, 
Mr. Walker. Senator Bayh has to leave, so Senator Warner can 
take over while, from here on in and if he leaves, Senator 
Sessions, would you close it off or turn it over to anyone 
else. Thank you so much.
    Senator Warner [presiding]. Thank you, Mr. Chairman, we'll 
do that.
    Chairman Levin. Thank you so much.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, Mr. Walker, for your and GAO's contribution to 
this national discussion that we're having now. We had General 
Jones and his crew yesterday. You now are giving your report. 
We'll have General Petraeus giving his report next week. It's 
appropriate and fitting that this Nation undertake a national 
discussion of Iraq, honestly, with the best information we can 
get and make the tough decisions we have to make that serve our 
national interest, serve the world's interest, our allies, and 
our security and safety of the American people.
    I don't doubt the value of what we're doing. I totally 
support it. I think all of us need to rise above politics and 
we need to try to do the right thing for our country at this 
difficult time. Thank you for participating in this discussion.
    I would tend to agree with Senator Bayh, who says we should 
be somewhat modest about creating a government in an area of 
the world that's never had one before, that's never functioned 
in a decent way before. It's very hard, it's just very hard.
    Let me ask one thing, for the record. You've complimented 
the military on a number of occasions and it's something of 
which I'm proud. They go out every day to execute the policies 
we ask them to execute. They put their lives at risk for us. 
But would you tell us, in the hierarchy of command in Iraq, 
what agencies of our Government are responsible for negotiating 
and encouraging and facilitating political reconciliation in 
Iraq, electricity, water, and that kind of thing.
    Mr. Walker. It depends upon the issue, Senator Sessions. 
Responsibility in Iraq is generally divided primarily between 
DOD and DOS, depending upon what the particular issues are, if 
you will. That's why it's appropriate that you're going to be 
hearing, next week, from both General Petraeus, who's our 
Commander on the ground, but also from Ambassador Crocker.
    Senator Sessions. But the real truth is that it's not our 
military, our DOD that is charged with the primary 
responsibility for working with the Iraqi leaders to assist 
them in creating a more progressive and effective government. 
That's DOS's responsibility.
    Mr. Walker. You raise a good point. One of the concerns 
that we've expressed, based upon our past work, is an adequate 
number of advisors, both from the U.S., as well hopefully from 
the international community, to be able to help Iraq help 
itself be able to stand up a fully-functioning government that 
can deliver reliable electricity, enough safe and potable 
water, safer streets, education, health care. This is really 
important. In many cases what's happened is the military has 
been asked to do things that, quite frankly, they're willing to 
step up to the plate and do what they can, but they don't 
necessarily have the expertise. The fact that you have somebody 
in the uniform doing it, even though it's a non-military 
matter, doesn't necessarily send the right kind of signal, as 
well. So I think you've touched on an important issue that 
we've highlighted in some of our prior work, prior to this 18 
benchmark report.
    Senator Sessions. Well, if you're looking at it from a 
management responsibility, I think you would say that the 
military is making progress--at least I would and General Jones 
did--but the areas that are lagging behind are the 
governmental, which are not the military's primary 
responsibility. I just kind of want to make that point.
    Mr. Walker. I think our report supports that.
    Senator Sessions. Looking at the numbers about violence, 
we've had an upward trend, according to your chart on page 11--
for some time I guess--from January 2006, now to September 
2007, a general upward trend in violence. But it does appear 
that, according to your chart, that maybe about June, in both 
attacks on the coalition and overall attacks, there has been a 
decline. Your report ends in July. Maybe July it begins to 
drop--June, July area--and it does show a rather sharp 
reduction. How far that will continue, I don't know. You did 
not evaluate the month of August, as far as violent trends, did 
you? At least this chart does not.
    Mr. Walker. We asked for data and were briefed on data 
through August 15. We then asked for the data for the month, 
but it is yet to be provided to us. Hopefully it will be 
provided to you, next week, when General Petraeus speaks. As 
you can see, there was a significant decline between June and 
July, but two important notes there. Number one, it was 
primarily attributable to attacks on Coalition forces. In other 
words, that's where most of it was. In the other areas it's 
roughly about the same, civilian and attacks on Iraqi security 
forces. Second, the overall level of violence in July 2007 was 
roughly the same as February 2007.
    I think it's going to be important for you to be able to 
get what the numbers are for August. We also have to keep in 
mind that Ramadan starts this month. Hopefully the past is not 
prologue with regard to Ramadan. In the past, the tendency has 
been for somewhat less violence right before Ramadan and 
escalating violence during Ramadan. Hopefully that won't occur 
this year, but I just note that, because it is an important 
fact that you need to keep in mind.
    Senator Sessions. Well, I certainly don't think these are 
balanced numbers that we should be celebrating, or assuming are 
going to continue indefinitely, this trend downward. But I do 
believe that the numbers will probably show that August 
continued a decline, which is certainly better than showing an 
increase. We ought not to disregard that.
    The administration evaluated benchmarks and you evaluated, 
I guess, their evaluation. Was that required by the mandate?
    Mr. Walker. Well, not really. What they did is, they looked 
at the benchmarks in July, and they evaluated them based upon 
whether or not they felt satisfactory progress was being made. 
We looked at the benchmarks as of August 30, 2007 and 
consistent with the statutory mandate, noted whether or not 
they had met or not met, but used our independent professional 
judgment to be able to also use some partially met ratings. 
Furthermore, consistent with some of the language in our 
mandate, we provided a lot of commentary so you got a sense as 
to what kind of progress was made. Of the ones that were not 
met, was any progress there or not? In many cases there was 
some, but just not a lot.
    Senator Sessions. I think that's fine and I think people 
here are concerned about it and we want the best information 
and multiple sources of information, multiple perspectives, and 
thank you for sharing that. I guess it would be fair to say you 
did not find, in their report, their evaluation, things that 
were plainly false or dishonest in that report?
    Mr. Walker. We didn't evaluate theirs. But what we did do 
is, as I have in one of the exhibits--the last exhibit, I 
believe, that has been provided as part of my testimony--we did 
do a comparative analysis of what we found as of August 30, and 
what the administration asserted as of July.
    Now, presumably they're going to give you a new one next 
week. I would hope that they'll give you a new one next week, 
and we'll see what's changed on theirs between July and 
September.
    Senator Sessions. Well, we have a challenge. I think it's, 
the administration report was not particularly rosy, either. 
This is a difficult challenge for America, that's what I 
understand. I have no doubt of it. It's not going to be easy. 
We need to be able to draw our troop levels down as soon as we 
possibly can, but after we've committed so much, we've worked 
so hard, our soldiers have risked so much, we ought not to do 
it in a way that is unwise, that's precipitous, that acts based 
on politics rather than what's in the long-term national 
interest of America. So, that's where I am. I thank you for 
your contribution to that effort, and my time is up.
    Senator Bill Nelson [presiding]. Thank you.
    Senator Warner. Well, I would say to my distinguished 
colleague, I have a high degree of confidence that we will not 
do anything unwise, respecting any withdrawal policy. We owe it 
to the men and women and their families who've made enormous 
sacrifices. I have confidence that the President would not let 
that happen, and Congress would not let it happen. So, I want 
to conclude on the note that we might have situation which 
would be characterized as an unwise decision.
    Senator Sessions. I would just say that I think the report 
yesterday and the report today reflects a good, honest, 
constructive, bipartisan discussion of a difficult challenge 
this country faces.
    Senator Warner. I observe the presence of our distinguished 
colleague from Florida. The floor is yours if you so like. 
Senator Levin has had to depart.
    Senator Bill Nelson. Well, it looks like I'm the cleanup 
hitter.
    Senator Warner. Well, you've been known to do that before, 
and very admirably. So, take over.
    I thank you very much, and your staff.
    Mr. Walker. Thank you, Senator Warner. Thank you.
    Senator Bill Nelson. Mr. Walker, thank you for your long 
and dedicated public service. Is this a fair statement that 
political reconciliation in Iraq is a key to reducing the 
sectarian violence?
    Mr. Walker. There are a number of authorities that have 
come to that conclusion, to say that that is essential. The 
work that we've done doesn't go forward as to whether or not 
that's likely to happen, but we've noted the importance of 
that, and we've noted the lack of progress, to date, in that 
area.
    Senator Bill Nelson. Certainly that's what General Jones' 
Commission said yesterday. I have certainly thought that it's 
the key to reducing sectarian violence, but I will just give an 
editorial comment here, that having observed what's been going 
on, having been there, having talked to the parties, having 
read a bit of history, in that this sectarian violence has been 
going on for 1,327 years, since the Battle of Karbala in 680 
A.D., that, I just think it's going to be very, very hard for 
political reconciliation. If that is the key to stabilizing 
Iraq, then it seems to me that we have a very difficult time 
ahead of us.
    Now, earlier today, you stated that you think that General 
Petraeus, next week, is going to testify to us that sectarian 
violence is down.
    Mr. Walker. That's correct.
    Senator Bill Nelson. Then the question, as you earlier 
discussed this morning is, what is the definition of sectarian 
violence?
    Mr. Walker. Correct.
    Senator Bill Nelson. As we receive his testimony, how would 
you recommend that we try to determine that?
    Mr. Walker. Well, I think you need to ask him, how does he 
define sectarian violence and what methodology does he use in 
order to try to ascertain the rate of sectarian violence and, 
those are very relevant questions. We could not get comfortable 
with the methodology that is used in determining sectarian 
violence versus non-sectarian violence. We're comfortable with 
overall violence, we're not comfortable with that split.
    As has been mentioned previously in this hearing, that data 
went up, it's now gone down. We haven't been confident with how 
you differentiate during any of the time. So, you should ask 
him.
    Senator Warner. But could I interrupt to clarify?
    Senator Bill Nelson. Certainly.
    Senator Warner. Because at some point, you're talking about 
the methodology that presumably DOD and therefore, General 
Petraeus is going to use.
    Mr. Walker. It's my understanding, Senator Warner, that the 
MNF-I, of which General Petraeus is the commander, is the one 
that maintains this data.
    Senator Warner. Correct.
    Mr. Walker. It's my understanding that's the basis of 
whatever he might testify to.
    Senator Warner. But did you have full access to the 
methodology that they're using?
    Mr. Walker. We did, we were briefed on the methodology. 
We're not comfortable with the methodology and we fully expect 
that it will show a decline.
    Senator Bill Nelson. Let me ask you a couple more questions 
about the readiness of the Iraqi brigades, specifically with 
regard to the Baghdad operations. You looked at that, and you 
came to a conclusion different from the administration. What 
were the different standards of readiness that were used?
    Mr. Walker. Well first, there's additional information, 
Senator Nelson, that's in our classified report that I would 
commend to you on that. Second, with regard to number nine, 
which I presume you're talking about, which is providing three 
standing-ready brigades to support Baghdad. Is that the one 
you're talking about?
    Senator Bill Nelson. Yes, sir.
    Mr. Walker. Okay good. There are three issues there. Number 
one, did they supply the requisite number of troops? The answer 
is yes. The second question is, what was the level of readiness 
of those troops? That is in our classified report. Third, what 
about the reliability of those troops, which in our classified 
report. Reliability meaning things like even though they may 
have the capability, are they willing to execute that 
capability and are they willing to execute that capability in a 
non-sectarian way, in other words, sectarian-neutral manner.
    Senator Bill Nelson. Your conclusion there was?
    Mr. Walker. We had concerns with regard to the last element 
the most, and the second element the next most. So, the troops 
were provided, many of them, in fact, have a high level of 
readiness and that is noted in there. So our concern was really 
more about the reliability issue than it was the readiness 
issue.
    Senator Warner. That's expressed in your classified annex 
to the reports we received?
    Mr. Walker. Correct, Senator Warner.
    Senator Warner. Available to all Senators of the committee 
to examine.
    Senator Bill Nelson. So, in putting that in other words, 
your conclusion would be that those brigades of the Iraqi Army 
in and around Baghdad would not be capable of operating 
independent of the U.S. support?
    Mr. Walker. That's not what we're saying. In fact, when you 
look at the classified material, you'll see the level of 
readiness there. Senator Nelson, there are four levels of 
readiness from level 1 to 4 and I think it'll speak loudly. 
We're not saying that, no.
    Senator Bill Nelson. Well for the public record here, can 
you give an opinion about their ability to operate 
independently of the U.S.?
    Mr. Walker. Yes. The numbers are classified. There are a 
significant number of those units that are in the top 
category--can't say that? Okay. I would commend to you our 
classified report.
    Senator Bill Nelson. Okay. Well, then I would just concur 
with the Chairman and Senator Warner that we need to make that 
classified report public. I understand that the leadership of 
this committee has so requested that of DOD.
    Senator Warner. That's my understanding, that the chairman 
intends to do so--I have read through this, and I think it 
would be beneficial.
    Senator Bill Nelson. Now, are you reading from the 
classified?
    Senator Warner. I'm not going to read from it.
    Senator Bill Nelson. No, no. But I mean that's what you're 
referring to.
    Senator Warner. That's correct.
    Mr. Walker. It has information that is directly relevant to 
your question, Senator Nelson.
    Senator Bill Nelson. It's very important for us to know and 
it's important for the American people to know, because the 
question is, can Iraq do it on their own?
    Mr. Walker. Senator Nelson, earlier when Senator Levin was 
here he said--and I'm sure the very capable staff of this 
committee has probably already taken it down --that by 3 
o'clock today he wanted to know if there was any additional 
information that members, such as yourself, wanted to try to 
seek to have declassified, that is in our classified report. 
Obviously you're noting at least one piece of information you'd 
like to be in that category.
    Senator Bill Nelson. Okay.
    Senator Warner, are you going to adjourn the meeting or am 
I?
    Senator Warner. If I might just ask a question.
    Senator Bill Nelson. Certainly.
    Senator Warner. Then obviously you can, you have the 
authority.
    I've read so much in the last 48 hours in preparation for 
Jones' report and this one, that I can't put my hands on this 
statement in public, that there's a difference in criteria as 
to casualties. When the authorities in Iraq--be it our military 
authorities or local or whatever, find a deceased person in the 
street, which is the unfortunate incident that happens daily, 
unfortunately hundreds of bodies are discovered from time to 
time--some of the metrics being used by certain parts of, I 
presume whether it's the Iraqi Government our Government, but 
I'm going to find out. If the cadaver indicates that loss of 
life was attributed to a bullet that came into the forehead, it 
is put in the category of, should we say murder, wanton murder. 
If the skull is penetrated from the rear by a bullet, then that 
should be put into the category of sectarian violence because 
there's been certain patterns of how sectarian violence has 
been carried out, in terms of rendering death to an individual. 
Have you seen that?
    Mr. Walker. I have not personally seen it, but some of my 
staff has seen it. You're talking about some of the issues that 
are in our classified report. We couldn't get comfortable with 
the methodology.
    Senator Warner. This is in open literature. This is open 
literature.
    Mr. Walker. I understand. I know what you're talking about 
now is open, but there are more details in our classified 
report. You're noting some of the concerns that we have as to 
how can you reliably say that this type of casualty is 
sectarian and this type of casualty isn't?
    Senator Warner. I don't know. I've had some experience in 
the past. I used to be a prosecutor and had to go the morgue a 
number of times to accompany those making analysis. I find that 
a rather curious thing that I'm going to try to get to the 
bottom of. That is what you were pointing out.
    Senator Bill Nelson. I hope you will, Senator Warner.
    Senator Warner. Well, thank you again, very much. As you 
may know, Chuck Bowser occupied your position at one time. He 
and I were in the Navy Secretariat during the war in Vietnam. I 
may have been the Secretary and he the assistant, but I tell 
you, he was a power force and one that was highly respected in 
this profession. You've had a very proud lineage of individuals 
who have taken on these important responsibilities of the GAO. 
I commend you and your staff.
    Mr. Walker. Thank you, Senator Warner. He's a friend and 
obviously my predecessor and I'm pleased to say that as of 
today, Elmer Staats who was his predecessor, is still with us 
and hopefully will be for a while, but, at 93.
    Senator Warner. I remember Elmer Staats, worked with him 
many times during those periods in Vietnam. Thank you very 
much.
    Mr. Walker. Thank you.
    Senator Bill Nelson. The hearing is adjourned.
    Mr. Walker. Thank you, Senator, and I want to just thank 
our staff for the record. Thank you.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                variance between dod and gao methodology
    1. Senator Akaka. Mr. Walker, the media has reported about the 
dispute between the Department of Defense (DOD) and the Government 
Accountability Office (GAO) regarding the accuracy of DOD's claim that 
the ``surge'' has successfully resulted in a reduction in violence. Can 
you elaborate on the differences in the methodologies used by DOD and 
GAO to estimate the levels of violence in Iraq?
    Mr. Walker. According to the administration's September 2007 report 
to Congress, MNF-I data showed a decrease in sectarian violence, 
particularly in Baghdad, since the start of the Baghdad security plan. 
The report concluded that the Iraqi government, with substantial 
coalition assistance, had made satisfactory progress toward reducing 
sectarian violence. However, GAO could not reliably determine whether 
sectarian violence in Iraq had been reduced because measuring such 
violence requires understanding the perpetrator's intent, which may not 
be known. Instead, it would be useful to consider broader measures of 
population security when assessing levels of violence in Iraq. For 
example, the number of attacks targeting civilians and population 
displacement resulting from sectarian violence may serve as additional 
indicators. As we reported in our September 2007 benchmark report, the 
average number of daily enemy-initiated attacks against civilians 
remained high relative to attacks on coalition forces. In addition, as 
we reported in October 2007,\1\ the decrease in total average daily 
attacks through September is largely due to a decrease in attacks on 
coalition forces rather than civilians.
---------------------------------------------------------------------------
    \1\  GAO, Securing, Stabilizing, and Rebuilding Iraq: GAO Audits 
and Key Oversight Issues, GAO-08-231T (Washington, DC: Oct. 30, 2007).
---------------------------------------------------------------------------
    Our benchmark report also noted that the violence in Iraq has 
resulted in a large number of Iraqis displaced from their homes. A 
report by the Iraqi Red Crescent Organization found that internally 
displaced persons increased from about 499,000 in February 2007 to 
about 1,128,000 in July 2007. The United Nations High Commissioner for 
Refugees (UNHCR) estimated that an additional 1.8 million Iraqi 
citizens were displaced to nearby countries, primarily to Jordan, 
Syria, Lebanon, Iran, and Egypt. The UNHCR predicted that 40,000 to 
50,000 people will continue to be displaced each month even if the 
security plan succeeds in solving the displacement problem. Currently, 
the number of displaced persons is increasing at an average of 80,000 
to 100,000 each month, according to the Red Crescent. The August 2007 
National Intelligence Estimate for Iraq also stated that population 
displacement resulting from sectarian violence continues, imposing 
burdens on provincial governments and some neighboring states. Where 
population displacements have led to significant sectarian separation, 
according to the August 2007 National Intelligence Estimate, conflict 
levels have diminished to some extent because warring communities find 
it more difficult to penetrate communal enclaves.

    2. Senator Akaka. Mr. Walker, in your opinion, is the DOD 
methodology for evaluating the levels of violence in Iraq inadequate 
for the purpose of identifying trends in the level of violence? If not, 
why not?
    Mr. Walker. As previously stated, it is inherently difficult to 
judge trends in sectarian violence because this requires an 
understanding of the perpetrator's intent, which may not be known. 
Instead, as discussed in question 1, broader measures of population 
security should be considered when assessing trends in violence in 
Iraq. For example, as we reported in September 28, 2007, MNF-I data on 
enemy initiated attacks provide a reasonably sound depiction of general 
security trends. However, according to the DIA, the incidents captured 
in military reporting do not account for all violence throughout Iraq, 
such as incidents of Shi'a militias fighting each other or attacks 
against Iraqi security forces in southern Iraq.

    3. Senator Akaka. Mr. Walker, General Petraeus indicated in his 
testimony on September 11, 2007, that the current methodology has been 
used for over a year, which implies that the methodology was changed 
just prior to the surge. Did GAO's auditors find evidence that DOD had 
revised either its methodology for estimating violence or its 
definitions of the different types of violence? If so, what was DOD's 
explanation for the revising the methodology?
    Mr. Walker. The methodology we assessed took effect in August 2006. 
We did not assess the methodology used prior to this time.

    4. Senator Akaka. Mr. Walker, does the change in DOD methodology 
prevent comparisons of the recent data against data from previous 
years?
    Mr. Walker. We have no basis for responding to this question as we 
did not assess the previous methodologies used to assess trends in 
sectarian violence.

                       effectiveness of the surge
    5. Senator Akaka. Mr. Walker, as noted in GAO's report, the purpose 
of the surge was to reduce sectarian violence and provide the Iraqi 
government with breathing room to allow them to address political 
reconciliation. The benchmarks evaluated in this report were identified 
by the Iraqi government in June 2006. In theory, we should have seen 
the Iraqi government become more effective once the surge started. 
Instead, it seems that several groups have recently, or are currently, 
boycotting the government. It seems to me that its unclear as to 
whether they can really accomplish anything right now. Can you tell us 
how many of the benchmarks that have been completed or partially 
completed were accomplished by the Iraqi government since the arrival 
of additional troops for the surge in February of this year? In other 
words, did we see any improvement in the government's performance once 
the surge started?
    Mr. Walker. As we recently reported,\2\ the Iraqi government has 
made limited progress in meeting eight legislative benchmarks intended 
to promote national reconciliation. As of October 25, 2007, the Iraqi 
Government had met one legislative benchmark and partially met another. 
Specifically, the rights of minority political parties in the Iraqi 
legislature were protected through existing provisions in the Iraqi 
Constitution and Council of Representatives' by-laws. In addition, the 
Iraqi Government partially met the benchmark to enact and implement 
legislation on the formation of regions; this law was enacted in 
October 2006 but will not be implemented until April 2008.
---------------------------------------------------------------------------
    \2\ GAO-08-231T.
---------------------------------------------------------------------------
    The benchmark requiring a review of the Iraqi Constitution has not 
yet been met. Fundamental issues remain unresolved as part of the 
constitutional review process, such as expanded powers for the 
presidency, the resolution of disputed areas (such as Kirkuk), and 
power sharing between Federal and regional governments over issues such 
as the distribution of oil revenue. In addition, five other 
legistlative benchmarks requiring parliamentary action have not yet 
been met.

    6. Senator Akaka. Mr. Walker, would you provide a copy of Figures 1 
and 2 from the report revised to show the completion dates for each 
item shown as complete?
    Mr. Walker. Figure 1 - The electoral commission legislation was 
passed in January 2007.
    Figure 2 - Committees were established in support of the Baghdad 
Security Plan in February 2007.
    Figure 2 - Joint security stations were established by August 2007.

                    change of definition of success
    7. Senator Akaka. Mr. Walker, footnote 4 for Benchmark 15, ``Iraqi 
Security Forces Operating Independently'' states, ``In 2006, 
Multinational Forces-Iraq (MNF-I) changed the definition of a Level 1 
unit. Previously, in guidance provided to coalition transition teams 
for use in evaluating Iraqi security forces, a Level 1 unit was said to 
be fully capable of planning, executing, and sustaining independent 
operations. In 2006, MNF-I removed the words 'fully' and 'independent' 
from the definition. DOD officials could not provide a rationale for 
the change.'' Although DOD could not provide an explanation for the 
change, did GAO determine the net effect on the performance metric? In 
other words, did the number of Level 1 units go up or down as a result 
of the change?
    Mr. Walker. GAO did not determine how the change in definition 
affected the performance metric. As of September 2007, MNF-I reported 
that only about 10 of 140 units of the Iraqi security forces are 
capable of operating independently.

    8. Senator Akaka. Mr. Walker, when was the change implemented?
    Mr. Walker. The new definition of a level-1 unit was implemented in 
April 2006.

                          iraq budget spending
    9. Senator Akaka. Mr. Walker, during the hearing, I pointed out 
that GAO's report states that the Iraqi government has provided $10 
billion in its current budget for reconstruction projects, including 
delivery of essential services on an equitable basis, but that it is 
unlikely to be spent by the end of the year. In addition, as of July 
31, the Iraqi government had only spent about $1.5 billion of the 
allocated funds. One of the questions I asked you during the hearing 
was if you could you describe some of the key projects that will likely 
not be accomplished if the Iraqi government's spending continues at the 
current pace. Consistent with your response to my question, could you 
please provide more specific information on the types of projects not 
being accomplished due to the Iraqi government's inability to spend 
their budgeted resources?
    Mr. Walker. As we reported in our May 2007 report, Rebuilding Iraq: 
Integrated Strategic Plan Needed to Help Restore Iraq's Oil and 
Electricity Sectors (GAO-07-677), the energy sector is critical for 
Iraq's economy and for rebuilding the country and the Ministries of Oil 
and Electricity have budgeted substantial sums for future 
reconstruction. Experts estimate that over the next few years $27 
billion will be needed for the electricity sector to keep up with 
needed demand and S20 to $30 billion will be needed for the oil sector 
to reach production goals. Although significant funds have been 
allocated to the Ministries of Oil and Electricity for critical 
infrastructure repair, the ministries have had persistent difficulties 
spending these funds on critical oil and electricity sector projects 
due to poor procurement and budgeting practices, and the ``brain 
drain'' resulting from high levels of violence in Iraq.
                                 ______
                                 
    [Annex: The report from Government Accountability Office, 
``Securing, Stabilizing, and Rebuilding Iraq,'' follows:]
[GRAPHIC] [TIFF OMITTED] 38716.001

[GRAPHIC] [TIFF OMITTED] 38716.002

[GRAPHIC] [TIFF OMITTED] 38716.003

[GRAPHIC] [TIFF OMITTED] 38716.004

[GRAPHIC] [TIFF OMITTED] 38716.005

[GRAPHIC] [TIFF OMITTED] 38716.006

[GRAPHIC] [TIFF OMITTED] 38716.007

[GRAPHIC] [TIFF OMITTED] 38716.008

[GRAPHIC] [TIFF OMITTED] 38716.009

[GRAPHIC] [TIFF OMITTED] 38716.010

[GRAPHIC] [TIFF OMITTED] 38716.011

[GRAPHIC] [TIFF OMITTED] 38716.012

[GRAPHIC] [TIFF OMITTED] 38716.013

[GRAPHIC] [TIFF OMITTED] 38716.014

[GRAPHIC] [TIFF OMITTED] 38716.015

[GRAPHIC] [TIFF OMITTED] 38716.016

[GRAPHIC] [TIFF OMITTED] 38716.017

[GRAPHIC] [TIFF OMITTED] 38716.018

[GRAPHIC] [TIFF OMITTED] 38716.019

[GRAPHIC] [TIFF OMITTED] 38716.020

[GRAPHIC] [TIFF OMITTED] 38716.021

[GRAPHIC] [TIFF OMITTED] 38716.022

[GRAPHIC] [TIFF OMITTED] 38716.023

[GRAPHIC] [TIFF OMITTED] 38716.024

[GRAPHIC] [TIFF OMITTED] 38716.025

[GRAPHIC] [TIFF OMITTED] 38716.026

[GRAPHIC] [TIFF OMITTED] 38716.027

[GRAPHIC] [TIFF OMITTED] 38716.028

[GRAPHIC] [TIFF OMITTED] 38716.029

[GRAPHIC] [TIFF OMITTED] 38716.030

[GRAPHIC] [TIFF OMITTED] 38716.031

[GRAPHIC] [TIFF OMITTED] 38716.032

[GRAPHIC] [TIFF OMITTED] 38716.033

[GRAPHIC] [TIFF OMITTED] 38716.034

[GRAPHIC] [TIFF OMITTED] 38716.035

[GRAPHIC] [TIFF OMITTED] 38716.036

[GRAPHIC] [TIFF OMITTED] 38716.037

[GRAPHIC] [TIFF OMITTED] 38716.038

[GRAPHIC] [TIFF OMITTED] 38716.039

[GRAPHIC] [TIFF OMITTED] 38716.040

[GRAPHIC] [TIFF OMITTED] 38716.041

[GRAPHIC] [TIFF OMITTED] 38716.042

[GRAPHIC] [TIFF OMITTED] 38716.043

[GRAPHIC] [TIFF OMITTED] 38716.044

[GRAPHIC] [TIFF OMITTED] 38716.045

[GRAPHIC] [TIFF OMITTED] 38716.046

[GRAPHIC] [TIFF OMITTED] 38716.047

[GRAPHIC] [TIFF OMITTED] 38716.048

[GRAPHIC] [TIFF OMITTED] 38716.049

[GRAPHIC] [TIFF OMITTED] 38716.050

[GRAPHIC] [TIFF OMITTED] 38716.051

[GRAPHIC] [TIFF OMITTED] 38716.052

[GRAPHIC] [TIFF OMITTED] 38716.053

[GRAPHIC] [TIFF OMITTED] 38716.054

[GRAPHIC] [TIFF OMITTED] 38716.055

[GRAPHIC] [TIFF OMITTED] 38716.056

[GRAPHIC] [TIFF OMITTED] 38716.057

[GRAPHIC] [TIFF OMITTED] 38716.058

[GRAPHIC] [TIFF OMITTED] 38716.059

[GRAPHIC] [TIFF OMITTED] 38716.060

[GRAPHIC] [TIFF OMITTED] 38716.061

[GRAPHIC] [TIFF OMITTED] 38716.062

[GRAPHIC] [TIFF OMITTED] 38716.063

[GRAPHIC] [TIFF OMITTED] 38716.064

[GRAPHIC] [TIFF OMITTED] 38716.065

[GRAPHIC] [TIFF OMITTED] 38716.066

[GRAPHIC] [TIFF OMITTED] 38716.067

[GRAPHIC] [TIFF OMITTED] 38716.068

[GRAPHIC] [TIFF OMITTED] 38716.069

[GRAPHIC] [TIFF OMITTED] 38716.070

[GRAPHIC] [TIFF OMITTED] 38716.071

[GRAPHIC] [TIFF OMITTED] 38716.072

[GRAPHIC] [TIFF OMITTED] 38716.073

[GRAPHIC] [TIFF OMITTED] 38716.074

[GRAPHIC] [TIFF OMITTED] 38716.075

[GRAPHIC] [TIFF OMITTED] 38716.076

[GRAPHIC] [TIFF OMITTED] 38716.077

[GRAPHIC] [TIFF OMITTED] 38716.078

[GRAPHIC] [TIFF OMITTED] 38716.079

[GRAPHIC] [TIFF OMITTED] 38716.080

[GRAPHIC] [TIFF OMITTED] 38716.081

[GRAPHIC] [TIFF OMITTED] 38716.082

[GRAPHIC] [TIFF OMITTED] 38716.083

[GRAPHIC] [TIFF OMITTED] 38716.084

[GRAPHIC] [TIFF OMITTED] 38716.085

[GRAPHIC] [TIFF OMITTED] 38716.086

[GRAPHIC] [TIFF OMITTED] 38716.087

[GRAPHIC] [TIFF OMITTED] 38716.088

[GRAPHIC] [TIFF OMITTED] 38716.089

[GRAPHIC] [TIFF OMITTED] 38716.090

[GRAPHIC] [TIFF OMITTED] 38716.091

[GRAPHIC] [TIFF OMITTED] 38716.092

[GRAPHIC] [TIFF OMITTED] 38716.093

[GRAPHIC] [TIFF OMITTED] 38716.094

[GRAPHIC] [TIFF OMITTED] 38716.095

[GRAPHIC] [TIFF OMITTED] 38716.096

[GRAPHIC] [TIFF OMITTED] 38716.097

[GRAPHIC] [TIFF OMITTED] 38716.098

[GRAPHIC] [TIFF OMITTED] 38716.099

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    [Whereupon, at 11:44 a.m., the committee adjourned.]


 THE SITUATION IN IRAQ AND PROGRESS MADE BY THE GOVERNMENT OF IRAQ IN 
                           MEETING BENCHMARKS

                              ----------                              


                      TUESDAY, SEPTEMBER 11, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:14 p.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Byrd, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, 
Clinton, Pryor, Webb, McCaskill, McCain, Warner, Inhofe, 
Sessions, Collins, Chambliss, Graham, Dole, Cornyn, Thune, 
Martinez, and Corker.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Brian F. Sebold, receptionist.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; Creighton Greene, professional staff member; Mark R. 
Jacobson, professional staff member; Michael J. McCord, 
professional staff member; William G.P. Monahan, counsel; 
Michael J. Noblet, research assistant; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
Derek J. Maurer, minority counsel; David M. Morriss, minority 
counsel; Lucian L. Niemeyer, professional staff member; 
Christopher J. Paul, professional staff member; Lynn F. Rusten, 
professional staff member; and Dana W. White, professional 
staff member.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Jessica L. Kingston.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; David E. Bonine and 
James Tuite, assistants to Senator Byrd; Frederick M. Downey 
and Vance Serchuk, assistants to Senator Lieberman; Richard 
Kessler, assistant to Senator Akaka; Christopher Caple, 
assistant to Senator Bill Nelson; Jon Davey, assistant to 
Senator Bayh; Andrew Shapiro, assistant to Senator Clinton; 
Terri Glaze, assistant to Senator Pryor; Gordon I. Peterson and 
Michael Sozan, assistants to Senator Webb; Stephen C. Hedger, 
assistant to Senator McCaskill; Richard H. Fontaine, Jr., 
assistant to Senator McCain; Sandra Luff, assistant to Senator 
Warner; Anthony J. Lazarski, assistant to Senator Inhofe; 
Lenwood Landrum and Todd Stiefler, assistants to Senator 
Sessions; Jan Alonso and Mark J. Winter, assistants to Senator 
Collins; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Lindsey Neas, assistant to Senator Dole; David Hanke and 
Russell J. Thomasson, assistants to Senator Cornyn; Stuart C. 
Mallory, assistant to Senator Thune; Brian W. Walsh, assistant 
to Senator Martinez; and Paul B. Palagyi and Bradford T. 
Sellers, assistants to Senator Corker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. Today we welcome 
General Petraeus and Ambassador Crocker for their update on the 
situation in Iraq. We thank both of you for your service to 
this country, the men and women that you both command and lead. 
You're doing so under very, very difficult circumstances. We 
ask both of you to pass along to the men and women who you do 
lead in this endeavor, our heartfelt thanks, particularly those 
who risk their lives on a daily basis.
    While people here have different views on the war and will 
continue to vigorously debate the strategy, tactics, and 
policies relating to the war--we are united in our admiration 
and appreciation for those who serve there, for their families 
who love them, and who support them.
    There's much disagreement relative to the facts on the 
ground in Iraq, on the issue of whether or not the surge has 
produced significant progress in terms of security. Recent 
public opinion polls in Iraq indicate that Iraqi citizens feel 
even less secure than before the surge.
    According to an ABC News analysis, ``The surge broadly is 
seen to have done more harm than good, with 65 to 70 percent of 
Iraqis saying it's worsened rather than improved security in 
surge areas, security in other areas, conditions for political 
dialogue, the ability of the Iraqi Government to do its work, 
the pace of reconstruction, and the pace of economic 
development.'' Is Baghdad, itself, actually safer for citizens 
to go about their normal business? Or are large sectors of 
Baghdad, in electricity and fuel distribution, controlled by 
the Mahdi Army and neighborhood militias as detailed in last 
Sunday's New York Times?
    While the facts relating to security are debated and are 
debatable, there seems to be little dispute on three key points 
that go to the heart of the matter.
    First, the stated purpose of the surge, to give Iraqi 
politicians breathing space to work out a political settlement, 
has not been achieved.
    Second, there will be no end to violence until Iraqi's 
national leaders work out their political differences. As the 
Commission headed by General Jones reported last week, 
political reconciliation is the key to ending sectarian 
violence in Iraq.
    Third, the Iraqi politicians haven't done that. They 
haven't kept the commitments that they made a year ago, to set 
the date for provincial elections, to approve a hydrocarbon 
law, to approve a de-Baathification law, and to submit 
constitutional amendments to a referendum.
    General Petraeus said 3 years ago that Iraqi political 
leaders were, ``Stepping forward, leading their country 
courageously and making progress,'' in his words. Well, if they 
were, progress sure has stalled politically.
    Ambassador Crocker told Congress yesterday and today that 
Iraqi leaders have the ``will'' to tackle the nation's pressing 
problems and ``approach the task with the deep sense of 
commitment and patriotism,'' even though those leaders ignore 
their own benchmarks. The Ambassador inappropriately compares 
Iraq's sectarian strife and slaughter to this Nation's Civil 
Rights movement.
    So the administration's message to Iraqi leaders continues 
to be that they're doing just fine. That's exactly the wrong 
message to send the leaders who dawdle while their nation is 
torn apart by sectarian strife and while their people are 
killed and forcibly ejected by sectarian militias or killed if 
they refuse to be ethnically cleansed. The Iraqi politicians 
dawdle while our casualties and our expenditures keep climbing.
    The Government Accountability Office (GAO) told us last 
week that most of the key promises of Iraq's political leaders, 
the benchmarks that they set for themselves, with relevant 
timetables, have been ignored by those leaders.
    On January 14 of this year, President Bush said, ``America 
will hold the Iraqi Government to the benchmarks that it has 
announced.'' Those words ring hollow. There have been no 
consequences for the Iraqi political leaders' failures to do 
what President Bush said they must do. Year after year, the 
President and the administration have touted progress in Iraq 
and called for patience.
    It has been a litany of delusion. Just listen to President 
Bush's repeated claims of progress. October 2003, he said, 
``We're making progress about improving the lives of people 
there in Iraq.'' September 2004, the President said, ``We're 
making steady progress in implementing our five-step plan.'' In 
October 2005, the President said, ``Iraq has made incredible 
political progress.'' In May 2006, the President said, ``We're 
making progress on all fronts.'' In March of this year, the 
President said, ``There's been good progress.'' On July 4, the 
President said that, ``Victory in this struggle will require 
more patience.''
    Well, there's been little progress on the political front 
and the American people's patience with Iraq's political 
leaders has run out. Success in Iraq depends on Iraqi leaders 
finally seeing the end of the open-ended American commitment. 
Success depends on doing what James Baker, Lee Hamilton, and 
the rest of the Iraq Study Group said we should have done a 
year a ago, that the United States ``should not make an open-
ended commitment to keep large numbers of American troops 
deployed in Iraq. If the Iraqi Government does not make 
substantial progress toward the achievement of milestones on 
national reconciliation, security, and governance, the United 
States should reduce its political, military, or economic 
support for the Iraqi Government.'' That was before the surge 
level was increased.
    Success also depends on a transition of missions. According 
to the Iraq Study Group, ``By the first quarter of 2008, 
subject to unexpected developments in the security situation on 
the ground, all combat brigades not necessary for force 
protection could be out of Iraq.'' At that time, the Iraq Study 
Group said, ``U.S. combat forces in Iraq could be deployed only 
in units embedded with Iraqi forces, in rapid reaction and 
special operations teams, and in training, equipping, advising, 
force protection, and search and rescue.''
    Finally, presenting Iraq's political leaders with a 
timetable for transition of our forces, from mainly combat to 
mainly support roles, as opposed to a timetable for ending the 
surge--which is a fact of life, which is going to happen by 
necessity anyway--presenting those political leaders with a 
timetable for transition is the only hope that Iraqi leaders 
will realize that their future is in their hands, not in the 
hands of our brave men and women who proudly wear America's 
uniform.
    Establishing a timetable for the transition of missions 
will also recognize another fact of life, that the stress on 
our forces, especially the wear and tear on the Army and Marine 
Corps, must be reduced. Telling the Iraqis that the surge will 
end by the middle of next year, and then we will make a 
decision as to whether to reduce our troop level from the basic 
pre-surge level of 130,000, does not change our course in Iraq. 
It presents an illusion of change to prevent a real change of 
course from occurring. It is aimed at taking the steam out of 
the engine of change.
    I hope we are not deterred from continuing to press for 
true change and that the momentum for true change of course is 
not diffused. It must continue until, by our deeds, we get the 
Iraqi political leaders to understand, that for our security 
and theirs, the American presence in Iraq needs to be 
significantly reduced after 4\1/2\ years of U.S. sacrifice, and 
that the future of their country is in their own hands.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman.
    I want to thank the witnesses. All of us are aware that 
you've been literally nonstop testifying for the last day and a 
half, and we thank you for your willingness, not only to 
discuss with Congress, but with the American people, this very 
critical issue.
    With your testimony, a debate of historic proportions 
begins in the United States Congress. The choices that we make 
now, whether to build on the success of the surge and fight for 
additional gains, or whether to set a date for American 
surrender in Iraq, will affect the security of all our 
countrymen for decades to come.
    As we all know, the American people are saddened, 
frustrated, and angry over our past failures in Iraq. I, too, 
have been made sick at heart by the terrible price we've paid 
for nearly 4 years of mismanaged war. Some of us, from the 
beginning, warned against the Rumsfeld strategy of too few 
troops, insufficient resources, and a plan predicated on hope, 
rather than on the difficult business of stabilization and 
counterinsurgency.
    We lost years to that strategy and we lost that which is 
most precious to us--the lives of the brave men and women who 
fight on our behalf.
    But the question today is not whether we can recover those 
4 years--we cannot--but whether we end this effort in 
frustration and accept thereby the terrible consequences that 
will ensue. I believe we cannot choose to lose in Iraq and I 
will do everything in my power to see that our commanders in 
Iraq have the time and support they request to win this war.
    The distinguished strategist Ralph Peters summed up the 
state of affairs well in a column today, noting that Congress's 
failure to support General Petraeus, ``would be a shame, since 
after nearly 4 years of getting it miserably wrong in Iraq, 
we're finally getting it right.''
    We're getting it right, because we finally have in place a 
strategy that can succeed. A counterinsurgency strategy which 
some of us have argued we should have been following from the 
beginning, which makes the most effective use of our strength, 
and does not strengthen the tactics of our enemy.
    We must, as General Petraeus intends, keep this strategy in 
place. It is the only approach that has resulted in real 
security improvements in Iraq.
    Anyone who has traveled recently to Anbar, or Diyala, or to 
Baghdad can see the improvements that have taken place over the 
past months. As our witnesses will testify, violence is down, 
commerce is on the rise, and the bottom-up efforts to forge 
counter-terrorism alliances are bearing tangible fruit.
    There are many challenges remaining, and the road ahead is 
long and tough. The Maliki Government has not seized the 
opportunity presented by our efforts to move ahead with 
reconciliation, and is not functioning as it must. Violence, 
having declined significantly, remains high.
    As Ambassador Crocker has noted, no one can be certain of 
success. We can be sure, however, that should the United States 
Congress succeed in legislating a date for withdrawal, and thus 
surrender, then we will fail for certain.
    Make no mistake, the consequences of American defeat in 
Iraq will be terrible and long-lasting. There is, in some 
corners, a belief that we can simply turn the page in Iraq, 
come home, and move onto other things. This is dangerously 
wrong.
    If we surrender in Iraq, we will be back in Iraq, and 
elsewhere, in many more desperate fights to protect our 
security, and at even greater cost in American lives and 
treasure.
    Last week, General Jim Jones testified before this 
committee and outlined what he believes to be the consequences 
of such a course. A precipitous departure which results in a 
failed state in Iraq, he said, will have a significant boost in 
the number of extremist jihadists in the world, who will 
believe that they will have toppled a major power on earth, and 
that all else is possible. I think it will only make us less 
safe, it will make our friends and allies less safe, and the 
struggle will continue. It will simply be done in different, 
and other, areas.
    Some Senators would like to withdraw our troops from Iraq 
so we can get back to fighting what they believe to be the 
``real'' war on terror, which is taking place somewhere else. 
This too is inaccurate. Iraq has become the central front in 
the global war on terror, and failure there would turn Iraq 
into a terrorist sanctuary in the heart of the Middle East, and 
a host for jihadists planning attacks on America. The region 
could easily descend into chaos, wider war and genocide, and we 
should have no doubt about who will take advantage.
    The Iranian President has stated his intentions bluntly, 
saying, ``Soon we will see a huge power vacuum in the region. 
Of course, we are prepared to fill the gap.'' We cannot allow 
an Iranian-dominated Middle East to take shape in the context 
of a wider war and terrorist safe havens. All of us want our 
troops to come home, but we should want them to return to us 
with honor--the honor of victory that is due all of those who 
have paid the ultimate sacrifice.
    General Petraeus and his troops ask just two things of us: 
the time to continue this strategy, and the support they need 
to carry out their mission. They must have both, and we should 
fight to ensure that they do.
    Soon this debate will move from hearing rooms to the Senate 
floor, where we'll see again attempts to legislate a withdrawal 
from Iraq. Given the enormous human and strategic costs such a 
defeat would impose on Iraq, the region, and Americans for 
years to come, Congress must not choose to lose in Iraq. I will 
do everything in my power to ensure that we do not.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Our welcome to both of you, our thanks to both of you, and 
to your families that provide essential support for you in 
extraordinarily difficult circumstances in which you both work.
    We're indebted to you for your appearance here today, and 
for the fact that this is the third of three long hearings for 
you.
    General Petraeus?

      STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, 
                    MULTINATIONAL FORCE-IRAQ

    General Petraeus. Thank you, Mr. Chairman, Senator McCain, 
members of the committee, thank you for the opportunity to 
provide my assessment of the security situation in Iraq.
    Chairman Levin. May I interrupt you for one moment?
    General Petraeus. Yes, sir.
    Chairman Levin. If you choose, both of you, or each of you, 
may reduce and summarize, if you so choose, because of the fact 
that your statements have been given in full before the other 
committees. I'm not asking you to do that, we'll leave that up 
to you.
    General Petraeus. Mr. Chairman, I've actually cut it down a 
bit.
    Chairman Levin. All right. [Laughter.]
    It didn't take much suggesting, then, to do that.
    General Petraeus. But it's still----
    Chairman Levin. That's fine--do it as you wish.
    General Petraeus. Thank you for the opportunity to provide 
my assessment of the security situation in Iraq, and to discuss 
the recommendations I have provided to my chain of command for 
the way forward.
    As I stated in testimony to the two House committees 
yesterday, and to the Senate Foreign Relations Committee this 
morning, this is my testimony. Although I have briefed my 
assessment and the recommendations in it to my chain of 
command, I wrote this statement myself, and did not clear it 
with anyone in the Pentagon, the White House, or Congress.
    Today, I will provide a summary of the full written 
testimony to each of you, and for the record. As a bottom line, 
upfront, the military objectives of the surge are, in large 
measure, being met. In recent months, in the face of tough 
enemies, and the brutal summer heat of Iraq, coalition and 
Iraqi security forces have achieved progress in the security 
arena.
    Though improvements have been uneven across Iraq, the 
overall number of security incidents has declined in 8 of the 
past 12 weeks. During this time, ethno-sectarian violence has 
also been reduced, and the number of overall civilian deaths 
has declined, although both are clearly still at troubling 
levels.
    The progress is a result of many factors--coalition and 
Iraqi forces have dealt significant blows to al Qaeda-Iraq, and 
have disrupted Shiite militia extremists.
    Additionally, in a very significant development, we and our 
Iraqi partners are being assisted by tribes and local citizens 
who are rejecting extremism, and choosing to help secure Iraq.
    Iraqi security forces have also continued to grow, and to 
shoulder more of the load--albeit slowly--and amid continuing 
concerns about the sectarian tendencies of some elements in 
their ranks.
    Based on all of this, and on the further progress we 
believe we can achieve over the next few months, I believe that 
we will be able to reduce our forces to the pre-surge level of 
brigade combat teams by next summer, withdrawing one-quarter of 
our combat brigades by that time, without jeopardizing the 
security gains that we have fought so hard to achieve.
    Beyond that, while noting that the situation in Iraq 
remains complex, difficult, and sometimes downright 
frustrating, I also believe that it is possible for us to 
achieve our objectives in Iraq over time, though doing so will 
be neither quick, nor easy.
    Having provided that summary, I would like to review the 
nature of the conflict in Iraq, recall the situation before the 
surge, describe the current situation, and explain the 
recommendations I have provided to my chain of command.
    The fundamental source of the conflict in Iraq is 
competition among ethnic and sectarian communities for power 
and resources. This competition will take place. The question 
is whether it is resolved more, or less, violently.
    This chart shows the security challenges in Iraq--foreign 
and home-grown terrorists, insurgents, militia extremists and 
criminals all push the ethno-sectarian competition toward 
violence.
    Malign actions by Syria, and especially by Iran, fuel that 
violence, and lack of adequate governmental capacity, lingering 
sectarian mistrust, and various forms of corruption add to the 
challenges.
    In January 2007, in response to the horrific ethno-
sectarian violence that spiraled out of control in 2006, and to 
an assessment in December 2006 that we were failing to achieve 
our objectives, a surge of forces began flowing into Iraq, 
focusing on protecting the population, and reducing sectarian 
violence, especially in Baghdad.
    In so doing, these forces have employed counterinsurgency 
practices, such as living among the people they are securing. 
In mid-June, with all of the surge brigades in place, we 
launched a series of offensive operations in partnership with 
Iraqi security forces. These operations focused on expanding 
the gains achieved in the preceding months in Anbar Province, 
pursuing al Qaeda in the Diyala River Valley and several other 
areas, clearing Baqubah, several key Baghdad neighborhoods, the 
remaining sanctuaries in Anbar Province, and important areas 
around Baghdad. With coalition and Iraqi forces located among 
the populations they are securing, we have sought to keep areas 
clear, and to help Iraqis in rebuilding them.
    All the while, we have engaged in dialogue with insurgent 
troops and tribes, leading to additional elements standing up 
to oppose al Qaeda and other extremists.
    The progress our forces have achieved with our Iraqi 
counterparts has--as I noted at the outset--been substantial. 
While there have been setbacks, as well as successes, and tough 
losses along the way, overall our tactical commanders see 
improvements in the security environment.
    We do not, however, just rely on gut feeling or personal 
observations. To gauge progress and determine trends, we also 
conduct rigorous and consistent data collection and analysis. 
In fact, two U.S. intelligence agencies recently reviewed our 
methodology, and concluded that the data we produce is the most 
accurate and authoritative in Iraq.
    As I mentioned up front, and as the chart before you 
reflects, the level of security incidents has decreased 
significantly, since the start of the surge of offensive 
operations in mid-June, declining in 8 of the past 12 weeks 
with the level of incidents in the past 2 weeks the lowest 
since June 2006.
    Civilian deaths of all categories, less natural causes, 
have also declined considerably, by over 45 percent Iraq-wide, 
since the height of the sectarian violence in December. This is 
shown by the top line on this next chart, and the decline by 
some 70 percent in Baghdad is shown in the bottom line.
    Periodic mass casualty attacks--car bombs by al Qaeda--have 
tragically added to the numbers, outside Baghdad, in 
particular. Even without the sensational attacks, however, the 
level of civilian deaths is of serious concern.
    As the next chart shows, the number of ethno-sectarian 
deaths, an important subset of the overall civilian casualty 
figures, has also declined significantly since the height of 
the sectarian violence in December. Iraq-wide, as shown by the 
top line on this chart, ethno-sectarian deaths have come down 
by over 55 percent.
    In Baghdad, as the bottom line shows, ethno-sectarian 
deaths have declined by some 80 percent since December. This 
chart also displays the density of sectarian incidents in 
various Baghdad neighborhoods, and it both reflects the 
progress made in reducing ethno-sectarian violence, and 
identifies the area where more work must be done.
    As we have gone on the offensive in former al Qaeda and 
insurgent sanctuaries, and as locals have increasingly 
supported our efforts, we have found a substantially increased 
number of arms, ammunition, and explosive caches.
    As this next chart shows, we have so far this year already 
found and cleared over 4,400 caches, nearly 1,700 more than we 
discovered in all of last year. This may, in fact, be a factor 
in the reduction in the overall improvised explosive device 
(IED) attacks in recent months, which as this next chart shows, 
has declined sharply, by about one-third since June.
    The change in the security situation in Anbar Province has, 
of course, been particularly dramatic. As this next chart 
shows, the monthly attack levels in Anbar have declined, from 
some 1,350 in October 2006, to a bit over 200 in August of this 
year. This dramatic decrease reflects the significance of the 
local rejection of al Qaeda, and the newfound willingness of 
local Anbaris to volunteer to serve in the Iraqi Army and the 
Iraqi police service.
    To be sure, trends have not been uniformly positive across 
Iraq, as is shown by this next chart, depicting violence trends 
in several key Iraqi provinces.
    The trend in Ninevah Province in Northern Iraq, for 
example, has been much more up and down until a recent decline, 
and the same is true in Salah ad Din Province, also north of 
Baghdad, and the site of Saddam's former hometown, though 
recent trends there and in Baghdad have been in the right 
direction.
    In any event, the overall trajectory in Iraq, a steady 
decline of incidents in the past 3 months, is still quite 
significant.
    The number of car bombings and suicide attacks has also 
declined in each of the past 5 months. The total from a high of 
some 175 in March, as this next chart shows, to about 90 this 
past month. While this trend has been heartening, the number of 
high-profile attacks is still too high, and we continue to work 
hard to destroy the networks that carry out these barbaric 
attacks.
    Our operations have, in fact, produced substantial progress 
against al Qaeda-Iraq. As this next chart shows, in the past 8 
months we have considerably reduced the areas in which al Qaeda 
enjoyed sanctuary. We have also neutralized 5 media cells, 
detained the senior Iraqi leader of al Qaeda-Iraq, and killed 
or captured nearly 100 other key leaders, and some 2,500 rank-
and-file fighters. Al Qaeda is certainly not defeated. However, 
it is off-balance, and we are pursuing its leaders and 
operators aggressively.
    Of note, these gains against al Qaeda are a result of the 
synergy of actions by conventional forces, intelligence, 
surveillance, reconnaissance assets, and special operations 
elements. A combination of these assets is necessary to conduct 
effective operations against terrorist elements.
    In the past 6 months, we have also targeted Shiite militia 
extremists, killing or capturing over 1,400 senior leaders and 
fighters. It is increasingly apparent to both coalition and 
Iraqi leaders that Iran--through the use of the Iranian 
Republican Guard Corps Quds Force--seeks to turn these Shiite 
militia extremists into a Hezbollah-like force to serve its 
interests, and fight a proxy war against the Iraqi state and 
coalition forces in Iraq.
    The most significant development in the past 6 months 
likely has been the increasing emergence of tribes and local 
citizens rejecting al Qaeda and other extremists. The success 
in Anbar is an example of what can happen when local Iraqis 
decide to oppose al Qaeda and reject its Taliban-like ideology.
    While Anbar's model cannot be replicated everywhere in 
Iraq, it does demonstrate the dramatic change in security that 
is possible with the support and participation of local 
citizens.
    As this next chart shows, other tribes have been inspired 
by the actions of those in Anbar, and have volunteered to fight 
extremists, as well. Over 20,000 such individuals are already 
being hired for the Iraqi police, thousands of others are being 
assimilated into the Iraqi Army, and thousands more are vying 
for a spot in Iraq's security forces.
    As I noted earlier, Iraqi security forces have continued to 
grow, to develop their capabilities, and to shoulder more of 
the burden of providing security for their country.
    Despite concerns about sectarian influence, inadequate 
logistics and supporting institutions, and an insufficient 
number of qualified commissioned and noncommissioned officers 
(NCOs), Iraqi units are engaged around the country.
    As this next chart shows, there are now nearly 140 Iraqi 
Army, national police, and Special Operations Forces (SOF) 
battalions in the fight, with about 95 of those capable of 
taking the lead in operations, albeit with some coalition 
support.
    Although their qualitative development have not always kept 
pace with their quantitative growth, all of Iraq's battalions 
have been heavily involved in combat operations that often 
result in the loss of leaders, soldiers, and equipment. Despite 
the losses, a number of Iraqi units across Iraq now operate 
with minimal coalition assistance.
    In order to take over the security of their country, the 
Iraqis are rapidly expanding their security forces. In fact, 
they have some 445,000 assigned to the Ministries of Interior 
and Defense now, and we believe that they will be close to 
480,000 by year's end.
    Significantly, in 2007, Iraq will--as in 2006--spend more 
on its security forces than it will receive in security 
assistance from the United States. In fact, Iraq is becoming 
one of the United States' larger foreign military sales (FMS) 
customers, committing some $1.6 billion to FMS already, with 
the possibility of up to $1.8 billion more being committed 
before the end of the year.
    Here, I'd like to say that I appreciate the attention that 
the chairman and other members of this committee have recently 
given to speeding up the FMS process for Iraq.
    To summarize, the security situation in Iraq is improving, 
and Iraqi elements are slowly taking on more of the 
responsibility for protecting their citizens. Innumerable 
challenges lie ahead, however, coalition and Iraqi security 
forces have made progress toward achieving sustainable 
security. As a result, the United States will be in a position 
to reduce its forces in Iraq in the months ahead.
    Two weeks ago I provided recommendations for the way ahead 
in Iraq to the members of my chain of command, the Joint Chiefs 
of Staff (JCS). The essence of the approach I recommended is 
captured in its title, ``Security While Transitioning: From 
Leading, to Partnering, to Overwatch.'' This approach seeks to 
build on the security improvements our troops and our Iraqi 
counterparts have achieved in recent months. It reflects 
recognition of the importance of securing the population and 
the imperative of transitioning responsibilities to Iraqi 
institutions and Iraqi forces, as quickly as possible, but 
without rushing to failure.
    It includes substantial support for the continuing 
development of Iraqi security forces. It also stresses the need 
to continue the counterinsurgency strategy that we have been 
employing, but with Iraqis gradually shouldering more of the 
load. It highlights the importance of regional and global 
diplomatic approaches.
    Finally, in recognition of the fact that this war is not 
only being fought on the ground in Iraq, but also in 
cyberspace, it also notes the need to contest the enemy's 
growing use of that important medium to spread extremism.
    The recommendations I've provided were informed by 
operational and strategic considerations. The operational 
considerations include recognition that military aspect of the 
surge have achieved progress, and generated momentum. Iraqi 
security forces have been slowly shouldering more of the 
security burden in Iraq. A mission focused on either population 
security, or transition alone, will not be adequate to achieve 
our objectives. Success against al Qaeda-Iraq and Iranian-
supported militia extremists requires conventional forces, as 
well as SOFs, and the security in local political situations 
will enable us to draw down the surge forces.
    My recommendations also took into account a number of 
strategic considerations. That political progress will only 
take place if sufficient security exists. Long-term U.S. ground 
force viability will benefit from force reductions as the surge 
runs its course.
    Regional, global, and cyberspace initiatives are critical 
to success, and Iraqi leaders, understandably, want to assume 
greater sovereignty in their country, although, as they 
recently announced, they do desire continued presence of 
coalition forces in Iraq in 2008, under a new U.S. Security 
Council resolution, and following that, they want to negotiate 
a long-term security agreement with the United States and 
others.
    Based on these considerations, and having worked the 
battlefield geometry with Lieutenant General Ray Odierno, to 
ensure that we retain and build on the gains for which our 
troopers have fought, I have recommended a drawdown of the 
surge forces from Iraq. In fact, later this month, the Marine 
expedition, our first unit deployed as part of the surge, will 
depart Iraq. Beyond that, if my recommendations are approved, 
this will be followed by the withdrawal of a brigade combat 
team without replacement in mid-December, and the further 
redeployment without replacement of four other brigade combat 
teams, and the two surge Marine battalions in the first 7 
months of 2008, until we reach the pre-surge level of 15 
brigade combat teams by mid-July 2008.
    Force reductions will continue, beyond the pre-surge levels 
of brigade combat teams that we will reach by mid-July 2008. In 
my professional judgment, however, it would be premature to 
make recommendations on the pace of such reductions at this 
time. In fact, our experience in Iraq has repeatedly shown that 
projecting too far into the future is not just difficult, it 
can be misleading, and even hazardous.
    In view of this, I do not believe it is reasonable to have 
an adequate appreciation for the pace of further reductions and 
mission adjustments beyond the summer of 2008, until about mid-
March of next year. We will--no later than that time--consider 
factors similar to those on which I based the current 
recommendations, having by then, of course, a better feel for 
the security situation, the improvements in the capabilities of 
our Iraqi counterparts, and the enemy situation.
    This final chart captures the recommendations I have 
described, showing the recommended reduction of brigade combat 
teams as the surge runs its course, and illustrating the 
concept of our units adjusting their missions, and 
transitioning responsibilities to Iraqis as the situation and 
Iraqi capabilities permit.
    It also reflects the ``no later than'' date for 
recommendations on force adjustments beyond next summer, and it 
provides a possible approach we have considered for the future 
force structure and mission set in Iraq over time.
    In describing the recommendations I have made, I should 
note, again, that like Ambassador Crocker, I believe Iraq's 
problems will require a long-term effort. There are no easy 
answers or quick solutions. Although we both believe this 
effort can succeed, it will take time. Our assessments 
underscore, in fact, the importance of recognizing that a 
premature drawdown of our forces would likely have devastating 
consequences. That assessment is supported by the findings of a 
August 16 Defense Intelligence Agency (DIA) report on the 
implications of a rapid withdrawal of U.S. forces from Iraq.
    Summarizing it in an unclassified fashion, it concludes 
that a rapid withdrawal would result in the further release of 
the strong centrifugal forces in Iraq, and produce a number of 
dangerous results, including a high risk of disintegration of 
the Iraqi security forces, rapid deterioration of local 
security initiatives, al Qaeda-Iraq regaining lost ground and 
freedom of maneuver, a marked increase in violence, and further 
ethno-sectarian displacement and refugee flows, alliances of 
convenience by Iraqi groups with internal and external forces 
to gain advantages over their rivals, and exacerbation of 
already-challenging regional dynamics, especially with respect 
to Iran.
    Lieutenant General Odierno and I share this assessment, and 
believe that the best way to secure our national interests and 
avoid an unfavorable outcome in Iraq is to continue to focus 
our operations on securing the Iraqi people, while targeting 
terrorist groups and militia extremists and, as quickly as 
conditions are met, transitioning security tasks to Iraqi 
elements.
    Before closing, I want to thank you and your colleagues for 
our support of our men and women in uniform in Iraq. The 
soldiers, sailors, airmen, marines, and coastguardsman with 
whom I'm honored to serve are the best-equipped, and very 
likely the most professional force in our Nation's history. All 
of us appreciate what you have done to ensure that these great 
troopers have had what they have needed to accomplish their 
mission, just as we appreciate what you have done to take care 
of their families, as they, too, have made significant 
sacrifices in recent years.
    The advances you have underwritten in weapons systems and 
individual equipment, in munitions, in command, control, and 
communications (C3) systems, and intelligence, surveillance, 
and reconnaissance (ISR) capabilities, in vehicles and counter-
IED systems and programs, and in manned, and unmanned aircraft, 
have proven invaluable in Iraq.
    Additionally, your funding of the Commander's Emergency 
Response Program has given our leaders a critical tool with 
which to prosecute the counterinsurgency campaign.
    Finally, we appreciate as well your funding of our new 
detention programs and rule of law initiatives in Iraq.
    In closing, it remains an enormous privilege to soldier, 
again, in Iraq, with America's new greatest generation. Our 
country's men and women in uniform have done a magnificent job 
in the most complex and challenging environment imaginable. All 
Americans should be very proud of their sons and daughters 
serving in Iraq today.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]
            Prepared Statement by GEN David H. Petraeus, USA
    Mr. Chairman, ranking members, members of the committees, thank you 
for the opportunity to provide my assessment of the security situation 
in Iraq and to discuss the recommendations I recently provided to my 
chain of command for the way forward.
    At the outset, I would like to note that this is my testimony. 
Although I have briefed my assessment and recommendations to my chain 
of command, I wrote this testimony myself. It has not been cleared by, 
nor shared with, anyone in the Pentagon, the White House, or Congress.
    As a bottom line upfront, the military objectives of the surge are, 
in large measure, being met. In recent months, in the face of tough 
enemies and the brutal summer heat of Iraq, coalition, and Iraqi 
security forces have achieved progress in the security arena. Though 
the improvements have been uneven across Iraq, the overall number of 
security incidents in Iraq has declined in 8 of the past 12 weeks, with 
the numbers of incidents in the last 2 weeks at the lowest levels seen 
since June 2006.
    One reason for the decline in incidents is that coalition and Iraqi 
forces have dealt significant blows to al Qaeda-Iraq. Though al Qaeda 
and its affiliates in Iraq remain dangerous, we have taken away a 
number of their sanctuaries and gained the initiative in many areas.
    We have also disrupted Shiite militia extremists, capturing the 
head and numerous other leaders of the Iranian-supported Iraqi Special 
Groups, along with a senior Lebanese Hezbollah operative supporting 
Iran's activities in Iraq.
    Coalition and Iraqi operations have helped reduce ethno-sectarian 
violence, as well, bringing down the number of ethno-sectarian deaths 
substantially in Baghdad and across Iraq since the height of the 
sectarian violence last December. The number of overall civilian deaths 
has also declined during this period, although the numbers in each area 
are still at troubling levels.
    Iraqi security forces have also continued to grow and to shoulder 
more of the load, albeit slowly and amid continuing concerns about the 
sectarian tendencies of some elements in their ranks. In general, 
however, Iraqi elements have been standing and fighting and sustaining 
tough losses, and they have taken the lead in operations in many areas.
    Additionally, in what may be the most significant development of 
the past 8 months, the tribal rejection of al Qaeda that started in 
Anbar province and helped produce such significant change there has now 
spread lo a number of other locations as well.
    Based on all this and on the further progress we believe we can 
achieve over the next few months, I believe that we will be able to 
reduce our forces to the pre-surge level of brigade combat teams by 
next summer without jeopardizing the security gains that we have fought 
so hard to achieve.
    Beyond that, while noting that the situation in Iraq remains 
complex, difficult, and sometimes downright frustrating, I also believe 
that it is possible to achieve our objectives in Iraq over time, though 
doing so will be neither quick nor easy.
    Having provided that summary, I would like to review the nature of 
the conflict in Iraq, recall the situation before the surge, describe 
the current situation, and explain the recommendations I have provided 
to my chain of command for the way ahead in Iraq.
                       the nature of the conflict
    The fundamental source of the conflict in Iraq is competition among 
ethnic and sectarian communities for power and resources. This 
competition will take place, and its resolution is key to producing 
long-term stability in the new Iraq. The question is whether the 
competition takes place more--or less--violently. This chart shows the 
security challenges in Iraq, Foreign and home-grown terrorists, 
insurgents, militia extremists, and criminals all push the ethno-
sectarian competition toward violence. Malign actions by Syria and, 
especially, by Iran fuel that violence. Lack of adequate governmental 
capacity, lingering sectarian mistrust, and various forms of corruption 
add to Iraq's challenges.
              the situation in december 2006 and the surge
    In our recent efforts to look to the future, we found it useful to 
revisit the past. In December 2006, during the height of the ethno-
sectarian violence that escalated in the wake of the bombing of the 
Golden Dome Mosque in Samarra, the leaders in Iraq at that time--
General George Casey and Ambassador Zalmay Khalilzad--concluded that 
the coalition was failing to achieve its objectives. Their review 
underscored the need to protect the population and reduce sectarian 
violence, especially in Baghdad. As a result, General Casey requested 
additional forces to enable the coalition to accomplish these tasks, 
and those forces began to flow in January.
    In the ensuing months, our forces and our Iraqi counterparts have 
focused on improving security, especially in Baghdad and the areas 
around it, wresting sanctuaries from al Qaeda control, and disrupting 
the efforts of the Iranian-supported militia extremists. We have 
employed counterinsurgency practices that underscore the importance of 
units living among the people they are securing, and accordingly, our 
forces have established dozens of joint security stations and patrol 
bases manned by coalition and Iraqi forces in Baghdad and in other 
areas across Iraq.
    In mid-June, with all the surge brigades in place, we launched a 
series of offensive operations focused on: expanding the gains achieved 
in the preceding months in Anbar province; dealing Baqubah, several key 
Baghdad neighborhoods, the remaining sanctuaries in Anbar province, and 
important areas in the so-called ``belts'' around Baghdad; and pursuing 
al Qaeda in the Diyala River Valley and several other areas.
    Throughout this period, as well, we engaged in dialogue with 
insurgent groups and tribes, and this led to additional elements 
standing up to oppose al Qaeda and other extremists. We also continued 
to emphasize the development of the Iraqi security forces and we 
employed nonkinetic means to exploit the opportunities provided by the 
conduct of our kinetic operations--aided in this effort by the arrival 
of additional Provincial Reconstruction Teams.
                      current situation and trends
    The progress our forces have achieved with our Iraqi counterparts 
has, as I noted at the outset, been substantial. While there have been 
setbacks as well as successes and tough losses along the way, overall, 
our tactical commanders and I see improvements in the security 
environment. We do not, however, just rely on gut feel or personal 
observations; we also conduct considerable data collection and analysis 
to gauge progress and determine trends. We do this by gathering and 
refining data from coalition and Iraqi operations centers, using a 
methodology that has been in place for well over a year and that has 
benefited over the past 7 months from the increased presence of our 
forces living among the Iraqi people. We endeavor to ensure our 
analysis of that data is conducted with rigor and consistency, as our 
ability to achieve a nuanced understanding of the security environment 
is dependent on collecting and analyzing data in a consistent way over 
time. Two U.S. intelligence agencies recently reviewed our methodology, 
and they concluded that the data we produce is the most accurate and 
authoritative in Iraq.
    As I mentioned upfront, and as the chain before you reflects, the 
level of security incidents has decreased significantly since the start 
of the surge of offensive operations in mid-June, declining in 8 of the 
past 12 weeks, with the level of incidents in the past 2 weeks the 
lowest since June 2006 and with the number of attacks this past week 
the lowest since April 2006.
    Civilian deaths of all categories, less natural causes, have also 
declined considerably, by over 45 percent Iraq-wide since the height of 
the sectarian violence in December. This is shown by the top line on 
this chart, and the decline by some 70 percent in Baghdad is shown by 
the bottom line. Periodic mass casualty attacks by al Qaeda have 
tragically added to the numbers outside Baghdad, in particular. Even 
without the sensational attacks, however, the level of civilian deaths 
is clearly still too high and continues to be of serious concern.
    As the next chart shows, the number of ethno-sectarian deaths, an 
important subset of the overall civilian casualty figures, has also 
declined significantly since the height of the sectarian violence in 
December. Iraq-wide, as shown by the top line on this chart, the number 
of ethno-sectarian deaths has come down by over 55 percent, and it 
would have come down much further were it not for the casualties 
inflicted by barbaric al Qaeda bombings attempting to reignite 
sectarian violence. In Baghdad, as the bottom line shows, the number of 
ethno-sectarian deaths has come down by some 80 percent since December. 
This chart also displays the density of sectarian incidents in various 
Baghdad neighborhoods and it both reflects the progress made in 
reducing ethno-sectarian violence in the Iraqi capital and identifies 
the areas that remain the most challenging.
    As we have gone on the offensive in former al Qaeda and insurgent 
sanctuaries, and as locals have increasingly supported our efforts, we 
have found a substantially increased number of arms, ammunition, and 
explosives caches. As this chart shows, we have, so far this year, 
already found and cleared over 4,400 caches, nearly 1,700 more than we 
discovered in all of last year. This may be a factor in the reduction 
in the number of overall improvised explosive device (IED) attacks in 
recent months, which as this chart shows, has declined sharply, by 
about one-third, since June.
    The change in the security situation in Anbar Province has, of 
course, been particularly dramatic. As this chart shows, monthly attack 
levels in Anbar have declined from some 1,350 in October 2006 to a bit 
over 200 in August of this year. This dramatic decrease reflects the 
significance of the local rejection of al Qaeda and the newfound 
willingness of local Anbaris to volunteer lo serve in the Iraqi Army 
and Iraqi Police Service. As I noted earlier, we are seeing similar 
actions in other locations, as well.
    To be sure, trends have not been uniformly positive across Iraq, as 
is shown by this chart depicting violence levels in several key Iraqi 
provinces. The trend in Ninevah province, for example, has been much 
more up and down, until a recent decline, and the same is (rue in Sala 
ad Din province, though recent trends there and in Baghdad have been in 
the right direction. In any event, the overall trajectory in Iraq--a 
steady decline of incidents in the past 3 months--is still quite 
significant.
    The number of car bombings and suicide attacks has also declined in 
each of the past 5 months, from a high of some 175 in March, as this 
chart shows, to about 90 this past month. While this trend in recent 
months has been heartening, the number of high profile attacks is still 
too high, and we continue to work hard to destroy the networks that 
carry out these barbaric attacks.
    Our operations have, in fact, produced substantial progress against 
al Qaeda and its affiliates in Iraq. As this chart shows, in the past 8 
months, we have considerably reduced the areas in which al Qaeda 
enjoyed sanctuary. We have also neutralized 5 media cells, detained the 
senior Iraqi leader of al Qaeda-Iraq, and killed or captured nearly 100 
other key leaders and some 2,500 rank-and-file fighters. Al Qaeda is 
certainly not defeated; however, it is off balance and we are pursuing 
its leaders and operators aggressively. Of note, as the recent National 
Intelligence Estimate (NIE) on Iraq explained, these gains against al 
Qaeda are a result of the synergy of actions by: conventional forces to 
deny the terrorists sanctuary; intelligence, surveillance, and 
reconnaissance assets to find the enemy; and special operations 
elements to conduct targeted raids. A combination of these assets is 
necessary to prevent the creation of a terrorist safe haven in Iraq.
    In the past 6 months we have also targeted Shiite militia 
extremists, capturing a number of senior leaders and fighters, as well 
as the deputy commander of Lebanese Hezbollah Department 2800, the 
organization created to support the training, arming, funding, and, in 
some cases, direction of the militia extremists by the Iranian 
Republican Guard Corps' Qods Force. These elements have assassinated 
and kidnapped Iraqi Governmental leaders, killed and wounded our 
soldiers with advanced explosive devices provided by Iran, and 
indiscriminately rocketed civilians in the International Zone and 
elsewhere. It is increasingly apparent to both coalition and Iraqi 
leaders that Iran, through the use of the Qods Force, seeks to turn the 
Iraqi Special Groups into a Hezbollah-like force to serve its interests 
and fight a proxy war against the Iraqi state and coalition forces in 
Iraq.
    The most significant development in the past 6 months likely has 
been the increasing emergence of tribes and local citizens rejecting al 
Qaeda and other extremists. This has, of course, been most visible in 
Anbar Province. A year ago the province was assessed as ``lost'' 
politically. Today, it is a model of what happens when local leaders 
and citizens decide to oppose al Qaeda and reject its Taliban-like 
ideology. While Anbar is unique and the model it provides cannot be 
replicated everywhere in Iraq, it does demonstrate the dramatic change 
in security that is possible with the support and participation of 
local citizens. As this chart shows, other tribes have been inspired by 
the actions of those in Anbar and have volunteered to fight extremists 
as well. We have, in coordination with the Iraqi Government's National 
Reconciliation Committee, been engaging these tribes and groups of 
local citizens who want to oppose extremists and to contribute to local 
security. Some 20,000 such individuals are already being hired for the 
Iraqi Police, thousands of others are being assimilated into the Iraqi 
Army, and thousands more arc vying for a spot in Iraq's security 
forces.
                         iraqi security forces
    As I noted earlier, Iraqi security forces have continued to grow, 
to develop their capabilities, and to shoulder more of the burden of 
providing security for their country. Despite concerns about sectarian 
influence, inadequate logistics and supporting institutions, and an 
insufficient number of qualified commissioned and noncommissioned 
officers, Iraqi units are engaged around the country.
    As this chart shows, there are now nearly 140 Iraqi Army, National 
Police, and Special Operations Forces Battalions in the fight, with 
about 95 of those capable of taking the lead in operations, albeit with 
some coalition support. Beyond that, all of Iraq's battalions have been 
heavily involved in combat operations that often result in the loss of 
leaders, soldiers, and equipment. These losses are among the 
shortcomings identified by operational readiness assessments, but we 
should not take from these assessments the impression that Iraqi forces 
are not in the fight and contributing. Indeed, despite their shortages, 
many Iraqi units across Iraq now operate with minimal coalition 
assistance.
    As counterinsurgency operations require substantial numbers of 
boots on the ground, we are helping the Iraqis expand the size of their 
security forces. Currently, there are some 445,000 individuals on the 
payrolls of Iraq's Interior and Defense Ministries. Based on recent 
decisions by Prime Minister Maliki, the number of Iraq's security 
forces will grow further by the end of this year, possibly by as much 
as 40,000. Given the security challenges Iraq faces, we support this 
decision, and we will work with the two security ministries as they 
continue their efforts to expand their basic training capacity, leader 
development programs, logistical structures and elements, and various 
other institutional capabilities to support the substantial growth in 
Iraqi forces.
    Significantly, in 2007, Iraq will, as in 2006, spend more on its 
security forces than it will receive in security assistance from the 
United States. In fad, Iraq is becoming one of the United States' 
larger foreign military sales (FMS) customers, committing some $1.6 
billion to FMS already, with the possibility of up to $1.8 billion more 
being committed before the end of this year. I appreciate the attention 
that some Members of Congress have recently given to speeding up the 
FMS process for Iraq.
    To summarize, the security situation in Iraq is improving, and 
Iraqis elements are slowly taking on more of the responsibility for 
protecting their citizens. Innumerable challenges lie ahead; however, 
coalition and Iraqi security forces have made progress toward achieving 
sustainable security. As a result, the United States will be in a 
position to reduce its forces in Iraq in the months ahead.
                            recommendations
    Two weeks ago, I provided recommendations for the way ahead in Iraq 
to the members of my chain of command and the Joint Chiefs of Staff. 
The essence of the approach I recommended is captured in its title: 
``Security While Transitioning: From Leading to Partnering to 
Overwatch.'' This approach seeks to build on the security improvements 
our troopers and our Iraqi counterparts have fought so hard to achieve 
in recent months. It reflects recognition of the importance of securing 
the population and the imperative of transitioning responsibilities to 
Iraqi institutions and Iraqi forces as quickly as possible, but without 
rushing to failure. It includes substantial support for the continuing 
development of Iraqi security forces. It also stresses the need to 
continue the counterinsurgency strategy that we have been employing, 
but with Iraqis gradually shouldering more of the load. It highlights 
the importance of regional and global diplomatic approaches. Finally, 
in recognition of the fact that this war is not only being fought on 
the ground in Iraq but also in cyberspace, it also notes the need to 
contest the enemy's growing use of that important medium to spread 
extremism.
    The recommendations I provided were informed by operational and 
strategic considerations. The operational considerations include 
recognition that:

        <bullet> military aspects of the surge have achieved progress 
        and generated momentum;
        <bullet> Iraqi security forces have continued to grow and have 
        slowly been shouldering more of the security burden in Iraq;
        <bullet> a mission focus on either population security or 
        transition alone will not be adequate to achieve our 
        objectives;
        <bullet> success against al Qaeda-Iraq and Iranian-supported 
        militia extremists requires conventional forces as well as 
        Special Operations Forces; and
        <bullet> the security and local political situations will 
        enable us to draw down the surge forces.

    My recommendations also took into account a number of strategic 
considerations:

        <bullet> political progress will take place only if sufficient 
        security exists;
        <bullet> long-term U.S. ground force viability will benefit 
        from force reductions as the surge runs its course;
        <bullet> regional, global, and cyberspace initiatives are 
        critical to success; and
        <bullet> Iraqi leaders understandably want to assume greater 
        sovereignty in their country, although, as they recently 
        announced, they do desire continued presence of coalition 
        forces in Iraq in 2008 under a new U.N. Security Council 
        Resolution and, following that, they want to negotiate a long-
        term security agreement with the United States and other 
        nations.

    Based on these considerations, and having worked the battlefield 
geometry with Lieutenant General Ray Odierno to ensure that we retain 
and build on the gains for which our troopers have fought, I have 
recommended a drawdown of the surge forces from Iraq. In fact, later 
this month, the Marine Expeditionary Unit deployed as part of the surge 
will depart Iraq. Beyond that, if my recommendations are approved, that 
unit's departure will be followed by the withdrawal of a brigade combat 
team without replacement in mid-December and the further redeployment 
without replacement of four other brigade combat teams and the two 
surge Marine battalions in the first 7 months of 2008, until we reach 
the pre-surge level of 15 brigade combat teams by mid-July 2008.
    I would also like to discuss the period beyond next summer. Force 
reductions will continue beyond the pre-surge levels of brigade combat 
teams that we will reach by mid-July 2008; however, in my professional 
judgment, it would he premature to make recommendations on the pace of 
such reductions at this time. In fact, our experience in Iraq has 
repeatedly shown that projecting too far into the future is not just 
difficult, it can be misleading and even hazardous. The events of the 
past 6 months underscore that point. When I testified in January, for 
example, no one would have dared to forecast that Anbar Province would 
have been transformed the way it has in the past 6 months. Nor would 
anyone have predicted that volunteers in onetime al Qaeda strongholds 
like Ghazaliyah in western Baghdad or in Adamiya in eastern Baghdad 
would seek to join the fight against al Qaeda. Nor would we have 
anticipated that a Shia-led government would accept significant numbers 
of Sunni volunteers into the ranks of the local police force in Abu 
Ghraib. Beyond that, on a less encouraging note, none of us earlier 
this year appreciated the extent of Iranian involvement in Iraq, 
something about which we and Iraq's leaders all now have greater 
concern.
    In view of this, I do not believe it is reasonable to have an 
adequate appreciation for the pace of further reductions and mission 
adjustments beyond the summer of 2008 until about mid-March of next 
year. We will, no later than that time, consider factors similar to 
those on which I based the current recommendations, having by then, of 
course, a better feel for the security situation, the improvements in 
the capabilities of our Iraqi counterparts, and the enemy situation. I 
will then, as I did in developing the recommendations I have explained 
here today, also take into consideration the demands on our Nation's 
ground forces, although I believe that that consideration should once 
again inform, not drive, the recommendations I make.
    This chart captures the recommendations I have described, showing 
the recommended reduction of brigade combat teams as the surge runs its 
course and illustrating the concept of our units adjusting their 
missions and transitioning responsibilities to Iraqis, as the situation 
and Iraqi capabilities permit. It also reflects the no-later-than date 
for recommendations on force adjustments beyond next summer and 
provides a possible approach we have considered for the future force 
structure and mission set in Iraq.
    One may argue that the best way to speed the process in Iraq is to 
change the Multinational Forces-Iraq mission from one that emphasizes 
population security, counterterrorism, and transition, to one that is 
strictly focused on transition and counterterrorism. Making that change 
now would, in our view, be premature. We have learned before that there 
is a real danger in handing over tasks to the Iraqi security forces 
before their capacity and local conditions warrant. In fact, the 
drafters of the recently released NIE on Iraq recognized this danger 
when they wrote, and I quote, ``We assess that changing the mission of 
coalition forces from a primarily counterinsurgency and stabilization 
role to a primary combat support role for Iraqi forces and 
counterterrorist operations to prevent al Qaeda-Iraq from establishing 
a safe haven would erode security gains achieved thus far.''
    In describing the recommendations I have made, I should note again 
that, like Ambassador Crocker, I believe Iraq's problems will require a 
long-term effort. There are no easy answers or quick solutions. Though 
we both believe this effort can succeed, it will take time. Our 
assessments underscore, in fact, the importance of recognizing that a 
premature drawdown of our forces would likely have devastating 
consequences.
    That assessment is supported by the findings of a 16 August Defense 
Intelligence Agency report on the implications of a rapid withdrawal of 
U.S. forces from Iraq. Summarizing it in an unclassified fashion, it 
concludes that a rapid withdrawal would result in the further release 
of the strong centrifugal forces in Iraq and produce a number of 
dangerous results, including a high risk of disintegration of the Iraqi 
security forces; rapid deterioration of local security initiatives; al 
Qaeda-Iraq regaining lost ground and freedom of maneuver; a marked 
increase in violence and further ethno-sectarian displacement and 
refugee flows; alliances of convenience by Iraqi groups with internal 
and external forces to gain advantages over their rivals; and 
exacerbation of already challenging regional dynamics, especially with 
respect to Iran.
    Lieutenant General Odierno and I share this assessment and believe 
that the best way to secure our national interests and avoid an 
unfavorable outcome in Iraq is to continue to focus our operations on 
securing the Iraqi people while targeting terrorist groups and militia 
extremists and, as quickly as conditions are met, transitioning 
security tasks to Iraqi elements.
                            closing comments
    Before closing, I want to thank you and your colleagues for your 
support of our men and women in uniform in Iraq. The soldiers, sailors, 
airmen, marines, and coastguardsmen with whom I'm honored to serve are 
the best equipped and, very likely, the most professional force in our 
Nation's history. Impressively, despite all that has been asked of them 
in recent years, they continue to raise their right hands and volunteer 
to stay in uniform. With 3 weeks to go in this fiscal year, in fact, 
the Army elements in Iraq, for example, have achieved well over 130 
percent of the reenlistment goals in the initial term and careerist 
categories and nearly 115 percent in the mid-career category. All of us 
appreciate what you have done to ensure that these great troopers have 
had what they've needed lo accomplish their mission, just as we 
appreciate what you have done to take care of their families, as they, 
too, have made significant sacrifices in recent years.
    The advances you have underwritten in weapons systems and 
individual equipment; in munitions;.in command, control, and 
communications systems; in intelligence, surveillance, and 
reconnaissance capabilities; in vehicles and counter-IED systems and 
programs; and in manned and unmanned aircraft have proven invaluable in 
Iraq. The capabilities that you have funded most recently--especially 
the vehicles that will provide greater protection against IEDs--are 
also of enormous importance. Additionally, your funding of the 
Commander's Emergency Response Program has given our leaders a critical 
tool with which to prosecute the counterinsurgency campaign. Finally, 
we appreciate as well your funding of our new detention programs and 
rule of law initiatives in Iraq.
    In closing, it remains an enormous privilege to soldier again in 
Iraq with America's new ``Greatest Generation.'' Our country's men and 
women in uniform have done a magnificent job in the most complex and 
challenging environment imaginable. All Americans should be very proud 
of their sons and daughters serving in Iraq today.
    Thank you very much.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. Thank you very much, General.
    Ambassador Crocker?

    STATEMENT OF AMBASSADOR RYAN C. CROCKER, UNITED STATES 
                       AMBASSADOR TO IRAQ

    Ambassador Crocker. Mr. Chairman, since I have circulated 
my statement and delivered it in previous hearings, in the 
interest of the committee's time, if it's agreeable to you, I'd 
be prepared to go straight to questions.
    [The prepared statement of Ambassador Crocker follows:]
            Prepared Statement by Ambassador Ryan C. Crocker
                              introduction
    Mr. Chairman, Senator McCain, and members of the committee: Thank 
you for the opportunity to address the Senate this week. I have 
considered it a privilege and an honor to serve in Iraq at a time when 
so much is at stake for our country and the people of the region--and 
when so many Americans of the highest caliber in our military and 
civilian services are doing the same. I know that a heavy 
responsibility weighs on my shoulders to provide the country with my 
best, most honest assessment of the political, economic, and diplomatic 
situation in Iraq and the implications for the United States.
    Americans, in this chamber and beyond, are looking for more than an 
update on the latest events. They want to know the answers to some key 
questions. Are our objectives realistic? Is it possible that Iraq will 
become a united, stable country with a democratic government operating 
under the rule of law? What is the trajectory--is Iraq, on the whole, 
moving in the right direction? Can we expect more and under what time 
frame? Are there alternative courses of action for our country which 
are superior?
    These are sensible questions to be asked by a nation investing in 
and sacrificing for another country and people. In asking these 
questions, however, we must not lose sight of the vital interests the 
United States has in a successful outcome in Iraq.
    My intention today is to give you an assessment of political, 
economic, and diplomatic developments in Iraq. In doing so, I will not 
minimize the enormity of the challenges faced by Iraqis, nor the 
complexity of the situation. Yet at the same time, I intend to 
demonstrate that it is possible for the United States to see its goals 
realized in Iraq and that Iraqis are capable of tackling and addressing 
the problems confronting them today. A secure, stable democratic Iraq 
at peace with its neighbors is attainable. In my judgment, the 
cumulative trajectory of political, economic, and diplomatic 
developments in Iraq is upwards, although the slope of that line is not 
steep. The process will not be quick, it will be uneven, punctuated by 
setbacks as well as achievements, and it will require substantial U.S. 
resolve and commitment. There will be no single moment at which we can 
claim victory; any turning point will likely only be recognized in 
retrospect.
    This is a sober assessment, but it should not be a disheartening 
one. I have found it helpful, during my time in Iraq to reflect on our 
own history. At many points in the early years, our survival as a 
nation was questionable. Our efforts to build the institutions of 
government were not always successful in the first instance. Tough 
issues--such as slavery, universal suffrage, civil rights, and state 
rights--were resolved only after acrimonious debate and sometimes 
violence.
    Iraq is experiencing a revolution--not just regime change. It is 
only by understanding this that we can appreciate what is happening in 
Iraq and what Iraqis have achieved, as well as maintain a sense of 
realism about the challenges that remain.
                                context
    Evaluating where Iraqis are today only makes sense in the context 
of where they have been. Any Iraqi under 40 years old--and that is the 
overwhelming majority of the population--would have known nothing but 
the rule of the Ba'ath party before liberation 4\1/2\ years ago. Those 
35 years were filled with crimes against humanity on every scale. 
Saddam Hussein ruled without mercy, not hesitating to use lethal force 
and torture against even those in his inner circle. His genocidal 
campaign against the Kurds and savagery toward southern Shi'a are well 
known. But he also used violence and intimidation as tools in the 
complete deconstruction of Iraqi society. No organization or 
institution survived that was not linked in some way to regime 
protection. He created a pervasive climate of fear in which even family 
members were afraid to talk to one another.
    This is the legacy that Iraqis had as their history when Saddam's 
statue came down on April 9, 2003. No Nelson Mandela existed to emerge 
on the national political scene; anyone with his leadership talents 
would have not survived. A new Iraq had to be built almost literally 
from scratch, and the builders in most cases were themselves reduced to 
their most basic identity, ethnic, or sectarian.
    Much progress has been made, particularly in building an 
institutional framework where there was none before. But rather than 
being a period in which old animosities and suspicions were overcome, 
the past 18 months in particular have further strained Iraqi society. 
The sectarian violence of 2006 and early 2007 had its seeds in Saddam's 
social deconstruction and it had dire consequences for the people of 
Iraq as well as its politics. Extensive displacement and widespread 
sectarian killings by al Qaeda and other extremist groups have gnawed 
away at the already frayed fabric of Iraqi society and politics. It is 
no exaggeration to say that Iraq is--and will remain for some time to 
come--a traumatized society.
                           national politics
    It is against this backdrop that developments in Iraq must be seen. 
Iraqis are facing some of the most profound political, economic, and 
security challenges imaginable. They are not simply grappling with the 
issue of who rules Iraq--but they are asking what kind of country Iraq 
will be, how it will be governed, and how Iraqis will share power and 
resources among each other. The constitution approved in a referendum 
in 2005 answered some of these questions in theory, but much remains 
uncertain in both law and practice.
    Some of the more promising political developments at the national 
level are neither measured in benchmarks nor visible to those far from 
Baghdad. For instance, there is a budding debate about federalism among 
Iraq's leaders and, importantly, within the Sunni community. Those 
living in place like al-Anbar and Salahaddin are beginning to realize 
how localities having more of a say in daily decision making will 
empower their communities. No longer is an all-powerful Baghdad seen as 
the panacea to Iraq's problems. This thinking is nascent, but it is 
ultimately critical to the evolution of a common vision among all Iraqi 
leaders.
    Similarly, there is a palpable frustration in Baghdad over the 
sectarian system that was used to divide the spoils of the state in the 
last few years. Leaders from all communities openly acknowledge that a 
focus on sectarian gains has led to poor governance and served Iraqis 
badly. Many claim to be ready to make the sacrifices that will be 
needed to put government performance ahead of sectarian and ethnic 
concerns. Such ideas are no longer controversial, although their 
application will be.
    Finally, we are seeing Iraqis come to terms with complex issues not 
by first providing a national framework, but instead by tackling 
immediate problems. One such example is how the central government has 
accepted over 1,700 young men from the Abu Ghurayb area west of 
Baghdad, including former members of insurgent groups, to be part of 
the Iraqi security forces. Another is how the government, without much 
public fanfare, has contacted thousands of members of the former Iraqi 
army, offering them retirement, return to the military, or public 
sector employment. So without the proclamation of a general amnesty, we 
see amnesty being granted, and deba'athification reform in advance of 
national legislation. In both instances, the seeds of reconciliation 
are being planted.
    We have come to associate progress on national reconciliation as 
meaning the passage of key pieces of legislation. There is logic to 
this, as the legislation we are urging the Iraqis to produce does--in 
one way or another--have to do with the question of how to share power 
and resources among Iraq's many communities. This legislation also has 
to do with the vision of the future Iraqi state. The oil and revenues 
sharing laws, for instance, deal with deeper issues than simply whether 
Iraqis in oil producing areas are willing to share their wealth with 
other Iraqis. What is difficult about the oil laws is that they take 
Iraq another step down the road toward a Federal system that all Iraqis 
have not yet embraced. But once again, we see that even in the absence 
of legislation there is practical action as the central government 
shares oil revenues through budget allocations on an equitable basis 
with Iraq's provinces.
    In many respects, the debates currently occurring in Iraq--de-
Baathification and provincial powers--are akin to those surrounding our 
civil rights movement or struggle over states rights. On de-
Baathification, Iraqis are struggling to come to terms with a vicious 
past. They are trying to balance fear that the Baath party would one 
day return to power with the recognition that many former members of 
the party are guilty of no crime and joined the organization not to 
repress others but for personal survival. With provincial powers, they 
are grappling with very serious questions about what the right balance 
between the center and the periphery is for Iraq. Some see the 
devolution of power to regions and provinces as being the best 
insurance against the rise of a future tyrannical figure in Baghdad. 
Others see Iraq, with its complex demographics, as in need of a strong 
central authority.
    In short, we should not be surprised or dismayed that Iraqis have 
not fully resolved such issues. Rather, we should ask whether the way 
in which they are approaching such issues gives us a sense of their 
seriousness and ultimate capability to resolve Iraq's fundamental 
problems. Is the collective national leadership of Iraq ready to 
prioritize Iraq over sectarian and community interests? Can and will 
they come to agreement about what sort of Iraq they want?
    I do believe that Iraq's leaders have the will to tackle the 
country's pressing problems, although it will take longer than we 
originally anticipated because of the environment and the gravity of 
the issues before them. Prime Minister Nuri al-Maliki and the other 
Iraqi leaders face enormous obstacles in their efforts to govern 
effectively. I believe they approach the task with a deep sense of 
commitment and patriotism. An important part of my assessment was the 
effort made by the leaders this past summer. After weeks of preparatory 
work and many days of intensive meetings, Iraq's five most prominent 
national leaders from the three major communities issued a communique 
on August 26 that noted agreement on draft legislation dealing with 
deba'athification and provincial powers. This agreement by no means 
solves all of Iraq's problems. But the commitment of its leaders to 
work together on hard issues is encouraging.
    Perhaps most significantly, these five Iraqi leaders together 
decided to publicly express their joint desire to develop a long term 
relationship with the United States. Despite their many differences in 
perspectives and experiences, they all agreed on language acknowledging 
the need for a continued presence by the multinational forces in Iraq 
and expressing gratitude for the sacrifices these forces have made for 
Iraqis.
                     provincial and local politics
    At the provincial level, political gains have been more pronounced, 
particularly in the north and west of Iraq where the security 
improvements have been in some places dramatic. In these areas, there 
is abundant evidence that the security gains have opened the door for 
meaningful politics.
    In al-Anbar, the progress on the security side has been 
extraordinary. Six months ago, violence was rampant, our forces were 
under daily attack, and Iraqis were cowering from the intimidation of 
al Qaeda. But al Qaeda overplayed its hand in al-Anbar and Anbaris 
began to reject its excesses--be they beheading school children or 
cutting off peoples' fingers as punishment for smoking. Recognizing the 
coalition would help eject al Qaeda, the tribes began to fight with us, 
not against us, and the landscape in al-Anbar is dramatically different 
as a result. Tribal representatives are on the provincial council, 
which is now meeting regularly to find ways of restoring services, 
developing the economy, and executing a provincial budget. These 
leaders are looking for help to rebuild their cities and talking of 
attracting investment. Such scenes are also unfolding in parts of 
Diyala' and Ninewa, where Iraqis have mobilized with the help of the 
coalition and Iraqi security forces to evict al Qaeda from their 
communities. The world should note that when al Qaeda began 
implementing its twisted vision of the Caliphate in Iraq, Iraqis, from 
al-Anbar to Baghdad to Diyala', have overwhelmingly rejected it.
    Shiite extremists are also facing rejection. Recent attacks by 
elements of the Iranian backed Jaysh al-Mahdi on worshipers in the holy 
city of Karbala' have provoked a backlash and triggered a call by 
Muqtada as-Sadr for Jaysh al-Mahdi to cease attacks against Iraqis and 
coalition forces.
    A key challenge for Iraqis now is to link these positive 
developments in the provinces to the central government in Baghdad. 
Unlike our states, Iraqi provinces have little ability to generate 
funds through taxation, making them dependent on the central government 
for resources. The growing ability of the provinces to design and 
execute budgets and the readiness of the central government to resource 
them are success stories. On September 6, Iraq's senior Federal 
leadership traveled to al-Anbar where they announced a 70 percent 
increase in the 2007 provincial capital budget as well as $50 million 
to compensate losses in the fight against al Qaeda. The support of the 
central government is also needed to maintain hard-won security in 
areas like al-Anbar through the rapid expansion of locally-generated 
police. The Government of Iraq has placed some 21,000 Anbaris on police 
roles.
                    economics and capacity building
    Iraq is starting to make some gains in the economy. Improving 
security is stimulating revival of markets, with the active 
participation of local communities. In some places, war damage is being 
cleared and buildings repaired, roads and sewers built and commerce 
energized.
    The IMF estimates that economic growth will exceed 6 percent for 
2007. Iraqi ministries and provincial councils have made substantial 
progress this year in utilizing Iraq's oil revenue for investment. The 
2007 governmental budget allocated $10 billion (nearly one-third Iraq's 
expected oil export revenue) to capital investment. Over $3 billion was 
allocated to the provinces and the Kurdish Region for spending. The 
latest data show that spending units (national ministries and 
provincial councils) have proceeded to commit these funds at more than 
twice the rate of last year. Doing the best are the provincial 
authorities, in the process gaining experience with making plans and 
decisions, and running fair tenders. In so doing, they are stimulating 
local business development and providing employment. Over time we 
expect the experience with more responsive local authorities will 
change Iraqi attitudes towards their elected leaders, and of the 
provinces towards Baghdad.
    At two conferences in Dubai in the last 2 weeks, hundreds of Iraqi 
businessmen met an equal number of foreign investors newly interested 
in acquiring shares of businesses in Iraq. An auction of cell phone 
spectrum conducted by Pricewaterhouse Coopers netted the Government a 
better-than-expected sum of $3.75 billion. The Minister of Finance 
plans to use the funds, along with all the country's oil revenue, to 
apply to its pressing investment and current expenditure needs.
    Overall, however, the Iraqi economy is performing significantly 
under potential. A lack of security in many parts of the countryside 
raises transport costs and especially affects manufacturing and 
agriculture. Electricity supply has improved in many parts of the 
country, but is woefully inadequate in Baghdad. Many neighborhoods in 
the city receive 2 hours a day or less from the national grid, although 
power supplies for essential services such as water pumping stations or 
hospitals are much better. The Minister of Electricity said last week 
that it would take $25 billion through 2016 to meet demand 
requirements, but that by investing the $2 billion a year the Ministry 
is now receiving from the government's budget, as well as private 
investment in power generation, that goal could be met.
    We are deploying our assistance funds to make a difference to 
ordinary Iraqis and to support our political objectives. Military units 
are using Commanders Emergency Response (CERP) funds to ensure that 
residents see a difference when neighborhood violence declines. U.S. 
Assistance for International Development Community Stabilization Funds 
provide tens of thousands of jobs. With the recent apportionment of 
2007 supplemental funds, we are putting ``Quick Response Funds'' in the 
hands of our Provincial Reconstruction Team leaders to build 
communities and institutions in post-kinetic environments. Vocational 
training and microfinance programs are supporting nascent private 
businesses. In Baghdad, we are increasing our engagement and capacity 
building efforts with ministries.
                  regional and international dynamics
    On the diplomatic front, there is expanding international and 
regional engagement with Iraq. In August, the UN Security Council, at 
Iraq's invitation, provided the United Nations Assistance Mission in 
Iraq (UNAMI) with an expanded mandate through U.N. Security Council 
Resolution (UNSCR) 1770. The work of the International Compact with 
Iraq moves forward, jointly chaired by Iraq and the U.N. Seventy-four 
countries pledged support for Iraq's economic reform efforts at a 
Ministerial Conference in May. The U.N. has reported progress in 75 
percent of the 400 areas Iraq has identified for action. Later this 
month, the Iraqi Prime Minister and the U.N. Secretary General will 
chair a ministerial-level meeting in New York to discuss further 
progress under the Compact and how UNSCR 1770 can be most effectively 
implemented.
    Many of Iraq's neighbors recognize that they have a stake in the 
outcome of the current conflict in Iraq, and are engaging with Iraq in 
a constructive way. A neighbors' ministerial in May, also attended by 
the P-5 and the G-8, has been followed by meetings of working groups on 
security, border issues, and energy. An ambassadorial level meeting 
just took place in Baghdad, and another neighbors' ministerial will be 
held in Istanbul in October.
    Against the backdrop of these new mechanisms, the business of being 
neighbors is quietly unfolding. For the first time in years, Iraq is 
exporting oil through its neighbor, Turkey, as well as through the 
Gulf. Iraq and Kuwait are nearing conclusion on a commercial deal for 
Kuwait to supply its northern neighbor with critically needed diesel. 
Jordan recently issued a statement welcoming the recent leaders' 
communique and supporting Iraqi efforts at reconciliation. Saudi Arabia 
is planning on opening an Embassy in Baghdad--its first since the fall 
of Saddam.
    Syria's role has been more problematic. On one hand, Syria has 
hosted a meeting of the border security working group and interdicted 
some foreign terrorists in transit to Iraq. On the other hand, suicide-
bombers continue to cross the border from Syria to murder Iraqi 
civilians.
    Iran plays a harmful role in Iraq. While claiming to support Iraq 
in its transition, Iran has actively undermined it by providing lethal 
capabilities to the enemies of the Iraqi state. In doing so, the 
Iranian government seems to ignore the risks that an unstable Iraq 
carries for its own interests.
                             looking ahead
    2006 was a bad year in Iraq. The country came close to unraveling 
politically, economically, and in security terms. 2007 has brought some 
improvements. Enormous challenges remain. Iraqis still struggle with 
fundamental questions about how to share power, accept their 
differences and overcome their past. The changes to our strategy last 
January--the Surge--have helped change the dynamics in Iraq for the 
better. Our increased presence made besieged communities feel that they 
could defeat al Qaeda by working with us. Our population security 
measures have made it much harder for terrorists to conduct attacks. We 
have given Iraqis the time and space to reflect on what sort of country 
they want. Most Iraqis genuinely accept Iraq as a multi-ethnic, multi-
sectarian society--it is the balance of power that has yet to be sorted 
out.
    Whether Iraq reaches its potential is of course ultimately the 
product of Iraqi decisions. But the involvement and support of the 
United States will be hugely important in shaping a positive outcome. 
Our country has given a great deal in blood and treasure to stabilize 
the situation in Iraq and help Iraqis build institutions for a united, 
democratic country governed under the rule of law. Realizing this 
vision will take more time and patience on the part of the United 
States.
    I cannot guarantee success in Iraq. I do believe, as I have 
described, that it is attainable. I am certain that abandoning or 
drastically curtailing our efforts will bring failure, and the 
consequences of such a failure must be clearly understood. An Iraq that 
falls into chaos or civil war will mean massive human suffering--well 
beyond what has already occurred within Iraq's borders. It could well 
invite the intervention of regional states, all of which see their 
future connected to Iraq's in some fundamental way. Undoubtedly, Iran 
would be a winner in this scenario, consolidating its influence over 
Iraqi resources and possibly territory. The Iranian President has 
already announced that Iran will fill any vacuum in Iraq. In such an 
environment, the gains made against al Qaeda and other extremists 
groups could easily evaporate and they could establish strongholds to 
be used as safehavens for regional and international operations. Our 
current course is hard. The alternatives are far worse.
    Every strategy requires recalibration as time goes on. This is 
particularly true in an environment like Iraq where change is a daily 
or hourly occurrence. As chief of mission in Iraq, I am constantly 
assessing our efforts and seeking to ensure that they are coordinated 
with and complementary to the efforts of our military. I believe that, 
thanks to the support of Congress, we have an appropriate civilian 
posture in Iraq. Over the coming year, we will continue to increase our 
civilian efforts outside of Baghdad and the international zone. This 
presence has allowed us to focus on capacity building, especially in 
the provinces. The number of Provincial Reconstruction Teams has grown 
from 10 to 25 this year. In support of these goals, we will be asking 
Congress for additional economic assistance including additional quick 
response funds for capacity building. We will also seek support for two 
significant proposals that hold the prospect of creating permanent jobs 
for thousands of Iraqis. One would be the establishment of an ``Iraqi-
American Enterprise Fund,'' modeled on our successful funds in Poland 
and elsewhere in Central Europe. Such a fund could make equity 
investments in new and revamped firms based in Iraq. The second would 
be a large-scale operations and maintenance facility based on our 
Highway Trust Fund. On a cost-sharing basis, such a fund would train 
Iraqis to budget for and maintain important public sector 
infrastructure (power plants, dams, roads). Over time, the cost-sharing 
would phase down and out, leaving behind well-trained professionals and 
instilling the habits of preventative maintenance.
    We will continue our efforts to assist Iraqis in the pursuit of 
national reconciliation, while recognizing that progress on this front 
may come in many forms and must ultimately be done by Iraqis 
themselves. We will seek additional ways to neutralize regional 
interference and enhance regional and international support. We will 
help Iraqis consolidate the positive developments at local levels and 
connect them with the national government. Finally, I expect we will 
invest much effort in developing the strategic partnership between the 
United States and Iraq, which is an investment in the future of both 
countries.
    Thank you, Mr. Chairman.

    Chairman Levin. That's your call, Ambassador.
    Thank you.
    General Petraeus, General Jones and his very distinguished 
Commission, and very experienced and independent Commission 
said that political reconciliation is the key to ending 
sectarian violence in Iraq. Do you agree?
    General Petraeus. I do, yes, sir.
    Chairman Levin. The Commission also said that Iraqi armed 
forces, excuse me for interrupting myself here--but I will say 
that we'll have an 8-minute first round of questions--this is 
for our colleagues, I've talked to Senator McCain about it, we 
have a huge night, I think everyone is probably here today, so 
we'd all like more time, but we'll limit the first found to 8 
minutes.
    General, let me ask you another question, then, about the 
Independent Commission which was headed by General Jones. They 
also wrote that the Iraqi armed forces are capable of assuming 
greater responsibility for the internal security of Iraq. Do 
you agree with that?
    General Petraeus. I do. I would want to talk about which 
units, but that is correct.
    Chairman Levin. Now, in your testimony and your charts 
indicate that there are approximately 95 of the Iraqi 
battalions--Army, police, and SOFs battalions that are capable 
of taking the lead in operations, albeit with some coalition 
support, is that correct?
    General Petraeus. That is correct, yes, sir.
    Chairman Levin. I believe from our own statistics given to 
us by the Department of Defense (DOD) under section 9010, that 
89 of those battalions are in the Iraqi army, does that sound 
about right?
    General Petraeus. That sounds about right, I don't know if 
they have the Special Operations elements in that----
    Chairman Levin. I think they are.
    General Petraeus.--but I think that's about right. Yes.
    Chairman Levin. I think they are, that includes Special 
Operations.
    General Petraeus. Yes, sir.
    Chairman Levin. Now, after talking with soldiers during a 
recent visit to Iraq, it was my impression that many of the 
Iraqi units that have the capabilities to be in the lead, are 
not yet in the lead. From their testimony last week, I believe 
that General Jones, and Jawr, speaking for that Independent 
Commission, agree that there are many Iraqi units that have 
that capability of being in the lead again, with support from 
the coalition, that are not yet in the lead. Would you agree 
with that?
    General Petraeus. Yes, sir, I think I would, right.
    Chairman Levin. Can you tell us, about how many of the 89 
Iraqi units that are capable of taking the lead with the 
support of the coalition are not yet in the lead?
    General Petraeus. Sir, I can not. If I could take that for 
the record.
    [The information referred to follows:]

    As of September 2007, there were two Iraqi Army battalions that had 
recently reached Operational Readiness Assessment Level 2 that had not 
yet assumed Iraqi Army Lead. The status of these two battalions had 
recently been upgraded and once the conditions on the ground and 
opportunities permit, these battalions will be placed in the lead.
    It remains our policy to ensure that units are rated as capable of 
operating in the lead or of conducting their own independent operations 
before being given responsibility for their own battlespace. Once they 
are rated as such, we transfer responsibility as soon as conditions 
allow.

    Chairman Levin. It's a very important point.
    General Petraeus. Yes, sir.
    Chairman Levin. Obviously, for those of us who believe that 
we have to begin to reduce our forces, and to turn over 
responsibility to the Iraqis, both politically and militarily, 
where they have that capability that is still not being used. I 
would appreciate that, if you would promptly get us that number 
for the record.
    General, British troops withdrew from Basra to a position 
outside of the city. Now, of the 40,000 British troops that 
were deployed to Iraq after the invasion, only 5,500 remain, 
and they are, again, posted outside of the city of Basra. Prime 
Minister Gordon Brown called the move part of a British 
strategy to shift from combat to an overwatch role. The role of 
securing the four provinces in the region, then, is left to the 
Iraqi security forces. Did you agree with the British decision 
to redeploy their troops out of Basra?
    General Petraeus. Sir, I did, and they had already 
withdrawn from Maysan Province, that was transitioned to 
provincial Iraqi control some months ago. The Australian forces 
are in one of the other four provinces, Dhi Qar and Al-Muthanna 
Province transitioned to provincial Iraqi control, actually, 
last year. So, they really are, what it really is, 
transitioning the security of the palace in Basra City to Iraqi 
elements that were trained and equipped and certified for that.
    Chairman Levin. Did you agree with the reduction in British 
troops?
    General Petraeus. I did, yes, sir.
    Chairman Levin. General, there was a lengthy article in 
last Sunday's New York Times that assessed the surge, I don't 
know if you've had a chance to read that article?
    General Petraeus. I have not, sir.
    Chairman Levin. The article was a result of work of 20 
reporters who repeatedly visited 20 neighborhoods in Baghdad. 
They found that of the residents had been killed or driven away 
from their homes in Baghdad, more than 35,000 Iraqis had left 
their homes since the surge began, that of nearly all of the 
Shiite-dominated areas of Baghdad, the Mahdi Army has expanded 
and deepened its control of daily life in Sadr City. The 
residents say the Mahdi militants control neighborhood 
security, gas stations, water supplies, and real estate, and 
now Baghdad residents say the market is now controlled by the 
Mahdi Army in Sedia--once middle-class and mixed, and 
relatively peaceful--crackdowns in nearby Sunni areas led to an 
influx of hardline Sunni insurgents. Shiites turned to their 
own militias, principally the Mahdi Army. Most residents have 
left, fleeing death squads from both sides. One of the most 
alarming findings of the article is that Sunnis and Shiites 
fear each other at the top levels of the government, and in the 
sweltering neighborhood of Baghdad, hatreds are festering, not 
healing.
    Do you have any reaction to that summary? It's a long 
article, but you didn't mention any specifics about the 
provinces. I'm just wondering if anything I read strikes you as 
being erroneous?
    General Petraeus. No, there are certainly all of those 
situations to be found in Baghdad, Mr. Chairman.
    Chairman Levin. All right. Now Ambassador Crocker, in your 
opening statement for the record, you provided a positive 
judgment on the Iraqi political leaders, including Prime 
Minister Maliki. Yet, according to Joe Klein, in an article in 
the September 3rd edition of Time Magazine, you told him that 
the fall of the Maliki Government, when it happens, might be a 
good thing. Were you accurately quoted?
    Ambassador Crocker. What I have said, when I have been 
asked that question--and it's come up several times--is that in 
Iraq now, with its democratically-elected parliament, questions 
about any government--the Maliki Government or any other, are 
going to be determined by the Iraqi people. There is a 
mechanism for voting ``no confidence'' in their parliamentary 
system, there are several ways they can do that, and it's up to 
them.
    Chairman Levin. I think we all agree with that. But that's 
not my question. My question is, were you accurately quoted 
when you were quoted as saying that it might be a good thing if 
the Maliki Government falls? Is that an accurate quote?
    Ambassador Crocker. My answer is that when I have been 
asked that question, I respond in the manner that I just laid 
out for you.
    Chairman Levin. Are you saying, then, that you did not say 
that when it happens, it might be a good thing?
    Ambassador Crocker. I do not recall saying that, no, sir.
    Chairman Levin. Now, Mr. Ambassador, the New York Times 
reported that Prime Minister Maliki flew to Najaf to meet with 
Grand Ayatollah Sistani on September 5, 2 days after Mr. Maliki 
met with the President in Western Iraq. Mr. Maliki is quoted as 
having stated that, ``I raised before Ayatollah Sistani my 
viewpoints to form a government of technocrats.'' Now, did you 
discuss that with Mr. Maliki, that conversation that he had 
with Ayatollah Sistani?
    Ambassador Crocker. I did not discuss that conversation, 
because I was on my way back here that night. I have had 
discussions with the Prime Minister on questions of how the 
government functions, the problems in governmental 
functioning--there is a lot of frustration over that, on our 
side, of course, and on the part of Iraqis, and including the 
Prime Minister himself. He has previously spoken of one 
alternative, being the formation of a technocratic government.
    Chairman Levin. Thank you, my time is up.
    Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    General Petraeus and Ambassador Crocker, again, thank you.
    General Petraeus, you have stated that Iraq is now the 
central front in the war on terror, is that a correct quote?
    General Petraeus. That is correct, sir.
    Senator McCain. Why is that?
    General Petraeus. It is based on my conversations with the 
Director of the Central Intelligence Agency (CIA), and 
Lieutenant General McCrystal, the Joint Special Operations 
Command Commander who has assessed that it is a central front 
for al Qaeda, and they have based that on communications and 
other things.
    It is possible that the loss of momentum--to some degree--
in Iraq by al Qaeda may be shifting that, we've actually been 
looking at that to see if there are indicators of a reduction 
in support for al Qaeda-Iraq or not, and there is not something 
conclusive yet, but it is certainly something that we are 
looking at very hard.
    Senator McCain. Ambassador Crocker, in my statement I 
mentioned, and I'm sure you heard the Iranian President stated, 
``Soon we will see a huge power vacuum in the region. Of course 
we are prepared to fill the gap.'' Did you hear that comment?
    Ambassador Crocker. I did, I did hear that comment, yes, 
sir.
    Senator McCain. Your conclusion from that?
    Ambassador Crocker. At least the President of Iran has one 
virtue of being honest. Because that is already very apparent 
to those of us in Iraq, as Iran's intention.
    Senator McCain. General Petraeus, it's astonishing the 
number of things that people come up with, one of the latest 
statements is that the surge had nothing to do with Anbar 
Province, and the rather stunning success we've had there. How 
do you respond to that?
    General Petraeus. The success in Anbar Province, correctly, 
is a political success. But, it is a political success that has 
been enabled, very much, by our forces, who have been enabled 
by having additional forces in Anbar Province. The tribes, 
indeed, stood up, started outside Ramadi last October or so, 
Colonel McFarland of the Army with some great Marine forces and 
some Army forces in Ramadi made the decision to back him, that 
began to build some momentum, got some Iraqis trained, and all 
of a sudden by mid-March, they felt that they could go ahead 
and launch a----
    Senator McCain. Could it have happened without the surge?
    General Petraeus. It would not have happened as quickly 
without the surge, and I don't know whether we could have 
capitalized on it in the way that we have without the surge.
    Senator McCain. Ambassador Crocker, there's now a lot of 
conversation about a ``soft partition'' of Iraq, and that 
Baghdad is already partitioned, and Kurds are doing things 
locally--and others. What is your response to a proposal to a 
``soft partition'' of Iraq?
    Ambassador Crocker. Iraqis have to figure out what their 
state will look like in the future. One of the promising 
indicators we're seeing right now is, in fact, a discussion 
among all Iraqis--including Sunnis--about a decentralized 
federal system. These will be their choices to make. That kind 
of outcome--which is provided for in the constitution, is not 
soft partition, it's not partition of any form. Partition, in 
my view, is not a viable outcome for the situation in Iraq. 
Baghdad--in spite of all of the violence it has seen, and all 
of the population displacements--remains a very mixed city. 
Sunnis and Shiite together. Any notion that that city of over 5 
million can be neatly divided up, or painlessly cleansed of a 
huge number of people, is just incorrect.
    Senator McCain. Some argue that that ethnic cleansing is 
already taking place?
    Ambassador Crocker. There clearly has been a substantial 
displacement of--mainly of Sunnis--but also of Shiite. You know 
to be candid, there is still some of that going on, as the New 
York Times article suggests. That is going to be one of the 
challenges ahead for the Iraqis, and for us in support of them.
    Senator McCain. Why not let it just continue?
    Ambassador Crocker. Because this is occurring in its 
current form, pushed by militias and death squads, at a 
tremendous human cost. We've brought that down. The surge has 
brought that down, but it hasn't ended it. To simply say, 
``This is a good thing,'' would be, I think, in both practical 
and moral terms, roughly equivalent to some of the ethnic 
cleansing we saw in the Balkans.
    Senator McCain. General Petraeus, we agree that the 
national police have been a colossal failure. What are we going 
to do about it? How many people are we talking about in the 
context of the overall national police force, as it is?
    General Petraeus. Senator, there's no question that certain 
national police elements were hijacked by sectarian interests--
particularly during 2006--and became part of the problem 
instead of part of the solution. The Ministry of Interior has 
recognized that, this Minister has taken steps, and we have 
supported those steps, needless to say. But it includes 
replacement of the overall national police commander, both 
division commanders, all 9 of the brigade commanders, and 17 of 
27 battalion commanders.
    In addition, there has been a retraining process for them 
of a month-long course, where they're pulled out of the line, 
literally, and sent to a location Southeast of Baghdad for 
retraining. With some of the units, this has appeared to work, 
there are some others about which we still have continuing 
concerns. I believe that Prime Minister Maliki himself has 
gotten much greater concern about militia activity in general, 
and has publicly said now that the militias must be dissolved 
over time.
    I am going to bring in some individuals to take a look at 
this, together with the Ministry of Interior, in fact, shortly 
after I get back.
    Senator McCain. There's an argument that the success in 
Anbar Province, because it's strictly Sunni, cannot be 
replicated throughout Iraq.
    General Petraeus. Sir, it can't be replicated exactly, 
except of course in locations that are exactly Sunni-Arab. Now, 
actually, there are neighborhoods in Baghdad where this has 
been replicated, in other areas, including Abu Ghraib where 
some, well over 1,500 men have been put on hiring orders by the 
Ministry of Interior, almost all Sunni-Arab, I assume, and some 
are former insurgents, Jaish al-Islami--the Iraqi Government 
knows this, they did it with their eyes wide open, because they 
saw that it would be better to have these individuals fighting 
al Qaeda, instead of part of al Qaeda.
    Senator McCain. So, this can be and is being replicated 
throughout Iraq?
    General Petraeus. It can be replicated in a number of 
different locations where it's needed to be replicated. The 
truth is, in some areas you have sufficient security forces now 
to combat--and it's not just al Qaeda, it's also, of course, 
militia extremists. But, if you look at the province of Dhi 
Qar, for example, one of the four provinces for which the 
British are responsible, in that province, there's a pretty 
strong Iraqi element, and each time the militia has gotten out 
of hand, that element has been able to deal with it--on some 
occasions with some help with a special forces team, that is in 
that area, and that can provide some close air support, as 
required.
    Senator McCain. Ambassador Crocker, what is your degree of 
confidence that the Maliki Government can do the things that 
we've been asking them to do for a long time?
    Ambassador Crocker. My level of confidence is under 
control. We saw in the course of the summer a serious effort on 
the part of Prime Minister Maliki and other leaders to try to 
work out some of the national level issues among them, and that 
led to a communique on August 26 in which they announced 
agreement in principle on two pieces of legislation--de-
Baathification reform and provincial powers--committed 
themselves to convening regularly to deal with issues of 
strategic significance to the nation, and also announced 
agreement on issues relating to detainees and armed groups.
    These are modest achievements, but I nonetheless find them 
somewhat encouraging as an indication of, certainly, the 
intention of the leaders of the three main communities to work 
together, and their ability to produce some results.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses for their service.
    Chairman Levin. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman, and I 
thank General Petraeus and Ambassador Crocker, as others do, 
for your service.
    Ambassador Crocker, you've given us a rather ominous 
prediction, when you say that your level of confidence in terms 
of the political resolution decision, reconciliation is--you 
used the words ``under control.'' We've heard from General 
Petraeus, we've heard from General Jones, we've heard from the 
President of the United States, that military action and 
political reconciliation have to go hand-in-hand--you'd agree 
with that, would you not?
    Ambassador Crocker. Senator, I would agree that political 
reconciliation has to be the end state, but I would not, 
myself, suggest that they go hand-in-hand.
    Senator Kennedy. All right.
    Ambassador Crocker. I think the military surge can create 
the conditions under which political reconciliation is 
possible.
    Senator Kennedy. All right, well they can create the 
conditions. The real issue and question is, with the surge, are 
those conditions being created? General Petraeus pointed out in 
his counterinsurgency statement and book published last 
December, ``the tactical actions that must be linked, not only 
to strategic and operational military objectives, but also to 
the host nation's essential political goals. Without those 
connections, lives and resources may be wasted for no real 
gain.'' Without those connections--military and political--
lives and resources may be wasted for no real gain. So, General 
Petraeus, in looking at the surge, and being mindful of the GAO 
report, the National Intelligence Estimate (NIE) report, that 
point out that the most important benchmarks that are essential 
to achieve national reconciliation, end the violence, have not 
been met, and are not likely to be met any time soon--how do we 
have any real confidence that these political judgments are 
going to be made by the Iraqi political leadership? The Iraqi 
political leadership--they're the ones that are going to have 
to make the judgments on political reconciliation. We've had 
the surge now. We've read the GAO report, we know what 
President Bush has said, that if the benchmarks have not been 
achieved, he's going to hold the Iraqis accountable--we've seen 
no evidence of that. I'd suggest that the Iraqi political 
leadership is holding hostage American service men and women in 
Iraq. If they are not going to move, if they're not going to 
make judgments, if they're not going to make a decision, what I 
hear from you is that the American commitment is going to be 
open-ended. It's going to be open-ended into the future. I'm 
not sure the American people are willing to buy into that.
    General Petraeus. Senator, what gives me some confidence is 
actions beyond those of the inability to gain agreement on the 
benchmark legislation. An example is the fact that, although 
there has not been agreement on the oil revenue-sharing law, 
although they have actually sent it forward, I believe is the 
latest status--they have been, in fact, sharing oil revenue. In 
fact, giving provinces budgets that are commensurate with what 
they likely will be given if this law were passed.
    Similarly, in terms of--there is no general amnesty law, 
but there is, essentially conditional immunity that Prime 
Minister Maliki--through the National Reconciliation 
Committee--has fostered in reaching out to these groups that 
have raised their hand to support al Qaeda, and supporting them 
by putting them through training, and on the payroll of the 
Ministries of Interior and Defense.
    Senator Kennedy. Just to remind ourselves, the NIE, which I 
think most of us have had the opportunity to read, said the 
political reconciliation--I think they used the word 
``elusive''--the GAO, the establishment of benchmarks which are 
basically benchmarks by the Bush administration have not been 
effectively achieved and accomplished. We hear now that 
Ambassador Crocker says that he has called the idea of 
political reconciliation, he is keeping ``under control'' his 
degree of enthusiasm, or interest, or belief that that's going 
to happen. We have to know why we should believe that the 
Maliki Government or the politicians in Baghdad are going to 
make the tough judgments or decisions that are going to provide 
the national reconciliation and the political stability of that 
country, which--as you pointed out in your book--says is 
absolutely essential if we're going to end violence, and have a 
country that's going to have some degree of independence.
    Ambassador Crocker. Senator, I described a few minutes ago 
the efforts that Prime Minister Maliki and other members of the 
leadership made in the course of the summer that does give me 
some encouragement, both of their resolve and, to a certain 
degree, their ability to get things done.
    There are other indications----
    Senator Kennedy. They're not in the GAO report.
    My time is just going out--General, if I could ask you, on 
your last chart that you have over here, this is the last 
chart?
    General Petraeus. Yes, sir.
    Senator Kennedy. It shows the gradual reduction of American 
personnel over the period--these are the numbers, the brigades 
that are going down, this has it eventually flattening out to 
virtually nothing, it's the chart over here. What is the 
timeline between these various bars that we have in this chart 
that's on this--on the chart that you have over here, and that 
you've distributed here?
    General Petraeus. Senator, as I mentioned in my testimony, 
the next decision--per my recommendations, at least, it would 
be in mid-March, which would be to recommend the subsequent 
drawdown--the pace of the subsequent drawdown beyond that we 
would reach when we had hit the 15 brigade combat teams. We 
would continue to do that as we go along.
    Senator Kennedy. So, we shouldn't conclude, we shouldn't 
draw any conclusions from that chart over there on the phasing 
down, in terms of the American troops, what those bars mean, 
and when the years will come out--do you have any estimate?
    General Petraeus. I cannot offer you that. What that does 
represent is our thinking on conceptually, how we would adjust 
our mission set, and also the numbers of brigade combat teams 
over time. Again, the over time--my best professional military 
advice is that, again, I have to do that as we get closer to 
each of those times.
    Senator Kennedy. My time is up. Thank you very much.
    Chairman Levin. Thank you.
    Thank you, Senator Kennedy.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I'd like to join all of us in saying that I have felt your 
appearances--which I've followed very carefully, I was in 
attendance at the House yesterday--have been very productive. 
They've been forceful statements, they've been objective 
statements, and I think, very credible statements, and I 
commend you for this public service that each of you are 
performing.
    This is a critical time in our contemporary history of this 
country, and we're on the threshold of a very important message 
that our President will deliver regarding the forward strategy. 
He'll deliver that, presumably, in the coming few days.
    General Petraeus, I've followed with great interest your 
career and I've gotten to know you quite well. I value our 
professional association. You wrote a letter to your troops, it 
says as follows, ``Many of us had hoped this summer would be a 
time of tangible, political process at the national level, as 
well. One of the justifications for the surge, after all, was 
that it would help create the space for Iraqi leaders to tackle 
the tough questions, and agree on key pieces of national 
reconciliation legislation.'' You concluded with this simple 
sentence: ``It has not worked out as we had hoped.''
    On what facts did you predicate the hope that you had?
    General Petraeus. Sir, I guess on the projections that were 
made by--in many cases--those who came before us. There were 
plans laid out of when certain pieces of legislation would be 
dealt with and the plain and simple fact is they were not, and 
I needed to level with our troops, and tell them that was the 
case.
    Senator Warner. Good. Let me go on, quickly. You value 
intelligence, as a military man.
    General Petraeus. Yes, sir.
    Senator Warner. We have, I think, a very fine system of 
intelligence now. Listen to what they said in January 2007 with 
the NIE, and I quote them, ``Even if violence is diminished, 
given the current winner-take-all attitude and sectarian 
animosities infecting the political scene, Iraqi leaders will 
be hard-pressed to achieve sustained political 
reconciliation.'' Now, in January, there was a very positive 
message to all, including you.
    Now you come to August of this year. The NIE assesses that, 
``Broadly-accepted political compromises required for sustained 
security, long-term political process and economic development 
are unlikely to emerge unless there is a fundamental shift in 
the factors driving Iraqi political and security.'' The NIE 
went on to say, ``That the Iraqi Government will become more 
precarious over the next 6 to 12 months.''
    How has this intelligence report--which I'm sure you 
respect----
    General Petraeus. I do.
    Senator Warner. How has this shaped your message to 
Congress, and your advice you're now giving the President of 
the United States?
    General Petraeus. For one, it has made it realistic, and as 
I have mentioned to the other committees, I am not a pessimist 
or an optimist at this point, I am a realist about Iraq, and 
Iraq is hard. What gives, again, some hope, is the willingness 
of Prime Minister Maliki--although it's difficult for him to 
cobble together all of the different elements that are required 
to agree on legislation--but he has given direction, the 
formation of the National Reconciliation Committee, that works 
with the engagement cell that the Ambassador and I have 
created--a British two-star and a senior diplomat--to try to 
embrace and facilitate these local initiatives, being connected 
to the national government. That has been the positive----
    Senator Warner. General, I have to tell you my own personal 
view is that I think the local activities, of what they call 
``bottom up'' reconciliation, are just coming into being, it's 
just come into the lexicon, the debates that we've had, in 
these 5 years, we've never seen it before. It's a little too 
early, I think, to put much credit on it. But let them, let's 
think for the future positively.
    We have to have bottom up--I mean, top down, not bottom up, 
reconciliation to meet the maxims that we've operated on, and 
witnesses at that table have said for years, there is no 
military solution to this, it has to be a political 
reconciliation to have a unity government.
    That brings you up, Mr. Ambassador. Again, you're giving 
advice to the President. The President's message is going to 
take this debate--as it should--from the halls of Congress into 
every city, village, town, and crossroads in this country, into 
most of the capitols of the worlds, and most particularly, in 
the Middle East. Credibility of the United States is on the 
line, and we have to help the President--all of us, in my 
judgment--to get it right.
    I don't feel that this current status of the Iraqi 
Government, and I'm not going to use all of the adjectives; is 
dysfunctional. It's all been laid out, very carefully, by each 
of you over these days. But in January, the President, in that 
January 10 message--and I've read it, and re-read it many 
times--it is clear that that reconciliation was a concept, it 
was a building block to justify going forward with the surge.
    I do not think that the forward strategy that will be 
announced by the President in a matter of days can once again 
use the concept of top-down reconciliation as a building block 
for that strategy he will announce to our Nation. Do you agree 
or disagree with that?
    Ambassador Crocker. Sir, as you and others of your 
colleagues have remarked, and as we have said, and national 
reconciliation, political reconciliation is ultimately what 
success will be all about in Iraq, if it's achieved. So, I 
think whether it is top-down or bottom up, or--which is 
actually the case, both, that remains critically important.
    I'd make just a couple of quick points--first, as General 
Petraeus said, Iraq is hard, and reconciliation is hard, 
particularly when you're looking at it against the backdrop of 
the levels of violence the country has experienced over the 
last year and a half.
    Senator Warner. Simply, do you think it's going to be a 
part of the fundamental factual basis of support for the new 
strategy? We're betting on it happening at some point in time.
    Ambassador Crocker. I think that the essence of success in 
Iraq, for Iraqis, as well as for our own goals, centers around 
a successful national reconciliation process that is going to 
have both bottom-up and top-down elements.
    Senator Warner. That's what's been said at this table for a 
long time, sir. I respect you, but it hasn't happened.
    I want to ask one last question to the General. Again, with 
my respect for you, and how I've come to know you, you feel 
very deeply about every single soldier, airman, marine, and 
sailor that you have under your command. I think back about 
George Marshall in World War II, when he was faced with 
decisions in every respect, you face the same tough decisions 
that he and Eisenhower and others faced in that period.
    He said in his diary, ``I was very careful to send to 
President Roosevelt every few days a statement of our 
casualties. I tried to keep before him, all the time, the 
casualty results. Because you get hardened to these things, and 
yet you have to be very careful, to keep them always in the 
forefront of your mind.'' Interesting, fascinating. I'm 
confident that you do that. You're advising our President now 
on a strategy, and we don't know what it will be. But I hope 
that if--in any way you disagree--that you will so advise him.
    Second, I hope in the recesses of your heart, that you know 
that strategy will continue the casualties, the stress on our 
forces, the stress on military families, the stress on all 
Americans. Are you able to say at this time, if we continue 
what you have laid before Congress here as a strategy, do you 
feel that that is making America safer?
    General Petraeus. Sir, I believe that this is, indeed, the 
best course of action to achieve our objectives in Iraq.
    Senator Warner. Does that make America safer?
    General Petraeus. Sir, I don't know actually. I have not 
sat down and sorted out in my own mind. What I have focused on 
and been riveted on, is how to accomplish the mission of the 
Multinational Force-Iraq (MNF-I). I have not stepped back to 
look at the--and you've heard with other committees, in fact, 
I've certainly taken into account the impact on the military, 
the strain on our ground forces in particular, has very much 
been a factor in my recommendations.
    But I have tried to focus on doing what I think a commander 
is supposed to do, which is to determine the best 
recommendations to achieve the objectives of the policy from 
which his mission is derived. That is what I have sought to do, 
sir.
    Senator Warner. Once the President makes his statement, I 
hope you do consider very carefully--as I know you will. I 
thank you, General.
    Chairman Levin. Thank you very much, Senator Warner.
    Senator Byrd.
    Senator Byrd. General, a lot of your testimony is focused 
on al Qaeda in Iraq, even though the underlying problem in Iraq 
is the sectarian conflict that stems back over 1,000 years.
    I don't think it's a coincidence that this important 
hearing is taking place on the anniversary of the September 11 
attacks. This seems to be another attempt to make--in the mind 
of a confused public--the war in Iraq to the attacks 
perpetrated on us on September 11 by al Qaeda. Is this just a 
big sales job? Please answer this clearly and succinctly, so 
the American people can understand. Is there, and was there, 
any connection between the attacks of September 11, 2001, and 
Iraq?
    General Petraeus. Not that I am aware of, Senator.
    Senator Byrd. General Petraeus, Ambassador Crocker, it's 
getting to be like the change of seasons around here. Every few 
months someone from the administration comes up and says, 
``Just give us 6 or 12 more months and things will look 
better.'' Your argument for the surge back in January was that 
military success would create space for political progress. 
That didn't work. Now the new buzz-word is ``bottom-up.'' You 
talked about military success, but by the President's own 
reckoning, that success is meaningless without political 
reconciliation. Are 6 months or 12 months really going to make 
a difference on the big questions? Why should we keep giving 
you more and more time? Why? Why should we keep giving you more 
and more time?
    Ambassador Crocker. I think there are a couple of things 
that we have to keep very much in our minds here. First, what 
are we seeing in Iraq on the ground. General Petraeus has 
talked about the developments in the security situation. On the 
political level, we are seeing some signs of encouragement, and 
at the national level, I talked about with the leaders 
announced in August.
    We're also seeing something we hadn't seen before, which is 
efforts to link bottom-up developments, such as those taking 
place in Anbar, to the central government.
    Just before I came back to Washington, for example, the top 
leaders of the central government in Baghdad, the two Vice 
Presidents, and the Deputy Prime Minister, that's a Sunni, a 
Shiite, and a Kurd, went out to Ramadi to announce that the 
central government was increasing the budget for Anbar Province 
by $70 million for 2007, and was also providing $50 million in 
compensation for losses suffered in Anbar in the fight against 
al Qaeda.
    In addition to the monetary amounts, I think this was 
important, again, as a signal that the central government is 
engaged with Anbar, and is working to cement relations with 
this province, as Anbar takes its own steps to deal with al 
Qaeda and establish security.
    So, the answer I would give is that we are seeing some 
encouraging signs out there, both at the provincial level, at 
the Federal level, and between the two. I don't want to 
overstate what's going on, but I think it is certainly 
something that is encouraging to me.
    Senator Byrd. General Petraeus, you've touted success in 
Anbar Province. Just a few months ago, the tribes in Anbar 
Province were shooting and killing Americans. Recently, they 
decided they dislike the terrorists there more than they 
dislike Americans, so they're cooperating with us for the time 
being, while we give them money and arms.
    This recalls, in my mind, our policy in the 1980s in 
Afghanistan of arming the Taliban to fight the Soviet Union. We 
all know how that short-term policy hurt our long-term 
interests.
    What guarantee can you give us that the tribes in Anbar are 
not going to turn around and use the guns that we gave them 
against our troops, once they feel we no longer serve their 
interests? Isn't that a short-sighted policy?
    General Petraeus. Senator, first of all, we are not arming 
the tribes. We have not provided weapons to them. What we did 
initially is, basically give a thumbs up when they asked if it 
would be okay if they pointed the weapons they did have--they 
were already well enough armed--at al Qaeda, because they had 
come to reject the Taliban-like ideology and barbarity of al 
Qaeda in the Euphrates River Valley.
    At this point, their salaries in Anbar Province of the vast 
majority of these individuals are being paid by the central 
Iraqi Government, because they've been picked up as members 
that have either joined the Army, or have joined local police 
forces up and down the Euphrates River Valley. So, there is a 
connection to a national chain of command, and to a national 
salary structure that does give considerable leverage to the 
national government over those individuals.
    Very significant, again, that they have taken on al Qaeda, 
because although I have not sought to connect al Qaeda with 
September 11, al Qaeda is very much part of the sectarian 
violence. They're really the most barbaric and lethal 
accelerant on the Sunni-Arab side. Within Baghdad, in 
particular, the element that has--had been trying to carry out 
the displacement of Shiite, and kill--in fact our forces have 
increasingly dealt with and there's still work to be done in 
those neighborhoods against al Qaeda, and certainly very much 
against Shiite militia, as well.
    Senator Byrd. Ambassador Crocker, we're hearing that 
political reconciliation can't take place without security. But 
there will be no security without political reconciliation. 
This circular dilemma sounds a lot like the dog chasing his 
tail. A breeder would tell you that this is not the puppy to 
pick. ``Don't pick that one.''
    I'm not looking for an explanation about satisfactory 
progress. I want to know when Iraq will step up to its 
responsibilities, as have so many of our service men and women, 
and what you're going to convey to the Iraqis that there is an 
urgency for them to act now. When can we expect to see the 
benchmarks that you were charged to report on? The benchmarks 
originally proposed by the Iraqis themselves?
    Ambassador Crocker. Senator, the benchmark process has been 
deeply frustrating, certainly to us, and frustrating to a lot 
of Iraqis.
    At the same time, I think we have to maintain a certain 
flexibility in our approach, and note that in some respects, 
we're seeing action on the objectives of the benchmarks, 
without actual national legislation.
    We've mentioned, for example, revenue-sharing taking place 
without a revenue-sharing law. It's being done on a reasonably 
equitable basis to all of Iraq's provinces--that's all oil 
revenue that's being shared.
    De-Baathification reform--there is not yet legislation in 
place, yet the government has reached out to a number of former 
military officers, many of whom were members of the Baath party 
to offer them reinstatement in the service, to offer them 
pensions, or to offer them the choice of other public sector 
employment. So, that is, indeed, progress on reconciliation, 
without achieving the national benchmark.
    Similarly, on amnesty, as General Petraeus mentioned. The 
fact that the Government of Iraq was prepared to bring 1,700 
young men from the Abu Ghraib area, just west of Baghdad into 
the police force--even though some of those individuals had 
been involved with Sunni insurgent groups in the past--is, if 
not a general amnesty, it's clearly a conditional immunity.
    So, while I certainly cannot tell you when Iraq will 
achieve these benchmarks, formally, I can tell you that we're 
seeing some interesting progress on the objectives behind the 
benchmarks, which is reconciliation.
    Senator Byrd. Thank you Mr. Ambassador.
    Thank you, General Petraeus.
    Chairman Levin. Thank you very much, Senator Byrd.
    Senator Inhofe.
    Senator Inhofe. Thank you. Thank you, Mr. Chairman.
    First of all, General Petraeus and Ambassador Crocker, 
having been over and visited with you on the ground over there 
on a couple of occasions, I have to say here, publicly, that 
you two are the right people at the right time.
    I listened to your testimony, General Petraeus, and I'm not 
sure why I did--I knew, pretty much, what you were going to say 
when you came here, because these are things that we 
experienced, those of us who have been over there--particularly 
who have been over there recently.
    You talked about Ramadi--there's no question that the 
successes there, no one would have believed a year ago when 
they declared that that very likely was going to be the 
terrorist capitol of the world, and Fallujah, as we all watched 
with great anxiety, the door-to-door Marine operations, and now 
Fallujah is secure, just like Ramadi is. But the interesting 
thing is, it's secured by the Iraqi security forces, as opposed 
to ours.
    You talked about Patrol Base Murray, south of Baghdad, 
where they're doing things, the neighborhood programs that are 
providing for their own security, the volunteers that are there 
on the ground, we watched these programs, with the concerned 
citizens programs take place in Anbar province, now it's 
reaching some of the other areas, so that the successes are not 
confined to Anbar province. The citizens who go out and mark 
the undetonated IEDs--they're taking a risk. This is something 
that wasn't happening just a few months--well, it wasn't 
happening before the surge.
    What's happening in the mosques is just really remarkable, 
while the Imams, the clerics, and the mosques had been giving 
their anti-American reports--I think we said that 85 percent of 
the messages were anti-American, and we really haven't had 
anti-American messages since about April. Now, I think that's 
having a huge effect on the people over there in the region, 
we're getting so much of the cooperation that we weren't 
getting before.
    Joint security stations, even a very critical report said 
that we were almost to the anticipated number of 34, we have 32 
now. When you talk to the troops, and when you talk to the 
Iraqi troops about the relationships that are being developed, 
it's a huge success story.
    Ambassador Crocker, you talked about some of the economic 
victories that were there, you talked about the markets, about 
the kids in the playgrounds and these things. Some of us have 
been there, and we've gone through the markets, so we know that 
those successes are very real.
    I have to say--and to apologize to the two of you for what 
you've had to undergo--the moveon.org was bad enough, but I 
think we know who was behind that, but when my old friend, 
Congressman Tom Lantos, came out and said, ``We cannot take any 
of this administration's assertions about Iraq seriously 
anymore, no amount of charts and statistics will increase its 
credibility,'' I think it's appropriate for you to repeat 
something that you're probably tired of repeating. That is, the 
report that you've brought to us and to the American people and 
to Congress that you've been able to articulate in the last 
couple of days. Just one more time, tell us the genesis of that 
report--who put it together, and who's responsible for it.
    General Petraeus. Senator, I have a brain trust of bright 
guys, they wrote two drafts of it, and I took control of the 
electrons last week, or 2 weeks ago and basically rewrote it, 
and wrote that myself. Obviously, I shared it back and forth 
with them, but what I delivered here today was very much, by 
and large, my testimony, and it certainly had not been cleared 
with--nor even shared with anyone----
    Senator Inhofe. At the Pentagon, the White House, or 
Congress.
    General Petraeus. The White House, the Pentagon, or 
Congress.
    Senator Inhofe. All right.
    General Petraeus. Yes, sir.
    Senator Inhofe. I appreciate that, very much.
    I say to both of you that the adversaries, those who had 
been opposed to the war, those who are, generally, opposed to 
this President, have been very outspoken for a long period of 
time. But, I also noticed that some of the adversaries, once 
they go over there, and they see firsthand what we have seen, 
change their minds.
    I was really shocked when I saw the article in the paper by 
Michael O'Hanlon and Kenneth Pollack, in the New York Times on 
the 30th of July. These are two journalists, fine people and 
all that, with the Brookings Institute, but they've been very 
critical. They came back and wrote the article, ``A War We Just 
Might Win.'' I was in shock to see that. Katie Couric, who has 
certainly been no friend of the President's, or of this effort, 
came back from actually going over and visiting--Fallujah was 
one of the deadliest cities in this country with terrible 
fighting. But what happened is, al Qaeda came in, the tribal 
leaders realized they did not want to live under a brutal al 
Qaeda regime, so they enlisted the help of the U.S. soldiers--
suddenly, these former enemies had a common enemy, worked 
together, and now Fallujah is relatively calm, reconstruction 
efforts are underway, and it is really being considered a 
crowning achievement.
    I can't help but think, I would suggest that both Senator 
Kennedy and Senator Byrd go over there, and they may experience 
the same type of conversion.
    Now, when that statement was made, trying to draw a 
relationship--or trying not to draw a relationship between Iraq 
and September 11--I think it's important to bring out the fact 
that there were very major terrorist training camps in Iraq. In 
place like Sarda, Ramadi, Samarra, and Salimin Paq. In Salimin 
Paq there was a training camp where they actually had a 
fuselage of a 707, training terrorists how to hijack 
airplanes--there's no evidence that those who performed that 
duty on September 11 were trained there, but nonetheless, these 
were terrorist training camps. Are there any left in Iraq now?
    General Petraeus. There are certainly areas in which al 
Qaeda still has local sway, if you will. But one of the big 
efforts during the surge has, in fact, been to wrest control 
from them of many of the areas that were formerly sanctuaries, 
including not--also Ramadi, Baqubah, Arab Jaboor, a number of 
other neighborhoods in Baghdad, and so----
    Senator Inhofe. The point I want to make and want to get 
into the record, is that there are terrorist training camps 
that were there, most of which are not there anymore.
    There's been a lot of discussion about the various ``cut 
and run'' resolutions, and what would happen if we 
precipitously left. We have a lot of people we can quote, but 
one that has not been in the record so far was Iranian 
President Ahmadinejad, when he said at a press conference in 
Tehran just a matter of a few days ago, he said, ``soon,''--
believing that we might pull out, he said, ``soon we will see a 
huge power vacuum in the region, of course, we are prepared to 
fill that gap.'' Ambassador Crocker, do you think they'd do 
that?
    Ambassador Crocker. Sir, I think they've already shown that 
that is their intention. Iranian involvements in Iraq, support 
for extremist militias, training, connections to Lebanese 
Hezbollah, provision of munitions that are used against our 
forces, as well as the Iraqis, are all--in my view--a pretty 
clear demonstration that Ahmadinejad means what he says, and is 
already trying to implement it to the best of his ability.
    Senator Inhofe. I'd appreciate one last question, as my 
time is just about expired.
    General Petraeus, I probably wouldn't have gone quite as 
far as you went, in terms of what you're anticipating could be 
in the troop level in the future, because I think that's a 
difficult thing to do, but in your assessment, I would like to 
have you respond as to what factors should be used to determine 
that date and the size of troop withdrawal. What kind of 
factors would we be looking at? Instead of using specific 
withdrawals, and withdrawals and dates.
    General Petraeus. Sir, certainly the conditions in local 
areas are hugely important, and it's not just the conditions of 
the local security forces, it's also, actually, local political 
conditions. Because when you have a real sea change, as we have 
had in some of the Sunni areas, where they have decided to 
oppose al Qaeda, needless to say, the job just became quite 
more manageable. That's a very important factor.
    I will continue to factor in the strain on our ground 
forces, I think that's something in a strategic sense that I do 
have to take into account. It is an area, in fact, in which 
I've looked at what the impact of this is on our country?
    To come back to that, if I could--let me be very clear--I 
believe that if we can achieve our objectives in Iraq, that is 
obviously a very good thing for the United States, and would 
make us safer. The converse, I think, is also true, depending 
on how it turned out.
    To go on further, as I said, the Iraqi security forces 
become of considerable importance in that area, the 
institutional underpinnings for them at that time become 
important, and those are the key factors that we would look at, 
as we take this forward.
    Senator Inhofe. Thank you very much.
    General Petraeus. Thank you, sir.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thank you, General and Ambassador. It strikes me, as I 
watched your testimony over the last 2 days that you left the 
real war in Iraq, and came over onto the battlefield of the 
political war here in Washington about Iraq. I would say, on 
this battlefield, you have gained considerable ground over the 
last 2 days.
    I say so because, too often on this battleground, the 
forces are divided according to partisan loyalties, and there's 
a lot of hype and spin. You have given testimony that is 
thoroughly non-partisan, non-political, and realistic. It's 
quite obvious just today, this afternoon, that all of the 
answers you have given have not been answers that the 
administration would have wanted you to give. But, you're 
straight-shooters, you're both professionals--a soldier and a 
statesman who have served your country, and are serving it most 
admirably today. I thank you very much for that.
    I also thank you for the encouraging report that you have 
given, and I hope that it effects opinions here on Capitol 
Hill--I'm confident it will effect the opinions of a lot of 
people across America, because of the credibility that you've 
gained in giving it. You've said to us, the military objectives 
of the surge are, in large measure, being met, and as a result, 
the forces can be reduced by 7,500 troops by the end of this 
year, and 30,000 by about, less than a year--by next summer. 
``Without jeopardizing,'' I'm quoting you, General, ``the 
security gains that we've fought so hard to achieve.''
    I suppose one of the things that has surprised me most over 
the last 2 days is that every Member of Congress, regardless of 
our opinion about the way forward in Iraq, hasn't cheered when 
you said that, thanked you for it. Because, I can tell you that 
the 30,000 troops and their families are thrilled to hear that 
announcement, and I appreciate it very much. In the best of all 
worlds, I'd like to think people around here would take ``yes'' 
for an answer, and we'd go on and look forward to your next 
report in the spring.
    It's probably not going to happen. So, I want to ask you a 
few questions, General, about some of the amendments and 
proposals that we're likely to have put before us on the floor 
of the Senate.
    First, some may attempt to take your ``7,500 by the end of 
the year, 30,000 by next summer,'' and mandate it without 
regard to conditions on the ground, what would you say to that?
    General Petraeus. I would be uncomfortable with that. 
Again, I think that we have to have our eyes wide open as we go 
forward with this. We are making projections about what we 
believe will be the case, they're not hopes, but they are where 
we think we will be, and that is the basis for our decisions.
    In fact, if it can go the other way, we could even make it 
sooner. But, what we should do, again, is the objective about 
our assessments as we move along and ensure that we do not 
surrender a gain for which we've fought very, very hard by 
being locked into a timetable like that.
    Senator Lieberman. I take it that your answer would be the 
same to a proposal that would accelerate the troop withdrawal, 
mandate a larger troop withdrawal sooner, perhaps switching 
over to a different kind of mission early next year that would 
be counterterrorism, training the Iraqi troops, and protecting 
our troops there?
    General Petraeus. First of all, to do counterterrorism, as 
I mentioned very briefly in the statement, requires 
conventional, as well as all types of SOFs and intelligence, 
surveillance, and reconnaissance assets. We've found, in fact, 
this is very effective.
    We had been banging away in Ramadi with our very high-end, 
SOFs for years, and we did disrupt the enemy in there, we did 
take them down, various times, a few pegs. But it was not until 
courageous marines and soldiers truly cleared Ramadi in mid-
March, now augmented by these Iraqi security forces, former 
tribal members who joined in the fight against al Qaeda in the 
Euphrates River Valley, that we were truly able to take that 
sanctuary away from al Qaeda-Iraq.
    The same has been true in other areas--you do have to clear 
the area, and that is something that is not done just by 
counter-terrorist forces, per se, those that we normally 
associate with a counter-terrorist mission, but by conventional 
forces as well.
    In fact, one of the things we've worked very hard to do is 
diffuse the intelligence that support all of these different 
operations, and also, to coordinate and to try to achieve a 
synergy between the effects of these different types of assets.
    Senator Lieberman. Thank you for that answer, which I take 
to be a negative to an earlier accelerated reduction of troops, 
to switch the mission earlier.
    I want to go to Iran--both of you have focused on the very 
destructive role that Iran is playing through its Quds force in 
Iraq, by most counts responsible for the murder of hundreds of 
American soldiers and thousands of Iraqi civilians and 
soldiers.
    Ambassador Crocker, I know you've met twice with the 
Iranian Ambassador to Baghdad. I know that some of my 
colleagues and others have called for a diplomatic surge with 
Iran, to engage in negotiations with them. In your view, based 
on those two meetings, are the Iranians responding to that 
diplomatic initiative that you commenced with them?
    Ambassador Crocker. Sir, we have seen nothing on the ground 
that would suggest that the Iranians are altering what they're 
doing in support of extremist elements that are going after our 
forces, as well as the Iraqis.
    Senator Lieberman. General, do you feel that you have all 
of the authorities that you need, from a military point of 
view, to deter, disrupt, and respond to the Iranian attacks on 
our troops, and Iran's efforts to destabilize Iraq?
    General Petraeus. I do, Senator. Again, keeping in mind 
that my area of responsibility is limited to Iraq. So, it does 
not include going into Iran.
    Senator Lieberman. Let me ask you about that, because I 
know your military spokespeople in Baghdad have made very clear 
that we have evidence that Iran is taking Iraqi extremists to 
three training camps outside of Tehran, training them in the 
use of explosive, sophisticated weapons, sending them back into 
Iraq where they are responsible for the murder of American 
soldiers. Is it time to give you authority, in pursuit of your 
mission in Iraq, to pursue those Iranian Quds force operations 
in Iranian territory in order to protect America's troops in 
Iraq?
    General Petraeus. Sir, I think that really the MNF-I should 
just focus on Iraq, and that any kinds of operations outside 
the borders of Iraq would rightly be overseen by Central 
Command (CENTCOM).
    Senator Lieberman. My time's up.
    Thank you both. God bless you in your extraordinary 
service, and we all wish you well and success. Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and I thank both 
of you for your service to America, your commitment to 
executing the policies, not only of the President, but of this 
Congress, as we voted, over three-fourths voted to authorize 
the actions in Iraq.
    I think it's a healthy discussion, I really do. Last week 
we had General Jones' Commission, where 20 experienced people 
came and gave their views. We had the GAO give us their 
evaluation of where we are, and today you front-line officers, 
representing the government, are sharing your thoughts with us 
today, and we thank you for that.
    Ultimately, it is Congress' role to decide whether or not 
to fund this activity. I hope after this discussion, we can 
reach a bipartisan agreement, even though maybe it won't be a 
unanimous vote, but once an agreement is reached, I hope that 
we can all work together in a way that helps us achieve the 
decided-upon policy, and does not in any way make it any more 
difficult to achieve the policy that this Nation will have 
decided upon in this democratic fashion.
    Bing West has been to Iraq a number of times and written 
extensively about it--I believe two books--recently said this, 
General Petraeus, and I think you should be complimented, he 
said, ``The new military team has infused the effort with 
energy and strategic clarity, and seize the initiative. In this 
war, the moral, psychological element outweighs the physical by 
20 to 1. On the two primary battlefields--Anbar and Baghdad--I 
see a common characteristic, U.S. momentum.'' I think that's 
indicated in your comments, and I just wanted to share that, 
because some things have happened there.
    General Petraeus, you have--after having two full tours in 
Iraq, you came back and completed writing the DOD 
Counterinsurgency Manual--I see a copy of the big manual over 
there someone has. Would you tell us some of the tactics and 
principles you're applying that might have been different from 
those before, that you think can be effective against 
insurgents?
    General Petraeus. Sir, I think one of the most important 
initiatives has been to ensure that the idea of securing the 
population by living among it, is one of the tactics, 
techniques, and procedures that we practice. This manifests 
itself in the form of the joint security stations that are 
combinations of Iraqi and coalition forces, jointly manning, 
generally commanding control, and also, typically some forces 
there as well. Locations are in Baghdad, they're also in a 
number of other cities.
    There are also, however, patrol bases and combat outposts 
that have been established--again, to ensure that our soldiers 
and Iraqi forces are in the neighborhoods, are in the areas. 
You cannot commute to this fight. You can't secure a population 
by driving through it a few times in a day. You have to be 
there 24/7.
    This has, in fact, had positive developments. The 
intelligence that you get from this can actually be 
overwhelming at a certain point when they realize you're there 
to stay. It's worked exceedingly well in Ramadi and Fallujah, 
and in a number of other cities----
    Senator Sessions. Speaking of intelligence, this is when 
the local people give information of value to the American, or 
the Iraqi soldiers?
    General Petraeus. Yes, sir. In fact, that's a big factor in 
the number of additional weapons caches. The locals are helping 
us to those, we also have more forces on the ground, we also 
have more presence throughout the countryside, throughout 
cities, and so forth.
    Particularly, as the locals sense a degree of momentum, 
then they want to get on board, they're now happy to have the 
mortar cache in their vegetable garden taken out, as it's no 
longer needed.
    So, those are the types of practices that we have sought to 
employ, and a number of others in terms of this fusion of the 
intelligence--a lot of these are evolutions. But, I do think 
that, yes, we have made mistakes along the way, we have learned 
lessons very much the hard way, but I think that our 
institutions--the Army, the Marine Corps, the other Services--
have made a number of changes that have helped ensure that our 
leaders not only have the experience to draw on that many of 
them have already had in Iraq, sometimes one or two tours 
before--but also have had a preparation for deployment, the 
road to deployment, as it's called--that has the DOD 
Counterinsurgency Manual, or a host of other field manuals that 
have been revised, the detainee operations one is another 
significant one--and then the education system for our 
commissioned and NCOs has been completely overhauled. The 
Combat Training Center, mission rehearsal exercises out in the 
desert in Nevada, in Central Louisiana and Germany--all of 
this. In starting off, in fact, with a seminar on 
counterinsurgency, as they begin the road to deployment.
    So, the institutions themselves have already made a lot of 
changes. We have a counterinsurgency center, in fact, in Iraq 
that General Casey started that has a superb element in this as 
well, all leaders, instead of sitting down in Kuwait as our 
forces come through the port, actually are flown up to a base 
North of Baghdad, where they go through a week at the 
counterinsurgency center there. In fact, I address them. 
General Odierno and a number of others all sit down and talk to 
them about the latest developments, because it does continue to 
evolve.
    So, there are a lot of these efforts to try to do what we 
have learned is the right thing to do in Iraq. I think that, 
our leaders in particular--commissioned and NCO leaders really 
do get it, about this in a way that perhaps we have not had in 
the past.
    Senator Sessions. I would thank you for those comments, and 
I guess the point of that answer is that you didn't just take 
30,000 more troops and patrol more in Baghdad. You have a new 
strategy, a complex strategy, that teaches an alteration in 
their approach to the nature of this combat and conflict, is 
that what I understand?
    General Petraeus. We are trying to employ the forces in 
very appropriate ways. The truth is that some cases are doing 
what you might identify as counterterrorism, really. Targeted 
raids, other cases it really is classical counterinsurgency, 
and in some cases it's almost peace enforcement, in others it's 
nation-building--but that is what counterinsurgency is today, 
and that's what we tried to capture, in fact, in the 
counterinsurgency field manual.
    Senator Sessions. I think that's important. There's no one 
area of that country that's exactly like another----
    General Petraeus. That's correct.
    Senator Sessions.--and each one has to be treated 
differently, does it not?
    General Petraeus. That is correct, sir.
    Senator Sessions. You have that complexity in mind as you 
develop this strategy--I think it does give us a cause for 
belief that we can make progress.
    General Petraeus, when you came before us in January, 
before you went to Iraq, you had told me previously that no 
matter what happened, you would tell Congress the truth. I 
asked you that, that morning, and you committed to tell the 
American people the truth as you see it. Have you--to the best 
of your ability--told this Congress the truth about the 
situation in Iraq today?
    General Petraeus. I have, yes, sir.
    Senator Sessions. General Petraeus, in your opinion, is 
there a circumstance in which this effort in Iraq is such that 
we cannot be successful, that we would be putting more effort 
in a losing cause if we continue it? Or, in your opinion, do we 
have a realistic chance to be successful in this very important 
endeavor?
    General Petraeus. Sir, I believe we have a realistic chance 
of achieving our objectives in Iraq.
    Senator Sessions. I would just say, Mr. Chairman, when I 
asked General Jones last week, did a single member of his 20-
member Commission believe that our effort in Iraq was hopeless, 
and that we should withdraw promptly, he indicated not a single 
one did. So, I believe the American people are concerned about 
that question, and I value your honest answer to it.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Petraeus, have you ever recommended or requested 
the extension of troop tours to 18 months, or the accelerated 
deployment of National Guard and Reserve Forces?
    General Petraeus. I've certainly never recommended 
extension beyond 15 months. In fact, General Odierno and I put 
out a letter that said that unless things got completely out of 
control, that we would not even think of extending beyond 15 
months.
    Senator Reed. Having done that, doesn't that virtually lock 
you into a recommendation of reducing troops by 30,000, 
beginning in April, and extending to the summer? Regardless of 
what's happening on the ground?
    General Petraeus. Depending on what can be taken out of the 
Reserves. I don't know what is available in the National Guard 
and the Reserves. I do know that the Active-Duty Army, in 
particular, that the string does run out for the Army to meet 
the year-back criteria.
    Now, what we have done, of course, as I mentioned, Senator, 
is actually, in fact, to take some elements out short of their 
15-month mark, because of our assessment of the situation----
    Senator Reed. I understand that, and I think basically, my 
sense is that the overriding constraint you've faced is not 
what's happening on the ground in Iraq, but the reality--unless 
you did recommend, request, and succeed--that unless tours were 
extended, 30,000 troops are coming out of there beginning in 
April of next year, regardless of the situation on the ground.
    General Petraeus. Again, certainly the active brigade 
combat teams were going to come out of there. Again, I'm not 
aware of what is available in terms of battalions, brigades, or 
what have you----
    Senator Reed. My sense is that the Reserve and National 
Guard Forces are not available to----
    General Petraeus. I think that's the case, but again, I 
don't know because I have not asked.
    Senator Reed. Let me go to an issue which I think is 
essential to, not only where we are, but where we're going--
that's the reversibility of the progress you've reported with 
respect to the surge. I think in that context, I look at the 
situation in Basra, which the Chairman alluded to.
    The British conducted Operation Sinbad for about 6 months, 
goals very similar to the surge--reduce the violence in Basra, 
the second-largest city in Iraq, bring down the level of 
violence, prepare for redeployment of forces. They've begun 
their redeployment, and yet the situation in Basra, I think, 
has deteriorated significantly. Is that accurate?
    General Petraeus. Actually, in the last month, the level of 
violence has come down fairly significantly. In part because as 
I mentioned, there's been a four-star general put in place 
there several months ago, changed the police chief, and again, 
reached some political accommodations among the three parties 
that are down there. Also, did some release of some Jaish al-
Mahdi detainees, as well, who are not ones--by the way--who are 
in league with Iran.
    Senator Reed. But, the presence there of Iran is quite 
significant in the southern part, particularly in Basra.
    General Petraeus. There is a very real concern about 
Iranian activity in the southern provinces, and in Basra, in 
particular.
    Senator Reed. Yet, you've agreed--as you said earlier to 
the chairman--that the reduction of British forces was 
appropriate. In that regard, too, do the current British forces 
have a population protection mission?
    General Petraeus. They do not. Really, Operation Sinbad was 
very different from our surge, in the sense that it was 
conducted to reach some relatively short-term goals, and 
actually all along, intended to come back to their bases. They 
did, then, train--for example--the force to secure the palace 
over the course of the last couple of months, it's certified, 
took it over, and in fact has done an adequate job in 
maintaining security of that palace there. It has been the 
stand-up of some additional Iraqi forces down there, including 
Iraqi SOFs. There are additional forces--literally, as we 
speak--that are moving there to strengthen the position of 
General Mohan, the four-star general there.
    Senator Reed. If the British forces are operating there 
with, essentially, a force protection mission, and you've 
described--in your terms--progress because of political 
adjustments, why can't U.S. forces begin to adopt a force 
protection counterterrorism mission, and nonpopulation 
protection mission? Or, alternatively stated, why do certain 
elements in your command--American units--have a population 
protection mission, and the British don't?
    General Petraeus. It's largely because that's a Shiite 
area, and there has not been the kind of sectarian violence, 
there's just basically one sect. There is a pocket of Sunnis 
down there, but there has been general co-existence down there, 
by and large. So you, literally, just don't have the same--that 
particular challenge--in Basra, or in the other southern 
provinces. There is intra-Shiite fighting that goes on, but 
that is something that, in general, the Iraqis have shown an 
ability to resolve in a way that they have not been able to 
deal with, the very heightened sectarian violence, in 
particular, that took off in the next areas, in the wake of----
    Senator Reed. But let me return to my initial--you've 
argued that lately, at least, that the progress in the south 
seems to be taking some hold. Principally because of the non-
sectarian element. Yet, out where you are operating, where you 
will reduce forces next spring, there is a significant 
sectarian Shiite-Sunni clash. Yet, you're still confident that 
these gains will stand up?
    General Petraeus. There are a number of areas in which we 
are actually doing fine in mixed areas--or, in which, a better 
more accurate to say, Iraqi security forces are holding their 
own, are shouldering their share of the burden. Again, not to 
come back to Anbar, but Anbar is one of them, certainly. You 
see, not only were we going to bring the Muhone out of there, 
and not ask for it to be replaced, but we actually moved an 
Army battalion out of Anbar Province, as well, to another area, 
in fact, where it was needed more. But there are other 
locations like that--Kirkuk, Mosul to a degree--other locations 
where you can thin, because of the additional--in many cases--
local volunteers who have seen what has happened in Anbar 
Province, and have sought to have some of that in their areas.
    Senator Reed. Any strategy has objectives and resources to 
gain those objectives. Included in that is timed troops. So, 
given the present strategy that you've adopted, how long, and 
at what maximum strength, do you anticipate American forces 
being in Iraq?
    General Petraeus. What I can see so far, with any clarity 
in terms of time, as I said, is to the mid-July figure of 15 
brigade combat teams. We have the concepts to take us beyond 
that, but as I mentioned in my testimony, I can't--with any 
confidence or clarity--then project beyond that time, other 
than to say that we will draw down. What I cannot say is the 
pace of the drawdown, beyond that 15 brigade combat team 
structure.
    Senator Reed. Ambassador Crocker, to date the nation-
building effort in Iraq has faulted, dramatically. It seems the 
emerging strategy is one based on tribalism. Do you think that 
is a long-term and appropriate approach to stabilize the 
country?
    Ambassador Crocker. Again, Senator, it's hard to do nation-
building or reconciliation in the face of widespread sectarian 
violence, which has been the situation over the last 18 months. 
As you've seen from General Petraeus' charts, it's really just 
been in the last few months that we've seen a significant 
reduction in that.
    I think that nation-building, reconciliation in Iraq is 
going to take a lot of forms. In certain areas, the tribal 
dimension is key. If you're dealing with Anbar, you're dealing 
in tribal terms, and what is interesting, and somewhat 
encouraging to me there, is those tribal elements that have 
emerged have shown a considerable interest with linking up with 
the central government in Baghdad.
    About 10 days ago, the leader of the Anbar Awakening, 
Sheikh Sittar, came to Baghdad, I spent some time with him, and 
his main purpose, though, was to meet with the Prime Minister, 
and establish a relationship, and see what might develop out of 
that.
    In other parts of the country, it's going to be a somewhat 
different story. Diyala, for example, the Baqubah area, you 
have tribal elements, but given the inner-mixture of Sunni, 
Shiite, and Kurds--unlike Anbar which is all Sunni--you also 
have a very complex sectarian element. So, the dynamic is going 
to work differently in Diyala.
    Similarly, in the south, there is a tribal dimension there, 
it has a different form and shape than the tribal dimension in 
the predominantly Sunni areas. But there, too, we're seeing 
some signs of a desire on the part of Southern Shiite tribes, 
to connect with us, to connect with their own central 
government in the face of violent extremism practiced by 
elements of Jaish el-Mahdi.
    In Baghdad, the tribal dimension is less dominant, although 
in many areas, still present. But, we're also seeing--as 
General Petraeus has pointed out, in some Sunni Baghdad 
districts, the same kind of backlash against al Qaeda, the same 
desire to step up, and cooperate with our forces, and then to 
go the next step, for these neighborhood watches to link up 
with their own central government, and come under the authority 
of the Ministry of Interior.
    So, again, it's very complex. It's going to vary from place 
to place. The tribes are part of it, different areas are going 
to have different dynamics.
    Senator Reed. Thank you.
    Chairman Levin. Thank you.
    Now, I'm going to call on Senator Collins. We are in the 
middle of a roll call vote. There apparently are--how many 
minutes left, 10 plus 5 left in the roll call vote. After 
Senator Collins' turn, of 8 minutes, we will automatically 
stand in recess 20 minutes to give our witnesses a break. They 
haven't asked for one, but we're going to provide it anyway. 
[Laughter.]
    So, Senator Collins, then we'll stand in recess until 20 
minutes to 5 p.m.
    Senator Collins. Mr. Chairman, I will say that we've had 
this experience before, for those who were on the Governmental 
Affairs and Homeland Security Committee, and I hope the vote 
really is going to go the full amount of time.
    Senator Warner. I'll go down and protect you.
    Senator Collins. I hope I'll be protected on that, since 
I've never missed a vote.
    General, Ambassador, let me begin by thanking you for your 
courageous service.
    General, you've testified three times now that, ``The 
fundamental source of conflict in Iraq is competition among 
ethnic and sectarian communities for power and resources.'' As 
you've stated in your confirmation hearing--and reaffirmed here 
today--success in Iraq requires a political, as well as a 
military, component. So, let's look ahead a year from now.
    If a year from now the Iraqi Government has still failed to 
achieve significant political progress, what do we do? How long 
should we continue to commit American troops, American lives, 
American treasure, if the Iraqis fail to make political gains 
that everyone agrees is necessary to quell the sectarian 
violence? I'm going to ask both you and the Ambassador this 
question.
    General Petraeus. Senator, if we arrived at that point a 
year from now, that is something I would have to think very, 
very, very hard about. That is my honest answer to you right 
now. That would be a very, very difficult recommendation to 
make at that point in time. Because, on the one hand, we have 
very real national interests that extend beyond Iraq. They are 
true American national interests. On the other hand, there 
clearly are limits to the blood and treasure that we can expend 
in an effort. I am keenly aware of that, and, as I've mentioned 
a couple of times, that awareness did in fact contribute to 
these recommendations.
    Senator Collins. Ambassador?
    Ambassador Crocker. Senator, what I said in my testimony 
yesterday and today, is that it is my judgment that cumulative 
trajectory of political, economic, and diplomatic developments 
in Iraq is upwards, although the slope of that line is not 
steep. As we move forward, I will be constantly reviewing and 
assessing--with myself, my team, General Petraeus and members 
of his command--how we see things developing on the political 
level. I can't say what I'll be seeing a year or even 6 months 
from now, but what I can tell you is that I will make the same 
objective, honest objective, honest assessment that I've tried 
to do for this testimony.
    Again, if I should--at some future point--come to the 
judgment that, instead of a slight upward trend, we have a line 
moving in a downward direction, I'll be clear about it.
    Senator Collins. Ambassador, the first chart that General 
Petraeus showed us listed the major threats to Iraq. It talked 
about foreign fighters coming in from Syria, the possibility of 
Turkey coming in, and the concern about the Kurdistan Worker's 
Party. From Iran, we've had lethal aid training and funding, 
there are also foreign fighters coming in from Saudi Arabia.
    The Iraq Study Group's major recommendation--in addition to 
a change of mission--was for a diplomatic surge. To undertake a 
major diplomatic effort, to involve Iraq's neighbors, and to 
deal with all of these threats. I know that you have met with 
the Iranians, but there really has not been a consistent, 
ongoing effort to engage all of Iraq's neighbors. Should we be 
doing more on the diplomatic front?
    Ambassador Crocker. It's a great point, Senator, because 
the reality is that while Iraq's problems in their own context 
are extraordinarily difficult, Iraq also exists in a region, 
and as that slide demonstrates, the neighbors can make a hard 
situation that much worse. That has to be part of the overall 
strategy.
    We're doing two things on that. One is the neighbors 
initiative, if you will. There was a ministerial meeting in 
Sharm El Sheikh in May that involved all of Iraq's neighbors, 
plus the P-5 and the G-8. Since then there have been meetings 
of three working groups, among the neighbors, to focus on 
border security, refugees, and energy. We were observers at 
those.
    There was a meeting of the neighbors representatives in 
Baghdad, at the level of Ambassadors, on September 9, and there 
will be another ministerial at the end of October, or the 
beginning of November in Istanbul.
    There is also a proposal out there to establish a permanent 
secretariat, so that there will be an ongoing, coordinating 
mechanism for some of these difficult issues. So, that's at one 
level.
    The other thing we're doing is--and we coordinate together 
on this--bilateral initiatives--demarches, and capitols, and so 
forth, and we will continue to do that, as well.
    Senator Collins. Thank you.
    I am going to go run for the vote. Senator Akaka, I believe 
is here, and I think--okay, we're going to recess until 4:40, I 
believe.
    Thank you very much.
    General Petraeus. Thank you.
    [Recess.]
    Chairman Levin. The committee will come back to order, and 
Senator Akaka is next. Senator Akaka.
    Senator Akaka. Thank you.
    Thank you very much, Mr. Chairman.
    I've been very concerned about placing the responsibility 
of the new Iraqi Government back in the hands of the Iraqi 
people. In his speech on January 10, the President said, ``I've 
made it clear to the Prime Minister and Iraq's other leaders 
that America's commitment is not open-ended. If the Iraqi 
Government does not follow through on its promises, it will 
lose the support of the American people, and it will lose the 
support of the Iraqi people. Now is the time to act. The Prime 
Minister must understand this.'' The President further stated, 
``America will hold the Iraqi Government to the benchmarks it 
has announced.''
    Ambassador Crocker and General Petraeus, can you explain to 
me why we are not holding the Iraqi Government accountable for 
failure to meet their benchmarks, as the President said we 
would? We've heard reports from the Commission and reports from 
GAO pointing this out. But we have not heard about what we're 
going to do about it. I'm asking the question, why are we not 
holding the Iraqi Government accountable for this?
    Ambassador Crocker. Senator, the benchmark exercise, the 
failure of the Iraqi Government to fully implement a number of 
the benchmarks has been very frustrating to us, to me 
personally. It's frustrating to the Iraqis, it's frustrating in 
the Iraqi Government. These are, in many cases, very complex 
legislative initiatives that are difficult to do, particularly 
in conditions of significant violence. It's really been in the 
last few months that we've actually seen the violence trend 
down in a substantial way.
    My own view is that while the benchmarks are clearly 
important--while they are Iraq's own benchmarks, they are the 
ones who established them--the reality has been that in many 
cases, it has been simply too hard to do as a straight-up, 
national-level, legislative initiative. That doesn't mean that 
they should quit, or that we should stop pressing them. Neither 
is the case. It's a regular part of our discussions with the 
Iraqi leadership. But I think we have to be realistic here. 
They haven't been able to do them in the time that they and we 
agreed they should. They have done, as I discussed earlier, 
some practical things, creating the effect of benchmarks 
without having a national-level legislation. We see that in 
amnesty and de-Baathification and in revenue-sharing, just to 
mention three.
    So, I guess the final point I would make, sir, is that we 
have to keep in mind that benchmarks themselves are a means to 
an end. That end is reconciliation. If reconciliation is being 
achieved without full implementation of benchmarks, we should 
not lose sight of that as a measure of progress.
    Senator Akaka. General?
    General Petraeus. Senator, let me talk, if I could, about 
the security-related benchmarks. Frankly, the Iraqis have done 
better there. They did provide the three brigades worth of 
forces. Yes, they're not all operational readiness assessment 
(ORA) #1 because some of them are short equipment, or short 
NCOs, or something else, but they are in the fight in Baghdad, 
those forces are there. They are involved. In fact, some of 
them have really gained a good bit of respect of our coalition 
forces. Interestingly, one from Basra that is actually 
operating in the Sunni area. So Shiite, predominantly Shiite, 
of course from a Sunni area--in a Sunni area and the coalition 
commander actually wants that force to stay.
    In addition, Prime Minister Maliki has not limited 
operations anywhere in Iraq. There was a time my predecessor, 
as you may recall, was in the press, was directed or asked to 
remove some check points, for example, around Sadr City at one 
point. We have not had restrictions after a couple months after 
I got there and we talked our way through this, and also after 
Prime Minister Maliki came to understand, again, the real 
challenge that the sectarian--the Shiite militia extremists, in 
particular--posed to the new Iraq and also the militia threat. 
It's something that he became much, much more concerned about 
over time. So again, in that regard, there is a more positive 
level of performance.
    It is mixed in some other areas. One of those, talking 
about the sectarian influence or influence in targeting or 
things like that. Again, Maliki himself has done the right 
thing in this area. But here we have some concerns about 
others, either in his office or in other echelons of command. 
Therefore, they have not done what we had certainly expected 
that they would do.
    But, on the security side again, I think it's fair to say--
a more positive assessment than with respect to the big 
legislative items.
    Senator Akaka. We have had faction problems and violence as 
well, General. Anthony Cordesman, an Iraq expert at the Center 
for Strategic and International Studies here in Washington, has 
said that, ``In the 6 months the surge has been underway, we 
have lost about 40 percent of the country to Shiite factions.'' 
In Basra for example, the withdrawal of British troops seems to 
have led to an increase in Shiite on Shiite violence outside 
government control.
    General, do you agree with this, with his assessment, and 
if not, how much of the country do you believe is now under the 
control of Shiite factions?
    General Petraeus. I haven't sat down and figured out a 
percentage of the country that might be under Shiite militia 
control. There are certainly large neighborhoods, Sadr City for 
one, that obviously, in which there is considerable, enormous 
Shiite militia influence, several others in Baghdad. Again, 
Prime Minister Maliki has actually taken steps to address this 
in certain locations, in particular, and also in certain 
ministries. Because sectarian, the Sadr movement really 
hijacked some of the ministries as well. He's taken some fairly 
courageous steps--detained the Deputy Minister of Health, 
detained the Brigadier General in charge of the Facility 
Protection Security Forces of the Ministry of Health--and 
replaced the Facility Protection Security Forces around Medical 
City.
    Then I would have to walk down through the Shiite south, 
there has certainly been serious challenges by Shiite militia, 
including the assassination of two governors in southern 
provinces. But I would not say--by and large--that there are 
entire provinces, by any means, that are completely under the 
sway of the Sadr militia.
    In most of those provinces, Iraqi security forces, by and 
large, have control. Certainly Dewaniya is a bit dicey, but 
they've actually rolled back some of that. But others, as you 
walk your way down--and then Basra, as I explained earlier, 
really is in the throes of a, both the establishment of a 
pretty strong security operational command under General Mohan, 
a four-star general, and a new police chief, repositioning 
forces. Really an Iraqi solution down there, a Shiite-Iraqi 
solution to an Iraqi problem that right now seems to be doing 
reasonably well.
    But we hosted Tony Cordesman in Iraq, have a great deal of 
time for him and for the piece that he had, this latest one was 
titled, ``The Case for Strategic Patience.'' It poses, it lays 
out many of the challenges that we have described here, but 
also, as I said, does, at the end of the day, make this case 
for strategic patience, given the national interests that are 
involved.
    Senator Akaka. Thank you for your response.
    General Petraeus. Thank you, sir.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Let me echo the thanks of everybody else here to you 
gentlemen. Number one, for providing the kind of leadership in 
a very complex world at a critical point in the history of the 
world, the kind of leadership that's really needed right now, 
and also compliment you on what you've had to go through for 
the last 24 hours.
    You've been worn down and asked every conceivable question 
that could have been asked about what's going on in your part 
of the world. But there are a couple of things that I want to 
get to.
    But first, General Petraeus, we're very pleased to have you 
stop by Georgia on your way from Baghdad to Washington and to 
visit Fort Benning over the weekend and to see the next 
generation of Petraeus airborne-qualified as he graduated from 
jump school. I know you're just as proud of Stephen as he is of 
his Dad, so congratulations to you there.
    One other thing I want to say to you, General. I get a lot 
of emails from soldiers on the ground because of the fact I've 
been there so many times, and we have so many soldiers from the 
3rd Infantry Division at Fort Benning and Fort Stewart that are 
over there.
    I got an email back in January, shortly after you were 
confirmed and went to Baghdad. That e-mail was from a young 
soldier who had been on the ground for several months. He said, 
``Senator, I just want you to know how refreshing it is to have 
new leadership on the ground in Iraq that is committed to 
winning this war.'' He sent me a copy of a memo that you had 
sent out to all of your commanders in the field. He highlighted 
one phrase in that memo, which said, ``Be relentless in your 
pursuit of the enemy,'' and he said, ``We haven't heard this 
before. With General Petraeus here now, it has boosted the 
moral of the soldiers on the ground like I've never seen.'' So 
that's a great compliment to you and it is the kind of 
leadership that we need if, in fact, we are going to prevail.
    I want to go back to what Senator Lieberman was talking 
about, with this issue regarding Iran. We know that the Iranian 
influence is strong, particularly in the southern part of Iraq. 
We know that there are explosively formed penetrators (EFPs) 
being manufactured in Iran, or perhaps the parts being shipped 
from Iran into Iraq and manufactured. EFPs are more deadly than 
the IEDs, so we know the Iranians are having a significant 
influence on American's lives.
    What are we doing, Ambassador Crocker, from the diplomatic 
standpoint, with the fact that you have already said, in 
response to Senator Lieberman, that you didn't get much in the 
way of a positive reaction on the other side. From a diplomatic 
standpoint, is our discussion with the Iranians dead, are we 
pursuing it any further, or does it even merit pursuing it any 
further?
    Ambassador Crocker. Senator, I think that it's an option 
that we want to preserve. Our first couple of rounds did not 
produce anything. I don't think that we should either, 
therefore, be in a big hurry to have another round, nor do I 
think we should say we're not going to talk anymore. Things 
have strange ways of developing out in that part of the world. 
It may be, for example, that in the wake of the pronouncement 
by Mokdul Sadr a week or so ago, calling on the Jaish al-Mahdi 
to stand down in operations against both Iraqi and coalition 
forces, after the negative reaction that Sadr and the Jaish al-
Mahdi received because of their violence in Karbala during a 
religious festival--it could lead to some recalculations in 
Tehran. I don't know.
    But I think we want to see how this plays out and see, 
again, whether the Iranians are ready to make another 
calculation of where their interests really lie. Because I 
would submit that for Iran, whose people suffered more than 
anyone else from Saddam, except the Iraqis themselves, that a 
stable, secure Iraq that doesn't threaten its neighbors is in 
their long-term interest.
    We'll see if they get to that calculation. I have 
absolutely no assurance that they will, or not even very much 
confidence, but I do believe it's important to keep the option 
for further discussions on the table.
    Senator Chambliss. General Petraeus, what about from a 
military standpoint? Obviously, there's a very long border 
between Iran and Iraq. What action are we moving on to try to 
make sure that we slow down the shipment of arms from the 
Iranians to the Iraqis?
    General Petraeus. First of all, Senator, we have conducted 
a number of operations against individuals connected with the 
EFP shipment process. In fact, we captured the Iraqi head of 
the Shivani Network, as it's called, that is one of the major 
arms smuggling networks.
    A number of others along the way, we just picked up a large 
EFP cache in the last 24 or 36 hours. In addition, obviously 
we're focusing a good deal of intelligence on this, and we're 
working very closely with the Iraqi security forces and now, 
the Georgian Brigade, the country of Georgia--not to be 
confused with your great home State, but the country of Georgia 
that has just deployed a brigade into Iraq--very keen to 
operate outside the wire. It is going to work hard to interdict 
and disrupt the flow of weapons and other assistance from Iran. 
They're in a very strategic location in Kut, southeast of 
Baghdad, astride the road that comes up from Maysan, and also 
in from the border crossing that is to the east of Kut. That, 
we believe, can have a positive affect as well, and very much 
thicken and reinforce the actions of the Iraqis in that area.
    Senator Chambliss. Is there any consideration given to, or 
being given to, establishing a larger military presence, in the 
form of some sort of small base?
    General Petraeus. Sir, there's actually a very large base 
already at Kut. It's a base that had been used by the 
Multinational Division Center South, and that is, in fact, 
where the Georgian Brigade has deployed. We have a small U.S. 
headquarters there that works with them as well, a Provincial 
Reconstruction Team standing up and then some border transition 
teams also working out of that location. We may well put a 
patrol base or a combat outpost just to the west of the border 
crossing in that area as well to assist and to get eyes on, 
really, what is being done at that border entry point.
    Senator Chambliss. My time is up, but I thank both of you 
again for being very straightforward and honest in your 
assessment, as well as your presentation over the last 2 days.
    Ambassador Crocker. Thank you, sir.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Bill Nelson.
    Senator Bill Nelson. Mr. Ambassador, earlier today I asked 
you about Iran. Does Iran support, in your talks with the 
Ambassador, do you get any indication that they support the 
Shiite government in Iraq?
    Ambassador Crocker. Their stated policy is to support 
Iraq's new government and the efforts of that government to 
build a secure, stable, democratic Iraq. Their actions run 
pretty much to the contrary and that is a fact that the Iraqi 
Government itself is aware of. The Foreign Minister of Iraq, 
speaking at a gathering of Iraq's neighbors on Sunday, publicly 
spoke over his concerns on intervention by the neighbors, by 
some of the neighbors in Iraq with a negative security impact, 
and it was clear that he was talking about Iran. So again, you 
have a stated policy of support that simply is not borne out by 
reality on the ground.
    Senator Bill Nelson. General, if I may, earlier in 
conversation that you had with Senator Reed, the question was 
raised, can you sustain 130,000 troops, which you have set as a 
benchmark at the end of next summer. Can you sustain that? You 
tell me if I'm correct. I understood your answer to be, you 
would have to be able to sustain that, not with the regular 
Army, but with the Reserves.
    General Petraeus. No, sir, I was talking about the surge. 
Had we, if I had requested to extend the surge forces, the 
Active brigade combat teams in the Army could not, with a 15-
month tour lane, have sustained that beyond, again, the 15 
months of those particular deployments.
    Senator Bill Nelson. Okay.
    General Petraeus. It would have taken forces from another 
component, from either the Reserves or the National Guard. I'm 
just not familiar enough with what the two Services--the Army 
and the Marine Corps--have available in that regard, and I 
haven't requested it.
    Senator Bill Nelson. As the field commander, do you think 
that if you have a 15-month requirement for soldiers, that 
there should be 15 months off?
    General Petraeus. Senator, as I mentioned this morning, 
what I want as a field commander is the maximum possible, but 
again, my job is not to determine the dwell time for the Army 
or the Marine Corps, it really is to establish the requirements 
for the achievement of the objectives that we are trying to 
achieve.
    Senator Bill Nelson. Certainly, I would assume that you 
would have an opinion on that, because it would affect morale, 
rest, and recuperation.
    General Petraeus. Sir, again, if I said the longer the 
better, I mean again, the longer the better, but again, it's 
just something that's not on my plate.
    Senator Bill Nelson. Okay, I understand. So, let's assume 
that Congress enacts a requirement that if you're going to have 
15 months in-country, you have to have 15 months that you're 
not in-country. So now, looking down the road at your goal of 
130,000 by the end of next summer, can you sustain that? Can 
you sustain that 130,000?
    General Petraeus. Sir, I don't know. I'm not----
    Senator Bill Nelson. You don't know.
    General Petraeus.--again, the service chief, I've seen 
discussions of this. My sense is that we could not, but again, 
I'm not the one to ask about that, I'm afraid. That's really a 
question for the Army Chief of Staff.
    Senator Bill Nelson. We will certainly ask that and there's 
no mystery that the Reserves and the National Guard had 
difficulty with regard to enlistments.
    General Petraeus. Sir, could I clarify one point as well? 
Because that is--again, I'm not sitting here saying we're going 
to sit at 130,000 again, what I have said is that we will 
continue to come down. What I don't know is what recommendation 
I can make about the slope of that line, if you will.
    Senator Bill Nelson. Correct me if I'm wrong, I clearly got 
the impression this morning that you think what we will have is 
130,000 of our U.S. troops over there by the end of next 
summer.
    General Petraeus. Sir, what I have said is we will have 15 
brigade combat teams and then we'll have to shape what the rest 
of the force is at that time because we've actually had to 
bring some additional forces in above and beyond this because 
of detainee operations, IED Task Force, and some other things 
that are there.
    What I want to do is to get as low as we can. I've already 
charged the chief of staff of the MNF-I to pull together the 
teams, to start determining where we can achieve savings and 
combining functions of the two headquarters, the logistics, a 
whole host of other areas, wherever we can, we want to send 
folks home, and not keep them over in Iraq.
    Senator Bill Nelson. Can you venture a guess or a wish----
    General Petraeus. Sir, I have not----
    Senator Bill Nelson.--by the end of the year? Not this 
year, the end of----
    General Petraeus. I cannot, sir.
    Senator Bill Nelson.--after the summer?
    General Petraeus. I cannot, sir. Again, what I've said is 
that, with any confidence at all, I cannot predict the level of 
the continued force drawdown beyond that point in mid-July. But 
that's what I've pledged to do, is to assess that and make a 
determination, recommendations no later than mid-March.
    Senator Bill Nelson. Of course, a lot of that would depend 
on whether or not there's political reconciliation.
    General Petraeus. That's an important factor, both 
nationally and locally, and other factors as well, obviously.
    Senator Bill Nelson. Do you see any indication, thus far, 
of political reconciliation?
    General Petraeus. What I've seen, again, as I mentioned 
earlier, Senator, is the Prime Minister himself, in his office, 
reaching out again, to Sunnis in Anbar Province--we haven't 
talked at all about what he did in Salah ad Din Province. We 
actually flew him up to Tikrit the other day, he got off, went 
and met with a number of Sheiks up there, and have a similar 
initiative to what has gone on in Anbar Province. Now, it's 
going to take a while for that to reach critical mass, it's at 
the very early stages. But that is an important accommodation, 
if you will, and it is a tangible representation of a form of 
national reconciliation, short of, certainly, the legislative 
items that represent national reconciliation.
    We've talked about the fact that there's no oil revenue-
sharing law, but there is oil revenue-sharing going on. It's 
actually pretty decent. In fact, when I left Iraq in 2005, the 
provinces had no budgets whatsoever. I came back in the early 
part of this year. They actually had fairly substantial budgets 
and, in fact, even better, because last year they didn't spend 
them. They didn't spend about $10 billion. This year they're 
spending them, which--and again, in a country that is really a 
command economy in many respects, certainly there's some free 
market areas, but the government spending is just hugely 
important in Iraq, because that is what does so much good for 
the people in a country with an enormous social safety net, but 
one that has had a lot of holes torn in that safety net because 
of the sectarian violence, sectarian activities, and so forth.
    Senator Bill Nelson. Looks like my time is up.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. I'm not so sure 2 
days of this is Geneva Convention-compliant, but we'll keep 
going.
    Let's just put on the table as honestly as we can, what 
lies ahead for the American people and the U.S. military if we 
continue to stay in Iraq. Now, I know you can't predict with 
certainty the numbers we're going to have, but can you agree 
with this statement, General Petraeus? It's highly likely that 
a year from now, we're going to have at least 100,000 troops in 
Iraq.
    General Petraeus. That is probably the case, yes, sir.
    Senator Graham. Okay. How many people have we been losing a 
month, on average, since the surge began, in terms of killed in 
action?
    General Petraeus. Killed in action is probably in the 
neighborhood of 60 to 90, probably on average 80 to 90, 
average, killed in action.
    Senator Graham. Right.
    General Petraeus. That does not include the American 
soldiers, for example, tragically killed last month in a 
helicopter accident.
    Senator Graham. But here's what lies ahead for the American 
military. If we stay in Iraq and continue to support the surge 
through July, we're going to lose somewhere in the neighborhood 
of 60 military members, most likely hundreds more.
    General Petraeus. Yes, sir.
    Senator Graham. We're spending $9 billion a month to stay 
in Iraq, of U.S. dollars. My question for you, is it worth it 
to us?
    General Petraeus. The national interests that we have in 
Iraq are substantial. An Iraq that is stable and secure, that 
is not an al Qaeda sanctuary, is not in the grips of Iranian-
supported Shiite militia, that is not a bigger humanitarian 
disaster, that is connected to the global economy, all of these 
are very important national interests.
    Senator Graham. Would that be a yes?
    General Petraeus. Yes, sir. Sorry.
    Senator Graham. So you're saying to Congress that you know 
that at least 60 soldiers, airmen, or marines are likely to be 
killed every month from now to July, that we're going to spend 
$9 billion a month of American taxpayers' dollars, and when 
it's all said and done, we'll still have 100,000 people there. 
You believe it's worth it, in terms of our national security 
interests, to pay that price?
    General Petraeus. Sir, I wouldn't be here and wouldn't have 
made the recommendations that I have made if I did not believe 
that.
    Senator Graham. Don't you think most soldiers who are there 
understand what lies ahead for them, too?
    General Petraeus. Sir, I believe that's the case and I have 
discussed the reenlistment rates there. They know the sacrifice 
that may be required of them during the tour of their next 
enlistment.
    Senator Graham. Knowing what's coming their way, how is 
morale?
    General Petraeus. Sir, I, as a general characterization, 
let me just say that it's solid. Because, and you've heard this 
before, I believe that morale is an individual thing. Morale is 
the kind of day that you are having. If you lost a buddy that 
day, if I was the commander, if we have sustained losses that 
day, it's not a good day and morale's not great. But that 
doesn't mean that you don't have enormous determination and 
commitment to this very, very important endeavor, one which 
they all recognize as hugely important to our country. I think 
that one reason that they do reenlist, it's not just these tax-
free bonuses, trust me. Those are wonderful, we are very 
grateful to Congress for funding those, but this is about 
continuing to commit yourself to something that is bigger than 
self.
    Senator Graham. General, I hear this statement more than 
any other statement from troops. ``The reason I'm here is I 
don't want my kids to have to come back.'' Do you hear that?
    General Petraeus. I do, sir. I have a kid who, as you 
heard,----
    Senator Graham. Who's going to go, probably.
    General Petraeus.--pin jumplings on and he may well. Yes, 
sir.
    Senator Graham. There's no ``may well.'' He'll either be in 
Iraq or Afghanistan. You know that, don't you?
    General Petraeus. Sir, I do.
    Senator Graham. The recommendations you're making make it 
more likely that your own son is going to go to war. You know 
that, don't you?
    General Petraeus. In Iraq.
    Senator Graham. Anywhere.
    General Petraeus. That's correct, sir.
    Senator Graham. Yes, in Iraq.
    General Petraeus. That's right.
    Senator Graham. Ambassador Crocker, what's the difference 
between a dysfunctional government and a failed state?
    Ambassador Crocker. In a democratic system, governments--or 
in a parliamentary-democratic system, such as Iraq has--there 
is a mechanism for the removal of governments that people get 
tired of. Parliament can simply vote, no confidence. So it's, I 
think----
    Senator Graham. Would you agree with me that Iraq is a 
dysfunctional government at this moment in time?
    Ambassador Crocker. Certainly it is a challenged 
government. I would not----
    Senator Graham. You called it dysfunctional.
    Ambassador Crocker. If dysfunctional means it doesn't----
    Senator Graham. You could say we're dysfunctional and you 
wouldn't be wrong. The point I'm trying to make, is to anybody 
who's watched this, this government is in a dysfunctional 
state. The point I'm trying to make, there's a difference 
between still trying and not trying. What's the worst case 
scenario for the United States in Iraq, as you see it?
    Ambassador Crocker. The worst case scenario would be a 
failure, either a complete failure on their part, where 
dysfunctional government leads to a failed state.
    Senator Graham. What are the consequences of a failed 
state, to the United States?
    Ambassador Crocker. Just to finish my thought, that's one 
avenue. The other is simply a decision on our own part, that we 
no longer want to sustain our commitment. I think either way, 
you have a failed state in Iraq.
    That, in my view, has the gravest conceivable consequences 
for our own interests. As I mentioned in my statements, and as 
Ahmadinejad has made clear, Iran would seek to fill the void.
    Senator Graham. Is a failed state still possible in Iraq?
    Ambassador Crocker. Yes, sir, it is a possibility.
    Senator Graham. Do the actions we take in Congress, in your 
opinion, affect that outcome one way or the other?
    Ambassador Crocker. Yes, sir, they certainly could.
    Senator Graham. General, what's the worst case scenario 
militarily for the United States regarding Iraq?
    General Petraeus. Again, it is the consequences of a failed 
state, of failing to achieve our objectives and really to 
support the Iraqis achieving their objectives. Again, it could 
include al Qaeda regaining lost ground and its freedom of 
maneuver. It would certainly be a very, very heightened ethno-
sectarian level of violence. These alliances of convenience 
with outside forces, that would certainly flow from that, a 
humanitarian disaster of enormous proportions, for which we 
would share responsibility. Possibly some dislocation in the 
global economy, depending on what happens, obviously, with the 
flow of oil.
    Senator Graham. Why do you think Bin Laden's so worried 
about the outcome in Iraq?
    General Petraeus. I think again as I mentioned earlier, it 
has been regarded by al Qaeda Senior Leadership, AQSL, as the 
central front. They are trying to give us a bloody nose, which 
would be an enormous shot of adrenaline in the arm of 
international jihadists. If they had a sanctuary that close, 
where they could, again, export elsewhere, I don't know what 
would happen, in terms of the fighters who are there, whether 
they would then turn to Afghanistan in a bigger way or go to 
source countries or--again, that's a good question for the 
intelligence folks. But a lot of these scenarios are obviously 
pretty grim.
    Senator Graham. Thank you both for your service.
    Chairman Levin. Thank you, Senator Graham.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation, publicly, to you both for your 
service.
    Before the surge in Baghdad, do we know what the mix was of 
residents of Sunnis, Shiites, and others, approximately?
    General Petraeus. What we have, Senator, is a map that 
shows reasonably where there were predominantly Sunni, 
predominantly Shiite, predominantly mixed, and we have 
continued to track that. Tragically, one of the outcomes of the 
ethno-sectarian violence has been hardening of those certain 
areas into either more exclusively Shiite or Sunni and the 
diminution of some of the mixed neighborhoods.
    Senator Ben Nelson. In addition, has it resulted in a loss 
of Sunni residents in Baghdad, as well?
    General Petraeus. There have been displacements of Sunnis 
from Baghdad, throughout the sectarian violence and of course, 
again, this is why we have focused on that subset that I 
mentioned, of overall deaths, the ethno-sectarian deaths, 
because that is the cancer that just keeps eating at the fabric 
of Iraqi society and it won't stop if it is not stopped. It's 
not going to stop until something does, in fact, stop it. In 
this case, it is coalition and Iraqi forces stabilizing those 
neighborhoods and then trying to achieve a sustainable 
situation for the way ahead.
    Senator Ben Nelson. Do we know what the percentage of loss 
of Sunnis is, in the Baghdad area?
    General Petraeus. Sir, I don't have the----
    Senator Ben Nelson. Is it a 10 percent, 20 percent loss?
    General Petraeus. I could not hazard a guess. There have 
been substantial Sunni-Arab displacement from Baghdad. There 
has also been a tragic displacement of Assyrian Christians from 
Baghdad. Those two probably most of all.
    Senator Ben Nelson. Out of the south, out of the southern 
Shiite region as well, it's my understanding there's been an 
exodus of Christians from the south. Were you aware of that?
    General Petraeus. Sir, I am less aware of that and more 
aware of the challenges to Assyrian Christians in Baghdad and 
also in some of their former areas in northern Iraq.
    Senator Ben Nelson. I've heard that there have been 
displaced as many as 800,000 Christians in the Shiite regions 
in southern Iraq. Ambassador Crocker, do you know anything 
about that?
    Ambassador Crocker. No, sir, I don't. I'll certainly check 
into that. We are in regular touch with Christian 
representatives, and I am, myself. Their concerns have been 
focused on Baghdad and the areas to the north. I've never heard 
them raise a problem in the south.
    Senator Ben Nelson. It's my understanding that the problem 
is with the militias, and the ethno-cleansing that's going on 
there, as well.
    General Petraeus. Sir, I think, literally, it may be south 
Baghdad. There's one area, in particular, of southeast Baghdad, 
that was, in fact, the Dura area, an Assyrian Christian--or 
Christian, in general--enclave from which there has been tragic 
displacement.
    Senator Ben Nelson. I think they really had a reference to 
both, so if you would check, that would be very helpful.
    [The information referred to follows:]

    There have been a substantial number of Christians displaced from 
southern Iraq. However, given that the total population of Christians 
in Iraq is estimated at less than 1 million, the number cited--
800,000--seems high. Many of the Christians who have become internally 
displaced are relocating to northern Iraq, particularly the Kurdish 
region and Ninewa province. Embassy officials and the Provincial 
Reconstruction Team in Ninewa meet regularly with representatives of 
these communities, and ensure that their concerns are raised with the 
appropriate Iraqi local and national government officials. Christian 
communities in need also benefit from U.S. Government assistance 
programs. These include the Iraq Community Action Program, which works 
with underserved communities to form grassroots groups that develop 
community driven projects, and humanitarian aid programs aimed at 
improving the quality of child health services and filling gaps in 
emergency assistance in Ninewa.

    Senator Ben Nelson. You mentioned that when it comes to the 
south there has been a loss of a couple of Governors; former 
Governors sitting here thought that might be fairly 
significant, but----
    General Petraeus. It is very significant, sir, and Prime 
Minister Maliki----
    Senator Ben Nelson. I'm being light-hearted about it.
    General Petraeus. Right.
    Senator Ben Nelson. But it does represent a significant 
level of violence in the south, as well.
    General Petraeus. Sir, what it represents is really very 
targeted militia activity against Governors who had--in one 
case, definitely, in another case, sort of stood up to the 
militias.
    Interestingly, it may be another case, as the Ambassador 
mentioned, of the militia overplaying their hand. Because where 
there was a willingness to have some accommodation in the past 
between the militia--really, the party that the militia 
represents, and so forth, some of the Governors and other 
political figures, there is less willingness for that now. That 
also is a result of the violence in Karbala, which Prime 
Minister Maliki took very personally. In fact, he personally 
led the column of military vehicles down there to sort it out.
    Senator Ben Nelson. Ambassador Crocker, you said when 
looking at the Government of Iraq in terms of trying to meet 
the underlying goals of the benchmarks, that we shouldn't get 
lost in the benchmarks, we should try to evaluate whether or 
not they're achieving success.
    Would you agree that there are three things that you need 
to look for, in connection with that? Is there a commitment to 
do it? Is there effort being made to do it? Because it's quite 
possible there's a commitment and there's effort, but the 
results become more difficult, because as you both have said, 
Iraq is hard. It's hard for us, and it's obviously hard for 
that government. But, can we make that analysis, is there 
commitment to reconciliation?
    I've talked to some, and I've heard from others that they 
question whether that is the case. It's ``winner-take-all'' in 
many respects. Now, you're suggesting, General, that the Prime 
Minister's getting outside of Baghdad and going into other 
areas, I think that's a very positive, positive step.
    But isn't it the case that in Iraq they're going to have to 
have a Sunni, a Shiite, or a Kurd somewhere in the top 
position. While they may not believe that they get an honest 
broker, will they be satisfied with an effective broker, that 
seeks equity among all of the groups. Is that fair?
    Ambassador Crocker. That's a great point. There has been 
effort--the trip with the Prime Minister up to Tikrit, Saddam's 
old hometown, additional budgetary resources for Anbar, and the 
visit of the Shiite Vice President and the Kurdish Deputy Prime 
Minister to Anbar, illustrate that.
    Then going to your main point there. The question came up 
earlier as to whether the reports were true that when Prime 
Minister Maliki visited Ayatollah Sistani a few days ago, that 
he had raised the possibility of a technocratic cabinet. The 
minister's chosen--not because of their sectarian or ethnic 
identify, but because of their ability to do their jobs.
    Senator Ben Nelson. That would be more equitable in dealing 
with the people--would you agree?
    Ambassador Crocker. Absolutely, sir. One thing we have seen 
is a lot of frustration among the Iraqis, and even within the 
Iraqi Government, over where this heavy focus on sectarian and 
ethnic balance in cabinet has taken the country, in terms of 
effective governance.
    So, if it has brought them to the level of frustration, 
where the key leaders are prepared to say, ``Good governance is 
more important than strict sectarian and ethnic balance.'' That 
I would consider progress.
    Senator Ben Nelson. You used the word ``if'' several times 
there, so I suspect that it's hypothetical at the moment, but 
hope for results in the future.
    Finally, let me say that as we look at the surge, several 
of us didn't necessarily support the surge going into Baghdad. 
I think I communicated that when we met. No reservations about 
going into al Anbar with the surge.
    What are your thoughts about transitioning the mission out 
of Baghdad, in terms of the troops for over a 6-month period to 
drawdown--out of Baghdad, not withdrawing or anything of that 
sort--but standing up the combat-capable troops that Iraq has, 
to begin to take over that responsibility, so that they can 
secure themselves, they can govern themselves. Again, if not, 
it's not going to be very difficult.
    Then, make the mission stronger in going after the bad guys 
in the north, where we're having cooperation from the local 
Sheiks, tribal leaders, and others. Also, because as we've 
driven al Qaeda and the bad guys out of Baghdad, they've gone 
elsewhere, go after them. Then go to the south and work 
diligently to get the local forces there, to work with us in 
reducing the sectarian violence, and the other violence that 
just comes from Shiite versus Shiite to the constant militias.
    What are your thoughts about that suggestion?
    General Petraeus. Senator, as I mentioned, the title of the 
recommendations, if you will, ``Security While Transitioning,'' 
captures the idea that we certainly want to hand off as quickly 
as we can. But, as was stated in the December 2006 assessment 
that was done by Ambassador Khalilzad and General Casey, when 
they determined that the effort at that time was failing to 
achieve the objectives, the emphasis that it put on was 
reducing the sectarian violence, in Baghdad in particular--
because of that being the center of gravity for so much of 
Iraq. So, what we want to do, certainly, is to try to achieve 
sustainable situations in these neighborhoods, and then 
obviously to hand off over time.
    I don't think that we need to put U.S. forces in southern 
provinces, other than, say, some SOF teams or occasionally 
sending something down to help out. But, by and large, in the 
south what we want to do there is to develop these special 
units, if you will, in each province--and every province has 
them, the special tactics unit in Nasiriyah, for example, which 
is supported by one of our SOF teams, although they don't live 
with it, but when that unit, on occasion, a couple of times in 
the last, I don't know, 6 or 7 months has needed some 
assistance, and then our team links up with it, if it's close 
air support or what have you, unmanned vehicle or whatever it 
may be--it provides that enabler, but otherwise that force on 
the ground has been capable of doing what it's needed to do.
    We're trying to do that in other areas, as well, without 
increasing the conventional combat footprint in those 
particular areas.
    Senator Ben Nelson. In the process of doing that, it's 
quite likely that your force needs will reduce in Iraq. What 
are your thoughts in terms of having a second piece of that 
phasing-out of Baghdad, also establishing the residual force 
that is going to be there for a significant period of time, as 
in the case of Korea, Japan, and Germany--I don't know that 
it's time to establish what it is in its entirety--but moving 
to the borders for border protection, protecting our assets 
there, both the private assets of the contractors that are 
rebuilding, protecting the Iraqi Government and continuing to 
support them in the development of their security forces--
including, perhaps as the Jones Commission report said, firing 
all of their police officers and starting over. It's a major 
job, but it's going to be an ongoing job for a long time, and 
could require a smaller force, ultimately, which I think would 
enable a reduction in the number that are there, take pressure 
off the operational tempo, to get to a level where it is 
sustainable in the future.
    General Petraeus. Sir, the CENTCOM Headquarters, my boss 
Admiral Fallon--and with, very much, our support from the MNF-I 
staff, because we're frankly where a lot of the expertise, 
needless to say, resides--did a recent look at the request of 
the Secretary of Defense at what a long-term force might look 
like, literally, that down at the lower end there in that 
stair-step that you saw.
    So, we have looked at that, looked at the force mix, looked 
at the task mix, and so forth--the challenge is getting there 
from here, and trying to do it as expeditiously as we can, but 
again without rushing to failure along the way.
    Senator Ben Nelson. I think we'll have to leave that there.
    Thank you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    General Petraeus, Ambassador Crocker, you're coming up on 8 
hours of testimony, today alone. I thank you very much for your 
excellent presentations, and I thank you both for your 
tremendous service, and your leadership in our country.
    Let me say at the outset that all of us here, and all 
Americans, want to see our brave young men and women come home 
as soon as possible. My home State of North Carolina, for 
example, has 37,000 currently-deployed troops, a total of 
151,000 personnel have been deployed. Our shared heartfelt 
concerns in the Senate for our troops and for the safety and 
security of our country should draw us toward consensus. But, 
as we all know, a conspicuous gap exists between two policy 
positions--namely, a long-term military commitment on the one 
hand, and mandated withdrawal on the other. Gentlemen, we must 
seek common ground based on a set of shared principles.
    A growing number of our fellow Americans oppose a long-term 
U.S. military commitment. At the same time, many understand the 
profoundly negative long-term security implications for our 
country, and for the Middle East of a premature withdrawal, 
before Iraqi security forces are able to independently conduct 
security operations across their country.
    The difficulty of the current American and Iraqi situation 
is rooted, in large part, in the Bush administration's 
substantial failure to understand the full implications of our 
military invasion, and the litany of mistakes made at the 
outset of the war.
    Regardless, our task must be to see the way forward, to 
agree upon a policy that the majority of Americans will 
support, and one that provides the American and Iraqi people 
with the greatest opportunity for success.
    I believe that a requisite level of security must be a 
precondition for political reconciliation, and we know that 
security has improved in substantial areas of the country. The 
continued failure of the Maliki Government to achieve 
reconciliation, and the fact that current U.S. force levels are 
not sustainable beyond next spring, compels me to support what 
some have called ``action-forcing measures.''
    General Petraeus, I strongly agree with your recommendation 
to begin withdrawal of the equivalent of six brigades between 
this month and next July. I would hope--consistent with your 
security assessment--that many units not withdrawn could be 
reassigned, beginning next spring, to conduct border security 
operations, to reduce the flow of Iranian arms--particularly 
EFPs and other military supplies--to more effectively deny 
entry to foreign fighters through Syria, to supplement the 
training of additional Iraqi security forces, to conduct 
support operations, or to back up Iraqi forces that, 
increasingly, should have the lead in security operations.
    A recent Wall Street Journal article described that the 
Pentagon is preparing to build its first base for U.S. forces 
near the Iraq-Iran border, in a major new effort to curb the 
flow of advanced Iranian weaponry to Shiite militants. Of 
course, there must be more, which has been discussed in the 
recent questioning. I certainly would like to see more secure 
borders, and more activity along the long border, and of course 
on the Syrian border, as well, as we move people out of the 
Baghdad region, and more into the border areas.
    But let me ask a question about neighboring Arab countries. 
Why have neighboring Arab countries that have profound vested 
interest in a stable Iraq--Saudi Arabia, the Gulf States, 
Jordan, Kuwait, Egypt, Lebanon--not stepped up to the plate, 
both diplomatically and economically? Recent diplomatic 
successes are welcome, but are modest, relative to the need. 
Could you both discuss this matter for me, please?
    Ambassador Crocker. Yes, ma'am, it's an important part of 
an overall strategy for success in Iraq. We have been engaged 
with Iraq's Arab neighbors, and they've engaged with each 
other, and with Iraq, that's the whole point of the neighbors' 
exercise----
    Senator Dole. Right.
    Ambassador Crocker. --the meeting that took place on 
Sunday, the ministerial that will occur in Istanbul.
    We have pressed these states on issues such as debt relief, 
they hold billions of dollars in Iraqi debt from the days of 
the Saddam regime in the Iran-Iraq war. By and large, now, they 
have agreed to afford Paris Club terms to Iraq, which is 80 
percent debt forgiveness, we would like to see that move to 100 
percent, for example.
    There have been some other steps with the neighbors. Saudi 
Arabia is planning to re-open its embassy in Baghdad, that will 
be the first step for them since the fall of the Saddam regime, 
and we would hope it would show the way to other Arab 
neighbors, that the time has come to resume an active 
diplomatic presence in Baghdad.
    There is a negotiation that is just about to conclude 
between Iraq and Kuwait that will provide for the supply of 
Kuwaiti diesel to Iraq, and that's critical for power 
generation. We've also been in direct touch with the Arab 
neighbors on security-related issues, particularly on foreign 
fighters. While the flow is through Syria, the origins are from 
other Arab states in the Gulf. We have strongly urged steps, 
for example, for these states to prevent easy travel by, say, 
young men on one-way plane tickets, heading for Damascus 
airports. Indeed, I think one of your recent detainees, a Saudi 
picked up in Iraq, had to get from Saudi Arabia to Syria by 
bus, because he wasn't allowed to fly out.
    So, we're going to continue a diplomatic strategy that is 
focused on the neighboring states, and particular the Arab 
states. They are starting to do more, I think they are starting 
to accept that they have critical equities on how things turn 
out in Iraq, and are moving beyond the state they've been in 
for the last several years, of just not wanting to engage to 
accepting that, the outcomes are important to them, and they 
can affect the outcomes.
    General Petraeus. Senator, Jordan, first of all, has always 
been really quite supportive, and has worked very hard to limit 
foreign fighter flow to ensure that support for al Qaeda is 
disrupted as much as possible from there. Syria may have taken 
some steps against some of the foreign fighter facilitators in 
its country--it is something that we are literally looking at 
very hard to see how much they have done. But, they do 
recognize, we believe, that al Qaeda poses a very serious 
threat to them. That, should al Qaeda have success in Iraq, the 
next one you turn on might be that minority government in 
Damascus. We see signs that they recognize that, and have taken 
some steps, again, to make it more difficult.
    As the Ambassador mentioned, some of the source countries 
have made it more difficult for military-aged males also to 
travel on a one-way plane ticket to Damascus. But again, the 
more that can be done in that regard, or at large, in any way, 
to limit the flow of individuals from source countries through 
Syria, in particular, into Iraq, is something that helps Iraq 
enormously. Because a number of these end up being the suicide 
bombers that have created such horrific casualties on certain 
occasions in Iraq.
    Senator Dole. Thank you, Mr. Chairman. My time is expired.
    Chairman Levin. Thank you, Senator Dole, thank you.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you. I want to express my appreciation for 
your service to our country.
    In a democracy, having a dialogue like this, questioning 
your recommendations, even your judgment, is entirely 
appropriate. I don't believe that questioning your integrity 
is. So I appreciate your candor, and your service, and your 
presence here today.
    Let me begin--you've had to go for 8 hours, this is our 
fourth hearing over the last several days--we heard from the 
GAO, from General Jones, we heard about the NIE, and now we 
have the benefit of your thinking.
    Let me give you what I have concluded is the collective 
bottom line in all of this, and get your response. The bottom 
line in all of this is, the American people--particularly our 
service men and women, but also our taxpayers--will be required 
to continue to sacrifice in Iraq for an indefinite period of 
time to allow Iraqi politicians to get their act together to 
make the tough decisions that only they can make to hopefully 
begin the process of reconciliation. What's your reaction to 
that?
    Ambassador Crocker. There is a process underway that we've 
talked about in the course of the afternoon. It's bottom-up, to 
some degree, it's top-down to some degree, and it's linkages 
between them. It's the beginnings, if you will, of a 
reconciliation process that obviously needs to go much farther, 
if it is to carry Iraq to a position of security and stability 
over the long run.
    Senator Bayh. Ambassador, there's a question behind my 
observation, and you mentioned the process, bottom-up, top-
down, so let me get to it.
    For several years now, the progress has not been adequate, 
I think we'd all agree on that. The theory has been, ``Look, 
insecure people don't make hard decisions. We need to try to 
increase their confidence, their security, so that perhaps 
they'll begin to make the hard decisions.'' It just doesn't 
seem to have worked that way. They dither, they delay, and so 
we face this dilemma. If we stand by them, they tend to take 
our support for granted, and seem a little more comforted by 
that, and don't make the hard decisions. Yet, your advice as I 
understand it is timelines would not be helpful.
    So, my direct question to you is--what about accountability 
for taking these hard steps? What about consequences if they 
don't? Sixty to 70 troops every month, $9 billion to $12 
billion every month--they're not doing what they need to do, 
when do we say, enough already? Have some consequences when 
they don't?
    Ambassador Crocker. Again, it's important to bear in mind 
the recent past--2006 up through early 2007 was an extremely 
bad period in Iraq, and not only were things not moving 
forward, they were sliding back, in political terms, economic 
terms, and above all, security terms. Iraq came pretty close, I 
think, to just unraveling in the course of that year that began 
with the February bombing of the Golden Dome Mosque in Samarra.
    Senator Bayh. There is some history in Iraq before that 
timeframe you just mentioned, and they weren't making progress 
then, either.
    Ambassador Crocker. Senator, the challenges are immense, 
the failures are there, too, on the Iraqi side. It is 
frustrating to me, I'm out there. We are pushing them 
constantly in all sorts of ways. But, I have to be honest--this 
is going to take more time.
    Senator Bayh. I think we all need to be honest with 
ourselves, Ambassador, and I've appreciated the General's 
comments about modesty in making predictions is in order, and 
overemphasizing our ability to control events needs to be 
guarded against. Isn't it possible, at the end of the day, in 
spite of all of our efforts, support and encouragement--this 
just may be beyond them, for a variety of reasons--outside 
interference, historic enmities, a lack of leadership, all of 
those kinds of things. Don't we constantly need to be 
evaluating their capabilities and whether they can get this 
done, to justify the continuing sacrifices that we're making?
    Ambassador Crocker. I think, clearly, that's the case. 
We're here before you today to give our best assessments in 
four lines of operation, where we see things standing now.
    Senator Bayh. What you're hearing from a lot of us is, so 
often these last several years, we've tried to give their 
political leadership the benefit of the doubt, and now only 
doubt remains. So there we are.
    General, I hope--but I think you have to be a little 
skeptical about it at this point, too, and that's why I come 
down on the side of consequences, some accountability, because 
a gentle encouragement doesn't seem to have gotten the results 
that we want, if in fact, they can be gotten.
    General, I'd like to turn to you, I thought you had an 
excellent, very candid response to Senator Warner's questions, 
and that was--he asked you, going forward, the recommendations 
that you're making, will that make America safer? You said that 
you could not answer that question because that was beyond the 
scope of your responsibilities.
    General Petraeus. I thank you actually, Senator, for an 
opportunity to address that, frankly. Candidly, I have been so 
focused on Iraq, that drawing all the way out was something 
that, for a moment there, was a bit of a surprise. But, I think 
that we have very, very clear and very serious national 
interests in Iraq, achieving those interests has very serious 
implications for our safety----
    Senator Bayh. Let me ask you about those interests----
    General Petraeus. --and for our security. So I think the 
answer really--to come back to it--is yes. But again, frankly, 
having focused down and down and down, that was something that 
really on first glance I would let others----
    Senator Bayh. I judged by your response to Senator Graham 
that you had given that a little additional thought.
    General Petraeus. Immediately after, actually. Thank you.
    Senator Bayh. It happens to all of us, including those of 
us on this side of the table, as well.
    Let me ask you about those interests, then. You referred to 
the DIA, and then you referred to things that we picked up 
about how al Qaeda views Iraq, as being the central front in 
the war on terror, and so forth.
    But, let me refer to some other public statements of our 
intelligence services, and then ask you this question, about 
the importance--which we all agree upon--of Iraq not becoming a 
platform from which terrorists can operate against us, or other 
countries. That's why almost every responsible person thinks we 
need to keep a capability there to deal with that. So, let me 
tell you what the CIA's experts on radical Islam have indicated 
in public testimony.
    They have indicated that it is their assessment--on a 
global, not just on an Iraq-specific--basis, our presence in 
Iraq is generating more radicals and terrorists than we are 
eliminating in Iraq. So, on a net basis, we're actually 
creating more enemies than we are eliminating.
    They've also indicated that al Qaeda is reconstituting 
itself in Afghanistan, and perhaps in the tribal areas in 
Pakistan, and their assessment of the radicals in Iraq, the al 
Qaeda-Iraq members--I asked them this question directly, 
General, I said, ``Who do they hate more? The apostates or the 
infidels? Once we've reduced our footprint, and aren't as 
obvious a target anymore, where is their enmity going to be 
turned?`` The response was, ``Well, they'll turn on the Shiite. 
They really hate them more than they hate us.''
    So, my question to you, as my time's going to run out 
here--isn't it at least possible that looking at this from a 
global perspective, that the strategy we've pursued in Iraq, 
and indeed our presence there and the magnitude that we 
currently are there, is in fact, somewhat counterproductive in 
the global war against terrorism, and making America safer?
    General Petraeus. Senator, I think again, if al Qaeda was 
to be able to retain a substantial presence in Iraq, 
particularly a sanctuary in the order of what they had in 
certain areas, in fact, prior to the surge that that would be a 
very serious threat. I don't know where they would go next. 
Some have speculated that, in fact, they might focus more on 
Afghanistan, others more in the particular region there, to go 
after some of the other countries in that particular region.
    But, I think again, based on their own communications, that 
the CIA and the Joint Special Operations Command commanders 
assessment--this is their central front on the global war of 
terror that they are carrying out. It has been, at least. 
Again, it is hard to tell whether they will continue to regard 
it that way because of the loss of some momentum there.
    I am not sure that it is true that they are still 
generating more radicals in Iraq. I think, again, one of the 
big changes, as I've reported in the past 6, 8, 12 months if 
you will, stating all the way back, certainly, to October of 
last year when the first of these tribal oppositions to al 
Qaeda emerged, is that the Sunni-Arabs in al Qaeda--and that is 
the area in which they had been able to find sanctuary and so 
forth--have in large numbers turned against al Qaeda. They've 
gotten over the fact that they're not going to run Iraq again, 
they've gotten over the fact that they're disrespected, in 
their view, dispossessed, whatever it may be--and now want to 
make the Euphrates River Valley a decent place to live, work, 
and raise a family, and maybe even open up the border, and now 
they have a police academy again, and the rest of that, and 
rebuilt Ramadi and some of these other places, and others have 
seen the same. What they really want now is a seat at the table 
in Baghdad. They want adequate representation, they want their 
share of this ethno-sectarian competition for power and 
resources. They want their share of the resources.
    That's why it is significant--as the Ambassador reported--
on the Anbar big summit that was held out there the other day, 
the second of these, where the national government has reached 
out to them in such a substantial way. So, I think how al Qaeda 
plays out in Iraq is of enormous importance to our country, and 
to the overall international jihadist movement. Failing to 
achieve our objectives there would be just an enormous shot of 
adrenaline to them, I'm afraid.
    Senator Bayh. Gentlemen, thank you again, my time is 
expired. I would just conclude by saying, we all want to be 
successful in Iraq. We all hope that these signs you indicate 
come to fruition, but there's a lot of history here. We have to 
ask ourselves, ``What if they do not?'' How do we go about 
securing the national security interests of our country if, in 
fact, that is the course that events take.
    General Petraeus. Yes, sir. Thank you.
    Chairman Levin. Thank you, Senator Bayh.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    General, Mr. Ambassador--you have my respect and 
admiration, and I appreciate your service to our country, 
particularly in the challenging jobs that you have, you are 
performing now.
    It's because of my respect and admiration for both of you 
that I was particularly shocked and chagrined when I happened 
to open the New York Times on Sunday to see this ad, purchased 
by moveon.org--I don't know if I've ever witnessed a more 
reprehensible slander of a public servant and a patriot than as 
represented in this ad. It's my hope that members of this 
committee will join me--and, in fact, all Members of the United 
States Senate--will join together, without regard to partisan 
affiliation, and condemn this ad, and restate our confidence in 
General Petraeus, the same confidence that was manifested when 
he was confirmed by a unanimous vote of the United States 
Senate this last January.
    It's a pretty tough environment, I know you're working in 
Iraq--it's a pretty tough environment here, in Washington, in 
another way. General, when you were confirmed in January, you 
were announced not only as a new leader there, you announced a 
new strategy in Iraq, something people had been calling for, 
for a long time. People had been asking for some signs of 
progress in the security situation. You've come back here today 
as the Jones Commission did last week, as did the NIE did in 
August, and report that some security progress being made in 
Iraq, positive news in any other context.
    You've announced here today that you would likely recommend 
significant cuts in troops over the next year--something that 
people in this room and on Capitol Hill have been calling for, 
for a long time. You would, again, think that that would be met 
with some appreciation, some gladness.
    Ambassador, there have been those who have said that we 
weren't doing enough to talk to the people in the neighborhood, 
Iran, Syria, and others. Indeed, since that time--since 
January, since General Petraeus was confirmed--that's happened, 
and you've reported on that. Here again, something I would 
think that would be met with an appreciation for the progress, 
or at least the effort that entails.
    Then, of course, there were those, General, that announced 
shortly after the President announced the surge of troops into 
Iraq, they announced it a failure, or predicted a failure at 
the outset, before the surge had even occurred, and I guess it 
just goes to show that it's a bad bet to bet against the men 
and women of the United States military, because it has 
demonstrated some significant successes.
    So, I guess this is an unusual case, General and 
Ambassador, where you come bringing what otherwise might be 
regarded as good news, or at least progress, and it's the first 
case I've seen, I guess, of shooting the messenger for bringing 
good news. It's a strange time we find ourselves in, it's a 
strange environment here in Washington.
    But my question, what I want to ask you about in 
particular, are the consequences of failure. Because it seems 
to me there, too often, is a debate in the abstract about 
what's happening. General, you've already said that you believe 
what we're doing in Iraq is making us safer here at home, but I 
would like to ask, if we embraced the suggestion of some, here 
on Capitol Hill, that we would pull out our troops before the 
Iraqis are able to govern and defend themselves, what the 
consequences would be? I know we've talked about providing a 
failed state, a power vacuum into which al Qaeda would fill, 
you've talked about Iran. But, in particular, I'd like to get 
your assessment General, and Ambassador, about the humanitarian 
crisis that would like occur. Could you speak to that, please? 
General first?
    General Petraeus. Senator, first of all, there has already 
been a humanitarian crisis in Iraq. The estimates run as high 
as 2 million that have left the country, and perhaps that 
number that has been displaced within the country. So, this is 
already a tragic situation.
    One of our areas of focus has, as I mentioned, been to try 
to stabilize and to reduce the ethno-sectarian violence that is 
really the engine of that displacement. Some of that has 
continued. Some has risen to the level of cleansing. But in 
many areas, again, it has stabilized it, and has kept it from 
continuing. Because, this is not something, again, that just 
stops of its own accord. It doesn't reach the highway to the 
airport, let's say, and say, ``That's it.'' It then hops over 
and keeps on going.
    So, that has been a big effort, and we have a lot more work 
to do in that regard, as I mentioned up front, very clearly. 
We're not at a point that is at all satisfactory, but the trend 
line, again, is good.
    But, the level to which that could go if it got out of hand 
again, and got even worse, obviously could be horrific.
    Senator Cornyn. I believe the figures I recall, off the top 
of my head, about genocide in Darfur, roughly 400,000 people 
killed there. Would this be, would rival or exceed the 
magnitude of that sort of death by ethnic cleansing?
    Ambassador Crocker. Sir, it's obviously very difficult to 
predict. My previous experience, for example, in Lebanon in the 
early 1980s, I was there at the time of the massacres and the 
Palestinian camps following our withdrawal in 1982. When those 
massacres took place, I knew that some very bad consequences 
were likely to be set in train, but I couldn't have begun to 
predict where we'd be a year later, for example, with the 
resurgence of Hezbollah, and the bombing of both the embassy 
and the Marine barracks with horrendous consequences for us. I 
had a failure of imagination. I don't think in the intervening 
years, my imagination has gotten any more accurate or strong.
    But, I would be very concerned that in a context in which 
the United States was seen to be definitely backing away--and 
backing away in a sense that projected a signal in Iraq and 
elsewhere that we were not coming back, there's not going to be 
a second surge, it's over for us--I think the prospects of a 
truly catastrophic humanitarian disaster would be considerable.
    Senator Cornyn. In the order of hundreds of thousands, or 
millions?
    Ambassador Crocker. It could be that, sir. Because it could 
be a situation that would be so, so dramatic, that it would 
bring in neighboring states. Then you would have a failed 
state. You would have, basically, a meltdown inside Iraq, and 
the ensuing violence within Iraq, plus ambitions of some of 
Iraq's neighbors, like Iran, could bring these states in, and 
we could be looking at regional conflict, as well as a horrific 
humanitarian disaster. I can't say that's going to happen, I 
can't predict that's going to happen, but it certainly is 
something that could happen.
    Senator Cornyn. Thank you, Mr. Chairman.
    Chairman Levin. Senator Cornyn, thank you.
    Senator Clinton.
    Senator Clinton. I want to thank both of you, General 
Petraeus, Ambassador Crocker, for your long and distinguished 
service to our Nation. Nobody believes that your jobs or the 
jobs of the thousands of American forces and civilian personnel 
in Iraq are anything but incredibly difficult.
    But today you are testifying about the current status of 
our policy in Iraq, and the prospects of that policy. It is a 
policy that you have been ordered to implement by the 
President, and you have been made the de facto spokesman for 
what many of us believe to be a failed policy.
    Despite what I view as your rather extraordinary efforts in 
your testimony both yesterday and today, I think that the 
reports that you provide to us really require the willing 
suspension of disbelief. In any of the metrics that have been 
referenced in your many hours of testimony, any fair reading of 
the advantages and disadvantages accruing post-surge, in my 
view, end up on the downside.
    I started my morning today at ground zero in New York City, 
where once again, the names of the nearly 3,000 victims of the 
attack on our country were read solemnly in the rain. We have 
seen Osama bin Laden reappear on our television sets, 
essentially taunting us. We have the most recent reports out of 
Germany of terrorists plotting against American assets who have 
been trained in Pakistan. We get very little comfort from the 
fact that the mastermind of that mass murder is at large, 
neither captured nor killed, and that the Taliban and al Qaeda 
are resurging in Afghanistan, and their network is certainly--
if not tightly organized, a loose confederacy--that has grave 
consequences for us.
    With respect to Anbar province, a lot has been made of the 
coalition's work with the Sheiks, but that was going on before 
the surge. General, in your testimony during your confirmation 
hearings, you referenced the fact that the Sheiks were coming 
over, that there was already a decision by a lot of the tribal 
leaders that they would no longer tolerate the extraordinary 
brutality of the al Qaeda elements in al Anbar province.
    With respect to violence in Iraq, although the charts tell 
part of the story, I don't think they tell the whole story. If 
you look at all of the evidence that's been presented, overall 
civilian deaths have risen. The number of car bombings is 
higher. May was the deadliest month in 2007 with 1,901 civilian 
deaths. American military casualties are greater in every month 
in 2007 than in the same month in 2006, leaving us with a total 
thus far, through August, of 739 Americans killed.
    The Iraqi reconciliation process is now described as 
relying on bottom's up efforts, which are anecdotal, which have 
very little hard evidence to support what needs to be 
accomplished. Senator Warner's very specific questions of what 
is happening from top-down, certainly lead to the conclusion 
that not very much is occurring that can give us comfort that 
the Iraqi leadership is yet ready to put aside their sectarian, 
commercial, and personal interests for some kind of greater 
Iraqi political reconciliation.
    Iraqi public opinion, according to an ABC, BBC, NHK poll 
released September 10, shows that since the escalation began, 
Iraqi opinion has starkly turned against the occupation, as 
most Iraqis see deepening dissatisfaction with conditions in 
Iraq, lower ratings for the national government, growing 
rejection of the U.S. role there. For example, 65 to 70 percent 
of Iraqis say the escalation has worsened, rather than 
improved, security. Thirty-nine percent say their lives are 
going well, down from 71 percent in November 2005, and 47 
percent now favor immediate withdrawal of U.S. forces, a 12 
point rise since March. Overwhelming majorities give negative 
ratings to electricity, jobs, and access to health care.
    So, I give you tremendous credit for presenting as positive 
a view of a rather grim reality, and I believe that you and 
certainly the very capable people working with both of you, 
were dealt a very hard hand. It's a hand that's unlikely to 
improve, in my view.
    General, I want to ask you about what appeared to be a 
contradiction in your testimony. Earlier today you were asked 
by Senator Biden if, in fact, the circumstances on the ground 
are exactly what they are today in March of next year, will you 
recommend the continuation of somewhere between 130,000 and 
160,000 American troops being shot at, killed, and maimed every 
day. Your answer, ``I would be hard-pressed to recommend that 
at that point in time.''
    In response to Senator Collins, who asked, I thought, a 
very important question about what if, in a year from now, 
there has been very little progress, your answer was, ``Well, 
we would have to consider what to do at that time.'' General, 
don't you think the American people deserve a very specific 
answer about what is expected from our country in the face of 
the failure of the Iraqi Government to pursue its own required 
political agenda, that they have essentially been unwilling or 
incapable of doing so?
    General Petraeus. Senator, I don't see quite as big a 
difference in the answer, but I will stand by the answer that I 
gave earlier, which is that I would be very hard-pressed at 
that time to recommend a continuation.
    This policy is a national policy that results from policies 
put forward at one end of Pennsylvania Avenue with the advice 
and consent and resources provided at the other. I would, 
obviously, provide recommendations to that. Again, I would just 
say, I would be very hard-pressed, at that time--it's an 
awfully big hypothetical, and it is not something that I would 
want to try to determine right here, right now, about a year 
from now without having some sense of all of the other 
variables, that I think, understandably, would go into a huge 
recommendation like that.
    Senator Clinton. Ambassador, it's not only the Iraqi 
Government that, in my view, has failed to pursue a coherent 
strategy, I think our own has, as well. You've been tasked--as 
I understand it--with carrying the only contact with the 
Iranians and others in the region, and many of us have long-
advocated that our government needed to be much more engaged in 
a robust diplomatic effort.
    Do you believe that if the full force and effect of the 
American government were brought to bear on the region, and 
more broadly on countries that have a stake in the future of 
Iraq, even beyond the region, that there was some process 
established that could begin to try to sort out what was or 
wasn't possible, that that would be an additional benefit to 
your efforts, going forward in Iraq?
    Ambassador Crocker. Senator, engaging the region and the 
international community more broadly in support of Iraq is 
important. That is ongoing and it's accelerating. This fall 
we'll have at least two ministerial-level meetings on Iraq, the 
one that I mentioned involving the neighbors, plus the P-5 and 
the G-8 in Istanbul, and then in a little less than 2 weeks, in 
New York, the Secretary General of the U.N. and Prime Minister 
Maliki will jointly chair an international ministerial-level 
meeting to review progress on the international compact with 
Iraq, and also to focus on how the new U.N. mandate for Iraq, 
the expanded mandate for Iraq, can most effectively be 
implemented.
    So, I think we're seeing an increase in regional and 
international diplomacy in support of Iraq. We're also starting 
to see, I think, some change in attitudes. I talked a little 
bit earlier about some positive developments among some of 
Iraq's Arab neighbors. I think we're also seeing a new look at 
Iraq on the part of at least some of the European states.
    During a 10-day period, for example, at the end of August, 
we had the visits of Bernard Kouchner, the Foreign Minister of 
France, and then right after that, Carl Bildt, Foreign Minister 
of Sweden--the first time, really, since 2003, we have seen 
major European states send their foreign ministers into Iraq to 
assess where Iraq is, and how they can, perhaps, more 
effectively engage for the future.
    So, I think we're seeing that kind of diplomatic initiative 
now gain some further momentum.
    Chairman Levin. Thank you, Senator Clinton.
    Senator Thune.
    Senator Thune. Gentlemen, thank you very much for your 
extraordinary service, and thank you for your indulgence in 
being here today. I know both of you, Ambassador and General, 
are runners. I know, General, you are a marathon runner, and I 
want you to know that when you get to this point at the dais at 
a hearing, you're like on mile 23 in a marathon, you're almost 
there. We appreciate very much your patience.
    I also want to convey our appreciation to the men and women 
who serve under your command. Please let them know how grateful 
we are for their service. They are the best of the best.
    What I would like to do, General, is Senator Graham asked a 
question about the morale of our troops over there, which you 
answered--and by the way, your testimony here and report has 
probably been the most hyped event in this city for a long 
time. Many of us for months now, have been saying that we're 
waiting to hear this report, and I will have to say that you 
have not disappointed. Your report has been full, it's been 
comprehensive, it's been factual, it has been objective and 
independent, and you've not sugar-coated things. I think that 
we appreciate very much your willingness to give us an 
assessment, an honest assessment on where things stand.
    I want to hone in on the whole question of the Iraqi 
troops, in general, what is the morale of the Iraqi troops? Are 
they taking ownership of this mission?
    General Petraeus. As I mentioned in the testimony, sir, 
there is an unevenness to it. The Iraqi forces range from 
extremely good to high-end, Iraqi SOF brigade with a counter-
terrorist force commando battalion that is now multiplying. The 
National Emergency Response Unit, the Special Tactics Unit--
these forces are absolutely superb, they are in operation just 
about every night, if not more--and every day--and we are now 
positioning them around the country, as well, including some in 
Basra.
    There are other special forces in just about each of the 
provinces. Again, as I mentioned in many cases, how our own SOF 
teams work with them, and those are viewed very highly, as 
well.
    The Army, by and large, a professional force, national 
force, again--by and large--and performing credibly and in a 
number of areas, in many cases, literally by themselves 
already, regardless of their ORA. Again, that does not hold up 
the provincial Iraqi control process completely, it is a factor 
in it, but in many cases those forces are doing quite well.
    Then it goes all the way down to--as you heard from General 
Jones' Commission--concerns about the sectarian tendencies of 
some elements still in the national police. We continue to have 
concerns about several of the units there. Again, we have 
raised those to the Prime Minister, those are--and the Minister 
of Interior--really, who is grappling with this issue, and 
working their way through the change-out of leaders, the 
retraining of a number of the organizations, and now even 
bringing in the Italian Carabinieri to train some of them. At 
some point, there may be a point at which some of those units 
will have to be disestablished, that is certainly not where 
Iraq wants to go right now, given just the sheer need for 
forces and for boots on the ground in a host of different 
areas, which is one reason why they're expanding so rapidly.
    But, so again, it runs the gamut--all the way and there is 
a substantial effort ongoing to improve the leader development 
in the Iraqi security forces to build the institutional 
structures that are, frankly, very hard to build, the military 
academies, junior and senior staff colleges, war colleges, and 
these may not sound all that exciting, but they are the types 
of institutional assets that have made our own Army and Marine 
Corps and other Services the truly professional forces that 
they are, and it takes that level of investment. That is 
ongoing, but again, it is something that does take time. It 
just doesn't spring out of the desert floor with infrastructure 
and structures and all of the support for it. But that is 
ongoing.
    Senator Thune. The first time I met with you was in Iraq, I 
think, back in February 2005 when you were leading the training 
mission there. I think you talked about the need to build 
leadership capacity within the Iraqi security forces.
    General Petraeus. Right.
    Senator Thune. But that--are they, to me, this doesn't work 
until that really happens. Is that happening?
    General Petraeus. It is happening, but frankly, some of 
this took a step backward--in some cases a substantial step 
backward--during the height of the sectarian violence. When 
certain units, literally, were taken over by sectarian 
interests, and became part of the problem instead of part of 
the solution. Retrieving some of those units is still ongoing 
in some cases, and again, of course, a big part of that had to 
be to reduce the level of sectarian violence, and threats, and 
so forth, so that these individuals didn't feel as though they 
had to side with one or the other, but could be truly 
professional, all commissioned and NCOs.
    That is something, again, that Prime Minister Maliki is 
very much concerned about confronting and dealing with. In 
fact, as I mentioned earlier, replacing wholesale, the facility 
protection security force that guarded the medical city.
    So, there are numerous challenges out there like that, but 
there are also just dozens and dozens of Army battalions and 
special operations units in particular, that are doing very 
credible work, and are very much going after the enemy. I 
mentioned the example of the unit in Mosul that killed the Emir 
of Mosul with its own intelligence, in fact, it was actually 
the intelligence officer who we believe was the one that fired 
the shot that did kill this individual where there was a 
confrontation.
    Senator Thune. I know that they've prevented some attacks 
in Mosul, they have acted rapidly in restoring security in 
Karbala, they've had some successes, and I guess my question 
is--if and when the Iraqi security forces are ready to take 
responsibility for the security of Iraq, if that happens before 
the political process has yielded a political solution, is our 
job done there?
    General Petraeus. First of all, Senator, let me just----
    Senator Thune. Those aren't on the same tracks.
    General Petraeus. Sure, let me just be clear--they have 
already taken over.
    Senator Thune. In some areas.
    General Petraeus. Again, in these provinces that have 
transitioned to provincial Iraqi control, there are no 
coalition forces in Maysan Province, Muthanna, Karbala, Najaf 
and some others. Karbala will go to provincial Iraqi control in 
about a month. Then there are some others who are very much, 
certain areas where we still have to be in the lead.
    Again, we can hand off as long as that local situation is 
sufficiently connected to Baghdad to enable us to do that. 
That's what we have done, again, in a number of cases, 
regardless of the fact that there may not be the agreement on 
the laws that we see as so important to ultimate national 
reconciliation. But, the fact is, there's a Ministry of 
Defense, there's a Ministry of Interior, there are varying 
degrees of functionality in different areas, and certainly, 
we're still having to help a great deal on the logistical 
arena, especially, because that's just proven very difficult.
    Senator Thune. I understand that, and I know we've made 
headway, and I know that there are areas that are now totally 
under the control of the Iraqi security forces, and in some 
cases we're in the lead and they're supporting, or they're in 
the lead and we're supporting.
    But, I guess the bigger question is, is the mission 
complete when they can take over the fight, even if the 
political component, if we haven't gotten some Western-style 
democracy imposed in terms of a political solution there--are 
we done? Is that where we can say, ``mission accomplished''?
    General Petraeus. Again, it depends how far along you are. 
I think we obviously have to have some degree of confidence 
that it wouldn't unravel. So, again, I think you have to ask 
where are we? There is national-level leadership and direction 
at this point, it does exist, Prime Minister Maliki is the 
commander in chief, he does issue orders.
    Another very important case was the celebration of the 
Seventh Imam Commemoration in Baghdad. This is one of the 
holiest Shiite celebrations, it focuses on a shrine in Kadamia, 
north central Baghdad. That's the one that you'll recall--I 
believe it was 2005--where there were nearly 1,000 of the 
pilgrims that were killed when there was a stampede due to 
either rumor of action, or possibly actually enemy action. The 
other 2 years around that, there have been dozens of Iraqis 
killed.
    This particular year, the Iraqi Baghdad Operational Command 
oversaw the operation, the Ministry is very much invested in 
it, it involved not just army and police, but also emergency 
services, transportation ministry and a whole host of other 
ministries that all would be involved in this, and to our 
knowledge there was not a death caused by enemy action, which 
is really a fairly extraordinary accomplishment.
    Senator Thune. Again, my time is expired, as well, but many 
of us have concerns about some of the national interests that 
you've articulated with regards to our efforts there, 
particularly the possibility of an Iranian-supported Shiite 
state that would exercise more influence, and would obviously 
put not only that region, but I believe, our country at risk as 
well. We thank you for the efforts that you're making, and 
encourage you, there are a lot of us who are cheering for you, 
hope you succeed. But you've been exposed to a political 
dimension of the debate that occurs here in Washington over the 
past few days that, on a level that's regrettable, but 
notwithstanding that, I think a majority of Americans and a lot 
of us up here want to see you succeed, so thanks again for your 
service.
    Chairman Levin. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I'd like to start, if I could, with a question for both of 
you. That is, after 2 days on Capitol Hill, are you two ready 
to get back to Baghdad? [Laughter.]
    Ambassador Crocker. Baghdad's never looked so good, 
Senator. [Laughter.]
    Senator Pryor. No, seriously, I have a couple of questions 
for you, General Petraeus, about the slides that you showed 
earlier, and one is just a real basic question, and that is on 
slide number 5, which is the caches found and cleared that you 
had--I just have a quick question in that.
    I remember in the early days of us being in Iraq, we found 
a lot of caches that were former Saddam Hussein caches. I look 
at January to September 2007, some big numbers there--are these 
weapons old Saddam weapons, or are they new weapons?
    General Petraeus. They're a mix, Senator, and now they 
often include something called HME, which means Home Made 
Explosives, which is a mix of fertilizer and nitric acid that 
is mixed up and often put sometimes in 5-gallon or even as much 
as 55-gallon drums.
    But, again, it runs the gamut. It includes, in some cases, 
weapons that clearly are traced back to Iran in terms of 
certain rockets, the EFPs, and some mortars, to items that 
certainly may have come from the Saddam weapons storage sites, 
or have come in from other countries over time.
    Senator Pryor. I assume you're seeing a fairly healthy mix 
of Iranian weapons caches?
    General Petraeus. Again, there are certain ones that are 
signature weapons, without question--the EFPs. The rockets, 
mortars, the rest is, it's just hard to tell where it came 
from.
    Senator Pryor. I understand, okay.
    Let me ask about the second graph I wanted to ask about and 
that's your Iraqi security forces capabilities, and that's 
number 12. Down at the bottom this, in most cases, the shortest 
part of the bar graph where they're fully-independent forces, 
and then you see this yellow band on top. I assume one of the 
fundamentals that you're talking about here in your report this 
week in Washington, is you're trying to have a yellow to green 
policy, you're trying to turn this yellow area into green 
areas, is that fair to say?
    General Petraeus. It is, and candidly, it is proving very 
difficult, because the requirements to be green in terms--they 
can get the strength up, that is not really an issue now. 
They're starting to--I think, strength for most Iraqi Army 
units is really quite good and it is climbing.
    The challenge is the fill of NCOs and commissioned 
officers. As the number of units grows, as they take casualties 
and tough combat, they're very challenged to find those 
experienced soldiers who can step into those positions, they 
just don't have a large pool of that, and that's a limiting 
factor. Also, the equipment, again, when they take losses, they 
do not have a good resupply, and that's fairly absolute. So, if 
you don't have a certain mix of equipment, you're just not 
going to be ORA-1. The truth is, it doesn't mean that you may 
not be conducting independent operations--this is very 
important, because it's something we work to. Obviously, we 
want to get them the right mix of equipment, we want to help 
them develop the leaders, the strength, again, and so forth, 
and to fix their logistical systems. But, the fact that they're 
not ORA-1 does not mean that they may not be operating 
independently. Again, there are places where that actually 
happens.
    Senator Pryor. That's one of the things that concerns me, 
is really, there isn't a clear trend that the green is going up 
and the yellow is going away.
    General Petraeus. It's a tough standard to meet. Especially 
when you're in combat, and losing soldiers, equipment, and 
leaders.
    Senator Pryor. Do you have sense----
    General Petraeus. Don't have a great logistical support 
structure.
    Candidly, this is something that Senator Levin and Senator 
Warner are helping us with. They have put a lot of stock in 
FMS, and we have to come through for them. We talked to Senator 
Levin about that, and to Senator Warner when he was chairman--
we really have to take this on. This cannot be a peacetime 
approach to FMS. I mentioned, they've put about, I think it's 
$1.6 billion already into it, it could be that much and a bit 
more by the end of the year. But we have to come through for 
them, and it can't be business-as-usual. It has to be, really, 
moved very quickly.
    Senator Pryor. I guess it's hard to say how long it will 
take you to go from yellow to green, but you're trying to get 
there as quickly----
    General Petraeus. We are trying to get there. You can see 
they took steps backward, because, again, the hard fighting 
that took place to get this, to deal with the sectarian 
violence, and then to get it down. That's the unknown, 
unfortunately, is just what kind of losses will they take, what 
kind of equipment will they lose.
    Senator Pryor. Let me change the question, here, if I can, 
General Petraeus, and let me just see if you agree with this. 
First, I'd say our military efforts in Iraq are very important, 
and our men and women in uniform in Iraq are doing an 
outstanding job in some very difficult circumstances, would you 
agree with that?
    General Petraeus. Certainly, yes, sir.
    Senator Pryor. Our military efforts are only part of the 
solution there. We must work very hard on four broad fronts--
diplomatic, economic, military, and political. Would you agree 
with that?
    General Petraeus. In fact, those are the Lines of Operation 
(LOOs) in our Joint Campaign Plan. There is an MNF-I Embassy 
Joint Campaign Plan, and those are, in fact, the LOOs in it.
    Senator Pryor. Ambassador Crocker, do you agree with that, 
as well, that we need a broad effort--not just on military--but 
also on diplomatic, economic, and political?
    Ambassador Crocker. Absolutely.
    Senator Pryor. My fundamental concern with the surge 
strategy, is that if we don't have the diplomatic, the 
economic, the political efforts, and progress in place, then 
the surge, I'm afraid, won't make a long-term difference in 
Iraq. So, that's a concern I have.
    In August, all of us went home to our home States, and I 
spent all month in Arkansas, and my sense of the Arkansas' 
general public their view of Iraq would be this: First, they're 
very patriotic. Second, they want to support--they're going to 
support the war fighter, regardless, no questions asked. Third, 
I'd say, they want for the United States to leave Iraq in a 
better condition than what we found it. They also need some 
assurance that the sacrifice we're making, that this country's 
making, is worth it. They need that assurance from the 
President, first and foremost, and from Congress, and from you 
all. But, I'll say this, too--there's a sense with people I 
talked to back home is that the goal posts keep moving in Iraq. 
I do have a concern about the report, and the stuff that we're 
hearing today, is that the goal posts have moved again. We 
talked about the surge, initially, being maybe 6 months, and 
now it looks like it may be a year-plus before we get back down 
to the pre-surge numbers, so I think people want to support 
what we're doing there, but they need some assurance on it, and 
they also desperately want to make sure that when we leave 
Iraq, we leave it in a better condition than what we found it.
    Last thing I have, Mr. Chairman, is a number of us, 15 of 
us in the Senate have been working on a bill to try to 
implement the Iraq Study Group recommendations. I just want to 
leave a copy of this bill with you all, it's an effort in 
working with the Iraq Study Group and bipartisan group of 
Senators, 15 of us--I believe it's 8 Democrats, 7 Republicans. 
From my standpoint, it's really the only truly broadbased, 
bipartisan bill in Congress, in the House or Senate. I know we 
talk about needing political consensus in Baghdad, which we do, 
but we also need it in Washington, DC, you all have had a taste 
of that this week. So, I'm going to leave this with you, and 
I'd love to get your comments, either from you or your staffs, 
at some point in the very near future. Thank you.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As the Commander of Multinational Force-Iraq (MNF-I) and a 
professional military officer, I do not comment on current legislation 
or draft legislation; I execute the policy and missions that are 
assigned to MNF-I to execute. I cannot, therefore, comment on the draft 
Iraq Study Group (ISG) legislation that you have referenced, but I can 
provide you with our assessment of the ISG's recommendations and a 
comparison of these recommendations with our Joint Campaign Plan.
    The ISG recommended changing the coalition strategy, specifically 
drawing down coalition combat power (although it noted that a temporary 
increase was an option) while placing greater emphasis on: (1) 
training, advising, and equipping the Iraqi security forces; and (2) 
conducting counterterrorism operations. Early this year, the 
President's New Way Forward established a different strategy, placing 
priority on protection of the Iraqi population to establish the 
security conditions that would enable economic and political progress 
and gradual transition of security responsibilities. This strategy 
required a temporary increase of coalition combat power--the surge of 
forces that deployed to Iraq this past spring.
    Despite the difference in prioritization outlined above, we have 
still implemented many of the ISG's recommendations. Of the 79 ISG 
recommendations, 40 are within the purview of MNF-I and United States 
Mission-Iraq either to implement or to influence the Government of Iraq 
to implement, and 36 of those 40 recommendations are effectively being 
implemented. More detailed information on the status of those 36 
recommendations is as follows:

          a. Diplomatic. Recommendations 1-12 focus on a comprehensive 
        Diplomatic Offensive and an Iraq International Support Group. 
        No such support group has been formed, but the elements of the 
        diplomatic offensive are being pursued in multilateral, 
        bilateral, and international (to include the U.N.) frameworks. 
        Particularly important are the Neighbors Working Groups on 
        Borders and Security, Refugees, and Energy and Fuel. Membership 
        of these groups includes Iraq's neighboring states and other 
        regional Arab partners as well as the five permanent members of 
        the U.N.
          b. Political. The coalition's current campaign plan 
        establishes the primacy of the Political Line of Operation and 
        effectively implements the ISG's recommendations regarding 
        political action.

                  i. Recommendations 19-31 deal with legislative 
                initiatives, including constitutional review, de-
                baathification reform, oil revenue sharing, provincial 
                elections, amnesty/reconciliation, and the status of 
                Kirkuk. Joint Campaign Plan 07 outlines the 
                aforementioned initiatives as priority political goals. 
                Recommendation 24 states that these milestones should 
                be complete no later than first quarter of 2007. While 
                we did not meet that target date, the coalition 
                continues to assist the Government of Iraq in working 
                to achieve resolution of these difficult legislative 
                issues.
                  ii. Recommendations 35-36 and 38-39 deal with 
                engaging Iraqis of all sects and supporting 
                disarmament, demobilization, and reconciliation. 
                Similarly, Joint Campaign Plan 07 emphasizes 
                engagement, transition, and reintegration of militias.

          c. Economics. Recommendations 62-63, 65, and 68 deal with 
        improving Iraq's oil industry and improving coalition 
        reconstruction programs. Through mechanisms such as the Energy 
        Fusion Cell and by assisting in the creation of Iraqi Army 
        Strategic Infrastructure Battalions, MNF-I is effectively 
        implementing the recommendations relevant to the oil industry. 
        The coalition is also implementing recommendations in 
        reconstruction through negotiations focused on more foreign 
        investment and involvement and by making full use of the newly 
        developed Quick Reaction Fund (QRF).
          d. Security. Recommendation 45 suggests leaving excess 
        equipment behind as coalition forces depart and encouraging 
        acceleration of Iraqi use of the Foreign Military Sales (FMS) 
        program. Although only limited deliveries have occurred thus 
        far, Iraq has invested significantly in FMS. Also, as forces 
        depart, MNF-I will continue to study the feasibility of leaving 
        equipment behind. We are working closely with the Department of 
        the Army and Office of the Secretary of Defense to transfer 
        8,500 M1114 Up-armored HMMWVs to the Iraqi security forces 
        under a FMS-like case with greatly reduced costs per vehicle. 
        These 8,500 HMMWVs become excess when the MRAP vehicles flow 
        into country and are put into the fight with American units.
          e. Rule of Law. Recommendations 52-55 and 57-61 cover 
        expanding Iraqi police capability to control crime, 
        transforming the Ministry of Interior, controlling the 
        Facilities Protection Service, and training the National and 
        Border Police. Through the efforts of the U.S. Embassy Rule of 
        Law section, the Law and Order Task Force, and the Coalition 
        Police Assistance Transition Team, the coalition is effectively 
        implementing these recommendations. Recommendations 57, 60, and 
        61 all assume the Department of Justice will take the lead for 
        Iraqi Police training, as recommended in Recommendation 56 
        (which is beyond MNF-I/USM-I purview). While these 
        recommendations are being implemented by a mix of civilian and 
        military trainers, they are not being done so under a 
        Department of Justice lead.

    Four recommendations of the ISG Report are not being implemented at 
this time. More detailed information is as follows:

          a. Recommendations 50 and 51 deal with the transfer of the 
        National Police and Border Police from the Ministry of Interior 
        to the Ministry of Defense. This concept continues to be 
        evaluated as part of the long-term evolution of the interior 
        forces, and the ultimate decision will eventually be made by 
        the Government of Iraq.
          b. Recommendation 42 requires the United States to complete 
        Iraqi security force training and equipping by the first 
        quarter of fiscal year 2008. As the Government of Iraq 
        continues to define its requirements, ISF development will 
        likely not be complete by the first quarter of fiscal year 
        2008.
          c. Recommendation 43 discusses changing the coalition 
        priorities to focus on counterterrorism and ISF development. 
        While both activities are important, the current coalition 
        strategy assigns different priorities. Counterterrorism is a 
        coalition priority, but its effective execution requires 
        significant conventional combat forces for intelligence 
        collection and complementary conventional operations, not just 
        options normally associated with counterterrorist elements. In 
        fact, the success of the current counterterrorism program would 
        be impossible without broad conventional support. Also, 
        although population protection has a higher priority within the 
        current MNF-I strategy, we are also working with the Iraqis to 
        improve the capability of the Iraqi security forces, through 
        training and equipping programs and robust partnering and 
        advisory efforts. Notably, the partnering effort would not have 
        been as effective with the reduced coalition presence 
        recommended by the ISG.

    The remaining 39 ISG recommendations are directed toward the U.S. 
Government and, as such, are beyond the scope of either MNF-I or USM-I. 
Of the recommendations that are out of the purview of MNF-I or USM-I, 
recommendations 13-18 focus on the Arab-Israeli conflict; 
recommendation 37 focuses on ensuring U.S. executive and legislative 
branch actions do not undercut Iraqi amnesty proposals; recommendations 
40-41, 44 focus on national policy statements and DOD personnel 
assignments; recommendations 46-49 focus on resetting the force; 
recommendation 56 assigns Department of Justice lead for Iraqi police 
training; recommendations 64, 66-67, 69-71 deal with U.S. national 
economic policy decisions; and recommendations 72-79 focus on U.S. 
national budgetary, personnel, and intelligence policy.

    Chairman Levin. Thank you, Senator Pryor.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Gentlemen, thank you very much. I appreciate your hosting 
me in Baghdad a few days ago. I got an advance, I think, of 
what we have seen in your report, and I want to tell you that 
between what I've heard from you, and also what I was able to 
perceive by visiting several places, and seeing and talking to 
our troops, that I have a very positive view of your report. I 
am astonished that some may be so invested in failure that they 
cannot see the very positive signs that you're bringing to us.
    I had the privilege of visiting Patrol Base Murray, south 
of Baghdad, and I saw there, myself, this is the last brigade 
of the surge. They've been there since late-May or early-June. 
They've been in the fight in a very tough neighborhood south of 
Baghdad, and they have been rooting out al Qaeda. I talked to 
Iraqis there, who are so thankful that our troops were there, 
that are working with them in partnership, and the enthusiasm 
that I saw from our men and women in uniform, there performing 
admirably, sustaining some difficult losses of their own 
troops, is what leads me to think that this strategy is 
succeeding in the neighborhoods where it matters, and turning 
the situation around. So while I understand the difficulties 
ahead, and the difficulties that we've had in the past, I must 
say that I am encouraged by what I saw there, and by what you 
report to us here, as well.
    I know we've been talking about this for a long, long time, 
but I wonder if you would, General, define for me who it is 
that our enemy is in Iraq? Who are we fighting?
    General Petraeus. At the outset, actually if I could just 
point out first, you'll be heartened to hear that the al Qaeda 
in the area of Arab Jabour was killed in the last several days 
as well, and that's in the Arab Jaboor area there, and that was 
in an area that was a sanctuary for al Qaeda, southeast of 
Baghdad, in an area in which operations are planned, set up and 
then run into Baghdad. So, it is a significant accomplishment 
by those at Patrol Base Murray.
    Senator Martinez. It's like the conduit to Baghdad, isn't 
it?
    General Petraeus. Yes, sir. Sir, I use the term that the 
enemy, the wolf closest to the sled, is al Qaeda-Iraq because 
it is the enemy that has, in the past, ignited the enormous 
escalation in ethno-sectarian violence by some of its actions. 
The bombing in February 2006 of the Golden Dome Mosque in 
Samarra are foremost among those, the enemy that causes the 
most horrific casualties, the most sensational attacks, and 
again has an effect at times, or tries to have an effect of 
pouring gas on burning embers, wherever they can find them.
    They're the ones responsible for the bombings of the four 
Yazidi villages several weeks back, of some Turkomen villages 
prior to that, south of Kurkuk, in trying all the time, again, 
to conduct more of those types of attacks.
    Beyond that, certainly the militia extremists supported by 
Iran are very much a growing concern. I mentioned earlier, 
we've learned a great deal about them after capturing the head 
of the special groups and the Lebanese Hezbollah operative who 
was supporting them, with Iran and a number of others over 
time, quite a few brigade commanders, in that particular 
structure. Again, the impact that they have is very significant 
because it can eat at neighborhoods. In many respects, it is 
the militia extremists at this point in Baghdad that are the 
cause of the ethno-sectarian violence, more so than are al 
Qaeda or any other Sunni extremist affiliates.
    Senator Martinez. Slide number 10, in my view, gives a 
great graphic portrayal of the success that you've had against 
al Qaeda-Iraq and we can add to this chart, now, the Amir that 
you just mentioned from my old friends at Patrol Base Murray, 
God bless them.
    General Petraeus. Sir, and again, that is significant 
success against al Qaeda. They're off balance, we're in the 
pursuit mode against them, certainly in many, many more places 
than we were before and had to take some tough casualties to go 
into areas that they had controlled before, Baqubah, and a 
variety of Baghdad neighborhood, Arab Jaboor, and other 
locations.
    Beyond that, I think the other enemies are less kinetic, 
but more just the challenges of institutions, again, that just 
aren't fully functioning. Certainly, residual sectarian 
influences, and even the degree of corruption that is still in 
certain elements in Iraq, those present big challenges, as do a 
variety of these different issues that we have to deal with in 
trying to stand up the security forces, in getting their 
logistical systems working, getting the institutional 
structures established, getting the sectarian activities out, 
and so forth.
    But that lays out, I think, the major challenges--the two 
big ones, again, being al Qaeda and its affiliates. There are 
still, certainly, Sunni insurgents out there, loosely 
affiliated, or not in some cases, and then the Shiite militia 
extremists who have caused such challenges in recent months.
    Senator Martinez. Thank you, sir.
    On your chart 13, as you talk about the stepping, you also 
are talking about mission shift. First of all, what would the 
shift be? You mention at the bottom, leading to partner to 
overwatch. Would you define those terms, and then also, is 
there any way to forecast when the shifting mission might also 
kick in? Because I presume that would have some impact of the 
level of casualties that our own forces sustain.
    General Petraeus. Senator, it already has. As I've 
mentioned, we certainly have a number of places where brigades, 
or the majority of brigades, are in the lead, but there are 
other phases where we are very much in partnering or have 
already moved to some form of tactical or operational 
overwatch, where we're not located with that unit, we're away 
from it. What we provide is quick reaction force, perhaps some 
other combat enablers, as required in a pinch.
    The way this will happen is, there will actually be, an 
entire brigade I don't think will go from, say leading to 
partnering and then partnering to tactical overwatch, because 
the brigades are fairly disbursed. There will be units within a 
brigade that may actually already be at a partnering or a 
tactical overwatch situation, where others may still be not as 
far along, depending on again, the units with which they are 
working. So, it is something we want to move as rapidly as we 
can, but again, we don't want to rush to failure.
    Senator Martinez. Ambassador Crocker, I just wanted to 
comment that I think that political communique is an important 
consideration and may be a foretelling; I know how we legislate 
here sometimes, sometimes it takes people getting in a room, 
agreeing on something, and then ultimately you see it become a 
bill and passed.
    If you could just quickly, my time is up, but I would like 
to hear from you, Ambassador, as to--we talked a lot about the 
grim realities of a precipitous withdrawal--what is the upside, 
what is the potential if we were to just succeed in Iraq in the 
way that I think is envisioned and possible. What could be the 
upside potential for Iraq and the region, if you could do it 
just briefly, because my time's expired.
    Chairman Levin. Please be brief, because we have three more 
questioners and we're going to have votes, I think at 7 
o'clock.
    Ambassador Crocker. Yes, sir. It would be a fundamental 
change in the region because Iraq, for decades, has been a 
source of instability and threat in the region and beyond, to 
Iran, to the Gulf States, and to Syria. So this would be almost 
an unprecedented situation, certainly for the last 3-plus 
decades, something we hadn't seen. I guess I just leave you 
with that. I wouldn't try to go beyond that. Again, my weak 
imagination fails me, but it would be a situation we have not 
seen. An Iraq that is a source of stability rather than 
instability and threat. Literally something we haven't seen 
since 1967.
    Senator Martinez. Thank you, sir.
    Chairman Levin. Thank you very much, Senator Martinez.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentleman, welcome to mile 25. I've been with you all the 
way, but you've been running a lot harder than I have.
    I would like to make just two comments about some of the 
testimony that preceded me and then try to get quickly to two 
questions.
    The first, to echo something that Senator Clinton said, as 
a result of a question that was posed by Senator McCain. I 
think it's important to point out for the historical record, 
that the situation in al Anbar did turn around before the surge 
began. I mentioned this in the Committee on Foreign Relations, 
but I think it's important to mention it here. Also, it's a 
matter of, on the one hand, I think, personal loyalty. My son 
is an infantry Marine, he was in the 1st Battalion 6th Marines, 
and through that period at the last 4 months of last year, in 
particular, they were knocking back Ramadi block by block and 
street by street. I think, number one, they deserve credit, and 
number two, you don't want your staff to have to throw hands 
with the 1st Battalion 6th Marines, if somebody were trying to 
take credit for what they did.
    The second is, when we talk about consequences of failure, 
Ambassador, I sadly point out, that so many of these 
consequences were what people, such as myself, General Zinni, 
and General Scowcroft were trying to point out as the 
predictable consequences of an invasion. We have basically 
scrambled the egg here and we're all struggling to try to find 
a way to bring the United States out of this in a way that will 
bring further stability to the region, but I think it's fair to 
point that out.
    I want to renew, briefly, General Petraeus, my comments 
that I began at the end of the Senate Foreign Relations 
Committee hearing about this dwell-time situation. You can see 
how divided we still are here in trying to come to grips with 
the policy. As we continue this debate, I just very strongly 
believe that we need to put some sort of a safety net under our 
troops. The one inarguable result of this policy has been the 
disruption of the rotational cycles of deployment, when we 
accelerated the deployment cycles. Its policy has resulted in 
extended tours, 15-month deployments, and also an acceleration 
of other situations like stop-loss and, on the Marine Corps 
side, the going into the pool of the Individual Ready Reserve 
in a way that they had not done in previous years.
    On a personal note, my number two daughter's long-time 
boyfriend of 7 years, when I was an embedded journalist in 
Afghanistan in 2004, I was able to get up to where his unit 
was, one of the nine stops that I made. He did 4 years in the 
Marine Corps, infantry corps, pulled two tours in Afghanistan, 
out a year and a half, finally got a good job, and then last 
Friday he gets the news he's been recalled, he's going back to 
Iraq.
    This is the kind of situation that people up here really 
aren't seeing because of the bifurcation that began back in 
Vietnam between the people who are making policy and the people 
who are carrying it out, quite frankly. I'm really glad to see 
so many members of this committee have been able to go on 
congressional delegations and come over and, even if it's just 
a brief period of time, see what the United States military 
looks like, even see what a combat environment looks like. But 
we need some advocates up here for a situation that is really 
having a dramatic impact on the men and women who are having to 
go through these repeated cycles.
    I was out of the room when Senator Nelson of Florida asked 
about this. I am told, General, your response to him was that 
this is more a matter for a Chief of Staff of the Army, in 
terms of dwell-time. Is that correct?
    General Petraeus. Senator, I, again, am very concerned 
about the strain on, and sacrifice of, our soldiers. Obviously, 
what a commander in the field wants, is soldiers who have had 
maximum time between deployments. They'll obviously perform 
better, they'll have had more time to prepare, presumably, and 
be rejuvenated in a way that they would not if it has been a 
shorter dwell-time. So again, I very much want that and I 
stated that, I believe at that time, I certainly did earlier 
today.
    What I meant by that is, again, I'm just not any, have been 
away from the Army sufficiently, that I just don't have a feel 
for what that kind of policy would mean to the Army. It has a 
responsibility, as a force provider, and I again, don't know 
what that would do in that sense to the Army. That's why I say 
that it's just one I think I have to defer to the Chief of 
Staff of the Army. Having said that, I'd love to, again, have 
some experience in this myself, in the past 6 years, I think 
it's coming up on 4 of those 6. So, I am all for maximum dwell-
time.
    Senator Webb. Right. I think, I related to you a 
conversation that I'd had with the Chief of Staff of the Army, 
when the tours went to 15 months, where his comment to me was 
that he is feeding the strategy. So, somewhere in here, we need 
to find a balance, and that's the reason that I introduced the 
amendment that I did. There are times, perhaps, when Congress 
needs to weigh in and kind of be a referee.
    The other question I wanted to be able to ask you, 
Ambassador, it's something that I've thought a lot about and I 
would like to get your perceptions on--I was a journalist in 
Beirut in the 1980s, you spent a long time there, I spent some 
time there, not in any way the sort that you did, but I see a 
lot of similarities in the situation, from Lebanon in the 1980s 
and Iraq today. Although, Iraq is sort of macrocosmic, but with 
the notion of a weak central government that can't get its feet 
on the ground and very strong armed militias around them that 
are not going to obey the edicts that come out of them. We had 
a very bad situation there. We did leave. What do you draw from 
this, in terms of how we're trying to fix the situation in 
Iraq?
    Ambassador Crocker. It's a great question, Senator, and 
certainly something that's preoccupied my mind. I spent a total 
of 6 years in Lebanon, two different tours, and neither of them 
at really great times, given levels of violence.
    You don't want to overstate the similarities, or at least I 
certainly don't. Iraq is a vastly bigger country, substantially 
greater strategic importance, I would argue. There are some 
other important differences too, just in terms of internal 
conditions, that Lebanon was, without question, an all out 
civil war in the late 1970s, early 1980s. The Army, as you 
recall, split and disintegrated. With all of the problems in 
Iraq, we're not seeing something to that level. In fact, it's 
kind of the opposite, security forces actually expanding and 
improving, even as they're engaged in a fight, and many aspects 
of that fight against other Iraqis, but they're hanging 
together.
    One element of similarity that we have to keep in mind, 
because our adversaries most certainly are, and that is the 
roles of Iran and Syria. Iran and Syria came together, as you 
recall, to engage in Lebanon in the early 1980s. They worked 
together to create Hezbollah in 1982, for example, and they're 
still working together in Lebanon. Damascus airport, just as it 
channels foreign fighters into Iraq, also serves as a main 
supply hub for supplies going to Hezbollah from Iran. So, we 
need to look at it in those terms, because certainly, in Tehran 
and Damascus, the coordination and the cooperation that they 
have brought to bear in Lebanon, in somewhat different ways, 
they're also bringing to bear in Iraq.
    Senator Webb. My time is up in 30 seconds--one event that 
sticks in my mind, and I was there when it happened, was when 
the United States picked a side, even though it was the 
Lebanese Army, when we supported the Lebanese Army in the 
Battle of Sug el Ghard with naval guns, then all of the other 
factions decided that we were fair game and that, could be 
argued, led to the destruction of the building at the airport 
and the deaths of 241 marines. It's very difficult when you get 
involved in a five-sided argument.
    Thank you.
    Chairman Levin. Thank you, Senator Webb.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. I want to thank 
you both. I know we began together 9\1/2\ hours ago in the 
Senate Foreign Relations Committee and I want to thank you for 
your tone, your directness, and certainly again, for your 
service and I certainly have appreciated the meetings we've had 
in Iraq, itself.
    Earlier last week General Jones testified about some border 
issues. Four, 5, 6 months ago, General McCaffrey had been in 
here talking about equipment issues and getting the Iraqis with 
the type of equipment they need to carry out their functions. 
One of the things that was discussed was the lack of equipment 
at the border itself, where Iraqis checking vehicles that are 
coming and going are going through those by hand. They don't 
have forklifts, they don't have the basic equipment, if you 
will, to really leverage our efforts, to make sure that 
munitions and other types of destructive gear would be coming 
into our country. General Petraeus, I wonder if you might 
comment on that or anything that may be happening in that 
regard, to alter that.
    General Petraeus. Senator, it's a great question because 
what we want to do is to focus on the ports of entry and to 
improve the equipment at those locations and to, for example, 
ensure that everyone has a back scatter X-ray that can look at 
these kinds of cargos, without having to unload all of them. 
Biometric devices, the Pisces system and some others also have 
transition teams out there overseeing them and making sure 
that, in fact, we're helping the Iraqis to do the right thing, 
if you will, at those border points of entry.
    It is hugely important on the Syrian border, again, to try 
to cut down on the flow of foreign fighters. Sometimes some of 
them undoubtedly just drive in and that's something that we 
have to try to interdict, obviously, at those ports of entry. 
Then, on the Iranian side, what we want to do is similar, and 
also to have some additional backstop to that on some of the 
key routes that lead to Baghdad, so that again, we can 
interdict more of the arms and ammunition that come in from 
Iran.
    Senator Corker. That's something that's urgently being 
pursued?
    General Petraeus. It is, indeed. Yes, sir. In fact, if it's 
important to the military, there's a set of slides and they 
have stoplights and we have that for the ports of entry, in 
particular.
    Senator Corker. I want to thank you for the exemplary model 
you all set up. I think you all have a common wall between your 
offices and work together on a daily basis, both diplomatically 
and militarily to achieve our goals here. I know it seems to be 
an evolving thing we focus on. We focused on diplomacy a great 
deal 3 or 4 months ago, it was upgrading of troops and 
obviously, and for good reason, it's been the lack of the 
central government's progress politically, certainly at this 
point in time.
    Ambassador Crocker, talk to us about the nature of the 
conversations that you have privately, if you will, with the 
Prime Minister, the President, and the Deputy President, just 
about the fact that those things are not happening that need to 
happen, certainly, to create the top-down reconciliation that 
Senator Warner was referring to.
    Ambassador Crocker. In the course of the last couple of 
months, we've had an extensive and intensive series of 
discussions with all of the Iraqi leadership as part of the 
effort they were making to come together and to work on both 
specific substantive issues and to work on processes. That's 
what led to the communique at the end of August, in which they 
announced agreements on several areas, among the five principle 
leaders of Iraq.
    What may be more important in the long run are the 
substantive achievements on de-Baathification reform, 
provincial powers, detainee issues, and how to handle armed 
groups that no longer want to fight against the coalition or 
the central government. What may be even more important than 
that was the announcements that the five made, that they would 
continue to work together, both at their level, through a 
mechanism involving the President, the two Vice Presidents, and 
the Prime Minister, but also at a preparatory level, where 
their deputies would continue to meet as they did for a number 
of weeks during the summer, to wrestle with the hard issues of 
reconciliation and try to hammer out issues to the point where 
the leadership could effectively deal with them. Again, that 
involved multiple meetings on the part of me and my staff with, 
again, all of Iraq's leaders, as they moved toward this.
    One other outcome, incidentally, of that meeting, was a 
statement, declaration, by the five that they wanted to reach 
an agreement with the United States on a long-term strategic 
partnership. I find that noteworthy, again, particularly in 
light of the reports that Iraqis want us out, that these five 
individuals, who all have constituencies and whose 
constituencies are the main communities of Iraq, Shiite, Sunni, 
and Kurd, all wanted that in the communique.
    So, these are the kinds of things we're engaged in, on a 
daily basis. We worked very closely, again, with the combined 
leadership to ensure that the Anbar Development Forum that we 
talked about a little bit earlier, that took place on September 
5, that the central government came forward with the kinds of 
financial support and with the presence in Anbar of its Shiite 
and Kurdish, as well as Sunni, leadership, that they followed 
through on that commitment. Because that too, is an important 
part of reconciliation.
    So, it's no exaggeration, sir, to say that in the course of 
the week I will be engaged--if not on a daily basis, something 
close to it--again with all of Iraq's principle leaders.
    One of the good things is, I don't have to do it by myself. 
I have this gentleman here, General Petraeus, who's very much a 
part of that. When there are meetings with the Prime Minister, 
we normally go together and depending on the issues, we'll even 
adjust our seating. I'll go through an agenda and then move 
over and General Petraeus will take forward his.
    Senator Corker. I don't know if Senator McCaskill is coming 
back. My guess is she is.
    Senator Warner [presiding]. She is to come and then we're 
going to conclude the hearing.
    Senator Corker. Let me just end my day with you on the note 
I guess we started with and that is, in both of your 
estimations, do you believe that Iraqis want to be Iraqis?
    General Petraeus. Yes, I definitely do, Senator. I think 
the interesting reflection of that was when the Iraqi soccer 
team won the Asian Cup Championship. Even though, horrifically 
and tragically, when they won the semifinal, a suicide vest 
bomber had caused casualties in one of the celebrations, there 
was nothing keeping them off the streets for that. It was 
Sunni, Shiite, and Kurd. Everyone was proud to be an Iraqi that 
day. There is an Iraqi identity and I think it's really quite, 
quite a strong one.
    Ambassador Crocker. I would agree with that, Senator. The 
Iraqi identity is deeply-felt and there is a strong sense that 
it's something that they've literally had to fight for over the 
years. The 8-year war with Iran, I think, really intensified 
that sense of Iraqi identity among both Sunnis and Shiites.
    With respect to the Kurds, it's significant to me and 
encouraging, how Kurdish political leaders have clearly 
indicated their interest in Iraq, as a whole. The Iraqi 
President is Kurdish, as is Iraq's Foreign Minister. They have 
been very effective, the Foreign Minister's been a very 
effective spokesman for Iraq, in dealing with the international 
community. The President is a very constructive force in trying 
to bring about elements of reconciliation within the country, 
as is the Deputy Prime Minister, who oversees economic affairs 
and who was out in Anbar with us, on September 5. So, for all 
of the strains, violence, tension, and history, I think there 
is a strong sense of Iraqi identity.
    Senator Warner. Thank you, Senator.
    Senator Corker. I know my time is up. I want to say to both 
of you, I have a deep respect for the service you provide and I 
want to thank you for that, and also for your time and patience 
and directness today. Thank you very much.
    General Petraeus. Thank you.
    Ambassador Crocker. Thank you.
    Senator Warner. Gentlemen, you have an extraordinary 
performance, not only in the context of your testimony, but 
your endurance throughout this day. Senator Levin will be back 
momentarily to conclude the hearing. He's asked that I cover a 
few points here, which we feel should be put into the record. 
If Senator McCaskill returns, she'll have her time and that 
will conclude the hearing.
    So, if you'll bear with me a minute. We just got started, 
Carl.
    That last comment of yours, Mr. Ambassador, indicating the 
group of five; would that agreement of the U.S. forces be a 
status of forces-type agreement?
    Ambassador Crocker. It is obviously still to be determined, 
but yes, it could be that.
    Senator Warner. I think it's important that we do it. 
That's a well recognized instrument between the nations in this 
situation.
    Second, I did a little research, which I think is quite 
interesting. Almost 5 years ago, three other Senators and I, 
there were four of us who worked on Public Law 107-243, October 
16, 2002, titled; ``Use of Military Force Against Iraqi 
Resolutions.'' In it, in section 2, it makes a number of 
references to one of the reasons that we went in on this 
invasion, and that is ``the Congress of the United States 
supports the effort by the President to strictly enforce the 
United Nations Security Council relevant resolutions. The 
President is authorized to use armed forces that he determines 
to be necessary in order to: (1) defend the national security 
of the United States against the continuing threat posed by 
Iraq; and (2) enforce all relevant United Nations Security 
Council resolutions regarding Iraq.'' It's an interesting piece 
of history. It brings me to the question, what role do you 
foresee the United Nations playing in the future, Mr. 
Ambassador?
    Ambassador Crocker. It's an excellent question, 
particularly in light of the new Security Council resolution, 
Resolution 1770, that establishes a significantly expanded 
mandate for the United Nations Assistance Mission in Iraq 
(UNAMI). New mandates for UNAMI include facilitating national 
dialogue and political----
    Senator Warner. Let me interrupt you to say, you can finish 
your answer for the record on this question, but I judge that 
you're somewhat optimistic that they will take a stronger role, 
particularly as it may be with the bordering countries to get 
their involvement in a positive way. Would that be correct?
    Ambassador Crocker. That is correct. That is the clear 
intention of the Secretary General.
    Senator Warner. Then amplify that in the record.
    [The information referred to follows:]

    We have been working with the Iraqi Government, Iraq's neighbors, 
and the broader international community in an effort to increase 
international support for Iraq. The U.N. has demonstrable experience in 
areas such as humanitarian assistance, rule of law, and conflict 
resolution, and we believe it is well-positioned and ready to take a 
larger role in helping to stabilize Iraq. The U.N. Security Council 
renewed and expanded the mandate for the U.N. Assistance Mission Iraq 
(UNAMI) in resolution 1770 (August 10), and the mandate now encourages 
U.N. engagement with Iraq on political reconciliation, economic and 
electoral reform, humanitarian assistance, and regional dialogue.
    We are pleased that U.N. Secretary General Ban Ki-moon expressed 
clear interest in increasing U.N. involvement in Iraq by cohosting with 
Prime Minister Maliki a September 22 U.N. High Level Meeting on Iraq. 
This international gathering was a notable success. The Secretary 
General endorsed efforts to provide additional staff to implement the 
expanded UNAMI mandate and including the establishment of a support 
mechanism for the neighbors process. Furthermore, the Secretary General 
appointed a new Special Representative of the Secretary General for 
Iraq, Staffan de Mistura, who will launch his efforts by attending the 
November Expanded Neighbors Ministerial in Istanbul. In an effort to 
encourage regional support for Iraq, de Mistura will then embark on a 
consultative tour of neighboring countries thereafter.
    The road to stabilizing Iraq will likely continue to be a difficult 
and sometimes uncertain one. However, we believe that we are on the 
right course as we work with the international community, under the 
auspices of the U.N., to help build a more secure, stable, and 
prosperous Iraq.

    Senator Warner. The next question I have is, the Jones 
Commission report, I thought was a very satisfactory 
contribution. Do you agree with that?
    General Petraeus. I do, sir.
    Senator Warner. Mr. Ambassador?
    Ambassador Crocker. Yes, I do.
    Senator Warner. One provision in there, page 129, 
``Circumstances of the moment may continue to present the 
opportunity for considering a shift in the disposition in 
deployment of our forces. This could be characterized as a 
transition to a `strategic over-watch' posture. Such a strategy 
would include placing increasing responsibilities for internal 
security on the Iraqi forces, especially in urban areas. 
Coalition forces could be retasked to better ensure the 
territorial defense''--that's the border--``of Iraq, and 
increasingly concentrating on the Eastern and Western borders 
and the active defense of the critical infrastructures 
essential to Iraq,'' namely their water, their power, their 
electricity, and so forth.
    Now I judged in your comments and testimony you took a 
reference to that, but I judged from what you said, that there 
could be a point in time when that type of transition might 
well be employed by the forces under your command. Is that 
correct, General?
    General Petraeus. Sir, it certainly is possible. We want to 
get to an overwatch situation. Now where the forces deploy to 
or, whether they go home or take on those other mission, I 
think, is something that we need to look at very hard.
    Senator Warner. Lastly, General, there's been a good deal 
of comment in the press--I can't ascribe the accuracy--that 
various segments of the chain of command, the President, 
Security Council, Chairman of the Joint Chiefs, Admiral Fallon, 
yourself, as to different viewpoints. I was privileged to have 
many years of experience in the Pentagon and here on this 
committee, I think that's healthy that the different views were 
assessed and will eventually be presented to the President. But 
I assume that you feel, and I think you've said this for the 
record, that you did work within the chain of the command, that 
you did listen to your colleagues and the Chairman of the JCS, 
member of the JCS, and others, as well as Admiral Fallon, and 
all of it was brought to bear on the testimony that you've 
given us today.
    General Petraeus. Sir, that's correct. Actually Secretary 
Gates really, I think, sheparded quite a process that took 
place with a number of different briefings to the Chairman, to 
the Secretary of the Joint Chiefs, and eventually to the 
President. I have been told that there is support for what I 
have recommended. Certainly Admiral Fallon has assured me of 
that, as well as the Chairman and the Secretary.
    Senator Warner. Right, and that will be brought to the 
President as he prepares to state the----
    General Petraeus. That is correct, sir. In fact, the JCS 
had a session separately with him the day after I briefed him, 
I believe was the chronology.
    Senator Warner. You had a session when he visited your 
home?
    General Petraeus. Sir, we also had that session. I gave my 
recommendations, actually, several days prior to that and then 
there was the additional session in Anbar province as well.
    Senator Warner. Did this trip back provide any opportunity 
for further work in that area?
    General Petraeus. Sir, I have not talked to the President 
at all since I have been back. My conversation with the 
Secretary merely was, ``Good luck.'' I have talked to Admiral 
Fallon on several occasions and basically, and he just assured 
me that he supports the recommendations that I have put 
forward.
    Senator Warner. Thank you very much, General.
    Chairman Levin [presiding]. Thank you, Senator Warner.
    Senator McCaskill.
    Senator Warner. Thank you, Mr. Chairman.
    Senator McCaskill. Thank you. It's a much quieter and 
smaller room than when we began. I'd like to point out what is 
obvious about me being the last questioner. That is how I got 
here.
    I ran against an incumbent in the United States Senate, who 
was 100 percent supportive of the President's policies in Iraq, 
had never really asked a tough question during his time on this 
committee of any of the men and women who sat at that table, 
justifying why we were going and what was happening when we 
were there.
    So, as our democracy works, the people of my State made a 
decision whether or not they wanted to send him back to 
Washington to continue to support the policy, or whether they 
wanted someone different.
    I'm blessed, they decided they wanted someone different and 
I'm here. So, I too want to echo everyone's comments about our 
respect for you and the work you do. But I also feel a mandate 
from my election to disagree, to challenge, and to ask the kind 
of questions that I think most Americans want asked right now.
    The benchmarks came to this discussion by virtue of the 
commander in chief. It was the commander in chief that gave the 
speech in January, that said ``We will judge the success of 
this strategy by the benchmarks.'' We've had a lot of 
discussion today about the benchmarks and bottom-up, top-down, 
and I don't want to repeat anything that's been done. But I 
went back and read the testimony, General Petraeus, when you 
were confirmed. You had an exchange of questions and answers 
with Senator Levin about those benchmarks and about the 
leverage we could use. There was discussion about what could we 
use as leverage and there was discussion about, from you, that 
we could withhold things, we could withhold our support, we 
could provide support.
    I guess my first question to you, and if you could answer 
it very briefly, I would appreciate it, what leverage do we 
have? Because clearly, it does not appear to be working. Why is 
it not obvious to the American people that we're exercising any 
of the leverage that we have? This just appears that we have to 
take on faith, that this last date is not 2030, or 2025, or 
2040. That's where I think my frustration lies, is I see no 
effective use of leverage to force the Iraqis to come back from 
vacation. Either of you? Leverage that we can use?
    Ambassador Crocker. Senator, we clearly do have leverage 
and we use it. At the same time, national reconciliation, I 
think by definition, is not something that can be forced from 
outside. It, just by, again, definition, means people in 
conflict agreeing to work through differences and to come 
together.
    So, we can facilitate, we can pressure to some degree, but 
ultimately, national reconciliation has to be an Iraqi process. 
I have expressed my view that, to state to the Iraqis that if 
they don't do A, B, and C, for example, on reconciliation, that 
we are then going to withdraw forces, has a very high risk of 
being counterproductive, that it will cause them to be less 
likely to compromise, rather than more. So I think we have to 
be very careful about that.
    I wish there were simple answers. I wish there were clear-
cut things that we could do to get them to do the things that 
result in national reconciliation. But there aren't. In my 
experience and I've been there about 6 months now, it is a 
long, slow, hard grind that may now become easier because of 
the effects of the surge in reducing violence. It's because, I 
am convinced that it is only when violence comes down and shows 
every indication of staying down, that you create the climate 
in which hard compromises, if not becoming easy, at least 
become possible.
    General Petraeus. Senator, I mentioned earlier, I don't 
know if you were here, but at one time, in an earlier 
assignment, I did actually withhold support for an element in 
the Major Crimes Unit in the Ministry of Interior after they 
were found to have been mistreating detainees. We have looked 
at some of that type of action. We have actually discussed 
this. At one point we actually even prepared a letter with 
respect to something like that. At this point, we just haven't 
reached the point, literally, where we think that that would be 
more productive than less productive.
    On the other hand, there are some carrots, as well, that 
can be used. For example, right now, the Major General who 
oversees our Detainee Operations is working closely with the 
Sunni-Arab Vice President to try to facilitate the release of 
those Sunni-Arabs who have been in the system, have been 
prepared for release, guarantor pledges by individuals who we 
view as responsible and a judge is participating in this, and 
to try to accelerate that process. That is one of their big 
concerns in the Sunni-Arab community. That has actually 
generated some positive responses, in terms of engagement with 
the national process.
    So, there are areas like that where we cannot just use 
stick but occasionally use carrot as well. That's just one 
example of that, although obviously, we have to find some more 
examples to get them to come to grips with the really big 
issues.
    Senator McCaskill. I don't want to belabor the difference 
of the opinion of the Armed Forces. I think they're doing a 
magnificent job, but I noticed Senator Martinez talked about 
talking to the troops. When I was there in June, I had an 
opportunity to talk to a number of Missourians and I got all 
different opinions. Some of them stuck in my mind, but one I'll 
never forget, and that was a young man who was telling me about 
the biggest problem they face. That was 1 hour a day of 
electricity and what a terrible, difficult situation that was, 
to get the confidence and the participation of the Iraqi 
people, because of 1 hour a day of electricity.
    I said to him, ``But what if we pulled out, if we began to 
pull out in a meaningful way, wouldn't it be chaos?'' He looked 
me right in the eye, and he said, ``Ma'am, this is chaos.'' So, 
that stuck with me and it probably always will.
    I would like to close today on a subject matter we haven't 
talked about today, but it's one that's near and dear to my 
heart, and that's the money. I spent most of my time in Iraq in 
June looking at contracting. My background is an auditor. I 
have yet to sense a feeling of urgency among the Active 
military, among the folks at DOD, about the way money has been 
spent in this conflict, particularly as we have dealt with 
privatization at a level we've never had privatization before, 
in a contingent operation. We have privatized much more than we 
ever have, in terms of not just reconstruction, but obviously 
in troop support and logistics.
    I would certainly appreciate, briefly, if the Chairman will 
indulge me at this point, your sense about that. I think that 
all of this is about choices and none of them are easy, but I 
do think people need to understand that the price tag for 1 
month pays for health insurance for 800,000 American children. 
That is a startling reality of what we're doing. The 
President's going to ask us for another $50 billion of debt, 
and now we have borrowed most of the money for this conflict. 
The strength of our military not only relies on the incredible 
leadership that we develop within our military and the brave 
and courageous acts of our military men and women, but it 
depends on the economic status of our Nation and the strength 
and security of our economy. I would like, briefly, from both 
of you, your reflection on the heartbreaking news that we had, 
that even someone in the Active military was involved in fraud, 
and stealing money from the American people, the kind of 
contractor abuse, the kind of overspending we've seen, the kind 
of money that's been spent that we can't account for. What, if 
anything, is being done on a day-to-day basis to address the 
incredible amount of money that's being spent and a sense of 
urgency about making sure that every dime of it is spent 
wisely?
    General Petraeus. First of all, Senator, a very important 
step is the support for the continuation of the Special 
Inspector General for Iraq Reconstruction (SIGIR), which I 
think is very important and has proven very, very useful. The 
formation of the Joint Contracting Command Iraq, I think over 
time, has improved very much the process that is conducted over 
there. The Iraqi First Program Initiative is also one that not 
only gets us, in many cases, lower costs and lower salaries, 
but gets the local people invested in our success, as well. But 
those are just a couple of initiatives that I would mention.
    Ambassador Crocker. Certainly, on the mission side, I would 
echo the importance of the SIGIR and the wisdom of the decision 
to continue that function. The Inspector General, Stuart Bowen, 
and his staff, he's been with this from the beginning. He's 
acquired a considerable amount of expertise and is, I think, 
extremely important in being an assurance to you and to us that 
resources are being used as wisely as possible and are 
accounted for in a comprehensive manner.
    With respect to privatization, I know that your comment was 
in the military context, but it also applies----
    Senator McCaskill. Absolutely.
    Ambassador Crocker. --on this side, as well. The reality 
is, for example, on the security function, much of our 
security, most of our security is provided by contractors, it 
is overseen by diplomatic security officers, Foreign Service 
Officers, but there is simply no way at all that the State 
Department's Bureau of Diplomatic Security could ever have 
enough full-time personnel to staff the security function in 
Iraq.
    There is no alternative except through contracts, and I 
would have to say that the capability and courage of the 
individuals who provide security under contract is worthy of 
respect of all Americans. One of Blackwater's helicopters went 
down yesterday, a hostile fire incident, fortunately no one was 
killed in that accident, but over 30 of our contract security 
Americans have been killed keeping the rest of us safe. So it 
is something that we have to do because we don't have enough 
people in the State Department to do this, but I think it's 
being done very well.
    Senator McCaskill. I think privatization is the future. I 
just think we need to work harder at getting it right. I don't 
question that they're very brave and courageous people. I think 
most of them are former United States military. They learned it 
right in place. So, I appreciate that, but I do think we have a 
long way to go, in terms of the accountability piece on the 
privatization issue.
    Thank you both very much. God bless you and 
congratulations. I think, with the exception, if the Chairman 
has some questions, you're at the finish line.
    Chairman Levin. We have one more question.
    Thank you, Senator McCaskill.
    This goes to General Petraeus. I want to clarify something. 
You've testified that the force reductions will continue 
beyond, which I understand means below, the pre-surge levels of 
15 brigade combat teams that you'll recommend we reach by mid-
July 2008. You've testified that you won't decide on the pace 
of those reductions until mid-March 2008. I understand from 
your testimony, that when the pre-surge level of 15 combat 
brigade teams is reached in July 2008, that you intend to keep 
on with the troop reductions. The decision that you are 
reserving to mid-March is the pace of those continuing 
reductions. Do I have it straight? Am I right?
    General Petraeus. You do, sir. Again, what I have 
recommended is making a recommendation in mid-March of the pace 
of the continued reductions at that time.
    Chairman Levin. But it is your recommendation and intention 
that those reductions would keep on going after the July 2008 
level of 15 combat brigade teams is reached?
    General Petraeus. That is correct. As I said, we will 
continue to reduce it at that point.
    Chairman Levin. It's intended not just that you will, in 
some future year, but that you intend to continue those 
reductions at that point, reserving the pace of the reductions 
beyond 15 combat teams, reserving that decision to mid-March.
    General Petraeus. Recommendation, yes, sir.
    Chairman Levin. Recommendation.
    Your testimony, Ambassador Crocker, will be made part of 
the record. I did not say that. Thank you for your 
presentations, both of you here today. I think we all deeply 
appreciate it. I hope that appreciation to you and the men and 
women that you lead comes through here very loud and clear, 
because we all have that strong belief that you are, indeed, 
not only patriots, but that you are expending beyond the call 
of duty your own energies and your families' in leading the men 
and women under your command and under your leadership. Thank 
you both.
    General Petraeus. Thank you, Senator.
    Ambassador Crocker. Thank you, Mr. Chairman.
    Chairman Levin. We will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Robert Byrd
                              iraqi tribes
    1. Senator Byrd. General Petraeus, what assurance can you give that 
the tribes in al Anbar province--who until recently were shooting at 
American soldiers--will not resume their attacks against us once they 
feel we no longer serve their interests?
    General Petraeus. Both Multinational Force-Iraq (MNF-I) and the 
Government of Iraq recognize that there are many benefits, but also 
some risks, associated with the newfound participation of tribes and 
other concerned local citizens. As you pointed out in your question, 
many of these individuals at best condoned acts aimed at coalition and 
Iraqi forces and at worst actively fought against us. As such, we are 
working with the Government of Iraq to create a viable strategy that 
mitigates the risks, especially the risk of these concerned local 
citizens turning against coalition forces and the Government of Iraq, 
but that also allows us to seize this fleeting opportunity. Our 
strategy aims to do this by not just working with local citizens and 
tribes in Anbar and throughout Iraq, but more importantly by 
solidifying their support for the long-term.
    There are a number of ways we are doing this. We are putting these 
individuals under short-term security contracts, collecting their 
biometric data, ensuring they are fit for long-term service, and having 
them swear allegiance to the Government of Iraq. We are also working to 
place these volunteers into permanent positions in the Iraqi security 
forces or other forms of governmental employment. Specifically, we are 
filling available authorizations in the Iraqi police, so that these 
volunteers, once trained, can then provide security for their local 
communities. After all local security is in their interests, the 
Government of Iraq's interest, and our interest. Moreover, by being 
employed by a governmental agency or as a member of the Iraqi security 
forces, these concerned local citizens will remain tied into the 
central government, as it provides their salaries and other financial 
resources.

    2. Senator Byrd. General Petraeus, during the hearing you noted 
that we are not directly supplying the tribes with weapons or money, 
but that does not alter the underlying point that we are now 
cooperating with groups that a few short months ago treated us as 
enemies. I fear that we are touting a short-term success while 
potentially doing damage to our long-term interests. Please confirm 
that we are not supplying arms or funding to the tribes; and why you 
believe that our new allies in al Anbar province today will not be our 
bitter enemies tomorrow, and that this policy is in our long-term 
interests.
    General Petraeus. MNF-I is not arming tribes. In truth, most tribes 
were armed long before our arrival. We have, however, provided non-
lethal equipment such as cell phones and uniform equipment to identify 
concerned local citizens, many of whom come from tribal elements, as 
being under security contract and cooperating with coalition and Iraqi 
security forces. We have also provided training in topics such as safe 
weapons handling procedures, human rights, law of land warfare, and 
proper reporting procedures. Additionally, MNF-I provides funding to 
groups of concerned local citizens through lawful contracts as part of 
the Commander's Emergency Response Program. While the majority of this 
funding has gone to Sunnis to date, we are seeing an increasing number 
of Shiite citizens volunteer as well, given their rejection of 
extremist Shiite militias and Iranian influence. These contracts are 
for a specified length of time and a specified mission, such as 
providing security for a critical piece of infrastructure or a stretch 
of roadway. By using contracts, we have been able to provide these 
local citizens and tribal elements with a legitimate way to assist 
coalition and Iraqi forces in securing their areas as well as provide 
them with a stipend so that they can provide for their families. As we 
move forward, we will begin transitioning the responsibility for these 
security contracts to the Government of Iraq.
    As I stated above, we are mindful of the risks but believe we have 
a sound policy in place to mitigate these risks and take advantage of 
this important opportunity. Also, it is important to point out that by 
having these previously disaffected individuals provide security and by 
integrating them into Iraqi security forces, Iraq is taking the first 
steps toward turning bottom-up accommodation into national 
reconciliation. Helping to foster national reconciliation is critical 
to developing sustainable security in Iraq, which is one of our 
principal long-term interests.

                        military mission in iraq
    3. Senator Byrd. General Petraeus, please tell me in your own words 
why our soldiers are in Iraq, what their military mission is, what the 
Iraqi military needs to do, and how long you expect it to take?
    General Petraeus. The mission of the soldiers, sailors, airmen, 
marines, and coastguardsmen of MNF-I, in partnership with the 
Government of Iraq, is to secure the population of Iraq and employ 
political, security, economic, and diplomatic means to help the people 
of Iraq achieve sustainable security and commensurate political and 
economic development in order to foster continued reconciliation. I 
believe our troopers are here in Iraq building sustainable security 
because it is in our Nation's interest to do so. A stable and secure 
Iraq will deny extremist enemies a safe haven, prevent further Iranian 
influence, be a stabilizing influence in a fragile region, and allow 
Iraq's natural resource blessings to benefit its citizens and the 
greater global community.
    Within the mission statement listed above, our troopers are focused 
primarily on the security line of operation, performing tasks such as 
clearing, controlling, and retaining neighborhoods; capturing and 
killing irreconcilable enemies; developing Iraqi security forces; and 
partnering with concerned local citizens. However, our troopers also 
contribute considerably to Embassy-led efforts on the political and 
economic lines of operation. Indirectly they do so by increasing 
security, which allows the time and space for political and economic 
progress. They also work directly with their Iraqi partners to build 
governance capacity, execute reconstruction projects, improve essential 
services, and increase the economic opportunities in their areas of 
operation. Lastly, our troopers are taking part in advancing 
reconciliation. As I explained above, the bottom-up accommodation 
taking place is critical to the overall reconciliation effort, and our 
troopers are providing important assistance in moving bottom-up 
accommodation forward, separating those that are reconcilable from 
those they are not and helping their Iraqi counterparts to integrate 
the reconcilables--the concerned local citizens--into their efforts to 
secure neighborhoods and areas across the country.
    The Iraqi security forces, both the Iraqi military and the Iraqi 
police, work with our coalition troopers to clear, control, and retain 
neighborhoods and capture and kill irreconcilable enemies. As the 
capabilities of the Iraqi security forces continue to increase and 
based on conditions on the ground, we will begin transferring to our 
Iraqi partners responsibility for population security. As we do so, 
coalition forces will assume an overwatch position, providing quick-
reaction force support, intelligence, and other key enablers, as well 
as transition teams to support the development of Iraqi forces.
    Based on the security improvements we have made and additional 
improvements we expect to make, we have already recommended a drawdown 
of the five surge brigades, two Marine battalions, and Marine 
Expeditionary Unit. We believe that we will be able to execute this 
reduction in forces without jeopardizing the security gains that we 
have fought so hard to achieve. Further reductions and potential 
changes to our mission will take place, but in my professional military 
judgment, it is premature to make those recommendations at this time. 
By mid-March of next year, we believe we will have an adequate 
appreciation for the pace of further troop reductions and mission 
adjustments beyond the summer of 2008. By then, we will know more about 
the enemy situation, the capabilities of the Iraqi forces and the 
concerned local citizens, and further improvements to the security 
situation, and will then be prepared to make recommendations for 
additional drawdown and potential change in mission.
    As we move forward, we must remain mindful of the fact that the 
accomplishment of our mission in Iraq will not be quick or easy. Doing 
so will take continued time, commitment, and resources on the part of 
our country. Our plans call for sustainable security to be established 
nationwide by the summer of 2009, but that does not end the commitment 
of American forces, which I would expect to continue well into the next 
administration, though at a reduced level over time. I expect long-term 
force levels will be determined by a long-term strategic relationship 
that will be negotiated between the Government of Iraq and our own 
government.

    4. Senator Byrd. General Petraeus, what are our specific military 
goals, and precisely what is required from the U.S. military to achieve 
them?
    General Petraeus. In the near-term, by summer 2005, our goal is to 
protect the population and create a baseline of local security. 
Specifically, this includes the neutralization of irreconcilable armed 
groups, the containment of militias, the reduction of large-scale 
sectarian violence, the protection of infrastructure, and the further 
development of the Iraqi security forces. In various areas throughout 
the country, coalition forces will be leading and partnering with or in 
overwatch of their Iraqi counterparts. The baseline of localized 
security they create will ensure the population is protected, thus 
enabling political and economic progress and fostering reconciliation.
    In the intermediate-term, by summer of 2009, our goal is to create 
sustainable security. Specifically, this includes a greatly diminished 
level of violence that the Iraqi security forces will be able to 
sustain largely on their own and for the long-term. This includes not 
only the capabilities of the Iraqi units themselves, but also the 
abilities of the Ministries of Interior and Defense to effectively 
perform their institutional functions on their own. Coalition forces 
will largely be in an overwatch position by this point, responsible for 
monitoring developments and providing quick-reaction force support, 
intelligence, and other key enablers. Transition teams will also 
continue to support the development of Iraqi forces. While in 
overwatch, should a situation develop that is beyond the capacity of 
Iraqi forces to handle on their own, coalition forces will be readily 
available to back up our Iraqi counterparts. Overall, this diminished 
level of violence will create the conditions for further political and 
economic progress.
    In the long-term, our goal is Iraqi security forces that are 
capable of protecting the population and controlling their borders and 
that are able to sustain themselves. Ministries of Interior and Defense 
that are capable of performing their institutional functions, and a 
coalition forces presence, one large enough to continue to provide a 
contribution in accordance with an agreed-upon long-term security 
relationship that is mutually beneficial to our Nation and to Iraq.
    Achieving local security, then sustainable security, and then 
ultimately a long-term security relationship will require a continued 
commitment of time, resources, and personnel, not just from the U.S. 
military but from other members of the interagency. However, in the 
future, we project that the number of personnel and resources required 
will be far smaller than at present time. As I stated above, we have 
already begun to transition responsibilities and draw down the surge 
forces, and we plan to make further recommendations on troop decreases 
and potential mission shifts in mid-March.

                          contractors in iraq
    5. Senator Byrd. General Petraeus, please tell me the total number 
of private contractors in Iraq serving in combat, combat support, and 
security roles who are funded by the U.S. Government. Please break down 
the numbers of each and describe the range of duties that private 
contractors are involved in.
    General Petraeus. There were 136,655 contractors supporting MNF-I 
as of the most recent CENTCOM Quarterly Contractor Census, which was 
conducted in July 2007. The next census will be completed by the end of 
this month. MNF-I's contractors perform two principal missions: 
supporting coalition operations and supporting Iraqi reconstruction 
operations, and they do this through combat support and security roles. 
Their breakdown is as follows:

------------------------------------------------------------------------
                                              Total
            Service Provided               Contractors      Percentage
------------------------------------------------------------------------
Security...............................           9,702             7.1
Combat Support: Construction...........          39,057            28.6
Combat Support: Base Support...........          65,195            47.7
Combat Support: Transportation.........           6,012             4.4
Combat Support: Communications Support.           5,362             3.9
Combat Support: Translator/Interpreter.           8,120             5.9
Combat Support: Other..................           3,207             2.4
                                        --------------------------------
  Total................................         136,655             100
------------------------------------------------------------------------

    None of our contractors are in combat roles in the same way our 
infantry or armor soldiers are. The closest our contractors come to an 
actual combat role is our 1,237 armed contractors who serve in personal 
security details and our 371 armed contractors who conduct convoy 
escort missions. In addition to those individuals, some of our other 
contractors inevitably do leave the confines of our bases, and when 
then they do, they--like all our troopers--are at risk of exposure to 
enemy contact such as small arms fire or improvised explosive devices. 
Their purpose in leaving the base, however, is to complete their combat 
support or security tasks such as getting to their reconstruction site, 
acting as an interpreter, or driving logistics supplies to another 
base, and not to perform specific combat tasks such as patrolling a 
street or conducting a raid.
    The Department of State (DOS) will be able to provide information 
on the quantity of personnel under DOS contracts and the specific roles 
those contractors perform.

                         iraqi national police
    6. Senator Byrd. General Petraeus, the Report of the Independent 
Commission on the Security Forces of Iraq noted that the National 
Police are ``operationally ineffective'' and riven with sectarianism, 
and recommended that the entire force be disbanded and reorganized. 
Iraq's police forces are central to the long-term establishment of 
security in Iraq. Do you agree with the Commission's assessment of the 
National Police and its recommendation to disband it? Why or why not?
    General Petraeus. I respectfully disagree with the recommendation 
to disband the National Police. The National Police remain the part of 
Iraqi Security Forces of which we are most concerned, and we may, in 
time, recommend that some units be disbanded by the Government of Iraq. 
However, we also believe that overall, we have a viable strategy to 
assist the National Police in overcoming their two principal 
challenges, sectarianism and insufficient training, and that we are 
making progress in developing the National Police into a viable 
paramilitary force. Disbanding the National Police writ large would 
leave a significant gap in security capability, as there are currently 
about 32,000 National Police performing security operations across 
Iraq, and the vast majority operate within the Baghdad security belt in 
support of Operation Fardh al-Qanoon.
    There has been considerable effort, led by the National Police 
leadership and supported by coalition forces, to overcome the 
challenges of sectarianism within this force. Numerous individuals who 
promoted sectarian agendas have been removed and replaced, to include 
17 of 27 battalion commanders, 9 of 9 brigade commanders, and other key 
officers. National Police units have undergone ``re-bluing'' training 
programs, which have shown positive results in many units in building a 
more professional National Police force. This training is now being 
complemented by Italian Carabinieri-led training. Also, National Police 
units are advised, coached, and mentored by Coalition Force National 
Police Transition Teams and they often partner with coalition forces on 
operations. These partnerships remain crucial to our ability to 
strengthen the capabilities and professionalism of the National Police.
    Ultimately, our goal is to help the Ministry of Interior transform 
the National Police into a national, rapidly deployable, paramilitary 
police force operating in support of the Iraqi Police Service, under 
the command of the Ministry of Interior and when appropriate, under the 
direction or in support of the Provincial Governors in order to provide 
the Government of Iraq with a proportional response option and bridging 
capability between the Iraqi Police Service and the Iraqi Army. 
Achieving this goal will take considerable time and continued effort, 
and some units may, indeed, need to be disbanded, but the right 
strategy is in place to get there.

                          army retention rates
    7. Senator Byrd. General Petraeus, in 2003, only 18 percent of West 
Point graduates quit the force. This low attrition rate has been 
attributed to the memories of September 11, the successful war in 
Afghanistan, and the fact that war in Iraq was just under way. Duty 
called, and it seemed a good time to be an Army officer. However, last 
year, when the 905 officers from the class of 2001 had to make their 
choice to stay or leave, 44 percent quit the Army. It was the Service's 
highest loss rate in 3 decades. Some have suggested that there is a 
``trust gap'' between junior and senior officers. Others have suggested 
that we are on a quixotic quest in Iraq to reach an unreachable goal, 
leading to disillusionment among our young officer corps. Some of the 
combat-tempered junior and mid-level officers have charged the general 
corps, many of whom lack combat experience because they attained their 
rank in peacetime, with demanding the impossible and providing too few 
resources to achieve success. The result is that the military is 
losing, at record rates, the very individuals that can best lead our 
Armed Forces. How does this exodus of the future leaders of the 
military weigh on your decision-making in attempting to achieve 
military objectives and goals in Iraq?
    General Petraeus. As Commander of MNF-I, my responsibility is to 
develop and execute a strategy focused on achieving our goal of 
sustainable security in Iraq. As such, the recommendations I presented 
before your committee were based on my view of how we are faring as we 
build sustainable security and what means are required to meet our 
stated goal. However, as a senior leader of our Nation's Armed Forces, 
I am also acutely aware of the strain being put on our ground forces as 
a result of our ongoing operations in Iraq and Afghanistan. This 
understanding informed, but did not drive, my recommendations.
    Undoubtedly, to be successful--not just in the short-term, but more 
importantly in the medium and long-term--our military needs top-quality 
leaders. Today's junior officers, who will be tomorrow's senior 
leaders, are probably the most combat experienced generations of 
officers in the history of our Nation. Most Army and Marine Corps 
lieutenants and captains have deployed multiple times and learned 
first-hand what it takes to succeed in an exceedingly challenging 
environment. Now, many of these same leaders are choosing to leave 
military service because of, among other reasons, the high operational 
tempo. I am in my fourth year or longer deployment since September 11 
and my family and I intimately understand the strain placed on our 
troopers and their families through repeated and lengthy deployments. 
Ideally, through both the expansion of the force as well as a gradual 
decrease in the number of our forces deployed, our military will be 
able to return to a more manageable deployment cycle, with at least 
double the time at home compared to the time deployed. In the meantime, 
the Army has recently released other initiatives designed to retain our 
junior officers, including expanded offers of graduate school and a 
retention bonus. Additionally, as I go out and visit with subordinate 
commanders across Iraq, I encourage them to mentor their junior 
officers and communicate to them their worth to this fight and to the 
long-term health of our organization. I do the same, taking the time to 
personally talk to company commanders (captains) on nearly every trip I 
take to see troops, listen to their concerns, and remind them that they 
matter a great deal--to all of us.

                           u.s. armed forces
    8. Senator Byrd. General Petraeus, what is the long-range impact of 
the war in Iraq on the U.S. Armed Forces?
    General Petraeus. At this stage of an ongoing conflict, it is 
difficult to predict what the long-range impact will be on the Armed 
Forces, but we do have some indicators already. On the positive front, 
we now have one of the most experienced combat forces in our Nation's 
history, complete with a core of battle tested leaders, many of whom 
have multiple tours and often have served in both Iraq and Afghanistan. 
Our military has also demonstrated an ability to change doctrine and 
adapt training to the current fight, to become proficient at new tasks, 
and to field needed new equipment. While these adaptations did not 
necessarily happen fast enough during the early years of our operations 
in Iraq and Afghanistan, they are now occurring much more quickly. We 
can see the difference: more than ever before, I am convinced that our 
troopers and especially our leaders get it--they understand how to 
operate in the exceedingly challenging environments they face in places 
like Iraq and Afghanistan.
    There are negative impacts we're watching closely as well, in 
particular the stress on our ground forces--most importantly on the 
mid-grade noncommissioned officers and junior officers who have that 
wealth of combat experience on which we will draw in the decades ahead. 
There are other stresses as well, such as stresses on equipment that 
has seen much wear and tear over 4+ years of sustained combat and 
stresses on the ability to train for other tasks. The Joint Chiefs of 
Staff and individual Services are endeavoring to put policies in place 
to alleviate the stress on our troopers and on our equipment as much as 
possible and they are working to reset, reconstitute, and revitalize 
the All-Volunteer Force, while also ensuring our troopers are prepared 
to deploy and succeed in the current operations in Iraq and 
Afghanistan.

                                budgets
    9. Senator Byrd. General Petraeus, in the budgets for the global 
war on terror that the President sent to Congress in February, he did 
not request one thin dime for the cost of the troops serving in Iraq as 
a result of the surge. Can you explain to me, the Chairman of the 
Senate Appropriations Committee, why 8 months later, the President has 
still not asked for funds for the troops that have gone to Iraq as a 
result of the surge?
    General Petraeus. I am not able to provide insight into the details 
of the budgetary process. I respectfully recommend this question be 
addressed to the Office of Management and Budget.

    10. Senator Byrd. General Petraeus, during the hearing you 
essentially asked Congress for patience to allow the military strategy 
in Iraq time to work. We have heard these requests virtually since the 
war began. Can you offer any evidence that 6 or 12 more months are 
going to make a significant difference on the only important issues: 
achievement of the benchmarks and genuine progress toward national 
political reconciliation?
    General Petraeus. We are hopeful that over the next 6 to 12 months, 
we will see continued progress toward resolving the ongoing competition 
for power and resources among Iraq's ethnic and sectarian communities. 
This resolution will in turn help achieve the benchmarks and allow for 
genuine progress toward national political reconciliation.
    Significantly, the gradual improvements to the security situation 
arc providing Iraqi leaders with the time and space to resolve their 
difficult political issues, foster reconciliation, and strengthen their 
economy. During the height of sectarian violence late last year, Iraqi 
leaders focused their energy simply on quelling the violence. Now that 
the levels of violence are more manageable--though admittedly still too 
high--Iraqi leaders are able to focus their energies on the key tasks 
that only they can solve. The 26 August communique released by Iraq's 
senior leaders was a heartening step towards resolving their difficult 
issues, and now that the Council of Representatives is back in session, 
it is up to Iraqi leaders to ensure the promises set forth in the 
communique are translated into laws. Also, the groundswell of bottom-up 
support is forcing Iraqi leaders to deal with difficult issues 
involving reconciliation, and their actions, to include conditional 
immunity in some areas, represent the first steps toward national 
reconciliation. In another sign of progress, other ongoing actions are 
also outpacing the laws. For example, the Government of Iraq has not 
yet passed a provincial powers law, a hydrocarbon law, or de-
Baathification reform. Still, the central government is allocating 
budgets to the provinces and the provinces are spending their money; 
oil revenue is being shared in a manner generally consistent with what 
we believe the hydrocarbon law will codify; and, as I stated above, 
conditional immunity is beginning to occur. Such developments are 
tangible signs of political progress and are hopefully indicative of 
more progress to come in the coming months.

    11. Senator Byrd. Ambassador Crocker, we are hearing that political 
reconciliation cannot take place without security, but there will be no 
security without political reconciliation. This is a singularly 
circular argument, but the bottom line is we have yet to see any real 
political reconciliation. I am not looking for an explanation about 
``progress''; I want to know when Iraq will step up to its 
responsibilities, as have so many of our servicemen and women, and what 
you are doing to convey to the Iraqis that there is an urgency for them 
to act now. When can we expect to see the benchmarks you were charged 
to report on--benchmarks originally proposed by the Iraqis themselves--
achieved?
    Ambassador Crocker. Like U.S. servicemen and women, Iraqi 
officials--including politicians, judges, and security forces--are 
stepping up and putting their lives at risk on a daily basis to sustain 
a democratic, Federal Iraq and continue progress on political 
reconciliation.
    Beyond benchmarks, the Government of Iraq is pursuing political 
reconciliation by `latching up' the national and provincial 
governments. For example, on September 30, Iraq's Finance Minister, 
Bayan Jabr, announced that the portion of the capital budget that goes 
directly to the 18 provinces would increase to nearly $4 billion next 
year. Iraq's Deputy Prime Minister, Barham Salih, also announced that 
Babil Province would be rewarded for its effective budget execution 
with $70 million for a major loan program for small businesses and 
individuals. Previously, Vice Presidents al-Mahdi and al-Hashimi and 
Deputy Prime Minister Salih announced a 70 percent increase in the 2007 
provincial capital budget as well as $50 million in compensation for 
losses suffered in Anbar in the fight against al Qaeda.
    While not yet meeting the legislative benchmark of passing a 
Hydrocarbon Law, sharing of hydrocarbon revenues is taking place 
equitably while deliberations over a revenue-sharing law continue. 
Further, U.S. leaders have stressed the importance of passing national 
hydrocarbon legislation during meetings with both Prime Minister al-
Maliki and President Talabani.

    12. Senator Byrd. Ambassador Crocker, the U.S. taxpayer has been 
called upon to provide hundreds of billions of dollars to support the 
war in Iraq. What specific assurances can you give, contrary to many of 
the other official reports we are receiving, including some from your 
own Department, that this war is making us safer here in the United 
States?
    Ambassador Crocker. Our efforts in Iraq make the United States 
safer at home by helping to stabilize the region and by confronting al 
Qaeda. Should the United States abandon or drastically curtail its 
efforts, Iraq could fall into chaos or civil war and become a safe 
haven for terrorists who could strike America at home and abroad. Civil 
war in Iraq would also likely trigger the intervention of regional 
states, all of which have a vital national interest in Iraq's future. 
The Iranian President has already announced that Iran will fill any 
vacuum in Iraq.
    In partnership with courageous and dedicated Iraqis, we have 
weakened al Qaeda in Iraq and reduced its ability to carry out acts of 
terrorism. A growing number of communities in Iraq have joined the 
fight against al Qaeda in Iraq. Should the United States quit Iraq 
prematurely, the gains made against al Qaeda in Iraq and other 
extremist groups could easily be reversed.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                       military presence in iraq
    13. Senator Akaka. General Petraeus, the President's Chief of 
Staff, Josh Bolten, was quoted in an interview with USA Today last week 
as saying President Bush wants to make it ``possible for his 
successor--from whichever party that successor is from--to have a 
sustained presence in the Middle East, and have America continue to be 
a respected and influential power in the Middle East.'' Was maintaining 
a long-term military presence in Iraq an objective provided to you by 
the Commander in Chief, or any member of his administration, when you 
took command of the Multinational Force in Iraq?
    General Petraeus. It was not a specific objective. Developing a 
long-term relationship with Iraq, though not specified to a particular 
military relationship of any set size, has been a strategic goal. The 
10 January 2007 NSC Iraq Strategy Review defined the administration's 
strategic goals and objectives (page 5 of attached unclassified 
briefing). The strategic goal was established before I took command and 
has not since been changed: A unified, democratic, Federal Iraq that 
can govern itself, defend itself, and sustain itself, and is an ally in 
the war on terror.
    The NSC noted that, ``While our strategic goal requires a long-term 
relationship with Iraq, we are at a new phase in the effort and must 
sharpen the objectives we believe are achievable in the next 12-15 
months.''
    The following objectives are where we have focused the energies of 
MNF-I in coordination with our Embassy and Iraqi partners:

          1. Defeat al Qaeda and its supporters and ensure that no 
        terrorist safe haven exists in Iraq.
          2. Support Iraqi efforts to quell sectarian violence in 
        Baghdad and regain control over the capital.
          3. Ensure the territorial integrity of Iraq and counter/limit 
        destructive Iranian and Syrian activity in Iraq.
          4. Help safeguard democracy in Iraq by encouraging strong 
        democratic institutions impartially serving all Iraqis and 
        preventing the return of the forces of tyranny.
          5. Foster the conditions for Iraqi national reconciliation 
        but with the Iraqi Government clearly in the lead.
          6. Continue to strengthen Iraqi Security Forces and 
        accelerate the transition of security responsibility to the 
        Iraqi Government.
          7. Encourage an expanding Iraqi economy including by helping 
        Iraq maintain and expand its export of oil to support Iraqi 
        development.
          8. Promote support for Iraq from its neighbors, the region, 
        and the international community.

    MNF-I is focused on achieving the objectives outlined above. 
Conditions in Iraq and a coordinated agreement with the sovereign 
Government of Iraq will dictate our future presence or lack of 
presence.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    14. Senator Akaka. General Petraeus, if not, were you aware that a 
sustained presence in Iraq was desired by the President?
    General Petraeus. See answer to question 13.

    15. Senator Akaka. General Petraeus, was the President's desire to 
maintain a sustained presence in Iraq beyond the end of his term in 
office a factor in your evaluation of recommended troop levels in Iraq?
    General Petraeus. No. My recommended troop levels in Iraq until 
next July were based on my professional assessment of what it will take 
to accomplish the mission. My assessment was also informed by the 
strain on the ground forces, though that was not a determining factor. 
We do believe that accomplishing the mission will take until well into 
the next administration, but that belief is predicated on a realistic 
assessment of the situation on the ground in Iraq and the objectives we 
have been given to accomplish.

    16. General Petraeus, have you, or DOD, taken any steps to 
facilitate sustaining our long-term military presence in Iraq, such as 
building of permanent bases or negotiating long-term lease deals with 
the Iraqi government?
    General Petraeus. Currently, MNF-I basing is governed by the 
authorities of the existing United Nations Security Council Resolutions 
and Coalition Provisional Authority Orders. In recognition of the 
sovereignty of the Government of Iraq, and as we move forward in 
support of the Government of Iraqi's request for DOS's work on the 
Long-Term Security Relationship, MNF-I will establish a dialogue with 
the Government of Iraq to reach a mutual agreement on the future basing 
needs for coalition forces. In accordance with United States Central 
Command instructions, the military construction that has been conducted 
in Iraq has been and continues to be temporary in nature.

                             u.s. security
    17. Senator Akaka. General Petraeus, the war in Iraq, which has 
lasted over 4 years with a cost of over $500 billion before the end of 
next year, is having a major impact on our armed services in terms of 
their readiness and capability to respond to other potential crises. If 
our military is less ready to respond to other crises, then I suggest 
to you that our country has been made less safe.
    By not eliminating Osama Bin Laden and ``al Qaeda Central,'' a 
recent National Intelligence Estimate (NIE) concluded that we have 
allowed them to reconstitute their organization in to a level equal to 
or greater than just prior to September 11, 2001. Since we have allowed 
our enemy to gain its full strength back, then I suggest to you that 
our country has been made less safe. We have diverted significant 
resources unnecessarily into Iraq instead of focusing on ``al Qaeda 
Central,'' and because we do not have unlimited resources, we have 
reduced the total resources available to conduct the global war on 
terror. As Chairman of the Veterans Committee, I know that we will be 
paying for this war for many decades to come as we care for our wounded 
veterans. These costs also reduce our available resources for battling 
terrorist networks. Since our decision to go to war in Iraq has caused 
us to have less resources to utilize in the war on terror, I suggest to 
you, that our country has been made less safe.
    The April 2006 NIE concluded ``The Iraq conflict has become the 
``cause celebre'' for jihadists, breeding a deep resentment of U.S. 
involvement in the Muslim world and cultivating supporters for the 
global jihadist movement.'' It further concluded that the ``global 
jihadist movement--which includes al Qaeda, affiliated and independent 
terrorist groups, and emerging networks and cells is spreading and 
adapting to counterterrorism efforts.'' The July 2007 NIE concludes 
that ``al Qaeda Central is and will remain the most serious terrorist 
threat to the Homeland.'' These conclusions from our intelligence 
agencies demonstrate that the Iraq war is fueling a growth in terrorist 
networks throughout the world, not just in Iraq, and I suggest to you, 
that this has made our country less safe. In your opinion, is the Iraq 
war making America safer? If so, why?
    General Petraeus. I recognize that there are many arguments as to 
whether or not the invasion of Iraq was the correct policy, but from 
where we are right now, pursuing our objectives in Iraq is making 
America safer. I believe this because of the effect we are having on 
the al Qaeda-Iraq, which al Qaeda Senior Leadership has determined as 
their central front in a global effort and which the July 2007 NIH 
noted in relation to al Qaeda Senior Leadership as ``its most visible 
and capable affiliate and the only one known to have expressed a desire 
to attack the Homeland.''
    I also agree with the findings in the April 2006 NIE that Iraq was 
an attractive cause for global jihadists. From that finding, the NIE 
also concluded that ``should jihadists leaving Iraq perceive 
themselves, and be perceived, to have failed, we judge fewer fighters 
will be inspired to carry on the fight.'' We have done considerable 
damage to the global al Qaeda network by the killing and capturing of 
hundreds of skilled terrorist leaders, many of them foreigners to Iraq 
who would have been free to operate elsewhere if they were not in Iraq. 
The decrease in foreign fighters coming into Iraq in recent months may 
indicate that Iraq is losing its attractiveness to al Qaeda and 
affiliated terrorists, though it also likely reflects actions in source 
countries, as well as action in Syria and Iraq.
    There is no doubt that the enemy we face constantly adapts to our 
efforts. At the same time, because of our experience in Iraq, I believe 
we are farther along in learning how their networks are organized, how 
they fund their activities, how they communicate, how they train, and 
how they recruit new members than we would have been without the past 4 
years of learning on the battlefield. We continue to get better and 
adapt as well, by fine-tuning the synchronization of conventional and 
special operations, by improving our tactics and enhancing our 
technology, by fusing intelligence and by the accumulation of 
experience.
    The July 2007 NIE noted al Qaeda central as the most serious 
terrorist threat to the Homeland, as it was before September 11, but 
also stated, ``We assess that greatly increased worldwide 
counterterrorism efforts over the past 5 years have constrained the 
ability of al Qaeda to attack the U.S. Homeland again and have led 
terrorist groups to perceive the Homeland as a harder target to strike 
than on September 11.'' I believe our efforts in Iraq are a part of 
that equation and an important reason we must continue to work with our 
Iraqi partners to defeat terrorist networks here in Iraq.

    18. Senator Akaka. General Petraeus, every year our troops are in 
Iraq, the costs to our country are huge: thousands killed in action, 
thousands more permanently disabled or maimed, and hundreds of billions 
of dollars. With the money we have spent we could have contributed to 
rebuilding our aging transportation infrastructure, retooling our 
educational system to train our children to compete in the global 
market place, and strengthening the security of our borders. So we have 
a responsibility to this country to assess whether or not the mission 
is worth the cost: a cost measured in American lives, in foregone 
programs in America, in the health and welfare of our military, and in 
the risk if other areas of the world demand our military resources. 
Even if the mission is worth the cost, we must assess whether or not we 
can continue to afford to pay it. In your opinion, is the cost worth it 
and what does America gain for the expense?
    General Petraeus. Ultimately, this is a question for the national 
leadership of the United States. In my professional opinion, we have 
substantial national interests in Iraq. Failure in Iraq would mean that 
important American and global interests in Iraq and the region are not 
achieved. Should Iraq collapse into violence (and we got a glimpse of 
that during the height of ethno-sectarian violence in 2006), many of 
our vital and important national interests would be negatively 
affected.
    A withdrawal before achieving sustainable stability would result in 
the further release of the strong centrifugal forces in Iraq and would 
likely produce a number of dangerous results, including a high risk of 
the disintegration of the Iraqi security forces, a rapid deterioration 
of local security, a marked increase in violence, further ethno-
sectarian displacement and refugee flows, alliances of convenience 
among Iraqi groups and other internal and external forces to gain 
advantages over their rivals. The recent DIA report confirms my 
assessment of the consequences of withdrawal. A failed state in Iraq 
would also allow al Qaeda-Iraq to regroup and regain the sanctuaries 
they had established and that Iraqi and coalition forces have secured 
in the past months. Al Qaeda writ large would also benefit from the 
psychological and recruiting boost to their cause that would be derived 
from the perceived failure of American policy. Beyond al Qaeda, Iranian 
hegemonic ambitions could be encouraged. Additionally, the developing 
nexus between Iraq, Tehran, Damascus, and Lebanese Hezbollah would 
solidify and exacerbate the underlying Sunni-Shiite conflict already in 
the Middle East. There is a significant risk that Iraq would be the 
catalyst for broader regional turmoil as Turkey, Iran, Syria, and other 
neighbors acted to defend their interests. These consequences would 
have an adverse impact on the global economy, as potential 
interruptions in the export of oil from Gulf Region would impact global 
economic markets. Such results would, in my view, constitute failure in 
Iraq; our shared vision of a stable and secure Iraq would not be 
achieved and American and global interests in Iraq and the region would 
not be protected.
    To be sure, the situation in Iraq remains complex, difficult, and 
frustrating, but I believe that it is possible to achieve our 
objectives in Iraq over time through our continued efforts, though 
doing so will not be quick, inexpensive, or easy. The costs of staying 
in Iraq are high, but the costs of withdrawal before achieving 
sustainable security may well be much higher.
    I believe that the best way to secure our national interests and 
avoid an unfavorable outcome in Iraq is to continue to focus our 
operations on securing the Iraqi people while targeting terrorist 
groups and militia extremists and, as quickly as conditions are met, 
transitioning security tasks to Iraqi elements.

                              troop levels
    19. Senator Akaka. General Petraeus, you expressed concern in your 
opening statement about ``the implications of a rapid withdrawal.'' I 
am troubled by this characterization because I have not heard any 
Member of Congress who supports ending the war say that our withdrawal 
should be rapid. In fact, I believe that most of us advocate a gradual 
or phased drawdown that would lessen the shock of our troops' departure 
on the Iraqi citizens and government, and give them an opportunity to, 
using the words of the President, ``stand up.'' Please define what you 
mean by a ``rapid'' drawdown.
    General Petraeus. I would describe a rapid withdrawal as any 
withdrawal that is solely time-based and fails to consider the 
operational environment and the current mission. The reduction of MNF-I 
forces that I proposed in my testimony matches our ability to secure 
U.S. national objectives in Iraq with the operational environment and 
available resources at an acceptable level of risk. This plan also 
allows for the orderly repositioning of equipment and personnel 
currently in Iraq. Any significant acceleration of this schedule 
without a significant improvement in the operational environment would 
constitute a rapid drawdown because it would fail to balance the 
mission and force level with the security conditions on the ground.

    20. Senator Akaka. General Petraeus, if you were to conduct a 
``gradual'' drawdown of our presence in Iraq, at what pace would you 
recommend reducing our troop levels?
    General Petraeus. I do not recommend a ``paced'' reduction of troop 
levels. My recent recommendation to reduce the surge force of five 
BCTs, a Marine Expeditionary Unit (MEU), and two Marine Infantry 
Battalions, taken in consultation with Ambassador Crocker and my chain 
of command, represents how I recommend reducing coalition forces 
against the progress we have achieved in Iraq and the operational 
environment. The recommendation reflected an assessment of a number of 
conditions, namely the security environment, the state of Iraqi 
security forces, and progress in governance and the Iraqi economy. The 
term ``pace'' infers a time-based drawdown of troop levels that 
provides the enemy greater predictability of our actions and cedes 
initiative. Adhering to a time-based drawdown with a specific ``pace'' 
would almost certainly jeopardize security and other gains we have made 
in Iraq.
    Our forces levels can and will come down further beyond the levels 
reduced in July 2008. As I testified, however, I cannot predict the 
pace of drawdowns past next July and therefore have offered pledges to 
present my assessment and recommendations in March 2008 for the way 
ahead after July 2008.

                              safe havens
    21. Senator Akaka. General Petraeus, I am concerned about reports 
that there are some areas of Baghdad where coalition forces are not 
going. In effect, possibly establishing safe havens for our opponents. 
For example, there is one joint security station in Sadr City which is 
located not in the interior of the neighborhood but on the border with 
another district. Are there areas of the city in which our troops do 
not go?
    General Petraeus. There are districts in which we try to minimize 
our visible force posture, such as some of those in Sadr City, but 
coalition forces execute operations in every neighborhood and security 
district of Baghdad, including Sadr City. There arc Iraqi Police and 
National Police units responsible for daily policing within Sadr City 
and many other neighborhoods of Baghdad, but no areas of Baghdad can be 
considered a safe haven for the enemies of the Iraqi people. While we 
strive to conduct all of our operations with our Iraqi partners if they 
are not operating independently already, we can and do operate in any 
neighborhood of Baghdad as the mission requires it to ensure that no 
place in Iraq is knowingly left as a safe haven for extremists.

    22. Senator Akaka. General Petraeus, wasn't the intention of the 
Baghdad Security Plan to eliminate safe havens?
    General Petraeus. Yes, and we largely have. Coalition forces 
execute operations in every neighborhood and security district of 
Baghdad. Sustained precision strike operations that selectively target 
extremists and criminals continually reinforce the fact that there is 
no safe place for the enemy in Baghdad. Kinetic strikes are then 
reinforced by nonkinetic programs designed to bring clean water, 
electricity, fuel, and sewer service to the populace in order to build 
their allegiance to the Government of Iraq and to get them to reject 
extremist militias and terrorists who cannot provide basic services, 
though much work remains to be done in this category. In addition, we 
continue to work with over 52.000 Iraqi security forces that operate in 
the Baghdad Security Districts, a number that is increasing, as this 
will lay the long-term foundation for sustainable Iraqi security.

                              iraqi tribes
    23. Senator Akaka. General Petraeus, I understand that there are 
over 150 tribal groups in Iraq. During your hearings on September 10 
and 11, 2007, you specifically denied media reports that you were 
arming Sunni tribes in al Anbar to assist them in fighting al Qaeda. 
However, I am still concerned about other forms of assistance that 
might be provided. You did not, for instance, discuss if you are 
providing any other kind of support to the tribes, such as funding and/
or training. My concern is that we may provide them with support that 
could be utilized against the Shiites or, even our own troops once they 
are through battling al Qaeda. After all, some of these tribes were 
previously killing Americans. In addition, the appearance that we are 
favoring some tribal groups over others could exacerbate sectarian and 
ethnic conflict. I understand that assisting the Sunni tribes helps put 
al Qaeda on the defensive; however, I must caution that we must do so 
with great care in order to avoid unintended consequences. Please 
describe what resources and/or training you are providing to the Sunni 
tribes in any province to support their efforts against al Qaeda, and 
how you are ensuring that anything you provide is not used against our 
troops, the Shiites, or the Kurds.
    General Petraeus. I appreciate your well-founded note of caution, 
and this is indeed an area where we have had to accept some risk, 
though not without what we consider sufficient mitigation. In 
separating the armed tribes who are willing to work with us from 
extremist individuals and irreconcilable groups, we can gain two 
tangible benefits: we reduce the number of opponents on the 
battlefield, and we gain contributing partners who have staked their 
families' well-being on working together with coalition and Iraqi 
security forces.
    As I testified, coalition forces are not arming tribes. Tribal 
members are already armed for the most part due to the Iraqi policy 
that allows every household to maintain one AK-47 assault rifle. The 
support of coalition force for Sunni tribes is focused on supporting 
community watch groups trying to rid al Qaeda elements from their midst 
and on providing basic skills to tribal members who agree to monitor 
key infrastructure or transportation routes in order to prevent its 
destruction or the emplacement of improvised explosive devices. Before 
any training takes place, a plan is developed that clearly defines the 
responsibilities for all parties, outlines the limitations of 
authorities, and explains the consequences if any person violates the 
agreement. The tribal sheikh or neighborhood leader selects and vets 
candidates who also sign an agreement and swear an oath to the Iraqi 
Government. Once the agreements are signed, the coalition forces' Iraqi 
security forces in process and screen the candidates including the 
collection of biometric data, cross-matching with the biometrics 
database against criminal databases, and recording the serial numbers 
of candidates' personal weapons. We then work with the Iraqi Government 
to get formal hiring orders for their integration into Iraqi security 
forces.
    The training provided to these groups covers defensively oriented 
skills such as checkpoint operations, detainee handling procedures, 
human rights, Law of Land warfare, safe weapons handling, and proper 
reporting procedures. The equipment provided to the Iraqis in these 
situations generally involves a uniform (usually a t-shirt and arm 
band), cell phones, a phone card, and materials such as reflective 
belts, chemical lights, and, in some cases, GPS systems that help 
provide identifying information and locations to improve coordination 
and reduce fratricide.

    24. Senator Akaka. General Petraeus, if you are providing funding 
to the Sunnis tribes, please describe the purpose of the funding, and 
how you are ensuring that the funds are used as intended.
    General Petraeus. The funding we are providing to Shiite as well as 
Sunni tribal volunteers covers the initial costs of the broader 
Concerned Local Citizens (CLCs) movement, in which there are now some 
65,000 individuals participating. The majority of these CLCs are Sunni 
at the present time, though we are seeing rapid growth in the number of 
Shiite citizens who are also forming groups to reject extremist Jaish 
al Mahdi and Iranian influence in a similar manner that Sunni tribes 
rejected al Qaeda. We estimate that approximately $35 million will be 
spent on these citizen groups through the end of the year, which is a 
wise investment both in getting a large number of military age males 
into employment and in the dramatic reductions in violence we see in 
the areas in which active CLCs are present. In fact, just the reduction 
in vehicle losses due to battle damage more than offsets the cost of 
the CLCs. The next step, which is crucial, is developing with the 
Government of Iraq the mechanism by which the CLCs go onto Iraqi 
payrolls. This effort is in its nascent stages now, and I expect to 
report more on it in the future.

                        american-iraqi relations
    25. Senator Akaka. General Petraeus, Dennis Ross, who is a leading 
Middle East expert, who served in several Republican and Democratic 
administrations, has stated that, ``It is an illusion to believe that 
the new Iraq is going to act as our partner in the war on terrorism.'' 
How sure are we that a new independent Iraq--even one at peace with 
itself--is going to be pro-American, especially given the pervasive 
influence of Iran on the dominant Shiite leaders, and what is the basis 
for your conclusion?
    General Petraeus. I cannot guarantee success in Iraq or even if we 
arc successful, that the new independent Iraq will remain pro-American. 
However, a free and independent Iraq is most likely to be a stabilizing 
force in the Middle East, and given that it is Shiite-led, and largely 
Arab, it is at least likely to oppose al Qaeda in Iraq in many areas, 
as well as Iran, based on historic suspicions and fighting. What I can 
say is that the building of a strong strategic partnership with the 
Iraqi Government is in our best interest and that Ambassador Crocker 
and I are both committed to making this happen. Recently, Iraqi 
officials indicated that they wanted the United Nations Security 
Council to extend the mandate of the MNF-I through the end of 2008. 
Once that mandate extension expires, we believe that senior Iraqi 
leaders intend on seeking a long-term bilateral security agreement with 
the United States, an agreement similar to those that exist with Saudi 
Arabia, Kuwait, the United Arab Emirates, Bahrain, Qatar, and Egypt.

                             iraqi refugees
    26. Senator Akaka. General Petraeus, it seems to me that the number 
of internally displaced people (IDP) is an indicator of sectarian 
violence. I understand that about 1.8 million Iraqis are now refugees 
in other countries and that the number of IDPs has increased from 
499,000 in February to over 1.1 million in July. Do you agree that the 
increasing number of IDPs is an indicator of increasing sectarian 
violence and rising ethnic tensions?
    General Petraeus. As Ambassador Crocker and I testified, the 
fundamental source of conflict in Iraq is competition among ethnic and 
sectarian communities for power and resources. This competition will 
take place, and its resolution is necessary to produce long-term 
stability in the new Iraq. The question is whether the competition 
takes place more or less violently. Tragically, one of the by-products 
of this power struggle is the number of Iraqis and families that are 
displaced from their homes as a result of sectarian threats and 
violence. The surge of operations has led to increased security for 
Iraqis throughout the country and, while the number of displaced people 
remains far too high, we have seen positive signs: citizens beginning 
to return to neighborhoods and an Iraqi government that is working to 
guarantee the property rights of those who were displaced in order to 
help reintegrate them into civil society. All indicators are that 
overall sectarian violence in Iraq is significantly lower now than it 
was in the winter of 2006 and 2007.

    27. Senator Akaka. General Petraeus, the pace of IDPs does not seem 
to have been slowed by the surge. How do you respond to the criticism 
that this is further evidence that the surge has failed?
    General Petraeus. The military objectives of the surge are, in 
large measure, being met. Though the improvements in security have been 
uneven across Iraq, the number of incidents, such as attacks and ethno-
sectarian violence, has decreased since June. This decrease in 
sectarian violence and terrorist attacks, and the associated enhanced 
security that the surge enabled, have given government and community 
leaders valuable time to try and resolve pressing political, economic, 
and sectarian issues. As incidents continue to decline and confidence 
in the security situation stabilizes, many displaced Iraqis will 
eventually return to their homes and communities. In fact, as I 
mentioned above, we are beginning to see a small but significant number 
of families moving back into neighborhoods that have been secured by 
coalition and Iraqi security forces.

                               benchmarks
    28. Senator Akaka. General Petraeus, in its report on the Iraqi 
government's progress in meeting its benchmarks, the Government 
Accountability Office (GAO) asserted that it could not confirm that 
there has been a reduction in sectarian violence since the surge, as a 
measure of sectarian violence is difficult since the perpetrator's 
intent is not always clearly known. The report further stated that the 
average number of daily attacks against civilians remained about the 
same over the last 6 months, and that the decrease in total average 
daily attacks in July is largely due to a decrease in attacks on 
coalition forces rather than civilians. How is the MNF-I determining 
which killings or attacks are sectarian violence, and which are not? 
While some may be obvious, I am sure that many are not.
    General Petraeus. Ethno-sectarian violence is defined as an event 
and any associated civilian deaths caused by or during murders/
executions, kidnappings, direct fire, indirect fire, and all types of 
explosive devices, identified as being conducted by one ethnic/
religious person/group directed at a different ethnic/religious person/
group, where the primary motivation for the event is based on ethnicity 
or religious sect. Analysts review each event to determine the 
ethnicity and/or religious sect of the victim(s), the entity being 
attacked, the demographics of the area where the attack occurred, and 
the method of attack to determine whether a particular event should be 
included as ethno-sectarian violence. As you correctly point out, many 
of these events are obviously ethno-sectarian in nature, while others 
are less obvious until the full range of circumstances are closely 
examined.
    MNF-I employs a methodology that is consistent, rigorous, and 
thorough. We have shared our methodology with the CIA and DIA, and they 
concur with our system of measurements. In large part, the GAO's 
criticism is based on a fundamental misunderstanding of our 
methodologies. We have always welcomed outside audits and will continue 
to do so and we continue to stand by our metrics.

    29. Senator Akaka. General Petraeus, you stated in the hearing that 
the current methodology has been used for over a year. From this, I 
conclude that the current methodology was changed approximately 3 years 
into the war. How long exactly has this methodology been in use, and 
why was it changed?
    General Petraeus. I have attached to this response the document 
``MNF-I Ethno-Sectarian Violence Methodology'' which outlines the 
definitions and methodology we use to determine if violent acts should 
be classified as ethno-sectarian. This methodology has not changed 
since July 2005. MNF-I defines ethno-sectarian violence as ``an event 
and any associated civilian deaths caused by or during murder/
executions, kidnappings, direct fire, indirect fire, and all types of 
explosive devices identified as being conducted by one ethnic/religious 
person/group directed at a different ethnic/religious person/group, 
where the primary motivation for the event is based on ethnicity or 
religious sect.''
    The only significant change to the reported level of ethno-
sectarian violence is one that resulted from our receipt of backlogged 
data from the Iraqi National Command Center in March 2007. After 
verifying the data, we updated previous accounts of the levels of 
sectarian violence with these reports to ensure we had the most 
accurate depiction of the sectarian violence we are measuring. This 
additional data did not arrive in time for inclusion in the March 9010 
Report to Congress, but was reflected in the June 9010 Report. Since 
then, MNF-I has worked hard to improve our coordination with our Iraqi 
counterparts to ensure we receive Iraqi reports in a timely and 
consistent manner. We believe that using verified Iraqi data adds to 
the accuracy of our statistics.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    30. Senator Akaka. General Petraeus, how can you use this 
methodology to evaluate trends in sectarian violence against previous 
years when the methodology was changed?
    General Petraeus. The methodology for measuring ethno-sectarian 
violence has not changed since it was implemented in the summer 2005. 
Additionally, the rigorous methodology deals with interpreting data, 
rather than collecting it. Thus, when comparing data from different 
years, MNF-I analysis apply the same methodology to the entire data set 
to make the most accurate trends assessments possible. Prior to 2005, 
we weren't as focused on ethno-sectarian violence as we are today. In 
fact, prior to the bombing of the Mosque of the Golden Dome in early 
2006, ethno-sectarian violence was limited. The bombing of the mosque 
literally tore the fabric of Iraqi society, pining sects against one 
another and plunging neighborhoods into violence.

    31. Senator Akaka. General Petraeus, because of the inherent 
difficulties in attempting to determine the intent of a killing, your 
method of measuring sectarian violence in Iraq seems subjective to me. 
Why not use objective measurements such as total civilian killings or 
average daily attacks to assess levels of violence?
    General Petraeus. We do, in fact, use total civilian deaths and 
daily attacks as metrics on which we focus. However, due to the damage 
done by sectarian violence, we do focus on that, as well. In fact, due 
to its divisive nature, sectarian-motivated violence poses the greatest 
threat to the long-term goals of reconciliation among the Iraqis. While 
no violence is acceptable, measuring the level of sectarian violence 
helps assess progress toward reconciliation.
    Sectarian violence is thus an important subset of total levels of 
violence as it is an indicator of the level of civil unrest among the 
various sects within Iraq. We therefore scrutinize various indicators 
and develop specific methods for accurately measuring the level of 
sectarian violence. We use a number of indicators to determine the 
levels of violence in Iraq. These include subjective assessments as 
well as objective measurements. While total civilian casualties and 
daily attacks are part of that set of measurements, those two 
indicators alone are not enough to determine if a violent act was 
sectarian-motivated. Therefore, our analysis teams review reports in 
detail, searching for the signs that suggest sectarianism.
    Securing the population from both internal and external threats is 
a priority and it is therefore essential to accurately measure trends 
in violence. Ultimately, I believe we are best able to do this by 
assessing a wide spectrum of violence indicators, including, as I noted 
earlier, total civilian deaths and average daily attacks. The nature of 
the conflict in Iraq is exceedingly complex and we use a variety of 
tools to measure it.

                             weapons caches
    32. Senator Akaka. General Petraeus, in your slides that you 
provided with your opening remarks at the hearing, you provided a slide 
on the numbers of weapons caches found. What percentage of the weapons 
caches found are weapons from: 1) Saddam Hussein's military forces; 2) 
U.S. military weapons; 3) Iranian weapons; 4) Syrian Weapons; and 5) 
weapons from other nations?
    General Petraeus. While we attempt to collect as much information 
as we can to gain greater situational awareness, to include forensic 
data that is then shared with and analyzed by other governmental 
agencies such as the FBI, it is very difficult to assess the sources of 
weapons we have found in caches. Most of the weapons we are finding in 
theater are made from a variety of different countries. Due to the 
commonality of the type of weapons and the variety of different methods 
of entrance into Iraq, we cannot accurately track sources of origin. 
Further, the condition of the weapons caches we are finding vary 
greatly, from some that have been secured for long periods of time and 
lack markings to some that have just been recently emplaced. These 
factors make it extremely difficult and often nearly impossible to 
assess the weapons' sources.

                          u.n. resolution 1723
    33. Senator Akaka. Ambassador Crocker, United Nations (U.N.) 
Resolution 1723, the mandate under which coalition troops currently 
operate in Iraq, expires in December 2007, and would, therefore, 
require renewal to support continued coalition operations in Iraq. Have 
any efforts been made by the Iraqi Parliament to block the renewal of 
U.N. Resolution 1723?
    Ambassador Crocker. No efforts have been made by the Iraqi 
Parliament to block the renewal of U.N. Resolution 1723. We are 
currently working with the Government of Iraq, coalition members, and 
members of the United Nations Security Council to renew UNSCR 1723. We 
have received assurances from the Government of Iraq that it supports 
this effort.

    34. Senator Akaka. Ambassador Crocker, if so, what actions were 
taken by the Parliament, what further actions do they have planned, and 
what is the intent and current status of their efforts?
    Ambassador Crocker. See answer to question 33.

                           maliki government
    35. Senator Akaka. Ambassador Crocker, on August 22, 2007, Time.com 
reported that Nouri al-Maliki's government was teetering on the verge 
of collapse, and that ``Baghdad's Green Zone is humming with political 
maneuverings by Iraqi politicians who want his job.'' The next day, 
CNN.com's Political Ticker reported that former Iraqi Prime Minister 
Ayad Allawi had hired a Washington, DC, lobbying firm to begin a public 
campaign to undermine the Maliki government and replace him with 
Allawi. In your opinion, how likely is the Maliki government to 
survive?
    Ambassador Crocker. Prime Minister Nouri al-Maliki continues to 
enjoy the support of his party and its coalition partners. Al-Maliki 
demonstrated his political tact through his success in achieving 
agreement on the principles of reconciliation contained in the August 
26 communique by top Sunni, Shia, and Kurdish leaders. He enhanced his 
international support at the U.N. General Assembly in September and he 
will be attending the Expanded Neighbors Conference in Istanbul on 
November 2-3. The United States is fully committed to continuing its 
work with Prime Minister al-Maliki to sustain a united, Federal, and 
democratic government in Iraq.

    36. Senator Akaka. Ambassador Crocker, if the government were to 
fall and new elections held, how long would that set back negotiations 
for political reconciliation?
    Ambassador Crocker. It is impossible to determine what the exact 
impact on political reconciliation would be should the current 
governing coalitions in Iraq fall and new elections be held. As I 
stated in a previous response, Nouri al-Maliki continues to enjoy the 
support of his party and its coalition partners. Al-Maliki demonstrated 
his political tact through his success in achieving agreement on the 
principles of reconciliation contained in the August 26 communique by 
top Sunni, Shiite, and Kurdish leaders. He enhanced his international 
support at the U.N. General Assembly in September, and he will be 
attending the Expanded Neighbors Conference in Istanbul on November 2-
3. The United States is fully committed to continuing its work with 
Prime Minister al-Maliki to sustain a united, Federal, and democratic 
government in Iraq.

    37. Senator Akaka. Ambassador Crocker, in your opinion, is Ayad 
Allawi actively working to undermine the Maliki government, and 
hindering the Prime Minister's efforts to achieve political 
reconciliation?
    Ambassador Crocker. Competition among politicians and among 
political parties is part and parcel of democracy. Iraq's democratic, 
Federal governance system has, for the first time, allowed for 
competing political parties to publicly express different political 
views without fear of government retribution. Individual leaders, 
including Allawi, establish positions and pursue platforms which they 
believe will attract political support. Rather than seeing that 
competition of ideas as a challenge to reconciliation, I see it as an 
indispensable part of the political process, and one that helps ensure 
that the Iraqi people's desire for reconciliation will be fulfilled.

                         state-owned businesses
    38. Senator Akaka. Ambassador Crocker, in the last 4 years the 
United States has obligated nearly $370 billion to Iraq--as the GAO 
points out. We have been pouring money into state-owned plants which do 
not seem to be able to generate much business. It has been suggested 
that rather than trying to prop up state-owned businesses, the Bush 
administration should switch to supporting the private sector and 
letting the markets take over. What is your assessment of this idea?
    Ambassador Crocker. Supporting private sector development is a key 
goal of our economic policy in Iraq. A dynamic and varied private 
sector will provide the source of long-term economic growth that 
generates employment and spurs innovation. To this end, the Embassy in 
Baghdad has been working for 3 years with the Iraqi Government on a 
range of initiatives to improve the business climate and facilitate the 
creation of Iraqi firms. This includes helping to streamline the 
business registration process, passing a landmark investment law, and 
creating a one-stop investment promotion center. The Embassy has also 
focused on helping Iraq improve laws and regulations to improve 
specific sectors that are key to private enterprise, such as 
telecommunications.
    In support of an emerging Iraqi private sector, USAID's micro-
credit program has also been very successful in helping thousands of 
businesses start up. More than 55,000 loans have been issued over the 
past 3 years. USAID has also offered vocational education programs and 
business education initiatives.
    At the same time, DOD's Task Force to Improve Business and 
Stability Operations in Iraq, led by Deputy Under Secretary of Defense 
Paul Brinkley, is working to revitalize certain state owned enterprises 
(SOEs), with the aim of increasing employment, kick-starting economic 
activity (including in related private companies) and attracting 
private investment in those SOEs, leading to their eventual 
privatization.
    We are working with DOD to fully integrate this initiative into our 
broader engagement with the Iraqi Government to promote the kinds of 
reforms Iraq will need to develop its economy. This initiative was 
conceived to play a part in creating short-term gains to improve the 
prospects for job creation and broader Iraqi economic growth. This 
should come within the context of an overall focus on promoting private 
sector development and supporting free-market enterprise.

                           insurgency in iraq
    39. Senator Akaka. General Petraeus and Ambassador Crocker, Admiral 
Fallon, in his testimony before this committee on May 3, 2007, stated 
that ``Insurgent groups in Iraq have multiple and often competing 
motivations for perpetuating violence. However, a common thread is 
their opposition to U.S. and coalition presence and refusal to accept 
the legitimacy of an inclusive, representative government.'' Do you 
agree with Admiral Fallon's point?
    General Petraeus. First, I agree with Admiral Fallon that insurgent 
groups, terrorists, militias, and criminals have multiple and often 
competing motivations for perpetuating violence. There are a wide range 
of individual motivations and group dynamics that justify violent acts. 
Some of the motivations include anger, sense of disrespect and loss, 
fear of Iranian influence, fear of a Baathist return, anti-Western 
xenophobia, religious extremism, concern for the future, and the need 
to protect and provide for a family. A recent survey of detainees 
showed that the majority were drawn to the insurgency for economic 
reasons. On a larger scale, the violence we see today is driven by a 
complex mixture of destabilizing forces that include insurgency and 
terrorism; communal power struggles; and regional interference and 
foreign-fueled proxy war, all compounded by weak and divided 
institutions. That said, the conflict remains predominantly a 
reflection of a communal struggle for power and survival, with elements 
of both inter- and intra-sectarian violence, as well as al Qaeda-
sponsored terrorism.
    A major driver for violence in Iraq for the Sunni Arab-based 
insurgency had been the rejection of what the Sunnis perceived as the 
disproportionate empowerment of the Shiite and Kurdish communities that 
occurred as a result of coalition force operations. For many 
insurgents, the coalition presence was a primary target because 
coalition forces enabled major societal and political changes at their 
expense. However, over the past several months, many Sunni Arab 
political, tribal, and religious leaders, as well some of the insurgent 
groups, have demonstrated increased pragmatism and willingness to 
assist in the suppression of violence, to work with the coalition force 
and Iraqi security forces to defeat al Qaeda, and to help secure their 
neighborhoods with Local Citizens Groups.
    In contrast to the spring of 2006, I would say that more and more 
Sunni Arabs, including insurgents and former insurgents, increasingly 
understand the value of our presence. In point of fact, the Sunni Arab 
Awakening movement has expanded well beyond al Anbar province, 
reflecting an increased willingness to work within the parameters of 
the current political process. Many have now reconciled themselves to 
the idea that the future of Iraq will be determined by political 
efforts rather than at the handle of a gun and what they really want is 
a seat at the table in Baghdad. It will take some strong confidence 
building measures to get many of the Shiite--who don't know they have 
``won'' to get over the years of Sunni suppression. The struggle to 
define legitimacy and a representative government is taking place, and 
its resolution is required to produce long-term stability in the new 
Iraq. The question is whether the competition takes place more--or 
less--violently.
    Ambassador Crocker. While many insurgents in Iraq oppose the 
coalition presence and refuse to accept an inclusive and representative 
government, the Iraqi insurgency is dynamic and diverse. As Admiral 
Fallon stated, different groups have different motivations for their 
actions. Thus, the level of an insurgent's opposition to either the 
coalition or the Iraqi government may vary dramatically based on that 
individual's cultural, ethnic, political, and religious orientation as 
well as his or her interpretation of recent history.
    One commonality among insurgent groups in Iraq is the increasing 
popular opposition they are facing from Iraqis who have grown weary of 
violence. These citizens would rather cooperate with an inclusive, 
representative Iraqi government and coalition force than suffer 
continued violence and economic privation.

    40. Senator Akaka. General Petraeus and Ambassador Crocker, it is 
entirely possible that our presence in the region is fuel to the fire, 
and that the resistance to the government is because it is seen as an 
extension of the American occupation force. Has anybody seriously 
researched the underlying cause for opposition to our presence?
    General Petraeus. There is undoubtedly an element of resistance to 
perceived occupation that adds ``fuel to the fire,'' particularly given 
Iraqi xenophobia, but overall I believe we are more of a stabilizing 
force than an irritant, as seen by the decrease in sectarian violence 
as additional coalition forces were brought into the country. I believe 
the resistance to the government stems more from internal Iraqi 
politics in that groups representing the diversity of the Iraqi 
populace are for the first time fairly competing for political power.
    Iraq is the one of the most complex and challenging situations we 
have ever faced as a nation, and perhaps one of the most thoroughly 
examined. In 2007, there were two in-depth NIEs, not to mention other 
government agency reports, academic and think tank studies, and, of 
course, our partnership with the Iraqis, all providing valuable 
insights into the motivations of groups opposing the Government of 
Iraq.
    Ambassador Crocker. For some insurgent groups U.S. presence is an 
underlying reason for resistance to the Government of Iraq. Some view 
Iraqi security forces as extensions of the coalition forces that are 
helping to train and equip them. Others, like al Qaeda, are against any 
governmental system not based strictly on what they assert is the only 
true understanding of Islamic law. These extremists are violently 
opposed to the governments of most Muslim nations, regardless of 
outside influences. Still others simply wish to take control of power 
and resources for their own profit, seeking to subvert any force that 
would block their access.
    Among the studies devoted to this topic, the bipartisan Iraq Study 
Group, led by James A. Baker III and Lee H. Hamilton, made some 
relevant observations. According to their research, ``Sectarian 
violence causes the largest number of Iraqi civilian casualties.'' They 
note that, far from calling for quick withdrawal of forces, many Iraqis 
see the coalition presence as a crucial buffer against opposing sects--
for Sunni leaders, a buffer against Shiite militias and, for Shiite 
leaders, a buffer against al Qaeda and former regime elements. For that 
reason, the study warned that any premature withdrawal of coalition 
forces would likely lead to much higher levels of violence.

    41. Senator Akaka. General Petraeus and Ambassador Crocker, has 
anyone spoken with leaders from the warring factions/insurgent groups 
to determine whether or not the removal of most of our troops might 
actually cool things down and facilitate acceptance of the government?
    General Petraeus. MNF-I has engaged in dialogue with warring 
factions and insurgent groups. On issues of potential security 
accommodations, we insist that no expedient agreement can be made that 
undermines the sovereign Government of Iraq. Over time, as sufficient 
Iraqi security forces are trained and equipped, they will increasingly 
allow us to thin our forces, which could potentially be used in 
bargaining with some warring factions/insurgent groups. It is our 
understanding, however, that many of these groups would fully support 
the removal of most of our troops in order to increase their relative 
power, which would not necessarily translate into support of the 
government.
    On a broader scale, we recognize that in many cases Iraqi public 
opinion favors the removal of coalition forces when the question is 
broadly asked. More nuanced polling elicits responses that indicate a 
hesitance to have coalition force leave before reaching a sustainable 
level of security and stability. Additionally, the coalition is seen as 
a fair arbiter in facilitating the reconciliation process, regardless 
of Iraqi opinion of coalition presence.
    Ambassador Crocker. Coalition forces are serving in Iraq under a 
U.N. mandate and at the invitation of the democratically elected 
Government of Iraq. Accordingly, while the United States puts a 
priority on understanding the motivations and operations of the warring 
factions/insurgent groups, the United States consults first and 
foremost with the Iraqi government about policy regarding the 
withdrawal of forces or overall troop levels in Iraq. We have, however, 
engaged select insurgent groups, most notably in Anbar province, with 
positive results. Ultimately, it would be a mistake to assume there is 
a direct relationship between the level of coalition forces and the 
level of violence. For example, in some areas where there is a 
declining coalition presence, we have seen an increase in the level of 
violence among various militia groups as well as criminal gangs. 
Violence in Iraq and the motivations behind it are varied and dynamic.

    42. Senator Akaka. General Petraeus and Ambassador Crocker, the 
goal of this research would be to identify what is the underlying 
objection to our presence, which would provide us with the information 
we need to develop a successful strategy for resolution. If a study of 
this nature has been conducted, how was the research done, and what 
were the results? If not, why have we not studied this possibility?
    General Petraeus. As described above, we recognize that our 
presence is not an ``either-or'' proposition: we will be an irritant at 
the same time we are a stabilizer. We conduct all of our engagements 
with the Government of Iraq and Iraqi citizens with this understanding. 
Our own analysis of this problem is buttressed by other governmental 
and nongovernmental agencies that use differing methodologies for their 
research on Iraq. Through these broad approaches, we attempt to gain a 
nuanced understanding of the motives and objectives of the large number 
of diverse groups with whom we deal.
    Ambassador Crocker. As I noted to your earlier question on the 
subject, Iraqi insurgent groups are dynamic and diverse, as are their 
reasons for opposing U.S. presence or the Government of Iraq, and it 
would be a mistake to assume that there is a direct relationship 
between the level of coalition forces and the level of violence. The 
level of an insurgent's opposition to either the coalition or the Iraqi 
Government may vary dramatically based on that individual's cultural, 
ethnic, political, and religious orientation as well as his or her 
interpretation of recent history. Among others, the bipartisan Iraq 
Study Group, led by James A. Baker III and Lee H. Hamilton, examined 
the underlying objection to U.S. presence in Iraq. It noted that many 
Iraqis see the coalition presence as a crucial buffer against opposing 
sects--for Sunni leaders, a buffer against Shiite militias and, for 
Shiite leaders, a buffer against al Qaeda and former regime elements. 
This is critical because sectarian-based violence is one of the key 
sources of violence in Iraq. For that reason, the study warned that any 
premature withdrawal of coalition forces would likely lead to much 
higher levels of violence.

    43. Senator Akaka. General Petraeus and Ambassador Crocker, should 
we not be assessing all of our options to determine the best course of 
action?
    General Petraeus. MNF-I's planning efforts do examine all plausible 
options to develop the best courses of action. As we refine our plans, 
we take into account realities on the ground, such as the recent 
outburst of Concerned Local Citizens across Iraq, and endeavor to put 
into place solutions that are feasible in execution and sustainable by 
Iraqis over time. We continually assess our progress, options, and 
possible outcomes. Our in-depth assessment process uses resources that 
include think tanks, Red Teams, panels, experts, and staff from all 
sectors of society and government.
    Ambassador Crocker. U.S. diplomatic and military officials 
continually examine all policy options to ensure the best course of 
action to go forward in Iraq. This examination is done in consultation 
with the Government of Iraq and other coalition partners and focuses on 
options that protect and advance U.S. interests and the U.N. Chapter 
VII mandate to maintain security and stability in Iraq.

    [Whereupon, at 7:35 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
